<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


                                                                      ?
 
                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
                       SUBCOMMITTEE ON LEGISLATIVE
                    JACK KINGSTON, Georgia, Chairman
 RAY LaHOOD, Illinois
 TODD TIAHRT, Kansas
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois         JAMES P. MORAN, Virginia
                                    DAVID E. PRICE, North Carolina
                                    JAMES E. CLYBURN, South Carolina

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                  Elizabeth C. Dawson, Staff Assistant

                                ________

                                 PART 1

    FISCAL YEAR 2004 LEGISLATIVE BRANCH APPROPRIATIONS REQUESTS AND 
                 JUSTIFICATION OF THE BUDGET ESTIMATES

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
           LEGISLATIVE BRANCH APPROPRIATIONS FOR 2004--Part 1
                                                                      ?

                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
                       SUBCOMMITTEE ON LEGISLATIVE
                    JACK KINGSTON, Georgia, Chairman
 RAY LaHOOD, Illinois
 TODD TIAHRT, Kansas
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois         JAMES P. MORAN, Virginia
                                    DAVID E. PRICE, North Carolina
                                    JAMES E. CLYBURN, South Carolina
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                  Elizabeth C. Dawson, Staff Assistant

                                ________

                                 PART 1

    FISCAL YEAR 2004 LEGISLATIVE BRANCH APPROPRIATIONS REQUESTS AND 
                 JUSTIFICATION OF THE BUDGET ESTIMATES

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 87-100                     WASHINGTON : 2003

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman
 
 RALPH REGULA, Ohio                 DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California            JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky            NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia            MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                 STENY H. HOYER, Maryland
 JAMES T. WALSH, New York           ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina  MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio              PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma    NITA M. LOWEY, New York
 HENRY BONILLA, Texas               JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan          ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia             JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New JerseyJOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi       ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,         DAVID E. PRICE, North Carolina
Washington                          CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,         ROBERT E. ``BUD'' CRAMER, Jr., 
California                          Alabama
 TODD TIAHRT, Kansas                PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee               JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                   MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky          LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama        SAM FARR, California
 JO ANN EMERSON, Missouri           JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                 CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania     ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia     CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California      STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois               SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York          MARION BERRY, Arkansas            
 DAVID VITTER, Louisiana            
 DON SHERWOOD, Pennsylvania         
 DAVE WELDON, Florida               
 MICHAEL K. SIMPSON, Idaho          
 JOHN ABNEY CULBERSON, Texas        
 MARK STEVEN KIRK, Illinois         
 ANDER CRENSHAW, Florida            
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)


               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2004

----------                              ----------

                                          Wednesday, April 9, 2003.

                        HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. JAY EAGEN, CHIEF ADMINISTRATIVE OFFICER, OFFICE OF THE CHIEF 
    ADMINISTRATIVE OFFICER
HON. JEFF TRANDAHL, CLERK, OFFICE OF THE CLERK
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS, OFFICE OF THE SERGEANT AT 
    ARMS
STEVEN McNAMARA, INSPECTOR GENERAL, OFFICE OF THE INSPECTOR GENERAL
GERALDINE GENNET, OFFICE OF THE GENERAL COUNSEL
JOHN R. MILLER, OFFICE OF THE LAW REVISION COUNSEL
M. POPE BARROW, OFFICE OF THE LEGISLATIVE COUNSEL
DR. JOHN EISOLD, OFFICE OF THE ATTENDING PHYSICIAN

               Opening Statement--Fiscal Year 2004 Budget

    Mr. Kingston. I would like to welcome everybody and ask the 
subcommittee to come to order, I apologize for being a little 
bit late. I had a group of school kids, and you know, God bless 
them, they are so much fun when they come to town, but they 
have to figure out how to work each other's camera, and 
everybody has a different camera.
    Today we begin our hearings on the budget requests of the 
various agencies of the Legislative Branch for Fiscal Year 
2004. It is my intention to complete the hearings, the 
subcommittee markup, the full committee markup and floor action 
by the July 4 recess. The total appropriations request that 
will be considered by the subcommittee is almost $3 billion, to 
be specific, $2,989,531,000. The amount is about $30 million 
less than the amount reflected in the President's budget 
request resulting from budget amendments submitted by some of 
our agencies. Nonetheless, the amount is $380.1 million, or 
14.6 percent above the fiscal year 2003 enacted level.
    In accordance with comity between the two Houses, we will 
not consider the budget of the other body. The Senate will 
consider its own request. If the Senate items are included in 
the total legislative branch, the request comes to $3.7 
billion.
    As I mentioned, the budget increases requested by the 
agencies is about 14.6 percent above the fiscal year 2003 
enacted level. As we are aware, theHouse adopted our budget on 
March 21, 2003, House Continuing Resolution 95, ``the concurrent 
resolution of the budget--fiscal year 2004.'' The resolution calls for 
a 1 percent reduction below fiscal year 2003 for the areas that are not 
in homeland security or defense. For the agencies under the 
jurisdiction of this subcommittee, this would mean that not only will 
we not be able to fund the increases requested, but also, in fact, we 
will need to reduce current operating levels by an additional $26 
million. So everyone needs to understand as we move forward in the 
appropriation process this year, that the increases requested are 
likely to be unattainable.
    With that in mind, I welcome Mr. Clyburn of South Carolina 
and yield the floor to you if you would like to make a 
statement.
    Mr. Clyburn. I understand Mr. Moran, who is our Ranking 
Member, is on the way, and I would rather reserve the time for 
him when he arrives.
    Mr. Kingston. I appreciate that, and I want to welcome you 
to the committee. I would also like to recognize and welcome 
back Mr. LaHood, from Illinois who distinguished himself last 
year and is the only Member returning to the subcommittee from 
our side. Would you like to say anything Mr. LaHood?
    Mr. LaHood. No, sir.
    Mr. Kingston. I will introduce the other committee members 
when they arrive. And, of course, if Mr. Young and Mr. Obey 
come in, we will pause and introduce them at that time.

                        HOUSE OF REPRESENTATIVES

    We will begin our hearings with the budget request for the 
House of Representatives. The Chief Administrative Officer, 
assisted by the Office of Finance, submits the House budget 
each year to the Office of Management and Budget. That material 
is then included in the President's budget. The House budget 
request totals a little over $1 billion, which is $89.8 
million, or a 9.5 percent increase, over the fiscal year 2003 
enacted level. This request provides funding for the operations 
of Member offices, committees, the leadership, and the 
administrative operations of the House.

                           Opening Statements

    We want to welcome the officers of the House who are with 
us today: The Honorable Jeff Trandahl, Clerk of the House; and 
The Honorable Wilson S. ``Bill'' Livingood, Sergeant at Arms; 
and The Honorable Jay Eagen, Chief Administrative Officer. We 
also have with us today: Geraldine Gennet, the House General 
Counsel; John Miller, the House Law Revision Counsel; Pope 
Barrow, Jr., the House Legislative Counsel; Steven McNamara, 
the House Inspector General; and Dr. John Eisold, the Attending 
Physician.
    Jay, you are the de facto ``Budget Officer'' of the House, 
and you are capable in all areas. However, I understand that 
Ms.Bernice Brosious, the Associate Administrator for the Office 
of Finance, is your right arm and is here today also. We have all the 
prepared statements, which have been given to the subcommittee Members, 
and we will insert them into the record at this point. Jeff, Jay or 
Bill, if you would like to make any additional remarks, I want to give 
you that opportunity at this time.
    Mr. Trandahl. I think we will just go forward and submit 
our statements for the record, and then basically be prepared 
to summarize for you or answer any questions.
    [The statements submitted for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T7100A.001
    
    [GRAPHIC] [TIFF OMITTED] T7100A.002
    
    [GRAPHIC] [TIFF OMITTED] T7100A.003
    
    [GRAPHIC] [TIFF OMITTED] T7100A.004
    
    [GRAPHIC] [TIFF OMITTED] T7100A.005
    
    [GRAPHIC] [TIFF OMITTED] T7100A.006
    
    [GRAPHIC] [TIFF OMITTED] T7100A.007
    
    [GRAPHIC] [TIFF OMITTED] T7100A.008
    
    [GRAPHIC] [TIFF OMITTED] T7100A.009
    
    [GRAPHIC] [TIFF OMITTED] T7100A.010
    
    [GRAPHIC] [TIFF OMITTED] T7100A.011
    
    [GRAPHIC] [TIFF OMITTED] T7100A.012
    
    [GRAPHIC] [TIFF OMITTED] T7100A.013
    
    [GRAPHIC] [TIFF OMITTED] T7100A.014
    
    [GRAPHIC] [TIFF OMITTED] T7100A.015
    
    [GRAPHIC] [TIFF OMITTED] T7100A.016
    
    [GRAPHIC] [TIFF OMITTED] T7100A.017
    
    [GRAPHIC] [TIFF OMITTED] T7100A.018
    
    [GRAPHIC] [TIFF OMITTED] T7100A.019
    
    [GRAPHIC] [TIFF OMITTED] T7100A.020
    
    [GRAPHIC] [TIFF OMITTED] T7100A.021
    
    [GRAPHIC] [TIFF OMITTED] T7100A.022
    
    [GRAPHIC] [TIFF OMITTED] T7100A.023
    
    [GRAPHIC] [TIFF OMITTED] T7100A.024
    
    [GRAPHIC] [TIFF OMITTED] T7100A.025
    
    [GRAPHIC] [TIFF OMITTED] T7100A.026
    
    [GRAPHIC] [TIFF OMITTED] T7100A.027
    
    [GRAPHIC] [TIFF OMITTED] T7100A.028
    
    [GRAPHIC] [TIFF OMITTED] T7100A.029
    
    [GRAPHIC] [TIFF OMITTED] T7100A.030
    
    [GRAPHIC] [TIFF OMITTED] T7100A.031
    
    [GRAPHIC] [TIFF OMITTED] T7100A.032
    
    [GRAPHIC] [TIFF OMITTED] T7100A.033
    
    [GRAPHIC] [TIFF OMITTED] T7100A.034
    
    [GRAPHIC] [TIFF OMITTED] T7100A.035
    
    [GRAPHIC] [TIFF OMITTED] T7100A.036
    
    [GRAPHIC] [TIFF OMITTED] T7100A.037
    
    [GRAPHIC] [TIFF OMITTED] T7100A.038
    
    [GRAPHIC] [TIFF OMITTED] T7100A.039
    
    [GRAPHIC] [TIFF OMITTED] T7100A.040
    
    [GRAPHIC] [TIFF OMITTED] T7100A.041
    
    [GRAPHIC] [TIFF OMITTED] T7100A.042
    
    [GRAPHIC] [TIFF OMITTED] T7100A.043
    
    [GRAPHIC] [TIFF OMITTED] T7100A.044
    
    [GRAPHIC] [TIFF OMITTED] T7100A.045
    
    [GRAPHIC] [TIFF OMITTED] T7100A.046
    
    [GRAPHIC] [TIFF OMITTED] T7100A.047
    
    [GRAPHIC] [TIFF OMITTED] T7100A.048
    
    [GRAPHIC] [TIFF OMITTED] T7100A.049
    
    [GRAPHIC] [TIFF OMITTED] T7100A.050
    
    [GRAPHIC] [TIFF OMITTED] T7100A.051
    
    [GRAPHIC] [TIFF OMITTED] T7100A.052
    
    [GRAPHIC] [TIFF OMITTED] T7100A.053
    
    [GRAPHIC] [TIFF OMITTED] T7100A.054
    
    [GRAPHIC] [TIFF OMITTED] T7100A.055
    
    [GRAPHIC] [TIFF OMITTED] T7100A.056
    
    [GRAPHIC] [TIFF OMITTED] T7100A.057
    
    [GRAPHIC] [TIFF OMITTED] T7100A.058
    
    [GRAPHIC] [TIFF OMITTED] T7100A.059
    
    [GRAPHIC] [TIFF OMITTED] T7100A.060
    
    [GRAPHIC] [TIFF OMITTED] T7100A.061
    
    [GRAPHIC] [TIFF OMITTED] T7100A.062
    
    [GRAPHIC] [TIFF OMITTED] T7100A.063
    
    [GRAPHIC] [TIFF OMITTED] T7100A.064
    
    [GRAPHIC] [TIFF OMITTED] T7100A.065
    
    [GRAPHIC] [TIFF OMITTED] T7100A.066
    
    [GRAPHIC] [TIFF OMITTED] T7100A.067
    
    [GRAPHIC] [TIFF OMITTED] T7100A.068
    
    [GRAPHIC] [TIFF OMITTED] T7100A.069
    
    [GRAPHIC] [TIFF OMITTED] T7100A.070
    
    [GRAPHIC] [TIFF OMITTED] T7100A.071
    
    [GRAPHIC] [TIFF OMITTED] T7100A.072
    
    [GRAPHIC] [TIFF OMITTED] T7100A.073
    
    [GRAPHIC] [TIFF OMITTED] T7100A.074
    
    [GRAPHIC] [TIFF OMITTED] T7100A.075
    
    [GRAPHIC] [TIFF OMITTED] T7100A.076
    
    [GRAPHIC] [TIFF OMITTED] T7100A.077
    
    [GRAPHIC] [TIFF OMITTED] T7100A.078
    
                   DESCRIPTION OF CLERK ORGANIZATION

    Mr. Kingston. The first question that I submit to the 
officers of the House will be for each of you to explain to the 
subcommittee the mission and responsibilities of the 
organizations under your jurisdictions for clarification 
purposes.
    Mr. Trandahl. The Office of the Clerk actually dates back 
to 1789, and when it was created, its sole or primary focus was 
to support the legislative process with the central focus in 
terms of assisting on the floor Members and staff in terms of 
creating the official documentation, history and publications 
of the House. Many of the Office's purposes still remain the 
same since the 1st Congress, such as creating and certifying 
and maintaining the official records, history and actions in 
the institution. With the growth and evolution of the House, 
several functions have been added to our Office, such as the 
Page program, which came in 1995; the House Employment Counsel, 
which came into existence in 1996; and the expansion of the 
historical, curatorial and archiving activities, which happened 
in 2001. As well, the Office is responsible for many, many 
public documents, and much of the electronic information in 
terms of the status of legislation, votes, debate and other 
related actions of the House.
    We employ roughly 250 people. We are organized into 10 
departments. In addition, the Office has responsibilities 
associated with the House Page Board; the U.S. Capitol 
Preservation Commission, which right now is involved with the 
Capitol Visitors Center; the House Fine Arts Board; and the 
Advisory Committee on the Records of Congress.

              DESCRIPTION OF SERGEANT AT ARMS ORGANIZATION

    Mr. Livingood. The Office of the Sergeant at Arms is 
responsible for ensuring the safety and security of the Members 
of Congress, congressional staff, visitors and property within 
the Capitol complex to include the House Office Buildings, and 
supports and coordinates constituent and protocol services. The 
Office of Sergeant at Arms is by statute responsible for 
enforcing all privileges of the House Chamber and maintaining 
order and decorum during meetings of the House of 
Representatives. In addition, we review and implement all 
security items relating to the Congressional Leadership, all 
Members of Congress, and the physical security of the Capitol 
and the House Office Buildings.
    Ensuring effective balance between a secure facility and an 
open environment remains one of our greatest obstacles. My 
duties include overseeing the House Floor access, the Gallery 
decorum, the House Appointments Desk, the House garages and 
parking lots, as well as administering all Members' and spouse 
pins and license plates and staff identification cards.
    Along with the Senate Sergeant at Arms and the Architect of 
the Capitol, I serve as a member of the United States Capitol 
Police Board, which serves as a liaison with the Capitol Police 
and oversees the policies and procedures set forth by the U.S. 
Capitol Police Department. I am also a member of the United 
States Capitol Guide Board that oversees the Capitol Guide 
Service and the Member Congressional Special Services Office.
    Mr. Kingston. Do you want to go on record now as being in 
favor of the DeLay ban on BlackBerrys on the House floor?
    Mr. Livingood. I think I will pass on that.
    Mr. Kingston. We have been joined by Mr. Todd Tiahrt of 
Kansas, a new Subcommittee Member.
    Do you have an opening statement?
    Mr. Tiahrt. No. I will take this opportunity to keep my 
mouth shut.
    Mr. Kingston. No objections.

                    DESCRIPTION OF CAO ORGANIZATION

    Mr. Eagen. CAO is the Chief Administrative Officer. We are 
only 8\1/4\ years old; about 650 professionals.
    You asked in your question what our mission is. We have a 
vision and a mission, and our mission is to provide excellent 
and efficient administrative and technical service to the House 
Members and staff. We track accomplishment of that vision and 
mission through a balanced scorecard. The traditional four 
elements of a balanced scorecard are customer; learning and 
growth, meaning development of our personnel; finances; and 
internal business processes in the sense of improving those 
processes to provide better services to the House community. We 
have a fifth unique goal that we track, and that is emergency 
preparedness driven by the events of 9/11 and anthrax a year 
and a half ago. We thought we needed a specialized goal to 
track our progress in those areas. We have objectives that 
stretch out from those goals. We attempt to measure our 
progress in terms of outcomes and results.
    Functionally, we are divided into five divisions. The 
Finance Office provides counseling services to Members' offices 
and tracks the budgets. We prepare the House's Budget that 
comes to this Committee, prepare the House's Financial 
Statements that are then audited by the Inspector General, and 
we run a financial system that is the accounting system for the 
House of Representatives.
    The second unit is Human Resources, much of what it sounds 
like. We prepare the payroll for 10,000 employees and handle 
all the benefits, which include health care, retirement, 
unemployment compensation and training.
    We have a very small procurement office consisting of about 
16 individuals. They handle competitive contracting on behalf 
of the House, for example, food service contracts and mail 
service contracts. Those RFPs (requests for proposals) are 
putout for public bidding, and procurement helps evaluate and make 
recommendations.
    Fourth, House Information Resources is the information 
technology division for the House. It is our largest business 
unit in terms of personnel. We run the House's e-mail system 
and the Web system. We provide customer support through our 
Technical Support Representatives. We run the House's phone 
system. And we also provide computer and technical training for 
House employees.
    Finally, our last division is House Support Services. These 
are the folks that run the contracted services like food and 
mail operations as well as in-house services, such as the 
recording studio, and the broadcast from the House floor that 
goes to C-SPAN, the photography studio, and the office supply 
store. We provide equipment and furniture. So again, we have a 
total of 650 people providing services to the House.

                     MISSION OF THE GENERAL COUNSEL

    Mr. Kingston. We have other House witnesses, and I am going 
to ask them to stand where they are and give their mission 
statement.
    Geraldine, let me start with you.
    Ms. Gennet. I am Geraldine Gennet. I am the General Counsel 
for the House. In case it is not common knowledge, there has 
been a General Counsel's Office since 1978. Originally, the 
General Counsel was Counsel to the Clerk and evolved into 
General Counsel for the House. We are established by Rule 2, 
Section 8, and we now also have a statute that governs some of 
our activities.
    The Office of General Counsel provides legal advice and 
assistance to Members, Committees, Officers, and employees of 
the House without regard to political affiliation on matters 
relating to the official duties. The Office is an independent 
entity in the House, which reports on policy matters and 
matters of institutional interest to the Speaker and what is 
known as the Bipartisan Legal Advisory Group, which is made up 
of the Majority and Minority Leadership Offices.
    I won't give you an exhaustive list of all the things we 
do, but to give you some idea of our activities, we do handle 
judicial proceedings when Members or other people in the House 
are sued on matters relating to the performance of their 
official duties and responsibilities, both at the trial and 
appellate levels. We defend civil actions. We handle subpoenas 
that come in for testimony or documents from House Offices, 
Member Offices and so on. We also handle Committee subpoenas 
and give the committees advice on their investigations--how to 
handle their investigations and draft their subpoenas. We 
answer any questions that arise, and there are often those in 
the course of the investigations or hearings.
    We get many requests for information and respond both on an 
informal and formal basis, particularly on matters involving 
other governmental agencies, the Department of Justice, the 
FBI, the Office of Independent Counsel. We evaluate and provide 
advice regarding the applicability and waiver of privileges, 
such as executive privilege, Fifth amendment, attorney/client, 
attorney work product, deliberative process, and most 
importantly--the Speech or Debate privilege established by the 
Constitution.
    We handle tort claims on the administrative level; tax 
exemption matters; when Members have questions about providing 
constituent information to other entities or how to deal with 
constituents; contract disputes--we even have a landlord-
tentant subspecialty because of some of the older leases that 
Members have.
    We do a lot of work on internal policy development. We 
provide, as I said, formal legal opinions on issues, but most 
of it is a great deal of informal advice. And we consult with 
the Parliamentarian.
    That is the list of what we do, and I will answer your 
questions.

                    MISSION OF THE INSPECTOR GENERAL

    Mr. Kingston. Next is Steven McNamara, the Inspector 
General.
    Mr. McNamara. The Inspector General was established about 9 
years ago. Our responsibilities are set forth under Rule II, 
and basically we are responsible for performing audits of the 
financial and administrative functions of the House and Joint 
entities, making any recommendations for improvement and 
reporting results to the House Leadership, the Chairman and 
Ranking Minority Member for the Committee on House 
Administration and the House Officers. We are also charged 
under Rule II to report to the CHA and the Committee on 
Standards of Official Conduct any information involving 
possible violations by a Member, delegate or employee of the 
House of any law applicable to the performance of their 
official duties and responsibilities.
    We have a staff of 21 people and a budget of a little less 
than $4 million. Most of our folks are either Certified Public 
Accountants, Certified Information Systems Auditors, or some 
other professional certification dealing with auditing, 
accounting or computer technology.

                  MISSION OF THE LAW REVISION COUNSEL

    Mr. Kingston. John Miller, the Law Revision Counsel.
    Mr. Miller. I am John Miller, Law Revision Counsel. The 
Office was established in 1975, and the mission of the Office 
is to prepare and publish the Official United States Code, 
which is a consolidation and codification by subject of the 
general and permanent laws of the United States. We review 
every act of Congress to determine if and where it should be 
classified to the Code. Then we update the United States Code 
on an annual basis by including the new laws in theCode, which 
is then available in printed version and CD-ROM version and on the 
Internet. The Office is also responsible for improving the Code by 
preparing legislation that would restate a title without any 
substantive change and enact it into positive law.
    The Code as adopted in 1926, establishes prima facie the 
general permanent laws of the United States. Since that time 
the Office and its predecessors, of course, have engaged in an 
effort to enact the entire Code into positive law on a title-
by-title basis. That is a brief sketch of our mission.
    Mr. Kingston. Thank you.
    We have been joined by Mr. Mark Kirk from Illinois. Do you 
have any statements at this point?
    Mr. Kirk. Just a couple of questions later.

                   MISSION OF THE LEGISLATIVE COUNSEL

    Mr. Kingston. Mr. Pope Barrow, Office of Legislative 
Counsel.
    Mr. Barrow. I am Pope Barrow, Legislative Counsel.
    The mission of our Office is set forth in title 2 of the 
United States Code, section 281a. Under that charter, our 
purpose is to assist and advise the House and Committees and 
Members in the achievement of clear, faithful, and coherent 
expression of legislative policies. We strive to prepare drafts 
that accurately reflect the legislative objectives of a Member 
or Committee concerned that are legally sufficient to carry out 
that policy and that are as clear and as well organized as 
possible under the circumstances.
    Our Office is neutral as to the legislative policy. Since 
our inception in 1919, we have assisted proponents of all 
political viewpoints while maintaining the confidentiality with 
all clients.
    Mr. Kingston. You may be the only office in this town that 
is politically neutral.

                   MISSION OF THE ATTENDING PHYSICIAN

    Dr. Eisold. The Office of the Attending Physician, or OAP, 
was established in 1928. In a sentence, the Office of the 
Attending Physician's mission is to provide primary care and 
emergency, environmental and occupational health services in 
direct support of the United States Capitol, visiting 
dignitaries, pages, staff and tourists.
    Fundamentally, the OAP is the focal point for all health-
related activities on Capitol Hill. We will either do it 
ourselves or know how to get it done working with others.
    Philosophically, we are about wellness and health 
promotion. In accomplishing our mission, we have ongoing 
relationships with health care entities, providers and agencies 
locally, nationally and internationally. Such relationships 
also include the Federal Government, including HHS, CDC, DOD, 
Department of State, et cetera. We work closely with the health 
promotion activities of the House and Senate, the officials, 
the United States Capitol Police and the House and Senate gyms. 
Anybody on Capitol Hill, Member, official, staff, contractor, 
visitor, and so on may fall under our umbrella at any time.
    In regard to direct health care delivery, we are a 
combination of a health department, primary care clinic and 911 
emergency service. As first responders to emergency calls, we 
work closely with the U.S. Capitol Police, the D.C. EMS and the 
surrounding hospital network. Nonemergent care is provided 
through six health units staffed by highly trained nurses. 
Usually, they can provide definitive care or, if necessary, 
triage a patient through our emergency service, a primary care 
physician or a specialist. In cases that are uncertain, one of 
our doctors will assist in the management.
    The services offered are comprehensive, from lactation 
rooms to beds for rest. Primary care and continuity of care 
services are available to Members, officials and pages. Health 
maintenance is encouraged through regular follow-up and routine 
physicals. Preventive care, including immunizations and 
recommended screening tests are stressed, and healthy 
lifestyles are promoted. A variety of services are offered, 
including lab, X-ray, EKG, physical therapy and specialty 
referral.
    The OAP manages overseas travel, counseling, immunization 
and post-travel follow-up as necessary. In addition, as 
appropriate, one of our physicians or a physician approved by 
us is assigned to most CODELS.
    Environmental health and occupational health services are 
provided through two assigned specialists in concert with two 
nurses. Allergy services are available to everyone with a 
proper referral from an allergist. The OAP will give allergy 
shots and monitor the patients.
    The OAP participates in a variety of teaching activities, 
including AED training, CPR training and health fairs. We are a 
clearinghouse for medically related questions which can be 
answered directly or with literature. The Internet has provided 
the opportunity for all patients to be experts. More questions 
can be asked than we can think of. Clarification and good 
science are important, and we want to clarify issues for 
people.
    Off-site medical support is provided by the OAP when a 
significant number of Members are at retreats, funerals, 
dedications, memorials, et cetera. The OAP arranges for 
augmentation of its staff during major on-site events, such as 
the Inaugural, Joint Sessions, State of the Union, et cetera.
    The OAP oversees health issues at the day-care centers 
providing care, if necessary. The OAP performs recruit 
physicals for the United States Capitol Police and oversees 
certain ongoing screens for the force. Other OAP outreach may 
include, but is not limited to, letters, e-mails, the CAO 
newsletter, meetings and conference calls, et cetera. The OAP 
is intimately involved with COOP and COG activities and has 
mobile medical capabilities should our primary clinic become 
unusable or the Congress moves off-site to conduct business.
    Finally, we are very much involved in contingency planning 
and response. This might involve direct management as with the 
anthrax attack or our smallpox immunization program, or could 
include working closely with the United States Capitol Police 
and many local and Federal health agencies to manage the 
spectrum of WMD disasters.
    The OAP covers a wide range. It can hold your hand or start 
your heart. In short, we would like to say we can do everything 
except brain surgery, but in a pinch we would give it a try.
    And if anyone in labor gets to the hospital before 
delivery, that is okay. But, we take our mission very seriously 
and are proud to serve. Furthermore, we are honored to 
participate with the other people at this table and in this 
room in ensuring that the business of the U.S. Congress is 
conducted successfully. Thank you.
    Mr. Kingston. Thank you, John.
    We have been joined by our Ranking Member Mr. Moran from 
Virginia. I am going to yield the floor to Mr. Moran in a 
second after I recognize the former Chairman Mr. Charles 
Taylor.
    Do you have anything to say?
    Mr. Taylor. No, thank you, Mr. Chairman.

                           LEGISLATIVE ISSUES

    Mr. Kingston. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. I see that Charles and, 
I guess, Ray LaHood and I are going to be the only ones 
returning to this Subcommittee.
    I appreciate you having two days of hearings, Jack. I do 
think that we are blessed with having professionals who serve 
us well day in and day out and are always willing and ready to 
be held accountable. I know there has been a substantial 
disruption and stress caused by the heightened security, and we 
want to take that into account.
    I do think that we ought to ensure that the legislative 
branch employees get compensated at least as well as executive 
branch employees. We need to be able to attract and retain the 
very highest quality personnel that we can possibly avail 
ourselves of.
    We have some major issues with the Visitors Center, and we 
are going to focus on that, but we also have an aging workforce 
and retention challenges, and I think that is pretty much the 
case throughout the legislative branch workforce.
    Lots of advances in technology that we want to avail 
ourselves of, and we are going to talk about those. And we want 
you to volunteer where you think we can do that.
    I came in on the tail end of the physician's statement. 
That was very well done, some great stuff. If I had written 
fast enough, I wanted to get that down. But what was it? We can 
start your heart and stop your----
    Dr. Eisold. We can hold your hand or start your heart.
    Mr. Moran. The fact that John is as defining as anyone of 
the professionalism that we are blessed with every day. You 
couldn't find a better physician to run a health organization. 
And so I came in to at least hear his presentation.
    I am crazy about our Sergeant at Arms, and I am very much 
impressed by your service. You are going to find me as an 
advocate. And with that, let me conclude because--I don't know 
how much we can get in. We have a long series of votes. I think 
there is like five or six.
    Mr. Tiahrt [presiding]. Mr. Price.
    Mr. Price. I will pass now.

                            MAIL PROCESSING

    Mr. Tiahrt. Mr. Kingston asked me to inquire about a major 
area of concern for Congress being the delay in the processing 
of mail as a result of the events of October 15. In this year's 
budget you are requesting an additional $8.9 million for mail 
processing. Jay, will you bring us up to date on the status of 
mail operations and the need for the additional $8.9 million?
    Mr. Eagen. I brought some handouts to help. I think so many 
of the Members are new, it would be useful to go backwards and 
put it in context where we started and where we are today. This 
outline attempts to do that.
    Going back to October 15, the date the Daschle letter was 
found, and October 17, when the House evacuated its facilities. 
At that point, the House had just begun a new process starting 
to sample mail to look for substances like anthrax. It was a 
low-level undertaking, and we also had begun to quarantine 
mail.
    We then had that period of time where we lost big chunks of 
our capacity to process mail. In those days, the sorting center 
for the House was located in the basement of the Ford Building 
and an X-ray facility at P Street, a couple blocks down from 
the Capitol. Both of those facilities were contaminated with 
anthrax. A determination was made it was no longer prudent to 
have a mail sorting facility in an office building where 1,000 
people work and a day care center is located. The P street 
facility was the last facility to come back online, in June 
2002.

                         OFFSITE MAIL FACILITY

    That led us to create a new Legislative Branch mail 
facility off campus in the suburbs of Maryland in an industrial 
park. It is shared by the House and Senate, and the Library of 
Congress and General Accounting Office have started to 
participate in it as well.
    In addition to having to rebuild the new facility, we had 
to build a facility that had the capability to do modern 
analysis of the content of the mail, and I don't mean in terms 
of what is written in the letter, but what may be coming with 
it. So within this facility there are environmental pods, the 
theory being that if there is another exposure of the kind we 
experienced or something different, that the pod will be able 
to encapsulate that exposure, and the rest of the facility will 
not be affected.

                         USE OF NEW TECHNOLOGY

    Mr. Tiahrt. Before I yield back to Mr. Kingston, I would 
like to note that there are technologies that can detect 
toxins, viruses, and a wide spectrum of other contaminants. Are 
there any plans in your expenditure to use this new technology 
to detect identifiable foreign substances?
    Mr. Eagen. That is basically what we are doing. And in 
addition, the Postal Service has two initiatives. One is 
already in effect. The mail is being shot with E-beams at a 
facility in New Jersey. All the government mail is trucked from 
Washington, D.C., to this facility in New Jersey, and it is 
irradiated with E-beam technology and shipped back and sorted 
amongst the various government agencies. It is not the House 
and Senate alone, but also the White House. It basically 
includes zip codes 202 to 205. At our end, we do a confirmation 
testing to make sure there is nothing in there.
    So what does that result in today? In first class mail, the 
Postal Service is now to a point where the time frame from when 
the envelope is dropped in the mailbox and gets a postage mark 
to arrival at the House ranges from 3 to 7 days. On our end of 
it, it takes about another 2\1/2\ days. That 2\1/2\ days is 
driven by the testing protocol. The lab results take that long 
to get a positive or negative indication on whether there is 
any kind of threat in the mail.
    Mr. Tiahrt. Some of this new technology has immediate 
recognition. Whenever a molecular structure is indentified, we 
can know about it almost instantaneously.
    Mr. Eagen. The Postal Service is pursuing that. That is a 
national initiative to have the distributed capability of that 
nature at its processing centers around the country. Right now 
the irradiation solution is limited to government mail in the 
Washington metropolitan area, and the initiative that they have 
been researching is to expand that kind of solution across the 
country.
    Mr. Kingston [presiding]. Mr. Price.
    Mr. Price. I have no statement at this point, and I will 
leave to vote now.

                         WASTE FRAUD AND ABUSE

    Mr. Kingston. I want to ask a question that we are going to 
be asking all the agencies, and it has to do with waste, fraud 
and abuse. One of the great hopes the Budget Committee and 
Appropriations Committee signed off on rather than having to 
cut, cut, cut, was to find programs that we can do better, and 
examine areas and programs for waste and abuse.
    Consequently, this question isn't rhetorical. It is going 
to be asked of every single witness before the Appropriations 
Subcommittee this year, but, Jay, as the Chief Administrative 
Officer, can you enlighten us on policies, procedures, audits 
or any other tools you have to detect and evaluate fraud, 
waste, and abuse and ferret it out in any way?
    Mr. Eagen. I do have some answers to that question, and I 
would like to invite the Inspector General to join in.
    I think there is a myriad of policies, procedures and 
processes in the House that speak to that aspect of the 
operations, and some are at the macro level, and some are at 
the micro level. For the House of Representatives' fairly 
unique undertaking, every dollar and every penny that is spent 
is disclosed to the public. The statement of disbursementsthat 
is published by the House from my organization on a quarterly basis, 
includes this committee, your office, Jeff and Bill's offices. Every 
dime that is spent is published and put out to the sunshine and the 
public eye.
    Second, more at the middle level----
    Mr. Kingston. Since they don't want to read it in the 
press, they would be happy to do it on their own behalf.
    Mr. Eagen. Exactly.
    The House does have automated modern financial systems and 
procurement systems, and in those are built-in budget controls 
that ensure that spending cannot occur that has not been set up 
in the system. So, for example, within our organization, if 
someone were trying to place a purchase order, it automatically 
checks the financial system to see if that has been permitted 
or not. And then there are graduations or controls as to who is 
allowed to approve what level of spending.

                           INTERNAL CONTROLS

    Similarly, on the internal control side, segregation of 
responsibilities has been set up so no one individual can 
attempt to buy an item, obligate it and then receive it. There 
are segregations of functions along those lines, and one of the 
Inspector General audits is to determine if those separations 
are appropriate and consistent. And so far in the financial 
statements they have found no problems with those controls. I 
think in a macro sense the appropriations process is one of 
those where you are asking us to justify our budget requests 
and examine whether they are appropriate.

                        ADMINISTRATIVE CONTROLS

    Similarly, the Committee on House Administration authorizes 
administrative controls. For the Chief Administrative Officer, 
we are not permitted to obligate purchase orders above $250,000 
without explicit Committee on House Administration approval. In 
those instances, I submit an official request with an abstract 
and justification to the Committee, and after they formally 
consider it, they sign off on it. Similarly, any obligation 
that commits the House to a period longer than one year must go 
to the Committee on House Administration for approval.
    I mentioned the CAO has a strategic plan. One of the things 
we are doing with that is very similar to a Government 
Performance and Results Act, GPRA-type process where we are 
establishing accountability to that budget, and then we have 
hired a full-time person to measure outcomes so we can develop 
a performance-based budget.
    We also established an Internal Business Process 
Improvement Team. I mentioned that we have five business units. 
Within each of those units we have one person who is dedicated 
to work within that business unit, and that is the team looking 
at the organization overall to look at how we process the 
things that we do to find out if there are ways we can be more 
efficient and save money.
    And lastly, the House Inspector General--and I will turn it 
over to Steve--in the time CAO has existed for 8\1/2\ years, 
they have provided over 600 recommendations for improvement in 
CAO operations. Only 26 of those have not been accomplished, 
and we have plans in place through this year and basically 
through 6 months of next year to implement the rest of those.
    With that, I turn it over to Steve.

                    ASSESSMENTS OF HOUSE OPERATIONS

    Mr. McNamara. The Office of Inspector General works very 
closely with Committee on House Administration and the House 
Officers to help them ensure the effectiveness of the control 
environment in the House, and that business processes, systems 
and operations are functioning as intended. Using a risk-based 
approach, we conduct a comprehensive program of audits and 
other reviews to assess the financial and other administrative 
operations of the House and offer recommendations for 
improvement where warranted.
    The foundation of all of our work to prevent and detect 
fraud, waste, and abuse is the annual audit of the House 
financial statements, which Jay mentioned. This audit includes 
an evaluation across the board of the House internal controls, 
including specific steps set forth to identify fraud that would 
be material to the financial statements. It also includes tests 
of individual transactions to make sure they were authorized, 
accurate and complete; and it also includes an evaluation of 
the compliance with laws and regulations.
    Beyond this foundation, we conduct more in-depth internal 
audits of the major systems, accounting cycles and business 
processes in the House, which includes specific steps to 
identify the pattern or existence of fraud, waste, and abuse. 
Examples of these include our audits of the procurement desktop 
systems, the House payment process, and the House's contract 
procurement and administration.
    Going farther upstream, we review new financial systems 
while they are still under development to help assure that 
effective controls are designed into the system as they are 
being built to avoid costly expense later. Two such systems are 
the replacement of the staff payroll system and the replacement 
of the financial management system.
    And finally, we conduct reviews in the area of emerging 
technologies to provide input to the Committee on House 
Administration and the Chief Administrative Officer and make 
suggestions for ways that they might employ emerging 
technologies to more efficiently do the business of the House 
and more effectively control the expenditure of funds.
    Mr. Kingston. I will yield to our Ranking Member, Mr. 
Moran, if you want to follow up or ask anything.
    Mr. Moran. I don't need to ask about waste, fraud and abuse 
because I used to be in the Executive Branch in the Budget 
Office and on the Senate Appropriations where we first came up 
with the concept, and I think it is something of a sham, Mr. 
Chairman, because although we use it as a fudge factor whenever 
we need it, we hardly ever follow up. And I have never seen 
real savings come from that initiative because I think that if 
there is significant waste, fraud and abuse, it eventually 
rears its ugly head in other ways. And at this point there has 
been so much applied to the Legislative Branch that I doubt 
that there is much there, so it is not something that I am 
going to lose sleep over.
    Mr. Kingston. Because there are probably some excesses that 
occur within the Legislative Branch.
    Mr. Moran. There are excesses. I wouldn't disagree.

                      IMPLEMENTING RECOMMENDATIONS

    Mr. Kingston. Except the 26 House Inspector General's 
recommendations that have not been implemented out of 600, has 
there been a dollar savings resulting from the implementation 
of those changes?
    Mr. Eagen. In terms of the Inspector General's 
recommendations, in some cases it has.
    Mr. Kingston. Is that difficult to put a financial figure 
on?
    Mr. Eagen. In some cases the IG's recommendations have 
provided a dollar association with them, yes.
    Mr. Kingston. If that is possible, it would be something 
that would be important for the record to show some of the 
examples of things that led to dollar savings, such as better 
procurement, or a better way of hiring.
    Mr. McNamara. We can do that, Mr. Chairman.
    In a lot of cases, it might be looking at, for example, the 
security of our computer systems. We conduct audits of 
intrusion and prevention and detection, keeping hackers from 
being able to hack in. We can't put a dollar value on that, but 
in other cases if we suggested a more efficient way to operate 
some operation, such as the supply operation or a store, we 
could and we will look into that.
    [The information requested for the record follows.]

    As I mentioned earlier, under House Rule II, we are charged 
with auditing the administrative and financial operations of 
the House and of the joint entities. Working closely with the 
Committee on House Administration and the House Officers, our 
focus has been to help improve the House's business processes 
and control environment in order to assure the efficiency and 
effectiveness of operations. Furthermore, to ensure that House 
operations are conducted safely and securely and in accordance 
with best business practices. Although every dollar expended by 
the House is subject to audit during the annual financial 
statement audit, we do not conduct any additional audits of 
funds expended by Members, Committees, or the Leadership. Our 
detailed audit work is primarily focused on House Officers' 
programs, activities and functions; systems they maintain to 
support House-wide operations; and Architect of the Capitol 
programs, activities and operations that are specific to the 
House.
    We get involved early in the development phase for new 
financial and administrative systems to assure that controls 
are designed in and that systems will function effectively when 
deployed. Over the past nine years, our work has helped the 
House to steadily enhance its business processes, systems of 
internal control, and policies and procedures, all of which 
ultimately culminated in enabling the House to receive and 
maintain a clean audit opinion on its financial statements for 
the past four years. We believe that by trying to employ best 
business practices during system development, controls to help 
prevent fraud and waste, and foster cost savings can be 
designed in at the outset.
    Our principal focus has always been on helping the House 
improve its infrastructure. However, during the early years of 
our operation, and before many of the subsequent systems 
improvements had been achieved; we did conduct audits that 
estimated significant cost savings could be achieved through 
operational and systems improvements. From 1995 to 1997, ten of 
the audit reports we issued estimated savings of over $13 
million could be achieved through improved operating practices. 
Several examples of such reports included:
    <bullet> Changes in Operating Practices Could Save 
Publications & Distribution $5.5 Million Annually
    <bullet> Changes in Operating Practices Could Save Media 
Services $1.7 Million Annually
    <bullet> Split Responsibility For Equipment Leasing and 
Maintenance Cost the House Almost $2.0 Million Annually In 
Payments for Outdated Equipment
    <bullet> Opportunities Exist For the House to Save Over $1 
Million Annually Through Better Telecommunications Cost 
Management
    Management agreed with the recommendations contained in 
these reports and took action to implement the necessary 
improvements, but no formal mechanisms were set up to track the 
actual amount of savings ultimately achieved.
    Our work continues to focus on issues of strategic 
importance to the House and its ability to efficiently and 
effectively conduct its operations safely and securely and in 
accordance with best business practices. Our goal is to help 
the House achieve the best use of all the dollars it spends 
and, in doing so, hopefully never have a repeat of audit 
findings like the four examples above. In addition, much of our 
work is aimed at assuring the effectiveness and security of 
House investments in information technology, and to provide for 
the health, safety and security of Members, staff, and 
visitors. But by focusing on issues of critical importance like 
effective strategic planning for information technology, dollar 
savings result when the funds expended are put to the most 
effective use.
    It would be difficult, if not impossible, to quantify cost 
savings attributable to many such audits. For example, it would 
be virtually impossible to objectively quantify savings from 
preventing hackers from penetrating House computer systems; 
assuring the viability of business continuity plans and 
procedures; ensuring the House evacuation plans are well 
designed; or that necessary fire-safety improvements are made 
in the Capitol Complex. Nevertheless, Mr. Chairman, I assure 
you that we will remain alert to any and all opportunities to 
make recommendations to achieve cost savings in every audit we 
conduct.

                       MODULAR FURNITURE PROGRAM

    Mr. Kingston. Mr. Price.
    Mr. Price. I would like to ask Mr. Eagen, if I may, about 
the modular furniture program. I ask about this program because 
my office has been fortunate to participate in the 
demonstration program. What kind of feedback have you received 
back from participating offices and what costs do you 
anticipate to implement the program House-wide?
    Mr. Eagen. Thank you, and thanks for participating in the 
pilot. The pilot has set up nine Member offices to test two 
different versions: systems furniture, which was in the back 
office area, and modular case goods, which is a hybrid between 
the furniture we have today that looks more congressional, but 
also has the advantages of modular furniture which can be 
configured.
    The feedback we got in the surveys of the offices that 
participated and surveys of the visitors that were allowed to 
come and see the furniture was very positive. About 88 percent 
of the people that have it in their offices rated it as 
exceptionally better for their operation than the traditional 
furniture we have today.
    What has driven us to want to recommend to the committee 
and look at replacing furniture stock is simply the age we are 
starting to face. We haven't invested a lot of money in recent 
years in replacing furniture. We have a shop in the Capitol 
that basically restores furniture and puts it back in stock. 
Most of the desks are in the neighborhood of 25 to 30 years 
old. The second factor is that when the House bought those 
desks, they were intended for a whole different technology 
environment. They were made for typewriters. The old desks had 
the right or left hand ells and were configured so the 
typewriter was the right height. Keyboards don't work, so 
people are having problems which create medical challenges.
    You asked about the process. We are now working on a 
solicitation that will be put out to the public to bid on 
House-wide replacement costs. We are talking about 6- to 8,000 
desktops. We are talking to the Pentagon. Their costs have been 
about $6,000 per desktop.
    Complementary to what we found from the pilot was Not to 
try to inconvenience Member offices. We need to create swing 
space so that when a replacement is scheduled, we have one or 
two preset offices where we can pick up the office and move in 
with desks and computers, and they can continue to function, 
and we can set them back up. So those kind of costs would be on 
top of the acquisition.
    Mr. Kingston. Mr. Taylor.
    Mr. Taylor. No questions, Mr. Chairman.

                      ALTERNATE COMPUTER FACILITY

    Mr. Kingston. I want to ask Jay about the alternate 
computer facility. You have requested $8.5 million in addition 
to the $35 million that has been provided for this project. 
Bring us up to date on this project and explain the need for 
the additional funding.
    Mr. Eagen. Eight and a half million requested. It is 
helpful for me to explain because it is a new undertaking for 
the institution. It doesn't exist quite yet, but will exist 
this summer. Basically, the lesson learned from the anthrax 
situation was that the House's computer and data systems were 
highly vulnerable as a single-point of failure, and we needed 
redundancy much like Wall Street had that allowed most of their 
operations to continue to operate after 9/11. The House, the 
Senate, the Library of Congress, Capitol Police, and the 
Architect of the Capitol have gone together in the facility out 
in the suburbs that is being leased by the Architect of the 
Capitol to create that level of redundancy.
    We are not simply trying to create a backup, and I draw 
that difference because it is key. We are not trying to create 
simply a second copy of the information all across the House 
campus. If we lose operations within a designated period of 
time, hopefully within a couple of hours, we will be able to 
shift to that facility and have House campus operations 
continue to operate.
    Mr. Kingston. Is that similar to the data of the Greenbrier 
in terms of continuation of government?
    Mr. Eagen. I am not intimately familiar with how that 
facility was set up, so I really couldn't answer that question.
    Mr. Kingston. Because I understand they had duplicate 
copies of a lot of what we did in the event that it was 
necessary.
    Mr. Trandahl. They are drawing a difference between running 
a dual system--if you lose one, the system still operates--to a 
system that was the traditional system of just creating backup 
copies and storing them off site.
    The Greenbrier that we were referring to is sort of the 
1950s, 1960s and 1970s. At that point, it was creating backup 
copies.
    Mr. Kingston. That is my question. Is this a high-tech 
version of that?
    Mr. Trandahl. Yes.

                FUNDING THE ALTERNATE COMPUTER FACILITY

    Mr. Kingston. And how much money is it going to take to 
finish up? Is the $8.5 million the complete amount you need?
    Mr. Eagen. The emergency supplemental that was passed by 
the House included $25 million for setup. The $8.5 million that 
is in our budget is basically the sustained cost. That will 
become the fixed costs going into the future.
    Mr. Kingston. Jeff, I am sorry.
    Mr. Trandahl. It is okay.
    Mr. Kingston. Mr. Moran.

                         INFORMATION REDUNDANCY

    Mr. Moran. Thank you, Mr. Chairman.
    I want to follow up on that a bit just so I understand. If 
we had an attack and our main computer terminals were knocked 
out, this is the redundancy that you are talking about. We 
would have access to a separate computer terminal, but the 
information would be available. Now, we would do it through 
what? Laptops? Blackberries? What?
    Mr. Eagen. It would depend on the scenario that we are 
facing. For example, on the Member side we have 10 freshman 
offices that agreed to have their servers hosted in the Ford 
Building.
    Mr. Moran. Hosted in the Ford Building.
    Mr. Eagen. Yes. The traditional business model is that 
their computer server, the core, the guts of your technology 
system is physically located in your office in Rayburn or 
Cannon or Longworth. The Freshmen who agreed to that are now 
hosting their server with all their data, their addresses and 
their information on it. They are using what is called a 
Storage Area Network, the technology you were basically asking 
about. It is newer technology. It allows us to make an 
instantaneous duplicate copy of that data that will be shot out 
to the alternative computer facility so that in real-time that 
information is having a duplicate copy.
    If the systems in the House go down, the idea is that the 
alternative computer facility would take over.
    Mr. Moran. Well, and we--how would we access that?
    Mr. Eagen. I think there are a couple different options for 
that. One is that the House does have contingencies for another 
building similar to what we did the last time around. 
Capabilities were left in place to harmonize so that we can do 
that much more efficiently. Secondly, having laptops that would 
either be taken with the staff or, ultimately, your district 
office would be able to connect.

                            LAPTOP COMPUTERS

    Mr. Moran. I see. Now, I was told that we have a trailer 
someplace with computers that we have purchased I guess right 
after 9/11.
    Mr. Eagen. Right.
    Mr. Moran. The problem is that if those computers aren't 
being used, they become antiquated very quickly. If there is no 
program on them, they are pretty much useless, aren't they?
    Mr. Eagen. No, they are not, because they have already been 
set up and configured.
    Mr. Moran. How would you distribute them?
    Mr. Eagen. The primary intention is for them to go into 
another facility where a House Member can work.
    Mr. Moran. So a facility that we could all get to?
    Mr. Eagen. Yes.
    Mr. Moran. So it can't be around ground zero. It can't be 
around here then, right?
    Mr. Eagen. Right. That is why they have been palletized, so 
that if we have to ship them to another location, we can do 
that.
    Mr. Moran. I see. Presumably outside the Beltway someplace 
where we would be able to get to. We would pick up the 
computer, and then we would be able to--we would have to 
program them, though, wouldn't we?
    Mr. Eagen. For the most part.
    Again, Mr. Moran, it depends on what kind of capability you 
are looking for. If you are looking for the basic capabilities 
of e-mail and accessing your documents, meaning your word 
processing documents, for the most part, if the model that I 
described earlier is put in place, those would be accessible 
through the House network.
    An additional challenge where the Member offices are 
concerned is your Correspondence Management System. That is 
your database and what your staff uses to respond to mail. 
Those are individualized; what we are trying to get to next, is 
to have that same redundancy for those systems.
    Mr. Moran. It is an awful lot of redundance. I am not sure 
whether it is necessary or not. So much for that topic.
    Does the Office of Compliance come under you?
    Mr. Eagen. No.

                        COST OF LIVING INCREASES

    Mr. Moran. Okay. And I guess mobile communications has been 
handled.
    Let me just ask you about COLA. I am curious about it, 
because the budget resolution had a 4.1. You are budgeting 3.7.
    Mr. Eagen. Yes.
    Mr. Moran. How are you going to provide for any additional 
increase up to 4.1?
    Mr. Eagen. There would be two options, in my view. Either 
the Committee could decide to increase the amount that is in 
the Bill, or the Officers would have to take it out of their 
budgets. We are talking about less than a half percent 
difference between what is in the Bill and what is in the 
budget resolution, and what was provided by the President for 
military employees.
    Mr. Moran. All right. Thank you, Mr. Chairman.

                       CHANGING POSTAL OPERATIONS

    Mr. Kingston. I wanted to ask one follow-up question. Does 
anyone have a dollar figure of how much the anthrax situation 
cost us in terms of changing operations? I know it had all 
kinds of implications.
    Mr. Eagen. It depends on what you want included in that 
box. If you include the cost of what it cost to remediate the 
campus, I have seen figures on that that have been provided by 
EPA. I don't recall them off the top of my head.
    Mr. Livingood. It would include the Senate side plus the 
House side. It is substantial.
    Mr. Kingston. Millions?
    Mr. Livingood. Yes, Sir.
    Mr. Kingston. Mr. LaHood. Before you begin let me introduce 
John Culberson, a new Subcommittee Member. Thank you for being 
here.
    Mr. Culberson. Thank you very much.

                               THANK YOU

    Mr. LaHood. First of all, I want to say to the people that 
are gathered around here, for many of us that have been around 
this place as I have been, for 8 years as a Member and about 12 
years prior to that, I think we owe all of you a big debt of 
gratitude.
    I see a lot of familiar faces here. You know, all of us fly 
in and out of here on Tuesday and Thursday or Friday, and most 
of you in this room keep the place running. A lot of the things 
that we do could not be done without your assistance, whether 
it is the Counsel's Office, whether it is the Physician's 
Office and the Clerk's Office or the Administrator's Office or 
whose office it is. We take a lot of things for granted.
    But I just want to say to all of you gathered around here--
some of you I know, some of you I don't--I think the Members 
take for granted a lot of the good services you provide to the 
congressional family around here on this campus. We owe you a 
big debt of thanks for all the sacrifices you make for your 
government service, and we appreciate--this Member appreciates 
the good work that goes on. I don't speak for all Members, but 
I speak for myself in saying thank you for all the good work 
you do.
    I think we all really came to appreciate so much of what 
you do after 9/11 as a result of all of this kind of pulling 
together and working together and trying to figure things out. 
So thank you for the work that you do.

                               STAFF GYM

    Mr. Eagen, let me just begin with my favorite subject, 
which is the gym for the staff. I want to thank you, first of 
all, for the work that you did to accommodate staff for 
memberships at Gold's Gym. I am told that they are going into 
these facilities and signing up, and there are waiting lines. 
So I think it has been well received.
    But, you know, when I came up with this idea about a first-
rate facility for our staff, that is what I had in mind. I am 
wondering how we can get to the goal that I have that I think 
other members of this committee have and other Members of the 
House have; and that is to have a facility on campus for our 
staff similar to what the House Members have and similar to 
what the Senate Members have.
    I don't know if we need to do a study. I don't know if we 
need to identify. I don't know if we need to--I don't know if 
the Visitors Center--the new Visitors Center is going to have 
the space that could accommodate this kind of facility or if we 
need to look at places now where we have laid down a lot of 
blacktop and are providing parking spaces for people. But I 
still have as a goal, and I think other Members do, that we 
have a first-rate facility for the many, many staff people who 
are here night and day so that they don't, you know, have to 
use a facility off campus. So I wonder what your thoughts are 
on that and how we can get that accomplished.
    Mr. Eagen. All right. I am definitely shooting for the same 
goal. The appropriations language that you had included in last 
year's bill instructed us to look for those kinds of options, 
and our report indicated that this contracted solution we saw 
as just an interim solution to bridge the gap, if you will.
    Just so you know, you mentioned the lines. As of yesterday 
morning, 261 people had signed up. So there seemsto be some 
popularity building on that particular solution.

                           SPACE RESTRICTIONS

    The difficulty we found was one of space. The Gold's 
facility is 19,500 square feet. The biggest available footprint 
that we could find without moving major numbers of people out 
of their current spaces was about 10,000 square feet, and it 
was in the Ford Building, which is right across the street from 
Gold's.
    My understanding, and I think you have a hearing coming up 
with the Architect, is that the House Superintendent and the 
Architect have as part of their building master planning that 
this is one of their priorities. So the first long pole in the 
tent is where is the space; and, after that, my job is to 
figure out how we structure and organize.
    If the footprint is required to be in one of the buildings 
on campus to be sufficient to satisfy, that is a bit of a 
challenge with the O'Neil building having come down, the 
creation of a Homeland Security Committee and having to find a 
footprint for those additional staff and a hearing room for 
that Committee.
    That is the challenge that I have seen in my discussions 
with the Architect and the Speaker's Office in terms of space 
allocation.
    Mr. LaHood. So we would have to talk to the Architect about 
it, I guess.
    Mr. Eagen. In terms of a footprint of space, either an 
existing space or for the future, either the Cannon lot or 
other areas that may be deemed as a potential construction 
location.
    Mr. LaHood. Thank you.

                             CAPITOL SAFETY

    Bill, the most-asked question that I get from people who 
are thinking about coming to Washington, D.C., to vacation or 
to tour, to bring their kids for Easter break, which is now 
beginning, or for this summer--and those of us that have had 
access to intelligence reports and other information know that 
Washington, D.C., is the number one target. Is the Capitol 
safe? Can we assure people that they can come to the Nation's 
Capitol, that they can come to the U.S. Capitol, that they can 
feel assured with all of the things that have gone on since 9/
11, all of the contraptions that have been put up, all of the 
people that have been hired, all of the security, is the 
Capitol safe?
    Mr. Livingood. As of today, the Capitol is safe. I feel it 
is secure. I feel it is a safe environment. As intelligence 
changes, I will let people know if there is a change, but today 
the Capitol is safe.
    Mr. LaHood. What about the sort of mixed procedures that we 
have for people coming in and out of the campus or on the 
campus? I mean, sometimes people's trunks are checked, and 
sometimes they aren't. Sometimes Members are waved through, and 
sometimes they aren't. Is there a procedure in place that will 
provide some consistency for how security is provided, and is 
it different when we are not here than--when the Members are 
here, when we are voting and when we are not voting?
    Mr. Livingood. There is a consistent plan, which I would 
not talk about here. I would do it in a closed hearing or with 
you personally. There is a theme behind things that you may or 
may not see. I would be glad to explain that to you, but not in 
an open forum.

                  USE OF ATTENDING PHYSICIAN SERVICES

    Mr. LaHood. Okay. I don't know if I--Dr. Eisold, I just 
want to say a word about you and your staff and the good work 
you do around here. I am kind of curious about how many Members 
really take advantage of the Physician's Office. Could you give 
us just some notion of that?
    Dr. Eisold. I couldn't give you an exact number.
    Mr. LaHood. What percent of the Members?
    Dr. Eisold. Over 50 percent at least; and at one time or 
another for semi-emergency care it borders on 75 percent or 
more. As you can imagine, just listening to a list of what we 
do, the number of people under our wingspan is wide and 
certainly includes people other than Members.
    Mr. LaHood. Who else does it include?
    Dr. Eisold. Well, as I mentioned, the umbrella includes at 
any given time the staff, visitors, dignitaries, pages, really 
anybody who is on Capitol Hill at any given time. If they 
should fall ill or there should be some catastrophe or 
whatever, they fall under our umbrella to take care of them. 
Nobody is excluded.
    Mr. LaHood. And there is a fee for the Members?
    Dr. Eisold. There is, but it is not something that the 
Physician's Office actually has anything to do with. It is with 
House Administration.
    Mr. LaHood. Does that come from your office?
    Mr. Eagen. The House Administration Committee sets the fee, 
and then the Finance Office collects it.
    Mr. LaHood. I don't know if we are doing the 5-minute rule 
here or not, but, Mr. Chairman, I will maybe come back after we 
give others a chance.
    Mr. Kingston. Okay. It was Mr. Clyburn who was next, 
followed by Mr. Price, and then we will go to Mr. Tiahrt. I am 
trying to stick to the order of appearance.
    Mr. Clyburn.

                       PRAISE FOR HOUSE SERVICES

    Mr. Clyburn. Well, I want to echo the lauding that Mr. 
LaHood did about the services that one provided to Members of 
Congress. I want to thank you as well and say you do an 
excellent job, and I do feel safe, but I feel like you have 
gone beyond what normal people do to make sure that not only 
Members but their families are safe. So I want to say thank 
you.
    Things do move smoothly, and until you sit on a committee 
like this you don't realize how many people are behind the 
scenes making sure that we have a smooth operation that is 
aboveboard, clear, safe; so thank you for what you do. I know 
you don't get enough praise for it, so I want to join with Ray 
and say that.
    The Physician's Office has been wonderful. Dr. Eisold, I 
appreciate when I have traveled outside the country. The last 
time being 1999. Having somebody from your office along has 
been very helpful, and I think that is an important part of the 
services. Because the last thing we want is, in a Third World 
country, to get caught in a health care system that is scary, 
to say the least.

                            HOUSE GYM SURVEY

    I hadn't thought about a footprint for a gym for staff, and 
I don't know how many Members or staff we have who would use 
it, perhaps a study to see what the usage would be. I hate to 
compete with----
    Mr. LaHood. Can I just--I would ask you if you would yield 
to me.
    Mr. Clyburn. Sure.
    Mr. LaHood. You did a study last year. Just tell him----
    Mr. Eagen. We did a survey of the House workforce, and we 
got about 2,000 people that indicated an interest in that kind 
of capacity. In the supplement that we did, a separate survey 
of satisfaction with House personnel benefits, and that issue 
came up as the number three issue people were concerned about 
was access to health physical fitness capabilities they could 
do either before, after, or during the work day.
    Mr. Clyburn. We have a tendency to focus only when people 
get sick, and we ought to focus on the preventative side. I 
think that is an important thing that I would like to support 
your efforts on, Ray.
    That is all I have, Mr. Chairman.

                 CONTINUING EFFORTS TO SECURE STAFF GYM

    Mr. Kingston. Mr. Kirk.
    Mr. Kirk. I just want to echo what my Illinois colleague 
says. I was a staffer up here for a lot of years--let me just 
ask, when was the first time the staff gym idea came up?
    Mr. Eagen. In my recollection, Mr. Kirk--I have been a 
staffer, too, for 21 years--it has come up multiple times.
    A former member of this Committee, Representative Silvio 
Conte, put in a provision in the Appropriations bill that 
mandated that House personnel would have access to the HHS gym, 
and it became very controversial and then was pulled out of the 
Conference Report. So there have been various efforts over the 
years, but at different times it has had different levels of 
success.
    Mr. Kirk. Admiral Eisold, would our staff be in better 
health if they had access to physical fitness right here on the 
Hill?
    Dr. Eisold. I think it is intuitive. Anytime you can get 
people to exercise on a regular basis, they are going to be 
healthier, and they are going to think more positively about 
taking good care of themselves, which translates into better 
health.
    Mr. Kirk. Bill, do we have physical fitness requirements 
for the Capitol Police?
    Mr. Livingood. We just instituted them, Sir, and are in the 
process of completing the requirements.

                         INTEREST IN HOUSE GYM

    Mr. Kirk. Can I just ask the assembled multitude, would you 
all be interested in joining a staff gym? Raise your hand.
    Well, Mr. Chairman, I think it is time that we do this.
    I wonder if we had the runaround before with regard to the 
Credit Union. You know, the Credit Union was given space, and 
then staff got together, formed it, elected it, and it runs 
without taxpayer dollars. I think we ought to designate--you 
said 10,000 square feet was feasible?
    Mr. Eagen. Ten thousand square feet is about half the size 
of Gold's Gym.
    Mr. Kirk. Okay. On every aircraft carrier in the fleet, 
right next to the anchor locker on a Nimitz class carrier, is a 
blank space that we have to leave open for the running gear and 
the catapults. Not a dime of taxpayer money goes into that 
space. The sailors all get together, buy the equipment, and we 
run a health place. We ought to run this place like an aircraft 
carrier, designate 10,000 square feet and let the staff go 
crazy just like they did with the Credit Union. The Credit 
Union is now a well-established institution here.
    I think we ought to get this rolling. Twenty-one years is 
enough. Let's get a 10,000 square foot facility up and running, 
allow the staff to elect their own leadership, raise the money. 
All these people here and I will join, and let's get this 
rolling, Mr. Chairman.
    Mr. Kingston. You might be eligible for the House gym 
already, but I am not sure.
    Mr. Kirk. I am an avid user of the House gym, but my staff 
can't use it. For all the things that Dr. Eisold talked about 
and the physical fitness requirements for the Capitol Police, 
let's get this going and allow the staff to select a 
leadership, raise the funds and fill it full of equipment, just 
like any aircraft carrier.
    So, anyway, thank you, Mr. Chairman.
    Mr. Kingston. Thanks, Mark. Mr. Price do you have any 
questions?

                         MAIL PROCESSING SYSTEM

    Mr. Price. I would like to return, if I may, to the issue 
of our mail processing system. I appreciate hearing your 
report. I came in just as you were beginning that portion of 
your testimony.
    How stable and how permanent is the system we have in place 
now? We have clearly made some headway in terms of the 
turnaround time. We all, I expect, have had the experience of 
seeing yellow crinkled mail coming into our offices three 
months after it was mailed. It appears to me that the mail 
still has kind of a dehydrated quality, but it doesn't appear 
to have suffered as much from the exposure. I don't know if the 
technology is different or if anything has changed, but the 
mail has returned to a more normal appearance. As you say, it 
does appear to be arriving in a more timely fashion, taking 
days rather than weeks.
    On the other hand, the method of sending it off to New 
Jersey that you describe appears to be a pretty cumbersome and 
expensive system. Is there other technology available that 
might provide a more efficient, less cumbersome system. What do 
you see for the future?
    Mr. Eagen. I think----
    Mr. Price. Well, there is also the question of threat 
assessment--your judgment and your intelligence about the 
continuing threat. Does your intelligence warrant a system that 
has these capabilities?
    Mr. Eagen. Let me take the second part first.
    The guidance we are provided comes through the Sergeant at 
Arms, the Capitol Police, the intelligence community, and the 
Department of Defense. So it is less me as an administrator 
making those judgments and more of the security people telling 
us what the environment holds and what kind of precautions we 
need to have in place to be able to deal with that.
    With regard to the first part for the future, I think there 
are two aspects of what will the Postal Service be doing in the 
mail stream end and what will the House be doing separate from 
that.
    On the first part, regarding the Postal Service, there are 
two things. The situation where they truck the mail to New 
Jersey, is clearly not a long-term, viable, sensible solution, 
and I think they realize that. That point has been made by the 
House and Senate and Executive Branch numerous times. They, as 
I understand it, have the funding to erect an irradiation 
facility in the Washington metropolitan area.
    When you talk about the front part of the metric (or 
measures) of the 3 to 7 days, it would probably take out a day 
and a half or 2 days by eliminating the trucking of the mail to 
New Jersey and back.
    Secondly, as Mr. Tiahrt was asking, they do have a pilot 
under way where they are testing more sophisticated nationwide 
detection sensing systems that would be more at the front end 
of the process rather than the back end.
    As far as the House is concerned, we in the last year made 
a bit of a leap in that the original sampling process called 
for 72 hours, and that has shrunken now to 32 hours based upon 
innovations that have been put in place by the labs and the 
scientific people that do that kind of work for the government.
    With regard to the package end of the process, we have 
slightly different approaches to first class mail versus 
packages. Packages are not irradiated. They come in, and they 
are sampled separately here at the House. In the next couple of 
weeks we are about to deploy a new technology solution that we 
think is a lot friendlier and a lot more effective.

                            PACKAGE DELIVERY

    Mr. Price. For packages?
    Mr. Eagen. That is right, the packages as a separate item.
    We also have a proposal pending that would establish 
something that we think would help. The difference between our 
old system on packages and the new system is that in the old 
days the package would be delivered directly to the offices by 
UPS and Federal Express and other national shippers, and the 
Postal Service packages came to us the way they do today. Now 
they all come to us, because they are sampled, evaluated, and 
quarantined to make sure they are safe.
    Then we have a process where a customer, someone on the 
staff, gives us approval. We send an e-mail, and then we wait 
for a reply to say, yes, we want that package. Then, four 
options of how to handle it: Deliver it after it has been 
sampled on the outside; open it up and test it on the inside; 
destroy it; or send it back.
    A little bit of the lag we experience on the delivery 
metrics we are tracking is how long it takes for the staff to 
say yes or no.
    Mr. Price. How is the staff particularly equipped to make 
that kind of judgment?
    Mr. Eagen. Well, it particularly comes to the decision 
between whether this is an expected package, something that 
your District Office is forwarding and something it is not. If 
it is an expected package, we think it is reasonably safe. If 
it is something where you don't know who is sending it to you, 
we then encourage you to let us open it up and sample it on the 
inside as well as the outside.
    Mr. Price. So when you talk about possible changes to make 
the system more efficient and less cumbersome, you are talking 
in part about simply locating the system here in Washington, 
D.C. You are also talking about changes in the technology that 
are used to detect dangerous material.
    Mr. Eagen. Right.
    Mr. Price. Screen the material?
    Mr. Eagen. Yes. The Department of Defense and other 
associated scientists are telling us that they are working on 
mechanisms that will yield a much more rapid detection 
capability--sampling capability, I should say, not detection--
but sampling capability that will give us a faster turnaround 
cycle. Right now we are getting to a point where the primary 
delay on the House side of the business is simply how long it 
takes to get those test results. Once we get the signal the 
test results are okay, we can get it to your office the same 
day.

                              TESTING MAIL

    Mr. Price. How does that work exactly? You are sending huge 
quantities of mail through these scanners. You are not waiting 
on a test result on the initial test, correct? You are 
referring to a test result on mail that is somehow problematic. 
What do you mean by a test result?
    Mr. Eagen. In this case, depending on what it is, an 
envelope or a package--I am not going to go into explicit 
detail on this process for security reasons----.
    Mr. Price. I am not asking you to. I am just trying to 
figure out what the time frame is.
    Mr. Eagen. Right. They run through a process where a sample 
is taken of the outside and, in some cases, the inside of that 
particular item, and those are put into lots. Those lots are 
then put into quarantine, and the sample is then sent to a lab 
which does an analysis to look for different kinds of 
threatening materials.
    Mr. Price. I see. So you are talking about how a piece of 
contaminated mail could contaminate other mail around it?
    Mr. Eagen. Right. The contamination of the House a year ago 
was clearly cross-contamination to everybody's understanding. 
The letters were addressed and sent. There was never found a 
House-addressed letter.
    Mr. Livingood. No.
    Mr. Moran. Shows how important we are.
    Mr. Livingood. Thank goodness.
    Mr. Eagen. But the cross-contamination hit all over--the 
Longworth Building.

                      POSTAL SERVICE IMPROVEMENTS

    Mr. Price. You say the Postal Service has the funds to take 
these next steps. Forgive my ignorance, but exactly how does 
that funding work? To what extent does the Postal Service come 
up with this funding? Is it out of their own revenues? Do you 
receive a direct appropriation?
    Mr. Eagen. My understanding from these--and I am not an 
expert on Postal Service funding streams. Mr. Price, I believe 
there were appropriated funds for that solution. Part of the 
emergency supplemental I think was a package to support the 
Postal Service to assist with those kinds of things.
    Mr. Price. But is this in your budget?
    Mr. Eagen. No, sir.
    Mr. Price. Thank you.

                         STUDENT LOAN REPAYMENT

    Mr. Kingston. Thank you, Mr. Price.
    I have one last question for Mr. Barrow that we raised 
earlier--Mr. Moran also touched on it--regarding your ability 
to recruit and retain good lawyers. Your salary structure is 
competitive. You also have student loan forgiveness. Is that 
helpful?
    Mr. Barrow. Yes. I think the student loan forgiveness is 
going to make a big difference for us. All of our new recruits 
are going to take advantage of that. But I think for attorneys 
the salary structure in private practice and the loans that 
young attorneys are coming out of law school with make it a 
very difficult environment for any government office to recruit 
new lawyers.
    Maybe I can give you some statistics to give you an idea of 
what we are facing.
    The median starting salary for young lawyers coming right 
out of law school nationwide is $90,000. The starting salaries 
in big firms in New York, Chicago, and Los Angeles are between 
$145,000 and $160,000. The starting salary in D.C. in big firms 
is $125,000. These are just not the kinds of salaries that we 
can compete with. Most attorneys who are coming out of law 
school with loans in excess of a hundred thousand just can't 
afford to come to work for any government agency.
    This makes it a very tough environment to recruit in, and 
we are having more difficulty this year than we have ever had 
before. We have several vacancies, and we have been turned down 
by recruits that we would like to have hired. So we are just 
searching harder and making a bigger effort.
    I don't think there is a silver bullet that will cure this 
problem. The Student Loan Program will be helpful, but I don't 
think it is the entire answer.
    Mr. Kingston. Thank you. John, I am sorry. I should have 
yielded to you before I asked that question.
    Mr. Culberson. Not at all.
    Mr. Kingston. You have sat here patiently; and unless 
somebody else wants a second round, you will be the last 
questioner for this panel.
    Mr. Culberson. Thank you. I said privately and I just want 
to reiterate here publicly how proud I am of all of you that 
support the House of Representatives and how impressed I am 
coming out of the Texas Legislature that the professionalism we 
have there has been matched and exceeded by the work that y'all 
do here. I am just extraordinarily impressed and proud of the 
work you do and glad to be a part of this Subcommittee where I 
can provide some support for the good work that you do. I am 
very, very proud of the work that you do, and thank you for it.

                           LEADERSHIP PARITY

    I am curious to know why there appears to be additional 
employees for the Minority than there are for the Majority.
    Mr. LaHood. Give them an advantage to try and take over.
    Mr. Culberson. It surprises me that the Minority Floor 
Leader has more staff than the Majority Floor Leader. As well, 
there are nine additional employees for the Minority that I 
don't see comparable for the Majority. I would like to ask why.
    Mr. Eagen. I think I am the right person. I can probably go 
through that with you off line and show there is a formula that 
is used to establish parity between the Majority and the 
Minority at the Leadership levels. Those are Leadership 
employees. The exception to that is the Speaker's Office, which 
is seen as--.
    Mr. Culberson. Yes. I didn't count that.
    Mr. Eagen. So they actually do balance out, but it is 
different groupings with different groupings, and they are all 
bundled together. But I don't know if I could explain it here 
in 5 minutes.
    Mr. Culberson. I will visit that separately. Thank you.
    Mr. Kingston. Would you respond to him for the record, 
though?
    Mr. Eagen. Sure.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7100A.079
    
                            COMMITTEE STAFF

    Mr. Kingston. I would like to know how the number of 
staffers for each committee is figured, and I haven't been able 
to find a satisfactory answer.
    Mr. Eagen. Is ``figured'' in the sense of how it is 
established?
    Mr. Kingston. Revisiting, Mr. Moran's comment about the 
excesses--it appears to me that if you are the Chairman of a 
Subcommittee, you might get more staffers over time than 
somebody who is less aggressive.
    Case in point, we split up some Committees to create a new 
Homeland Security Committee, and there are probably new duties 
that are brand new to the whole system. There still should be a 
net reduction of some staffers in these other Committees as 
they have been reassigned. I don't know if that is going to be 
the case or not, but I would love to know if that really does 
happen.
    Mr. Eagen. Primarily, the Committee Funding Resolution, so 
the Committee on House Administration submits that to the 
Floor.
    Mr. Kingston. Jeff, you don't have any authority there?
    Mr. Trandahl. It is viewed that it is the authorizing 
mechanism, and then the legislative branch appropriation bill 
after the fact would fund those positions. Now, because the 
funding resolution that will obviously create this Committee 
and staff will come before a legislative branch Appropriation 
Bill that is passed, it will come out of the existing 2003 
money this time. In 2004 you will have as part of your----
    Mr. Kingston. We would never authorize on an appropriations 
bill.
    Mr. Trandahl. Absolutely.

                      HOMELAND SECURITY COMMITTEE

    Mr. Kingston. However, a lot of the Homeland Security 
Committee duties come from existing standing committees. 
Consequently, those standing committees should lose staff, and 
that should be reflected in the authorizing legislation. If it 
is not, it might be the inclination of this committee to merge 
that through appropriation levels to make sure that that does 
happen. Because it appears to me that the longer you are in 
office here, the more you accumulate in terms of stuff, 
including FTE's, employees or anything else.
    Mr. Eagen. Just for point of fact, the proposal that the 
Committee has before it now in terms of what was submitted in 
OMB was flat on committee FTEs and doesn't include funding for 
the Committee on Homeland Security because it didn't exist at 
the time this proposal was submitted to OMB.
    Mr. Kingston. It would appear to me, there should be a 
designated number, a formula as to how many employees are 
really needed and how many aren't.
    You talk about the employees these 10 Freshman have in the 
Centralized Computer System. There should be economies of scale 
for certain staff functions of Committees such as centralized 
typing or data input. Opportunities like that are such we 
should be mindful of.
    Mr. LaHood. Can I ask one point?
    Mr. Kingston. Yes. We are going to need to go to a break 
here soon.
    Mr. Moran. I have a quick question, too, and a point I want 
to raise to the Subcommittee, but Ray does as well. Do you want 
to go first?
    Mr. LaHood. No, go ahead.

                      LEGISLATIVE COUNSEL SALARIES

    Mr. Moran. Legislative Counsel, I think we all understand 
how critically important that is for us to do our work. Our 
staff director Liz Dawson just passed me some information that 
we need to be aware of. We are not paying the people we bring 
on to Legislative Counsel enough to be competitive with private 
practice. Attorneys practicing in the private sector are 
starting at salaries that are substantially higher than what we 
are paying, our counselors. Right here in Washington, the 
average graduate has more than $75,000 in school loan debtthat 
they need to pay off, so it is prohibitive for them to come to work for 
us even if they want to.
    It is a particularly critical situation. We have got half 
of our attorney staff working for us for 20 years or longer and 
a third of them more than 25 years. So they are ready to retire 
in 2003 and 2004, and we don't have salaries enough to replace 
them. So we have got a critical situation facing us, and that 
affects all of us if we can't get good leg counsel to be able 
to write our bills and draft our amendments.
    So I want to raise that, and I think it needs to be raised 
now if we are going to address it in our Markup.
    Mr. LaHood. Are we coming back?
    Mr. Kingston. The Rumsfeld briefing is at 4:00. Let me 
think about it.
    Do you have a question, Mr. LaHood?

                            OLD MAIL SYSTEM

    Mr. LaHood. Jay, will we ever get back to the old days of 
receiving mail the way that Members once did and encouraging 
people to write letters and having it not take 4 to 6 weeks to 
get a letter from back home? Will those days ever come back 
again?
    Mr. Eagen. You asked me the same question last year.
    Mr. LaHood. I am still receiving clipped letters from 
December and Christmas cards from people that I had forgotten 
to mail a card to. So I am wondering if I should include them 
on my list this year.
    Mr. Eagen. You didn't like my answer.
    Mr. LaHood. You know, in the old days we used to encourage 
people to write us letters. Well, now they e-mail. If they do 
write a letter, we don't get it for 4 to 6 weeks; and they 
complain. I don't know. Maybe it is Pollyannaish to think that 
way. I don't know. I am just curious, though.
    Mr. Eagen. The one thing I can't predict is what the 
outside environment is going to dictate, and I don't know how 
to answer that question.
    Mr. LaHood. For the foreseeable future, our mail is going 
to be screened?
    Mr. Eagen. I think that is correct.
    Mr. LaHood. For the next 2 years, 5 years?
    Mr. Eagen. I don't want to pick a date.
    Mr. LaHood. At least the next 2 years our mail is going to 
be screened.
    Mr. Livingood. Yes.
    Mr. Eagen. Our metrics are showing the mail volume has come 
back. That is the one thing that has changed. We are getting 
close to the kind of mail volume that we were experiencing 
prior to anthrax. We are not there yet, but it is coming back.
    Mr. LaHood. And how many people.
    Mr. Livingood. And it is reviewed.
    Mr. LaHood. Maybe you can answer this at another time, but 
can you answer any questions about the investigation that is 
going on with the people that did the anthrax?
    Mr. Livingood. No, I can't, Sir.
    Mr. LaHood. Okay. I am going to go vote, then. Are we 
coming back or not?
    Mr. Kingston. We are still consulting. At this time, we 
will leave subject to the call of the Chair.
    We have a Members' only briefing with Secretary Rumsfeld. 
Now that we are in Baghdad, this briefing might be a little 
critical. Allow me to poll the Members on the Floor. Mr. Moran 
will poll his Members.
    I apologize for the inconvenience of the folks who were to 
appear next, but we are going to adjourn for now, subject to 
the call of the Chair.
    [Recess.]
    [Clerk's note.--The justification of the budget request 
submitted by the House of Representatives Finance Office 
follows:]

[GRAPHIC] [TIFF OMITTED] T7100A.080

[GRAPHIC] [TIFF OMITTED] T7100A.081

[GRAPHIC] [TIFF OMITTED] T7100A.082

[GRAPHIC] [TIFF OMITTED] T7100A.083

[GRAPHIC] [TIFF OMITTED] T7100A.084

[GRAPHIC] [TIFF OMITTED] T7100A.085

[GRAPHIC] [TIFF OMITTED] T7100A.086

[GRAPHIC] [TIFF OMITTED] T7100A.087

[GRAPHIC] [TIFF OMITTED] T7100A.088

[GRAPHIC] [TIFF OMITTED] T7100A.089

[GRAPHIC] [TIFF OMITTED] T7100A.090

[GRAPHIC] [TIFF OMITTED] T7100A.091

[GRAPHIC] [TIFF OMITTED] T7100A.092

[GRAPHIC] [TIFF OMITTED] T7100A.093

[GRAPHIC] [TIFF OMITTED] T7100A.094

[GRAPHIC] [TIFF OMITTED] T7100A.095

[GRAPHIC] [TIFF OMITTED] T7100A.096

[GRAPHIC] [TIFF OMITTED] T7100A.097

[GRAPHIC] [TIFF OMITTED] T7100A.098

[GRAPHIC] [TIFF OMITTED] T7100A.099

[GRAPHIC] [TIFF OMITTED] T7100A.100

[GRAPHIC] [TIFF OMITTED] T7100A.101

[GRAPHIC] [TIFF OMITTED] T7100A.102

[GRAPHIC] [TIFF OMITTED] T7100A.103

[GRAPHIC] [TIFF OMITTED] T7100A.104

[GRAPHIC] [TIFF OMITTED] T7100A.105

[GRAPHIC] [TIFF OMITTED] T7100A.106

[GRAPHIC] [TIFF OMITTED] T7100A.107

[GRAPHIC] [TIFF OMITTED] T7100A.108

[GRAPHIC] [TIFF OMITTED] T7100A.109

[GRAPHIC] [TIFF OMITTED] T7100A.110

[GRAPHIC] [TIFF OMITTED] T7100A.111

[GRAPHIC] [TIFF OMITTED] T7100A.112

[GRAPHIC] [TIFF OMITTED] T7100A.113

[GRAPHIC] [TIFF OMITTED] T7100A.114

[GRAPHIC] [TIFF OMITTED] T7100A.115

[GRAPHIC] [TIFF OMITTED] T7100A.116

[GRAPHIC] [TIFF OMITTED] T7100A.117

[GRAPHIC] [TIFF OMITTED] T7100A.118

[GRAPHIC] [TIFF OMITTED] T7100A.119

[GRAPHIC] [TIFF OMITTED] T7100A.120

[GRAPHIC] [TIFF OMITTED] T7100A.121

[GRAPHIC] [TIFF OMITTED] T7100A.122

[GRAPHIC] [TIFF OMITTED] T7100A.123

[GRAPHIC] [TIFF OMITTED] T7100A.124

[GRAPHIC] [TIFF OMITTED] T7100A.125

[GRAPHIC] [TIFF OMITTED] T7100A.126

[GRAPHIC] [TIFF OMITTED] T7100A.127

[GRAPHIC] [TIFF OMITTED] T7100A.128

[GRAPHIC] [TIFF OMITTED] T7100A.129

[GRAPHIC] [TIFF OMITTED] T7100A.130

[GRAPHIC] [TIFF OMITTED] T7100A.131

[GRAPHIC] [TIFF OMITTED] T7100A.132

[GRAPHIC] [TIFF OMITTED] T7100A.133

[GRAPHIC] [TIFF OMITTED] T7100A.134

[GRAPHIC] [TIFF OMITTED] T7100A.135

[GRAPHIC] [TIFF OMITTED] T7100A.136

[GRAPHIC] [TIFF OMITTED] T7100A.137

[GRAPHIC] [TIFF OMITTED] T7100A.138

[GRAPHIC] [TIFF OMITTED] T7100A.139

[GRAPHIC] [TIFF OMITTED] T7100A.140

[GRAPHIC] [TIFF OMITTED] T7100A.141

[GRAPHIC] [TIFF OMITTED] T7100A.142

[GRAPHIC] [TIFF OMITTED] T7100A.143

[GRAPHIC] [TIFF OMITTED] T7100A.144

[GRAPHIC] [TIFF OMITTED] T7100A.145

[GRAPHIC] [TIFF OMITTED] T7100A.146

[GRAPHIC] [TIFF OMITTED] T7100A.147

[GRAPHIC] [TIFF OMITTED] T7100A.148

[GRAPHIC] [TIFF OMITTED] T7100A.149

[GRAPHIC] [TIFF OMITTED] T7100A.150

[GRAPHIC] [TIFF OMITTED] T7100A.151

[GRAPHIC] [TIFF OMITTED] T7100A.152

[GRAPHIC] [TIFF OMITTED] T7100A.153

[GRAPHIC] [TIFF OMITTED] T7100A.154

[GRAPHIC] [TIFF OMITTED] T7100A.155

[GRAPHIC] [TIFF OMITTED] T7100A.156

[GRAPHIC] [TIFF OMITTED] T7100A.157

[GRAPHIC] [TIFF OMITTED] T7100A.158

[GRAPHIC] [TIFF OMITTED] T7100A.159

[GRAPHIC] [TIFF OMITTED] T7100A.160

[GRAPHIC] [TIFF OMITTED] T7100A.161

[GRAPHIC] [TIFF OMITTED] T7100A.162

[GRAPHIC] [TIFF OMITTED] T7100A.163

[GRAPHIC] [TIFF OMITTED] T7100A.164

[GRAPHIC] [TIFF OMITTED] T7100A.165

[GRAPHIC] [TIFF OMITTED] T7100A.166

[GRAPHIC] [TIFF OMITTED] T7100A.167

[GRAPHIC] [TIFF OMITTED] T7100A.168

[GRAPHIC] [TIFF OMITTED] T7100A.169

[GRAPHIC] [TIFF OMITTED] T7100A.170

[GRAPHIC] [TIFF OMITTED] T7100A.171

[GRAPHIC] [TIFF OMITTED] T7100A.172

[GRAPHIC] [TIFF OMITTED] T7100A.173

[GRAPHIC] [TIFF OMITTED] T7100A.174

[GRAPHIC] [TIFF OMITTED] T7100A.175

[GRAPHIC] [TIFF OMITTED] T7100A.176

[GRAPHIC] [TIFF OMITTED] T7100A.177

[GRAPHIC] [TIFF OMITTED] T7100A.178

[GRAPHIC] [TIFF OMITTED] T7100A.179

[GRAPHIC] [TIFF OMITTED] T7100A.180

[GRAPHIC] [TIFF OMITTED] T7100A.181

[GRAPHIC] [TIFF OMITTED] T7100A.182

[GRAPHIC] [TIFF OMITTED] T7100A.183

[GRAPHIC] [TIFF OMITTED] T7100A.184

[GRAPHIC] [TIFF OMITTED] T7100A.185

[GRAPHIC] [TIFF OMITTED] T7100A.186

[GRAPHIC] [TIFF OMITTED] T7100A.187

[GRAPHIC] [TIFF OMITTED] T7100A.188

[GRAPHIC] [TIFF OMITTED] T7100A.189

[GRAPHIC] [TIFF OMITTED] T7100A.190

[GRAPHIC] [TIFF OMITTED] T7100A.191

[GRAPHIC] [TIFF OMITTED] T7100A.192

[GRAPHIC] [TIFF OMITTED] T7100A.193

[GRAPHIC] [TIFF OMITTED] T7100A.194

[GRAPHIC] [TIFF OMITTED] T7100A.195

[GRAPHIC] [TIFF OMITTED] T7100A.196

[GRAPHIC] [TIFF OMITTED] T7100A.197

[GRAPHIC] [TIFF OMITTED] T7100A.198

[GRAPHIC] [TIFF OMITTED] T7100A.199

[GRAPHIC] [TIFF OMITTED] T7100A.200

[GRAPHIC] [TIFF OMITTED] T7100A.201

[GRAPHIC] [TIFF OMITTED] T7100A.202

[GRAPHIC] [TIFF OMITTED] T7100A.203

[GRAPHIC] [TIFF OMITTED] T7100A.204

[GRAPHIC] [TIFF OMITTED] T7100A.205

[GRAPHIC] [TIFF OMITTED] T7100A.206

[GRAPHIC] [TIFF OMITTED] T7100A.207

[GRAPHIC] [TIFF OMITTED] T7100A.208

[GRAPHIC] [TIFF OMITTED] T7100A.209

[GRAPHIC] [TIFF OMITTED] T7100A.210

[GRAPHIC] [TIFF OMITTED] T7100A.211

[GRAPHIC] [TIFF OMITTED] T7100A.212

[GRAPHIC] [TIFF OMITTED] T7100A.213

[GRAPHIC] [TIFF OMITTED] T7100A.214

[GRAPHIC] [TIFF OMITTED] T7100A.215

[GRAPHIC] [TIFF OMITTED] T7100A.216

[GRAPHIC] [TIFF OMITTED] T7100A.217

[GRAPHIC] [TIFF OMITTED] T7100A.218

[GRAPHIC] [TIFF OMITTED] T7100A.219

[GRAPHIC] [TIFF OMITTED] T7100A.220

[GRAPHIC] [TIFF OMITTED] T7100A.221

[GRAPHIC] [TIFF OMITTED] T7100A.222

[GRAPHIC] [TIFF OMITTED] T7100A.223

[GRAPHIC] [TIFF OMITTED] T7100A.224

[GRAPHIC] [TIFF OMITTED] T7100A.225

[GRAPHIC] [TIFF OMITTED] T7100A.226

[GRAPHIC] [TIFF OMITTED] T7100A.227

[GRAPHIC] [TIFF OMITTED] T7100A.228

[GRAPHIC] [TIFF OMITTED] T7100A.229

[GRAPHIC] [TIFF OMITTED] T7100A.230

[GRAPHIC] [TIFF OMITTED] T7100A.231

[GRAPHIC] [TIFF OMITTED] T7100A.232

[GRAPHIC] [TIFF OMITTED] T7100A.233

[GRAPHIC] [TIFF OMITTED] T7100A.234

[GRAPHIC] [TIFF OMITTED] T7100A.235

[GRAPHIC] [TIFF OMITTED] T7100A.236

[GRAPHIC] [TIFF OMITTED] T7100A.237

[GRAPHIC] [TIFF OMITTED] T7100A.238

[GRAPHIC] [TIFF OMITTED] T7100A.239

[GRAPHIC] [TIFF OMITTED] T7100A.240

[GRAPHIC] [TIFF OMITTED] T7100A.241

[GRAPHIC] [TIFF OMITTED] T7100A.242

[GRAPHIC] [TIFF OMITTED] T7100A.243

[GRAPHIC] [TIFF OMITTED] T7100A.244

[GRAPHIC] [TIFF OMITTED] T7100A.245

[GRAPHIC] [TIFF OMITTED] T7100A.246

[GRAPHIC] [TIFF OMITTED] T7100A.247

[GRAPHIC] [TIFF OMITTED] T7100A.248

[GRAPHIC] [TIFF OMITTED] T7100A.249

[GRAPHIC] [TIFF OMITTED] T7100A.250

[GRAPHIC] [TIFF OMITTED] T7100A.251

[GRAPHIC] [TIFF OMITTED] T7100A.252

[GRAPHIC] [TIFF OMITTED] T7100A.253

[GRAPHIC] [TIFF OMITTED] T7100A.254

[GRAPHIC] [TIFF OMITTED] T7100A.255

[GRAPHIC] [TIFF OMITTED] T7100A.256

[GRAPHIC] [TIFF OMITTED] T7100A.257

[GRAPHIC] [TIFF OMITTED] T7100A.258

[GRAPHIC] [TIFF OMITTED] T7100A.259

[GRAPHIC] [TIFF OMITTED] T7100A.260

[GRAPHIC] [TIFF OMITTED] T7100A.261

[GRAPHIC] [TIFF OMITTED] T7100A.262

[GRAPHIC] [TIFF OMITTED] T7100A.263

[GRAPHIC] [TIFF OMITTED] T7100A.264

[GRAPHIC] [TIFF OMITTED] T7100A.265

[GRAPHIC] [TIFF OMITTED] T7100A.266

[GRAPHIC] [TIFF OMITTED] T7100A.267

[GRAPHIC] [TIFF OMITTED] T7100A.268

[GRAPHIC] [TIFF OMITTED] T7100A.269

[GRAPHIC] [TIFF OMITTED] T7100A.270

[GRAPHIC] [TIFF OMITTED] T7100A.271

[GRAPHIC] [TIFF OMITTED] T7100A.272

[GRAPHIC] [TIFF OMITTED] T7100A.273

[GRAPHIC] [TIFF OMITTED] T7100A.274

[GRAPHIC] [TIFF OMITTED] T7100A.275

[GRAPHIC] [TIFF OMITTED] T7100A.276

[GRAPHIC] [TIFF OMITTED] T7100A.277

[GRAPHIC] [TIFF OMITTED] T7100A.278

[GRAPHIC] [TIFF OMITTED] T7100A.279

[GRAPHIC] [TIFF OMITTED] T7100A.280

[GRAPHIC] [TIFF OMITTED] T7100A.281

[GRAPHIC] [TIFF OMITTED] T7100A.282

[GRAPHIC] [TIFF OMITTED] T7100A.283

[GRAPHIC] [TIFF OMITTED] T7100A.284

[GRAPHIC] [TIFF OMITTED] T7100A.285

[GRAPHIC] [TIFF OMITTED] T7100A.286

[GRAPHIC] [TIFF OMITTED] T7100A.287

[GRAPHIC] [TIFF OMITTED] T7100A.288

[GRAPHIC] [TIFF OMITTED] T7100A.289

[GRAPHIC] [TIFF OMITTED] T7100A.290

[GRAPHIC] [TIFF OMITTED] T7100A.291

[GRAPHIC] [TIFF OMITTED] T7100A.292

[GRAPHIC] [TIFF OMITTED] T7100A.293

[GRAPHIC] [TIFF OMITTED] T7100A.294

[GRAPHIC] [TIFF OMITTED] T7100A.295

[GRAPHIC] [TIFF OMITTED] T7100A.296

[GRAPHIC] [TIFF OMITTED] T7100A.297

[GRAPHIC] [TIFF OMITTED] T7100A.298

[GRAPHIC] [TIFF OMITTED] T7100A.299

[GRAPHIC] [TIFF OMITTED] T7100A.300

[GRAPHIC] [TIFF OMITTED] T7100A.301

[GRAPHIC] [TIFF OMITTED] T7100A.302

[GRAPHIC] [TIFF OMITTED] T7100A.303

[GRAPHIC] [TIFF OMITTED] T7100A.304

[GRAPHIC] [TIFF OMITTED] T7100A.305

[GRAPHIC] [TIFF OMITTED] T7100A.306

[GRAPHIC] [TIFF OMITTED] T7100A.307

                                          Wednesday, April 9, 2003.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
LAURA CAMPBELL, ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES
RUBENS MEDINA, LAW LIBRARIAN
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
MARYBETH PETERS, REGISTER OF COPYRIGHTS
BEACHER WIGGINS, ACTING ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICALLY HANDICAPPED
KENNETH E. LOPEZ, DIRECTOR OF SECURITY
LINDA J. WASHINGTON, DIRECTOR, INTEGRATED SUPPORT SERVICES
JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
KATHRYN B. MURPHY, BUDGET OFFICER, FINANCIAL SERVICES

                            OPENING REMARKS

    Mr. Kingston. We will now take up the budget request of the 
Library of Congress. We want to welcome Dr. Billington, the 
Librarian of Congress, and General Scott, the Deputy Librarian 
of Congress.
    The fiscal year 2004 request assumes total funds available 
will be $745.2 million derived from a variety of sources, 
including appropriated funds, receipts, gift, trust, and 
revolving funds and the reimbursable program. The direct 
Appropriations request is $540.1 million plus authority to 
spend receipts of $36.5 million. This is an increase of $44.3 
million, or 8.9 percent above fiscal year 2003 enacted level.
    The Library is requesting funding for an additional 124 
additional FTE's. The Library has 4,241 permanent FTE's in the 
current workforce. In addition, there are 6 supported from 
funds transferred from other Federal agencies, 18 supported 
from gift and trust funds, and 146 supported from revolving 
funds. In all, the library has a grand total of 4,411 FTEs.

                       Introduction of Witnesses

    Dr. Billington, it is great to have you and General Scott 
and your staff that have accompanied you. Would you please 
introduce your staff.
    Dr. Billington. Okay. Let's see. We have the Register of 
Copyrights, Marybeth Peters; our Chief of Staff, Jo Ann 
Jenkins; Laura Campbell, who is our Associate Librarian for 
Strategic Initiatives; Rubens Medina, the Law Librarian of 
Congress; Daniel Mulhollan, the Director of Congressional 
Research Service; Beacher Wiggins, who is the Acting Associate 
Librarian for Library Services; Frank Kurt Cylke, the Director 
of the National Library Service for the Blind and Physically 
Handicapped; Kenneth Lopez, Director of Security; Linda 
Washington, Director of Integrated Support Services; John 
Webster, our Director of Financial Services; and Kathryn B. 
Murphy, our Budget Officer of Financial Services.
    Mr. Kingston. We have your prepared statement as well as 
those of Marybeth Peters, the Register of Copyrights, and Dan 
Mulhollan, the Director of the Congressional Research Service. 
All the statements have been given to the Members of the 
Subcommittee and will be printed in the record at this point.
    If you have an opening statement that you would like to 
make it would be in order at this time. If not, we will proceed 
directly to our questioning.
    [The statements submitted for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T7100B.001
    
    [GRAPHIC] [TIFF OMITTED] T7100B.002
    
    [GRAPHIC] [TIFF OMITTED] T7100B.003
    
    [GRAPHIC] [TIFF OMITTED] T7100B.004
    
    [GRAPHIC] [TIFF OMITTED] T7100B.005
    
    [GRAPHIC] [TIFF OMITTED] T7100B.006
    
    [GRAPHIC] [TIFF OMITTED] T7100B.007
    
    [GRAPHIC] [TIFF OMITTED] T7100B.008
    
    [GRAPHIC] [TIFF OMITTED] T7100B.009
    
    [GRAPHIC] [TIFF OMITTED] T7100B.010
    
    [GRAPHIC] [TIFF OMITTED] T7100B.011
    
    [GRAPHIC] [TIFF OMITTED] T7100B.012
    
    [GRAPHIC] [TIFF OMITTED] T7100B.013
    
    [GRAPHIC] [TIFF OMITTED] T7100B.014
    
    [GRAPHIC] [TIFF OMITTED] T7100B.015
    
    [GRAPHIC] [TIFF OMITTED] T7100B.016
    
    [GRAPHIC] [TIFF OMITTED] T7100B.017
    
    [GRAPHIC] [TIFF OMITTED] T7100B.018
    
    [GRAPHIC] [TIFF OMITTED] T7100B.019
    
    [GRAPHIC] [TIFF OMITTED] T7100B.020
    
    [GRAPHIC] [TIFF OMITTED] T7100B.021
    
    [GRAPHIC] [TIFF OMITTED] T7100B.022
    
    [GRAPHIC] [TIFF OMITTED] T7100B.023
    
    [GRAPHIC] [TIFF OMITTED] T7100B.024
    
    [GRAPHIC] [TIFF OMITTED] T7100B.025
    
    [GRAPHIC] [TIFF OMITTED] T7100B.026
    
    [GRAPHIC] [TIFF OMITTED] T7100B.027
    
    [GRAPHIC] [TIFF OMITTED] T7100B.028
    
    [GRAPHIC] [TIFF OMITTED] T7100B.029
    
    [GRAPHIC] [TIFF OMITTED] T7100B.030
    
    [GRAPHIC] [TIFF OMITTED] T7100B.031
    
    [GRAPHIC] [TIFF OMITTED] T7100B.032
    
                 EMERGENCY SUPPLEMENTAL APPROPRIATIONS

    Dr. Billington. Well, I can give you a brief statement, Mr. 
Chairman. I, first of all, want to thank the Committee for 
support for the Library's Supplemental Appropriations Request 
to improve the Emergency Management Program.
    If the Supplemental is approved, I should add, the 
Library's fiscal 2004 net budget increase would be only $29.9 
million, or 5.5, percent rather than 8.4 percent over last 
year; $23.6 million of that, or 79 percent of the net increase, 
is simply for mandatory pay and price level increases.

                          UPCOMING CHALLENGES

    I think the main general point I would make, Mr. Chairman 
and members of the Committee, is that the Library is in the 
process of, in effect, superimposing a massive digital library 
on top of what is already the world's largest traditional 
artifactual library; 126 million items of artifacts, books, 
movies, maps, et cetera, and 75 million online items, 
attracting last year more than 2\1/2\ billion electronic 
transactions. So it is a very large operation.
    We will face challenges in the forthcoming year about new 
security measures, police force merger, planning to replace the 
42 percent of our current staff who will become eligible to 
retire in the next 5 years. The average age of our senior level 
staff is 57, so we really have a major personnel transition 
shaping up. And finally, acquiring and preparing a long-awaited 
and much-needed National Audio-Visual Conservation Center, 
which I am happy to report is being mostly funded by a major 
private donation, from the Packard Humanities Institute.
    The events of 9/11 and the terrorism and the war in Iraq 
have greatly increased the importance of the Library's mission 
to gather and preserve and make accessible the world's 
knowledge for the Nation's good. We are, in effect, the 
Nation's strategic information reserve, and we have as our 
first priority to provide the Congress with authentic, unbiased 
information, which we do principally through CRS, as you know, 
experts from which last year delivered 800,000 answers to 
congressional inquiries on topics on all these subjects.
    The unique global resources also play an important role. 
One of our Middle Eastern experts in 2002 discovered and 
translated a rare 1991 autobiography of Osama bin Laden, which 
contained a number of the names of his cohorts. This report was 
made available to Congress and to the government agencies and 
is now available for research in our African and Middle Eastern 
reading room.
    Our Law Library, which has the largest collection of 
Afghanistan's laws in the world, helped to reassemble that 
country's laws, most of which were destroyed by the Taliban. 
The Law Library found a unique two-volume English translation 
of these laws that was unavailable elsewhere. The reconstructed 
set was distributed to 1,000 institutions in Afghanistan.
    Our Federal Research Division's study on the sociology and 
psychology of terrorism was commissioned in 1999 by the 
National Intelligence Council, and 2 years before 9/11 noted 
that members of al Qaeda could, conceivably, crash an aircraft 
into the Pentagon, CIA headquarters, or the White House, and so 
forth. The report is now available on our Web site.
    Our new National Plan for Digital Preservation, approved by 
the Congress last December, establishes an approach for the 
capture and preservation of important web sites, particularly 
those that will be important to the Congress, as authenticated 
by CRS. They relate to crucial contemporary issues of urgent 
importance to the Congress. So, we are taking the lead on 
acquiring and preserving this digital material and forming a 
national plan for a distributed way of preserving this.

                 LIBRARY OF CONGRESS FUNDING PRIORITIES

    We will be asking, I think, for legislation to adapt the 
mandatory deposit requirement of the Copyright Act to permit 
more efficient deposit of online material. There is a great 
danger that we are going to lose a lot of this. So that is on 
track.
    Most of our requested increase is for mandatory pay raises 
and unavoidable price increases. Additional fiscal year 2004 
budget resources are also needed for managing our growing 
collections and incorporating the changing technology into our 
overall operations. We are not seeking support for any new 
functions in this year, but simply for the resources needed to 
perform the historic business of acquiring, preserving and 
making accessible knowledge of the new forms in which it is 
being generated.
    We do need additional funds, mainly to improve physical 
security and support collections security and management, 
including this new Audiovisual Center--the carrying cost, the 
basic purchase, has been largely subsidized by a generous 
private donation; and for supporting Copyright Office's 
reengineering efforts, and enhancing access to Congressional 
Research Service products and increasing CRS research capacity 
in areas that are of critical importance.
    The requested funding will support, as we have indicated, 
4,365 full-time FTE positions, which is an increase of 124 
FTE's over last year. But that is still 184 fewer FTE's than we 
had in 1992 before the explosion of the Internet, before the 
subsequent growth of our collections, and the large-scale 
security measures of recent years. We would be happy to answer 
any questions.

                 RUSSIAN LEADERSHIP PROGRAM--OPEN WORLD

    Mr. Tiahrt [presiding]. Very good. Thank you, Dr. 
Billington.
    The Chairman is going to be out for a vote and then come 
back. Mr. Moran, do you have any questions at this time?
    Mr. Moran. I see you have a new line item, Mr. Librarian--I 
guess that is the way to refer to you--I call you Jim, but I 
think in this formal setting Mr. Librarian, my question is on 
the Russian Leadership Program. What you have done is pull 
money from other parts of the budget to show it as a discrete 
activity, but it is something that I know Mr. Taylor 
particularly has been very supportive of.
    I wanted to ask if you have got any new initiatives, a plan 
in terms of cultural exchanges? I understand that you have been 
raising philanthropic donations as well. So I thought you might 
want to put that in the record.
    Dr. Billington. Yes. Technically the Russian program, now 
called Open World, is a separate item. It is a separate entity 
from the Library, although much of the administrative overhead 
is carried by the Library. And I do serve as Chairman of the 
Board. The program has been increased slightly and given new 
functions for this coming year, including the addition of 
cultural leaders to the more than 6,250 emerging young 
political leaders we have brought from Russia.
    It is an extraordinarily successful program. The 
participants have come from all 89 parts of the Russian 
Federation. They have been in all 50 States and territories of 
the U.S. And two elements are new this year: one, to add 
cultural leaders. This is very important, and this was an issue 
that I know Congressman Taylor and you have both been 
interested in. I think it is very important, and we will 
earmark a definite amount for that. Second is to explore on a 
pilot basis possibly two other parts of the former Soviet 
Union, and the Baltic Republics to see if the successes of Open 
World can be extended. The average age of participants is 38. 
They are all people who have done something to demonstrate 
leadership, and we are pleased that Congress is expanding it to 
include the cultural field and also to conduct pilots in two 
other areas. I think the Board will probably have to determine 
exactly where the pilots will be, but if this Committee has any 
thoughts or suggestions, those would be very valuable as well.

                       PRIVATE FUNDING OPEN WORLD

    Mr. Moran. I know you have made extraordinary efforts to 
raise charitable donations in support of the Library, private 
sector support, and, Mr. Chairman, when Mr. Taylor was 
Chairman, he encouraged that. And this was kind of an 
initiative on Mr. Taylor's part, as well as the interested 
Russian cultural and education exchanges.
    How much, Mr. Librarian, roughly have you raised from the 
private sector?
    Dr. Billington. Well, we have raised something over $2 
million, actually, from the Russian private sector, which is 
very rare. We have raised major funds from two very prominent 
Russian philanthropists and are also in the process of forming 
an advisory group that will involve some American donations. We 
are very hopeful that we will have the funds as well on the 
American side.
    So, at the moment it is an unusual combination, Mr. 
Chairman. You have on the one hand American public money. On 
the other hand you have Russian private money. I think the 
return in terms of numbers and in terms of satisfaction has 
been good. These people are active alumni in Russia. They have 
introduced a lot of the setup--we are especially emphasizing 
the rule of law, because if we are going to develop economic 
contacts, there have to be dependable, enforceable, laws--we 
sort of take that for granted. It is being institutionalized 
over there. So there are many people who have hosted in 
communities all throughout America--800 to date. The American 
commitment is something new that has developed out of the 
program.
    So I think it has been a very successful congressional 
initiative and a very unique thing, and I could talk more about 
that, but that is, again, not technically a part of the 
Library's request.
    Mr. Moran. But you are introducing a lot of your own 
overhead to move that along----.
    Dr. Billington. Yes.
    Mr. Moran [continuing]. I understand, and you are going to 
be taking a kind of shepherding role there. So I thought it 
would be useful to bring it out, because Mr. Taylor has made a 
believer of me that it is something that has accomplished an 
awful lot of good.

        CONGRESSIONAL RESEARCH SERVICE (CRS)--RETENTION PROGRAM

    I just had one other question, Mr. Chairman, and Mr. 
Mulhollan may want to respond to this. You have got a major 
personnel problem, a lot of people retiring, a lot of people 
who don't necessarily have the technological background that 
you are now requiring. Have things like the Student Loan 
Forgiveness Program and others been of assistance in getting 
the technologically adept people that you need onto the Library 
workforce?
    Dan, do you want to respond?
    Mr. Mulhollan. Of course the need for technological skills 
run across the agency. For CRS, actually, we have been doing a 
very good job on the recruitment end, and what is before the 
Committee is a retention program. General personnel literature 
holds that if you can keep new employees for at least 3 years, 
you will have a good chance of keeping them for the long term. 
What we have tried to do is ask for a retention program package 
which contains a pilot student loan program.
    We surveyed staff who have come to CRS within the last 3 
years, and 70 percent of them have outstanding student loan 
debt averaging about $33,000. One of the new initiatives that 
we are proposing as part of our one-year pilot is a $3,500 loan 
repayment.
    What we are also trying to do as part of the retention 
package with regard to training and technological buildup, is a 
modest increase of 10 percent in training and staff 
development. CRS--and I believe it is also true of the rest of 
the Library--we are investing about one-half of what Federal 
agencies are spending per employee for training. CRS' greatest 
asset for the Congress is our staff, our expertise. They have 
to keep up with their discipline, whether it is econometric 
models or new methodologies on a social stratus series or 
whatever the case may be. So that training, that on-going 
professional development, is very important. I believe we are 
asking for a modest increase within that context.
    Mr. Moran. Sure. Same thing would apply to legal expertise 
that we talked about with the Office of Legislative Counsel. We 
are trying to compete with the private sector, which pays a lot 
more and has better benefits.
    Mr. Mulhollan. And the economists as well.
    Mr. Moran. That is true.
    Well, thank you. I don't have any more questions at this 
time.
    Thanks, Mr. Chairman.
    Mr. Kingston. I ask that you respond to some questions for 
the record concerning staff attrition and the student loan 
program.
    [The questions and responses follow:]

         Congressional Research Service--Attrition of 50 Staff

    Question. You anticipate losing more than 50 staff during FY 2003. 
What is the reason for the reduction? How does this compare to other 
years? Is this your normal attrition rate?
    Answer. The loss of staff referred to is not a reduction per se, 
rather it is normal attrition through retirements, resignations, 
deaths, and all other categories of staff separations.
    Each year in the late summer, the Congressional Research Service 
(CRS) conducts a retirement survey of all staff who are eligible to 
retire in the upcoming five-year window. The results of that survey are 
used to perform a Risk Assessment. The results of the survey and 
assessment are presented to the CRS research managers (executive 
council) at their annual business and planning meeting--held in 
October. Our most recent Risk Assessments were completed in fiscal 
years 1999, 2001, and 2002.
    The annual survey and resulting assessment:
          <bullet> helps CRS to anticipate staff losses via 
        retirement--fairly reliably--for the upcoming two to three 
        years;
          <bullet> identifies subject and issue areas that could be at 
        risk based upon the information about known/declared staff 
        retirements;
          <bullet> helps CRS to determine the number and level of 
        expertise needed to maintain capacity by issue area;
          <bullet> helps CRS to integrate succession planning concepts 
        and transition staffing into our normal workforce management 
        activities; and
          <bullet> serves as a primary source of information for our 
        annual staffing plan. The CRS annual staffing plan is a 
        specific list of positions--in a time-line format--that aligns 
        the CRS internal capacity for Human Resource (HR) activities 
        (job analysis, recruitment, etc) with the planned staffing 
        needs of the organization for each fiscal year.
    Between fiscal years 2000 and 2002, CRS projected to lose 
approximately 56 staff to retirements based upon the survey results. 
CRS actually lost 52 staff to retirements; CRS attributes the slight 
difference to the slow economy and a general tendency to postpone 
retirement during times of fiscal uncertainty. In recent years, the 
number of staff retirements projected from the risk assessment has 
tracked closely to the number who actually retired.
    In FY 2003, CRS projects losing about 35 staff to retirement. ``All 
Other'' attrition (resignations, etc.) consistently averages about 20 
per year--for a total of 55 staff separations. Based upon our 2002 Risk 
Assessment, CRS projects losing approximately 36 staff to retirement in 
FY 2004--and approximately 41 in FY 2005. Adding in the annual average 
``All Other'' category--CRS projects losing about 56 in FY 2003 and 
another 61 in FY 2005. Our FY 2004 narrative stated a conservative 
``50.''
    The majority of staff losses will be among the research and 
analytic staff. Given the average age of CRS staff, CRS expects this 
number to continue to increase over the next few years--giving 
increased value to its risk assessment activity and to our annual 
planning process to ensure that CRS has the capacity to meet the 
changing needs of the Congress.

                  Student Loan Repayment Pilot Project

    Question. CRS is proposing to pilot a Library of Congress program 
that reduces the student loan debt of a majority of its recent hires. 
You have requested $535,000 for this program. How many employees will 
receive benefits from this level of funding? You are also requesting an 
increase in your current base for training, travel, and incentive 
awards. What is the current base for each of these categories?
    Answer. The Student Loan Repayment Pilot portion of the FY 2004 
request is $412K and is estimated to cover 116 employees with an award 
amount of approximately $3.5K each. A recent review of newly hired 
graduates revealed that about 70 percent have outstanding student 
loans, and that those loans average about $33K. The Congressional 
Research Service (CRS) plans to limit eligibility for this benefit to 
no more than 70 percent of research and computer specialist staff hired 
over the last three years. In addition, CRS plans to offer the benefit 
to up to 20 other incumbents in selected at-risk positions, with more 
than three years of service, whose loss would seriously impair the 
Service's ability to serve the Congress effectively.
    The CRS FY 2003 Operating Plan includes a budget base for training 
of $368K, for travel of $303K, and for incentive awards of $558K.

                       STATEMENT ON CRS' SERVICES

    Mr. Kingston. Mr. Tiahrt, do you have a statement or 
questions at this time?
    Mr. Tiahrt. Thank you, Mr. Chairman.
    First, Dr. Billington, I want to say you have done an 
outstanding job running one of our nation's most interesting 
institutions. I think you have done a tremendous job getting 
people to visit the Library of Congress, and I want to thank 
you for opening up the Great Hall for outside events. I know it 
is a security problem, and it is difficult; but when we have 
events in the Great Hall, I think it is the best place we can 
have them in Washington.
    I also want to comment on the Congressional Research 
Service. The CRS Staff has really done a good job helping me 
extend my staff, and I would be remiss if I didn't comment. I 
keep throwing curve balls, trying to give them new things to 
research; and they amaze me how they have responded in a great, 
technical fashion to meet my needs. CRS keeps hitting my curve 
balls out of the park.

                       DIGITAL FUTURE INITIATIVE

    This digitization of the Library, if 100 percent was your 
``all done,'' what percentage are you at now?
    Dr. Billington. Well, we have 126 million artifactual items 
in the Library. We have 8 million items of American history and 
culture on-line. That is the educational part of our National 
Digital Library. We are adding to that the Global Gateway, 
which is a group of joint projects with the national libraries 
of Russia, Spain, Brazil and Holland and probably more to 
follow.
    But as far as the Library itself is concerned, we have, of 
course, our entire catalog, a total of 75 million records on-
line. However, that is still only a small percentage of 126 
million.
    We don't, by in large, digitize books, because books are 
more broadly available. The point of our digitization program 
is to bring things to libraries and schools around America that 
they won't have in an ordinary library. This is inspirational 
as well as educational. But it is still a small percentage of 
the Library.
    We also have another program where somebody has offered to 
digitize some of our books, and we are adding to that all the 
time. But it is always going to be a small percentage because 
we get several million new items every year--the majority of 
which are not in English. We have the largest English language 
library in the world, but we also have the largest Arabic 
language library in the world.
    Frankly, one of my concerns, Mr. Chairman, is that this is 
a city where everyone tends to talk and nobody tends to read. 
There is a tremendous amount we can learn about all kinds of 
areas that are of increasing importance to us for our 
international economic competitiveness as well as for our 
security interests if people would read more.
    We have six overseas offices, Islamabad, Jakarta, Nairobi, 
Cairo, Rio de Janeiro, and New Delhi--places of great 
importance. So there is a tremendous resource there. But things 
that we have digitized mainly are things like our catalog or 
like the Thomas system, which is a basic source of information 
about the Congress that is available. But it is only a small 
percentage of the total collections in the Library, and it is 
heavily skewed towards those things that most people are going 
to want in America, particularly for educational purposes. The 
Library of Congress Web site is a very valuable educational 
tool, and we have trained a certain number of teachers and 
librarians in the use of this for education and also for 
learning more about American history directly.
    There is an excitement about seeing the varying drafts of 
the Gettysburg Address; or Jefferson's draft of the Declaration 
of Independence, or zooming in on a panoramic photograph of an 
American city, whether it was 1880 or 1990--pictures that were 
taken from balloons with wide-angle lenses or the early Edison 
movies--the first movies ever made. So the quality is very high 
but the quantity of digitized items from the overall 
collections is still relatively small.
    Mr. Tiahrt. I presume this will be an ongoing process, and 
you are going to focus on the areas that have a particular 
educational application.
    Dr. Billington. Yes, this is an ongoing process. In 
addition to which we now have this special commission for the 
Congress, incidentally, for which the funds have already been 
appropriated and it is on track, to gather in and form a 
national policy so that we will be able to answer the questions 
that you are going to be asking which can only be answered from 
digital information.
    There is a danger. More and more of this material is 
available only in digital form; and, as I said, the technology 
keeps changing. So, we are in danger of not being able, as well 
as we could do with artifactual things, to have this digital 
material in the future.
    That is going to be a distributed task. We are not going to 
do it all. We are forming the plan. We have had great 
cooperation in the private sector.
    Do you have a copy of the report that was actually approved 
by the five different committees of the Congress that looked at 
this at the end of this last year?
    So, we are into the second phase. We are developing the 
technological architecture and the web of involvement in the 
private sector and other repositories to enable the digital 
material to be available.
    Mr. Kingston. We are going to need to suspend for probably 
15 minutes at a minimum. I dislike making you linger, but the 
Members probably want to at least have the option of knowing 
that you are still here. We have three more votes, so we will 
be back in about 15 minutes.

                       WEST POINT DIGITAL PROGRAM

    Mr. Taylor [presiding]. I have at least 15 minutes.
    I return to the days of yesteryear--General Scott and the 
whole staff--I certainly appreciate the work that you do, all 
of you.
    For the record--and I am sorry my fellow Members aren't 
here--you are digitizing in West Point, and I know I have heard 
a lot of good things at West Point about that. Could you tell 
us a little bit about it?
    General Scott. We have been in contact with the 
superintendent's office, and we have sent people from our IT 
office to West Point to assist them in educating their people 
on the digitization process.
    We have also been consulting with them on how they can make 
their digital resources available to the cadets at West Point.
    The latest information I have is that the project is on 
schedule and that they have increased the use of digital 
resources in the libraries.
    Mr. Taylor. I know the work in the Library is already 
available. Are the students going to be using it? I need 
clarification. The digitization applies not simply to books, 
but all the repertoire I can imagine--maps, films, and the 
like. It is especially important in West Point, where they have 
a wonderful collection.
    General Scott. Yes.

                 DIGITIZATION FOR EDUCATIONAL PURPOSES

    Mr. Taylor. Do you estimate roughly 20 million items will 
need to be digitized for the educational area, Dr. Billington? 
Is that too great or too small of a number?
    Dr. Billington. I think it is hard to say. I think this is 
a continuing process: what we select and the numbers we select 
will be heavily influenced by the sort of returns we get from 
teachers and librarians and people using this. When you have 
exotic things in foreign languages that will only be usable by 
a few numbers of people, it doesn't seem economically feasible 
to put them up on the Web.
    A lot of the utility, a lot of the importance for the 
country is that the Library of Congress collects a lot of 
things in a lot of languages. You are quite right, that strong 
emphasis on the multimedial things is important, because when 
you are doing it for educational purposes, you are trying to 
reach a generation that is in the audiovisual modes of 
perception but not getting as much content.
    So I would think, ultimately, we would hope to have as much 
as we can get out and as much as there is demand for it. 
Probably 20 million is a good figure. We are well beyond 8 
million. We may ultimately go up even higher than that, but I 
don't think it will ever be sensible to talk, as some people 
do, about the entire Library of Congress being digitized.
    Mr. Taylor. Exactly. As you know, North Carolina and South 
Carolina have a pilot program in the areas working with 
teachers to educate them on the Web and what is available, and 
then working with them to obtain the maximum utilization.
    I was asked to visit one school about a week ago on what 
they call Jefferson Day. They had pulled down from the Web a 
number of things about Jefferson's life and built a Monticello 
model that an architect would have been proud of. They laid out 
the grounds from what they found on the Web and/or what they 
found at the library. They had papers; they had a variety of 
information concerning the phases of his life; they had proper 
code. This group--and these students were only up to the 12th 
grade for the most part--were extraordinarly well educated 
about Jefferson. It all came from the Library of Congress Web 
site.
    Of course, in December, when we took a tour, we visited 
schools where the 10th grade produced papers.
    Operation Barbarosa, for instance, was one 10th grader's 
project. He not only had the picture starting the war, he had 
the battlefield laid out and he had the opposing generals, 
complete with their background and what they accomplished. He 
finally proceeded to talk about the battle itself.
    In the 10th grade, I had not yet discovered what Operation 
Barbarosa was.
    Mr. Moran. I still don't. What was it?
    Mr. Taylor. The beginning of the war with Germany and 
Russia, which became the invasion of Russia. Of course, we know 
about Stalingrad, but not the rest. These were sophomores in 
high school.
    They completed a variety of other papers on the Depression 
and other assorted topics, and so forth. I cannot believe they 
would have been able to do that with the textbook they had and 
the limited library that they had accessible, without the aid 
of this program.
    Dr. Billington. That is a good example, and I think it is 
true. It is very important that this goes into libraries and 
into schools where there are books, because it is important not 
to create the illusion that you can get everything. You have 
got to have a good teacher and you have got to have books as 
well. So it can be stimulus, but it is not the all-consuming 
answer.
    The Operation Barbarosa was delayed for 12 days because the 
Serbs rose up and fought Hitler in the spring of 1941 when 
nobody else was. If more people had known that, we would have 
had a better appreciation of the Balkan crisis. That is one of 
the reasons we have this Russian Leadership Program.
    I was asked by some Congressmen and I was explaining Russia 
and wasn't explaining it very well. Because they know if Hitler 
got 12 more days--and the various tanks froze on December 6, 
the day before Pearl Harbor--he had 12 more days to have taken 
Moscow, and they might have even won the war.
    We need to learn more about history, and it is a very good 
way to get interested. You have got to have good teachers and 
have books as well. So locating it in libraries and schools has 
been one of the strengths of the program you are talking about.

                       LIBRARY'S LEARNING CENTER

    Mr. Taylor. We found this program goes to public schools, 
charter schools, private schools, home schooling, and home 
schoolers. We found differing degrees of excitement, but the 
better ones obviously make the most of it. Do you have any 
ideas concerning how we could excite the other schools, whether 
it be charter, public or private? Can the Library make 
suggestions concerning how this Committee could make it more 
meaningful across the districts we are representing?
    Dr. Billington. I will be testifying tomorrow on the Senate 
Committee chaired by Mr. Alexander, who is considering having a 
network of training institutes for teachers around the country. 
That would help a lot.
    It is the training of teachers. We trained, with some 
private grants that we got for it, about 300 expert teachers 
and librarians. I think the kids tend to be ahead of many of 
the teachers because they have been living in the computer 
world. I think training of teachers is probably the most 
important single thing.
    We have a very good learning center here which, if people 
can come to Washington, we would give them a day or a half day 
of training. But it needs to be done in a much more dramatic 
and national scale.
    Mr. Taylor. When I was Chair I talked to the Smithsonian 
among others and, of course, Archives. We run the danger of 
everybody trying to make the bill over again, because you have 
said you are the Library of Congress and you have the 
resources. I believe the Smithsonian has resources and Archives 
has resources and Library of Congress has much more, and there 
is no reason to bill that administratively. Is there a possible 
way we can come together to avoid costs and still obtain 
maximum results?
    Dr. Billington. I think it is an excellent idea. We have 
already brought in 36 other institutions. We have raised some 
private money to have a national competition, but that was 
specifically the donors and not the governmental institutions.
    It is good to have it on one standard, and I think they 
will benefit from our experience because we have it now down to 
a pretty good science, shaking the bugs out of it. It would be 
good to have it on one system and at least have a distinct 
presence of their own but have it interoperable.
    We are trying to do that on the other side, material coming 
in as well as going out, to try to get uniform architecture. I 
think this would be an economy for the government to do it on 
one platform--whenever you call in the consultants, they tell 
you, don't get all these different smokestacks. We already 
have, with a lot of other repositories around the country, 
including some very small ones, just wonderful stuff.
    Mr. Taylor. Perhaps we could sit down and talk with Norm 
and Ernest about Archives to see if we could have an Advisory 
Committee work together so we don't dissipate our resources. I 
think you are going to need more resources in that area. Mr. 
Moran, do you have any questions?
    Mr. Moran. This is a subsequent vote, and we have only got 
1 minute. I have raised my questions already, and I am all set.
    Mr. Taylor. I am going to stay another minute, and then we 
will have to go into recess unless Chairman Kingston is back.
    Well, for the record, I would like to suggest for our 
Members who aren't here because of the vote, that we take more 
pleasure with what is available in the Library of Congress and 
whenever you have events, that we try to be there to both 
support and at the same time work with, and learn from, the 
multitude of things you do.
    Mr. Kingston. You did a great job, Mr. Chairman. It is 
almost as if you have done this for years.
    Mr. Taylor. Thank you.

                             POLICE MERGER

    Mr. Kingston [presiding]. I wanted to ask you a question 
about the police force merger. In your situation, how many 
police officers do you have?
    General Scott. We have 131 police officers.
    Mr. Kingston. Of those, how many are on what you would 
consider the more critical positions? Of 131, some are probably 
in more secure or less vulnerable positions, and I know they 
could be critical.
    General Scott. One of the unique differences in our police 
officers' responsibilities are that not only are they concerned 
about people bringing in weapons and possible contaminants in 
the building but what they are equally concerned with are what 
people take out of the building.
    All of our positions are critical because every entrance 
and exit are possible avenues in which people could remove 
items. The protection of the collections is the centerpiece of 
our police and our security functions.
    Mr. Kingston. In between the Cannon Building and the 
Library there is a guard, and that position can't be as 
critical as the person who is at the front door of the 
Jefferson, because the people who have walked through the 
Cannon/Library entrance have been screened by others. Is that a 
fair statement?
    General Scott. I would say that is a fair statement, on 
that particular post, because it is a one-of-a-kind post. 
However, the other positions, as I said, are open to the 
public.
    Mr. Kingston. I was wondering if you had similar interior-
post-type, second-level-of-defense positions of the 160 
officers.
    General Scott. I would defer to our Director of Security.
    With your permission, this is Kenneth Lopez, our Director 
of Security.
    Mr. Lopez. The way we are set up is in a tiered system.
    As General Scott mentioned, our critical posts are at the 
perimeter and they perform an entry inspection. They also 
perform the exit inspections.
    Our second layer, we do with contract guard forces like we 
have in the reading rooms, and those are non-law enforcement 
positions. So all the critical resources are on the perimeter, 
including the Cannon tunnel. That is an exit inspection post, 
which is critical to the collections security function.
    You are right. People are screened coming into the 
building.
    Mr. Kingston. So the number was 160 police officers.
    Mr. Lopez. One hundred thirty-one.
    Mr. Kingston. Generally speaking then, 90 percent of those 
are on perimeter?
    Mr. Lopez. I would say more like 75 percent. The others are 
involved in 24-hour communication center watch and roving 
patrols. Probably 75 percent to 80 percent are dedicated to the 
perimeter security function, which includes the building 
entrances and the exits. So the predominance of our force is in 
that function.
    Mr. Kingston. Do you support merging with United States 
Capitol Police?
    Mr. Lopez. It speaks a lot to--in terms of uniformity. But 
I think the Librarian has stated clearly he has some concerns 
about ensuring what is critical to the Library is in fact 
addressed, such as the collection security aspect, because that 
is unique to the Library. No doubt that the Capitol Police can 
do the job that needs to be done, but it revolves back to those 
unique concerns and responsibilities of the Library.
    General Scott. If I could pick up on supporting the merger. 
We certainly recognize the value and we do support making sure 
we have a seamless police force that protects all of Capitol 
Hill.
    We have identified four principles that we believe are very 
important in this merger. The first is that the Librarian has 
statutory authority to make rules and ensure that the 
collections, people and property of the Library are secure. We 
want to ensure that the Librarian has the resources available 
to provide whatever is needed to protect the people, the 
collections, and buildings, that he has resources to do that.
    The second principle is that the Librarian has a budget 
from which he could resource the police.
    Third, we would want to make sure, too, that this force 
during normal day-to-day operations would be responsive to the 
Librarian's directive and oversight.
    And the fourth principle requires that during this 
transfer, our police officers be treated fairly.
    I have spoken with Chief Gainer and he is aware of these 
four principles, as we call them. I believe that he has an open 
mind to our interest protecting the Librarian's statutory 
responsibilities as well as strengthening the overall support 
for the security of the Capitol complex.
    Mr. Kingston. What we would be interested in is making sure 
that this doesn't increase the budget, by taking two groups and 
ending up with a bigger force than we have individually right 
now. It seems like whenever the Federal Government does 
something that the taxpayers usually end up being the loser, 
and that is a big concern of mine.

                       PUBLIC ADDRESS (PA) SYSTEM

    Dr. Billington, you said earlier if your budget increased, 
minus the supplemental security numbers, that the percentage 
would not be an 8.9 percent increase.
    Dr. Billington. It was an 8.4 increase--5.5 percent.
    Mr. Kingston. Is that the $4.9 million that you are talking 
about in the supplemental?
    General Scott. $7.4 million.
    Dr. Billington. Takes it down to 5.5 percent.
    Mr. Kingston. Excuse me. What is in the supplemental? I 
thought it was 4.9.
    Dr. Billington. 5.5.
    Mr. Kingston. Didn't that go to the Annunciators?
    Dr. Billington. Yes, the PA system. 5.5.
    Mr. Kingston. Isn't that what the Sergeant at Arms calls an 
Annunciator?
    Mr. Lopez. The Annunciator system is an interim measure 
until the PA system is hard-wired.
    Mr. Kingston. So you won't get the Annunciators. You are 
going straight to the PA. Consequently, the budget increase in 
your request isn't that 8.9 percent. It is the 5.5 percent.
    Dr. Billington. 5.5, if the Supplemental goes through.
    Mr. Kingston. I just wanted to clarify.
    Dr. Billington. 29.9 would be the net increase.

                    LIBRARY OF CONGRESS POLICE FORCE

    Mr. Taylor. The Library of Congress has a separate police 
force, and the Archives has a separate police force. If you 
aren't going to join everybody, why join the Library of 
Congress?
    That is a question I impose to anyone here.
    General Scott. This was proposed, I believe, by the Senate 
Appropriations Committee at least 2 years back. After the 9/11 
attack, the Capitol complex was extended to include all the 
buildings here on Capitol Hill, including the Library of 
Congress buildings.
    So the thinking was, if there was one police force that was 
under the command and control of the Capitol during an 
emergency attack, you would have a greater chance of 
coordinating emergency preparedness operations.
    Mr. Taylor. Are they planning to merge the Supreme Court as 
well?
    General Scott. I can't speak to that.
    Mr. Taylor. When that happens, we will probably merge at 
the same time.
    Mr. Kingston. Who does your security in Nairobi?
    Mr. Lopez. We rely on the State Department. They provide 
all the security on the compound.
    Mr. Kingston. If I go over there and grab a book, who is 
going to arrest me? Your police have arrest power.
    Mr. Lopez. We don't have a security force there. Certainly 
in the compound, the individuals who operate our site there, 
the U.S. Library person and the foreign nationals, they have to 
establish controls to keep that from happening. On the embassy 
grounds, they would exercise the same controls. That is 
internal.
    Mr. Kingston. If I steal a book in Washington, who arrests 
me?
    Mr. Lopez. If there is an attempt to take a book or 
material from the Library, then certainly the Library police 
would have the authority to make the arrest if they determine 
the intent was to steal the book.
    Mr. Kingston. What if I am off premises? Do you have arrest 
power off premises?
    Mr. Lopez. No, sir. But when things like that happen--and 
we have had situations where there has been material in the 
possession of either patrons or sometimes an employee--then we 
would use the jurisdiction that is off site, either FBI or 
local police department.
    Mr. Moran. Mr. Chairman, can I just clarify with Mr. Lopez 
that your police function is to profect your resources within 
the Library to prevent stealing, primarily. The Capitol Police 
function is to prevent unlawful activity from getting into the 
Library. That is the situation. The training is different. You 
do incidental stuff, but the primary responsibility is to 
prevent stealing from things going out of the Library, where 
the Capitol Police function is to prevent unlawful activity 
going into the Library.
    Mr. Lopez. We have a dual responsibility.
    Dr. Billington. It isn't just stealing. There is mutilation 
and vandalism. Some people decide to mutilate books or to 
vandalize and cut things out.
    Mr. Kingston. What if you hit somebody on the premises? Do 
you have arrest powers?
    Mr. Lopez. On the Library grounds.
    Mr. Kingston I have some questions that I will submit for 
you to answer for the record.
    [The questions and responses follow:]

                   Basis for Police Officers Request

    Question. You are requesting 54 FTE's at a cost of $4.38 million 
dollars for new police officers. Has the library conducted a person 
power study to determine if this is the correct number of people 
required to perform your security work?
    Answer. Yes, the Library has completed a staffing analysis showing 
a post by post listing of all current and FY 2004/2005 police staffing 
requirements. The staffing analysis for each post includes evaluating 
factors such as whether a building entrance is for public, staff, or 
special function use, such as for researchers; required hours of 
operation; peak periods of pedestrian or vehicular traffic; operation 
of security equipment (e.g., x-ray machines, metal detectors, theft 
detection gates, pop-up vehicle barriers, security camera monitors); 
and the minimum number of personnel required to ensure officer safety.

                 Impact of Additional Duties on Police

    Question. It is stated that additional staffing requirements 
created several problems in FY 2002 including, excessive police 
overtime, erosion of officer and staff safety, curtailment of interior/
exterior roving patrols, low police moral, and increased complaints. 
For the record provide specific examples of each of the points 
outlined.
    Answer. During FY 2002, Library police met heightened security 
staffing levels by requiring police officers to work additional 
overtime, averaging 20 to 25 percent above the normal 40 hours 
workweek. The extended period of overtime resulted in frequent 
cancellation of officers' scheduled annual leave, excessive fatigue, 
and a diminishment of officer alertness. Officer and staff safety was 
continuously compromised when building entrances were frequently 
staffed below the minimum level of personnel. Interior and exterior 
roving patrols were reduced by 50 percent in order to shift resources 
to critical fixed posts. Reduction of roving patrols significantly 
lessened response time for police emergency services and jeopardized 
collections storage areas vulnerable to water leaks and other hazards. 
Excessive overtime resulted in an increase of the number of police 
grievances and sick leave call-ins, which further exacerbated overtime 
requirements.

                       Basis for ``Police'' Hours

    Question. Explain how you get 1,572 available hours per officer per 
year when, for pay purposes, your base is in excess of 2,000 hours?
    Answer. The base number of hours per year for an officer is 80 
hours per pay period <greek-e> 26 pay periods = 2080 hours. From the 
2080 base, the Library subtracts:
          <bullet> 104 hours of sick leave (four hours per pay period)
          <bullet> 208 hours annual leave (8 hours per pay period)
          <bullet> 80 hours of holidays (10 holidays)
          <bullet> 116 hours of training
    It is understood that not all officers will use all of their leave, 
but factoring in the full amount of leave available covers officers not 
available for duty for medical and other reasons. It also covers 
miscellaneous uses of leave, including military leave and court leave.

              Office of Security--Additional Travel Costs

    Question. What is the need for $57 thousand for mandatory travel?
    Answer. All new Library police officers are required to attend 10 
weeks of basic police training at the Federal Law Enforcement Training 
Centers in either Georgia or New Mexico. The cost varies depending on 
the training site location and the transportation mode (airline or 
private vehicle). The Library requested $57K to cover the cost of 
sending each new officer to this mandatory training, most of which has 
recently been conducted at the New Mexico training site.

             Office of Security--Program Management Section

    Question. The Security Office is requesting $26 million dollars for 
FY 2004. Within this organization you have a Program Management 
Section. What are the annual operating costs of this office and how 
many FTE's are assigned to this function?
    Answer. The Program Management Section consists of one GS 13 
Program Specialist, two GS 12 Program Specialists, and one GS 9 
Secretary. The current annual operating cost of this function 
(salaries) is $256 thousand.

 Office of Security--Enhanced Communications With Enforcement Agencies

    Question. One of the accomplishments during FY 2002 was the Office 
of Security and Emergency Preparedness took the lead in coordinating 
enhanced communications between the Library and the U.S. Capitol Police 
and other law enforcement agencies. What were the enhanced 
communications? What other law enforcement agencies did the Library 
deal with?
    Answer. The Library is installing in its new Police Communications 
Center a computer enhanced radio/telephone ORBACOM system that is 
compatible with systems operating in the U.S. Capitol Police (USCP) 
Communications Center. The new ORBACOM system will provide the 
capability for direct radio communications between the two police 
departments. The Library is further enhancing its emergency 
communications capability by installing video teleconferencing and 
secure communication systems in its new Emergency Management Center. 
These systems will provide additional linkages to the USCP emergency 
command center as well as to other local government law enforcement and 
emergency management centers. The Library has coordinated with the U.S. 
Secret Service and the Federal Bureau of Investigation in the 
development of its emergency communications systems design and 
configuration.

           Medical Emergency Coordinator vs Library Physician

    Question. What is the difference between the duties of your Medical 
Emergency Coordinator and your Library Physician?
    Answer. The Library Physician oversees and administers the 
Library's Occupational Medicine and Health Services Program, which 
serves over 4,300 employees and one million visitors per year. The 
Physician is the pre-eminent authority for synthesizing the evidence 
base of medical data and communicating up-to-date medical decisions to 
the Library community, under all circumstances. The duties of the 
Medical Emergency Coordinator are a subset of the duties of the Library 
physician.
    The Physician supervises clinical care; develops protocols; 
establishes guidelines for equipment maintenance; approves emergency 
mass casualty and other specialized protocols, e.g. Emergency Support 
Functions (ESFs); ensures availability of medical personnel; implements 
Quality Assurance review of Medical Emergency Program and of overall 
health services program management; is the licensed professional under 
whose prescriptive authority the agency is able to acquire medications, 
emergency and other equipment, including Automatic External 
Defibrillators (AEDs), and sera for immunizations, enforces security of 
medications, equipment and other resources; selects refresher programs 
and training for medical personnel; and oversees the activities of team 
members in emergency response. In addition, the physician carries out 
strategic planning and operational research, participates in disaster 
planning and emergency operations efforts, analyzes data, interprets 
and disseminates the information to support the Library Task Force on 
Mail Solutions, and Interagency working group on Employee Health and 
Safety and represents the Library in the medical community.
    The scope of Emergency Medical Preparedness at the Library of 
Congress was relatively narrow prior to September 11, 2001. Thus, its 
coordination and administration was a relatively small component of the 
overall health services program. The scope of the Library's Emergency 
Preparedness Program expanded dramatically following the terrorist 
attacks on the World Trade Center and Pentagon, and the anthrax attack 
on Congress. The associated roles and responsibilities of the expansion 
have been added to the physician's portfolio, due to the on-going 
heightened state of national security, the Library's close proximity to 
the Capitol and Congress, and the Library's Health Services Office new 
mandate of being an Emergency Response Provider under the Homeland 
Security Act of 2002.
    A full-time Emergency Medical Coordinator is required to act under 
the direction and guidance of the physician to support the larger and 
expanded roles and responsibilities. The Coordinator will assist the 
Physician in meeting the mission of protecting employees, in ensuring 
them an appropriate level of care, and in decreasing risks and 
liability for the agency. Specifically, the Coordinator's tasks will 
include . . . Augmentation of clinical services and response, Disease 
tracking and research, Retrieval of data for the physician's analysis 
and interpretation, Staff education, conduct of medical field 
exercises/drills, obtaining/maintaining equipment and supplies as 
directed by the physician, coordination, administration and management 
of public access AED program, in accordance with guidelines established 
by the physician, event documentation and Support, attendance as 
designated by the physician at meetings, seminars, training and 
briefings internally with the Office of Security and Emergency 
Preparedness, and externally with community Emergency Management 
Agencies and Emergency Operations centers and any other office related 
to medical emergency preparedness, Homeland Security and National 
Defense.
    The duties of the Medical Emergency Coordinator are an important 
adjunct to the duties of the Library physician. The position requires a 
person with a medical background but does not rise to the level of a 
physician. As the Library learned in the Anthrax attack and September 
11, the management of these emergency situations require a great deal 
of real time research and an ongoing development of new ways of dealing 
with emerging infections or emergency situations.
    The Coordinator always would act under the auspices of the 
physician, the final analysis and interpretation of data as well as how 
it should be presented are the purview of the physician, who is the 
sole voice of authority regarding medical issues in the Library.

                        VETERANS HISTORY PROJECT

    Mr. Kingston. David?
    Mr. Price. Thank you.
    Welcome, glad to have you here. I am new to this 
Subcommittee and I look forward to working with you and your 
staff.
    I want to ask about two issues.
    First, the Veterans History Project, which I think has 
exceeded all expectations. In my district, we have had people 
working on the Veterans History Project ranging from high 
school students interviewing World War II veterans to a very 
professional piece done by a producer of our local cable 
outlet. He filmed a very beautiful and moving series.
    I notice you are asking for a sizeable increase for this 
program, over double of the budget, and I read your brief 
justification of that funding. I wonder if you could speak to 
how this project has gone, how the Library has accommodated 
this activity, where you think the project is going in future 
years and how you would justify this additional expenditure.
    Dr. Billington. Let me start off, and General Scott can 
supplement.
    This was a unanimous mandate from the Congress. We began to 
get a small amount of funding, and then we managed to get $3 
million from the AARP who had an interest in this. But it is an 
enormous project.
    There are 19 million living American veterans who 
participated in some war in the 20th century, beginning with 
World War I down to the Gulf War. We have amassed a large 
number of partnerships and organizations, so we are working 
with them all around the country. We distributed 100,000 kits 
describing how to do this. About a third of the Members of 
Congress have adopted this in their own district. We have some 
25,000 items already. We are collecting not only interviews 
which we want to get in a very simple way, either audio or 
audiovisual. That is a small drop in the bucket. We lose 1,500 
of these veterans every day. So we are racing against time to 
get these records.
    I can say this is going to revolutionize the writing of 
history. We are going to see wars from the bottom up because 
there are all kinds of details that are already coming in.
    Forty-two Members of the Senate and about a third of the 
House of Representatives have initiated programs in their own 
districts, but we need a great deal more help on this because 
now the word has gotten out and we have got a lot of people 
doing this interviewing. We need more backup and help.
    And we get so many requests on our Web sites. There are 
some 650 partnership organizations who have participated in 
this. We want to keep some kind of uniformity--we just don't 
collect these interviews. Some people have letters, 
memorabilia, photographs. It is going to be one of the greatest 
archives in American history. It is being done within the 
American Folklife Center.
    Mr. Price. In terms of what there is room for----
    Dr. Billington. We want things which in some sense are 
documents. There are letters and diaries that have been 
maintained. We have a copy of General Patton's diary and 
others, and they are extraordinarily interesting. And, yes, we 
take all kinds of things.
    General Scott has been very active in this and may want to 
supplement.
    General Scott. Yes, Sir. The Library's plan is not to have 
to store all of the information in the Library. What we are 
seeking to do is to create partnerships all throughout the 
United States in which we can partner with other veterans 
organizations. Where we can get information electronically, 
that is our goal. So the FTEs that we are asking for is not to 
run the entire program. We need some more people to help the 
Library manage these partnerships and also to receive and 
process the information that does come to us.
    Dr. Billington. We really haven't had very much Federal 
funding. This project was a unanimous recommendation of the 
Congress and it is because of this support that we now have the 
attention that we need.
    I think one of the best things about this is, the bridging 
of generations--school kids interview the grandparents or uncle 
who lived down the street who never told the story and 
something magical happens. We have a very excellent person who 
has been running this program.
    It is a great program, but it is very thinly staffed. We 
are able to get help from these organizations, but there are so 
many of them. We have a five-star advisory group. People have 
been interviewed, including a number of Congressmen and 
Senators.
    Mr. Price. One of the great benefits of this has been the 
intergenerational education that has taken place. Not just the 
specific knowledge, but also the empathy that has been created 
between these elderly veterans and young people.
    I would think the material that is shipped to you is of 
rather mixed quality in terms of the recordings and the 
usability of the material by any future historians.
    Dr. Billington. We do have different age groups involved, 
which encourages us. We are urging people that they don't have 
to give it to us, as General Scott said, but give it to the 
local library. We do ask that they let us know about it so we 
can keep central archives, or make two copies, one to add to 
the local library and to add to the collection at the Liberary 
of Congress.

           CONGRESSIONAL RESEARCH SERVICE--ENHANCING RESEARCH

    Mr. Price. Well, let me shift to a question about the 
Congressional Research Service; and Mr. Mulhollan may want to 
respond to this.
    There is a request in the budget for $759,000 for enhancing 
research and analytical capacity, the purpose being to assess 
the implications of proposed policies in areas such as 
education, welfare, Medicare, Medicaid and Social Security. 
Your request states that in the past decade congressional 
demands for CRS to identify, verify and maintain data by the 
Executive Branch has grown. On the face of it, one would think 
this would be done by deputy agencies.
    So what is the rationale for this? What is the source of 
the demand you have for material that is not available 
elsewhere? What is the particular niche that you would be 
filling and why are you seeking these additional funds to do 
this?
    Mr. Mulhollan. Thank you for the question.
    I would like to make three points in response to that.
    One, Congress needs access to this data in order to make 
informed decisions about major social programs that make up a 
large portion of the budget. Much of the data is not collected 
by executive agencies or they don't collect it on a timely 
basis or they don't collect all the elements needed to make a 
complete picture. When it is collected, it is often not 
presented in a way that is useful to the Congress in its 
legislative and oversight responsibilities.
    Examples of what we collect include the benefits and 
eligibility rules for TANF, State plans on Child Health 
Insurance Programs, and Medicaid costs and benefits.
    My second point, Congress needs to be able to analyze this 
data to address the complex, costly policy issues, for example 
comparisons of policies and benefits across states. A 
question--for example--could be, if we raised the minimum wage 
level by one dollar, what would that do for a family's 
eligibility for key Federal programs aimed at low-income 
populations? CRS assesses the interaction of policy decisions 
to get a more complete picture of the impact of those 
decisions.
    Mr. Price. That example, though, seems like a fairly 
standard modeling exercise. One would think OMB would engage in 
that.
    Mr. Mulhollan. What we do is confidential to the 
Committees. It's the ``what if'' question they don't want to 
place in the Executive Branch. Congress wants to be able to do 
it themselves. When you are deliberating and trying to 
formulate proposals, you go through a number of ``what if'' 
questions in one form or another; and it is Congress having its 
own ability to do that in an intimate way to make the kinds of 
trade-offs that are necessary.
    Mr. Price. It is not a question of capacity not being 
present in every case. It is also a matter of the need to have 
a separate and confidential source of this kind of analysis.
    Mr. Mulhollan. That, together with having analysis that is 
useful for Congress and that Congress itself can control with 
regard to being able to look at various formulations.
    Another example of assessing is the interaction of policy 
decisions could be framed in the question, ``How would an 
increase in work requirements for TANF have an impact and 
affect their Earned Income Tax Credit benefit?''
    The last question demonstrates why we need some more 
support for this. An increasing amount of our work requires 
this kind of data analysis. Collection and organization of the 
type of data needed to support these efforts is labor intensive 
and takes up a growing amount of our senior analysts' time. The 
data preparation requires detailed processing to ensure 
accuracy and consistency in the data formatting of each 
element. The CRS fiscal 2004 request is proposing to develop 
the capacity to handle these new, increasing, and on-going 
business functions that support the research efforts being 
performed by top analytic staff. Our 2004 proposal will enhance 
our overall research by establishing capability to procure, 
create, maintain and manipulate large data sets.
    If you bear with me, I can give you an example, just a 
rough one.
    When CRS receives Medicaid data, it is not in a format that 
allows for quick and easy analysis. We receive the information 
in a formatted tape cartridge that is suitable for mainframe 
computers, but our analysis is done at PC work stations. So we 
have to convert that data into a format that can be used by the 
analyst.
    This requires a number of steps. For example, we first 
change the type of storage media the data are on and convert 
the data into a format that is easily understood by the 
statistical programs we use. Once these conversions are 
completed, the CRS researchers will then have the capacity to 
use these statistics in their analyses for the Congress
    That is one of the types of things we do.
    And Congress has questions, for instance, on Medicaid as 
determining the number of individuals who are truly eligible 
for Medicaid and Medicare programs. There are a large number of 
questions looking at the various trade-offs.
    Mr. Price. This $759,000----
    Mr. Mulhollan. The increase includes contract staff for the 
technical upkeep of the data sets and one data librarian to 
ensure business continuity and integrity of the data content.
    Mr. Price. This includes only one FTE.
    Mr. Mulhollan. We are not asking for an FTE. We are asking 
for funding for one additional person, and the balance is 
contracting.
    Mr. Price. To be invested in analytical----
    Mr. Mulhollan. More in software maintenance and contracts 
to be able to sift through data and cleaning it up in one form 
or another.
    Mr. Price. Thank you.
    Mr. Kingston. I have some questions that I submit for you 
to answer for the record.
    [The questions and responses follow:]

          Congressional Research Service--Reduction of 13 FTEs

    Question. You have shown a reduction of 13 FTEs in your FY 2004 
budget but reflect no reduction in dollars. Why are there no dollars 
associated with these FTEs.
    Answer. The reduction of 13 FTEs is a one-time re-alignment of FTEs 
to reflect that the Congressional Research Service (CRS) average cost 
per person--the per-capita cost--is increasing beyond inflationary 
adjustments. Based upon an analysis of the current CRS workforce 
profile and recent hiring experiences, 729 is a better estimate of the 
complement of total FTEs that CRS can afford to maintain. The need to 
``right size'' FTEs to resources is the result of several factors:
    Over the past few years, like most organizations, CRS has 
eliminated some of its relatively lower-level, lower-salaried clerical 
and non-technical positions and replaced those positions (FTEs) with 
staff who have more professional and higher-level technical skills--at 
a higher cost per person (e.g., clerk typist versus web programmer).
    Always responding to the changing needs of the Congress, CRS is 
finding that the cost of acquiring and retaining high-level, expert 
research and analytic capacity is increasing on a per capita basis. For 
example, a Specialist in Public Health and Epidemiology, a Specialist 
in Bioethical Policy, a Specialist in the Economics of Health Care, a 
Specialist in Infrastructure Systems Analysis, and a Specialist in 
Science and Technology (Biochemistry), to name a few.
    The cost of maintaining a secure, robust, infrastructure that 
supports CRS research and the creation and dissemination of its 
products is increasing. A change which is being experienced across 
organizations in both the public and private sectors as technology and 
data systems become more sophisticated and complex.
    The three points cited above address increases to staff salary, 
however, the employer-paid benefits costs have also increased per 
capita as the proportion of employees under the old retirement system 
(Civil Service Retirement System (CSRS)) decreases and the number of 
employees in the new system (Federal Employees Retirement System 
(FERS)) increases. The employer-paid benefits for the same pay level of 
FERS employee is about 26.7 percent. Nearly all of our retirements are 
CSRS employees, and nearly all of our new hires are FERS employees. As 
the CRS staff transitions to predominately FERS employees, the cost per 
capita increases accordingly.
    Finally, in FY 2003, CRS requested and was granted a mandatory pay 
increase computed at 4.17 percent (effective January 1, 2003). The 
federal pay adjustment was actually 4.27 percent. While not a large 
percentage difference, the annual impact was about $100K--the value of 
one FTE.
    CRS expects to realize about 700 FTEs in FY 2003 and expects to 
reach the 729 FTE ceiling in FY 2004. The recent workforce analysis 
coupled with the experience gained with the new hires in fiscal years 
2002 and 2003 provides the basis to request a realignment to better 
match the estimated FTEs to the CRS current staff composition.

                    CRS Technology Office Functions

    Question. The Congressional Research Service has a Service's 
Technology Office that works with the Library's ITS. There seems to be 
a pattern of an IT function in each service unit within the Library. 
What is the size and annual operating cost of the CRS Technology 
Office?
    Answer. The Congressional Research Service (CRS) Technology Office 
works collaboratively with the Library's Information Technology Service 
(ITS) to leverage the strength of both organizations. ITS maintains the 
Library's network and telecommunication infrastructure, which includes 
all communications servers, routers, hubs, and the physical wiring; 
Internet access; off-site backup storage; and the Library's phone 
system. ITS establishes Library-wide information security policies. ITS 
also provides technical development and support for large scale systems 
such as the Legislative Information System (LIS)/THOMAS. CRS provides 
support for its print and file servers, its personal computers (PCs), 
and its smaller scale networked applications that are vital to CRS 
work, but do not require the full resources or computing power of the 
Library's data center.
    This cooperative approach between the Library's ITS and the CRS 
Technology Office has worked well for years and is a model reflected in 
many other organizations. It is based on the principle that certain 
large scale systems, such as telecommunications, are best operated on a 
centralized basis, while applications that are tailored to a particular 
business/group are best developed and managed by staff within that 
operating unit who are closer to the users, more familiar with user 
requirements, and better able to respond quickly to those needs. Under 
this model, the organization that owns the data and/or provides 
services to the customer/client has the primary responsibilities for 
managing the associated IT system. The Library's ITS organization 
provides the overall system support that is common among the many 
client-focused applications within the Library's Service Units.
    This collaborative approach is a more efficient and effective way 
to serve clients' needs. CRS does not expend resources addressing 
telecommunications and Library-wide local area network (LAN) 
requirements. Instead, CRS devotes its IT resources to the services of 
its analysis and congressional clients. Conversely, ITS does not devote 
its resources to becoming familiar with the analysts' research needs or 
client's needs (a redundant process when the Service unit already has 
this knowledge) and can devote its resources to supporting the common 
Library-wide infrastructure.
    In FY 2002, the annual operating costs for the CRS Technology 
Office was $9.7M. The $9.7M is comprised of $2.97M in salary and 
benefits expenses to support 29 FTEs, and $6.7M in non-personnel 
expenses to cover acquisition and rental of equipment and software, 
maintenance of hardware and software, contracts to support on-going 
user support activities, and some 12-month contracts (extending into FY 
2003) that provide interim technology capacity until positions are 
filled with permanent staff (e.g., applications programmers, 
information security specialists, hardware engineers, and software 
engineers).

        CRS--Inquiry Status and Information System Reprogramming

    Question. We note that you are going to contract to reprogram the 
current ISIS application code to achieve system portability. Why do you 
need to contract for this service? Again, is this not something that 
the Library's IT operations should be performing?
    Answer. The Congressional Research Service (CRS) does not plan to 
contract-out the entire redesign effort. CRS will contract for support 
services (e.g., programmers) but will do the requirements and system 
design portions of the design internally and then directly lead and 
supervise the contractor staff in the actual code development. This 
specific programmer capacity that will be performed under contract is 
not a permanent, on-going skill required by the Service.
    Inquiry Status and Information System (ISIS) is an example of an 
application that, under the collaborative approach described in 
response to question #39, is best supported within the CRS. ISIS 
records requests for service (via the Web, telephone, and other 
sources) from CRS' congressional clients and supports and tracks the 
resulting work assignments to CRS staff. Since CRS operates ISIS on a 
daily basis and is very knowledgeable about congressional and CRS staff 
interactions with ISIS, the CRS Technology Office is best positioned to 
oversee efficiently and effectively the re-design of the system.
    The current ISIS system is the product of 12 years of information 
Technology Service ((ITS)/CRS collaborative development. With the 
agreement of ITS, CRS has assumed responsibility in the last few years 
for on-going development. CRS Technology Office staff already developed 
significant portions of ISIS, including the on-line Web-based request 
form, the extension of ISIS to the analysts' desktop, extended network 
printing capabilities, and all ``bug fixes.'' As a result, the CRS 
Technology Office is now much more familiar with the modifications to 
ISIS that is ITS. Requiring ITS to re-design ISIS would require ITS to 
invest in both a detailed requirements analysis, as well as a complete 
code review, to understand what CRS has done to the application over 
the past three years. Having CRS lead the re-design effort is the more 
efficient, effective, and timely way to accomplish this effort.

                COPYRIGHT OFFICE RE-ENGINEERING PROGRAM

    Mr. Culberson [presiding]. The chairman has been called off 
to the Floor very briefly. He wanted me to express to you that 
he will be back as quickly as possible and asked me to sit in 
for him.
    He has a question regarding the Copyright Office re-
engineering, and he wanted me to make sure that the Library is 
working in this year, fiscal 2003, in the Copyright Office to 
lay the final groundwork for its re-engineering initiative. I 
want to ask if you could describe the objectives and 
anticipated outcomes of that re-engineering project for the 
Copyright Office in terms of efficiency and better business 
practices.
    Dr. Billington. I will defer to the Register of Copyrights, 
but let me just say a couple of things.
    First of all, how important it is to the Library. Before it 
was in the Legislative Branch, we did not have the mint record 
of American creativity. We now do largely through copyright 
deposit; and that saves the Library about $31 million a year in 
acquisitions because of copyright deposits.
    Ms. Peters will explain what the re-engineering is all 
about, but I might just say also that is part of the conversion 
into the electronic mode. Next year, we will be telling you 
about the National Service for the Blind, which will be having 
a major conversion to digital format; and of course the digital 
delivery of CRS material more and more to the Congress, which 
is an important part of their whole plan.
    So I turn it over to Ms. Peters.
    Ms. Peters. The Copyright Office has three major functions.
    One is to administer the copyright law; a key part of that 
is the registration of claims of authors, publishers, motion 
picture producers, etc. We register about 900,000 different 
works each year; others are sent solely for the collections of 
the Library in accordance with the mandatory deposit 
requirements of the law.
    We also oversee certain licensing programs; for example, 
the transmission of television programs by cable operators and 
by satellite carriers, and we collect quite a bit of money that 
eventually gets distributed to copyright owners.
    We have a staff of about 20 lawyers who do policy 
assistance to the Congress and to the executive branch of the 
government.
    We educate the public on the provisions of the copyright 
law; additionally we help people who want to register claims or 
record documents.
    All of these activities involve moving materials through 
the office--paper, books, motion pictures, etc.; re-engineering 
will make our processes much more efficient and timely. The 
processes we have today are processes that were created in the 
1940s. Several years ago, we decided that we needed to receive 
and process things electronically. This will allow the Library 
to acquire materials that are made available only on-line.
    Mr. Culberson. What are some examples of those procedures 
from the 1940s? 
    Ms. Peters. We have 56 different procedures. When a book or 
motion picture comes in, it goes to the mail room. The packages 
are opened and the materials are stamped with the date of 
receipt; it then goes to the accounting office, which removes 
the checks, and deposits the money. From there it goes to a 
work station where the data is keyed in to create a record that 
is used to track the material through the office. From there 
the material goes to an examiner, etc.--it goes on and on. 
There are 56 of these steps where the material moves from place 
to place.
    Mr. Culberson. By contrast, now does the re-engineering 
process take place?
    Ms. Peters. Re-engineering. Materials can be submitted 
electronically. A receipt would automatically be sent back to 
the submitter. The necessary data would be keyed in by the 
applicant, and not by us. Materials would go to a queue. People 
wouldn't have to pick the materials up and move them at each 
step. If there was correspondence, e.g., when there is a 
problem, instead of writing a letter, we would send an e-mail 
message. When the message came back we wouldn't have to go to 
the file and pull the file wrapper and deliver it to the 
examiner to take the next action. It would all be done 
electronically. At the end of the process, the catalog record 
would be created and the certificate produced.
    Essentially, we will be getting materials electronically, 
including the money, and electronically processing each step.
    Mr. Culberson. Where are you in that process?
    Ms. Peters. We are in the third year of a 5-year plan. We 
have done all of the analysis; we are now focusing on the 
designs of all the new processes, and acquiring the technology 
that we need in order to be able to make all of this happen. 
Our implementation goal is fiscal year 2005.
    Mr. Culberson. Do you have a ballpark date?
    Ms. Peters. It depends on meeting certain targets. We are 
in the process of awarding a contract for IT development. Who 
gets that and how quickly they are able to complete that work 
will really tell us what the month will be.
    Mr. Culberson. If someone doesn't have access to a 
computer, how would he be able to submit a piece of 
correspondence?
    Ms. Peters. There will be intermediaries who can do it for 
them, but hopefully they will eventually be able to go to a 
public library to submit. It doesn't take very much. One would 
need an electronic file of the work, a digital signature and an 
electronic way to send the payment. We will have a way for them 
to do it, we will also have customer service--somebody who can 
talk them through the process.
    If correspondence with the applicant is necessary, that 
could be a problem but we will work it out.
    Mr. Culberson. What kind of savings do you anticipate?
    Ms. Peters. For registration, we are required to collect as 
much as we can of our operating costs. It isn't full-cost 
recovery; we don't want registrations to decline because this 
is how the Library acquires copies of works for its 
collections. This year the Library received copies valued at 
more than $31 million. If the fee for registering is too high, 
people will choose not to register, and the Library won't 
receive copies of works. Approximately 70 percent of the 
operating costs are covered by fees.
    It will definitely take less people to actually do the 
work. We really haven't the figures on how much the end costs 
will be. Certainly there will be a cost avoidance. We will need 
fewer people to do the various tasks. The piece that we haven't 
completed is the organization piece, figuring out what all the 
new jobs are and how they get classified. This will be done 
this year.
    Dr. Billington. But the speed is tremendous.
    Ms. Peters. Piracy of motion pictures and sound recordings, 
is a major problem. For companies to be able to send copyright 
claims to us electronically and for us to give them a 
certificate of registration in 2 weeks is really what it is all 
about. Or for people who want to know who owns a book or a 
song, to have that information online within 2 weeks will be a 
huge benefit.
    Mr. Culberson. I have some questions that I submit for you 
to answer for the record.
    [The questions and response follow:]

                Copyright Office Re-engineering Program

    Question. Another priority is to begin implementation of re-
engineered processes through facility reconfiguration and construction, 
new organizational structure, staff training, and intensive development 
of integrated information technology (IT) systems to replace multiple 
legacy systems. For the record please elaborate on each of these 
points.
    Answer. The re-engineering program is on track and moving forward 
on four fronts: process, organization, facilities, and IT. An 
integrated implementation plan was prepared to bring all four fronts 
together. Current program activities in the areas listed are below.
    Facility Reconfiguration & Construction--In FY 2002, the Office 
completed a baseline space and furniture assessment and contracted for 
a space design, including construction documents to accommodate the 
Office's new processes. The initial design phase has just begun.
    Organization Structure--The Office has developed proposed new job 
roles and work unit structures that align with the new processes. A 
complete reorganization package will be finalized this summer.
    Staff Training--Significant training will need to occur throughout 
the implementation phase and beyond as a result of the new processes, 
organization and IT systems. The Office has developed a high level 
training plan. A more detailed training plan will be developed this 
year as the Office pilot new processes and implement IT systems. A 
full-time permanent Training Coordinator position will be created to 
manage the overall training. Cross-training will occur throughout the 
organization to respond to fluctuations in workload, provide career 
ladders where possible for staff mobility, and prepare for future staff 
retirements.
    IT Systems--In September 2002, the Office completed an IT 
requirements analysis to support the business processes. This analysis 
identified the functional specification for each system component and 
the recommended hardware and software. By June 2003, the Office plans 
to award a contract to begin designing and developing new systems to 
support the re-engineered processes. An independent verification and 
validation contract will also be used to assist the Office in measuring 
the development contractor's compliance with requirements, standards, 
and best practices.

                   Vessel Hull Design Protection Act

    Question. One of your priorities for FY 2004 is to complete, 
present to Congress, and disseminate an evaluation of the Vessel Hull 
Design Protection Act. What is the Vessel Hull Design Protection Act?
    Answer. The Vessel Hull Design Protection Act, Title 17, Chapter 13 
of the United States Code, was signed into law on October 28, 1998. It 
provides protection for original designs of vessel hulls and grants an 
owner of an original vessel hull design certain exclusive rights for a 
period of 10 years provided that application for registration of the 
design is made to the Copyright Office within two years of the design 
being made public. Protection is afforded to vessel hull designs that 
are publicly exhibited, publicly distributed, or offered for sale or 
sold to the public on or after October 28, 1998.
    The Copyright Office has promulgated interim regulations for 
registration of vessel hull designs. The Act was originally slated to 
sunset after two years, but in 1999, as part of the Intellectual 
Property and Communications Omnibus Reform Act, it was made a permanent 
part of the law. In making it permanent, Congress directed the Register 
of Copyrights and the Under Secretary of Commerce for Intellectual 
Property and Director of the U.S. Patent and Trademark Office to 
conduct a study on the effectiveness of the law and report their 
findings to the Judiciary Committees of the Senate and House of 
Representatives by November 1, 2003. In preparation for the report to 
the Congress, the Copyright Office and the U.S. Patent and Trademark 
Office have solicited public comments and held a public meeting on 
March 27, 2003 to receive testimony for boat manufacturers, academics 
and other interested parties.

                        NATIONAL DIGITAL LIBRARY

    Mr. Culberson. Dr. Billington, how far along is the Library 
of Congress in digitizing the collection? Ultimately is that 
the goal, to reach a point in the future where as much of the 
collection as possible could be digitized and available to the 
public on the Internet?
    Dr. Billington. I have already----
    Mr. Culberson. I am sorry, can you briefly reiterate your 
previous comments?
    Dr. Billington. Briefly we have 8 million items of American 
history and culture online. We have 75 million items online, 
including our entire card catalog, and congressional 
information on the Thomas system.
    But in terms of digitizing the entire collection of the 
Library of Congress, 126 million analog items, we don't see 
that as ever being feasible--we will be guided in what we 
digitize by what the educational community wants to see. We 
have a tremendous K through 12 educational enhancement, the 
American Memory Project, the National Digital Library, to which 
we have a continuing commitment. We are also opening up 
collaborative digitization projects with foreign national 
libraries, the National Library of Russia, Spain, Brazil and 
Holland.
    So we will continue to digitize, but it is not going to be 
all or even most of the collections.
    Mr. Culberson. As needed.
    Dr. Billington. As needed, as we get the feedback as to 
what the libraries, schools and others want. It is a terrific 
educational tool. It is a great enhancement for the whole 
Library system, but we will be guided pretty much by what they 
want, what they tell us is important to get out from the 
national collection for local use.
    Mr. Culberson. Thank you.

                       EMPLOYEE RETENTION PROGRAM

    If you could explain the purpose and objective of the 
Congressional Research Service's Employee Retention Program and 
what you hope to achieve.
    Mr. Mollohan. I would be happy to, as a matter of fact. I 
appreciate the question.
    The retention program that the Service is proposing was 
alluded to earlier in Mr. Moran's question. One of the things 
that I failed to point out earlier is the relationship of this 
request to the CRS Succession Initiative, which this committee 
supported a few years ago. About 54 percent of CRS will be 
eligible to retire by 2007. With this committee's help, we have 
put forth a significant effort to replenish the expertise 
needed for the future Congresses. The focus now is retention. 
For the past few years, we placed our emphasis on recruitment. 
I am proud to say that, in fact since 2000, we had some 10,000 
applicants for CRS positions.
    Our challenge now is the one that I alluded to earlier, 
retention. If, in fact, you can keep people, generally the 
literature says for 3 years, you have them. One of the tools 
that has been available Legislative Branch-Wide is the Student 
Loan Repayment Program. We would like to implement that program 
as a pilot for the Library. One of the facts that I had also 
mentioned earlier is that we did an informal survey of our 
staff who have been hired within the last 3 years. Seventy 
percent have college loan debt, and that debt averages about 
$33,000.
    What we have proposed as part of the retention package is a 
modest increase of 10 percent in our training and staff 
development. CRS will lose considerable expertise within a 
relatively short time over the next few years. Our greatest 
asset is the knowledge and expertise of CRS staff. We must 
accelerate the development of remaining staff to ensure 
continuity and avoid gaps in research capacity to analyze 
critical issue areas. The CRS average expenditure per employee 
is about one-half of what Executive Branch agencies spend per 
employee for training and professional development.
    One important goal is to be able to enhance the current 
level of staff professional development opportunities and to 
provide management with tools to encourage retention of high 
performing staff in a competitive work environment.
    Mr. Culberson. The key point is you are on the brink of 
having a significant percentage of your employees that will be 
eligible for retirement.
    Mr. Mulhollan. Yes, we are replenishing that ``brain 
drain'' and bringing in between 100 and 115 people in this 
fiscal year. As mentioned before in the discussion, whether it 
is economists or attorneys, they can, often, obtain higher 
salaries in the private sector. Of course, the benefit of 
working in CRS is the work itself--helping Congress to write 
good law--that is our strongest card. We want to have 
additional tools to encourage high performers to stay here. 
That is what we are trying to do.
    Mr. Culberson. You do a superb job of it. I want to say how 
grateful I am as a Member of Congress for the absolutely 
stellar work that you do and the Library of Congress does.
    Dr. Billington, I am so impressed with what you do and look 
forward to working with you and helping you any way I can.
    Do you have any closing remarks?

                           Closing Statement

    Dr. Billington. I just want to add on this point that, as 
Mr. Mulhollan indicates, this is a Library-wide problem. More 
than 40 percent of our people will be eligible to retire in the 
next few years, and it is particularly critical in the higher 
levels of the Library.
    I talked a lot about the collections, but the real treasure 
of the Library is the staff. They stay for long periods of 
time, and there is going to be a great deal of turnover when 
you combine that with a great deal of transition in the nature 
of the work that is being performed, as Register Peters was 
indicating.
    So we have a tremendous challenge, and what is not often 
realized is that this place is unique with these massive 
collections and the variety of skills necessary to handle them, 
often the kind of job skills that you cannot get these off the 
shelf somewhere. There is a lot of mentoring that has to go on 
and a lot of the instinctive way of doing things that has to be 
transmitted so that when people retire, their experience isn't 
lost. This is almost our major challenge in the next few years, 
and I think we are better equipped.
    We have an automated applications system. We are going to 
need a lot of diversity, but it is a big challenge, and the 
work that CRS has been doing has been the model for how we are 
going to have to have the Library as a whole.
    Mr. Culberson. Thank you all so much. I know we look 
forward to helping you in any way that we can, sir. Thank you.
    [Clerk's note.--The questions submitted to be answered for 
the record by the Library of Congress follow:]

                                Fedlink

    Question. You state that coordination of services and programs on 
behalf of federal libraries and information centers saves an estimated 
$7.6 million annually in contract avoidance benefits and $10.3 million 
more in products and service discounts. How did you determine these 
savings figures?
    Answer. The methodology FEDLINK uses for this annual calculation 
was developed by a cost accounting consultant in 1997.
    The $7.6M in contract cost avoidance was calculated by using an 
estimate of costs for each agency to execute individual procurements 
for books, online databases, journal subscriptions, and library support 
services in three price ranges: (1) those under $25K; (2) those between 
$25K and $100K; and (3) those above $100K. The staff time saved--i.e., 
the difference between time needed to execute the procurement 
individually and the time to execute it through FEDLINK--is multiplied 
by the number of FEDLINK procurements in each category.
    The discount savings of $10.3M are also computed separately for 
each product/service category by taking a weighted average of discounts 
off commercial price and multiplying that average discount times the 
dollars spent in each category during the fiscal year.

                       Brazil--Frontiers Project

    Question. The Library has signed an agreement with the Royal 
Library of Brazil to produce a ``frontiers project'' entitled 
``Brazil's Evolving Culture.'' What is the Brazil Evolving Culture 
Project? What is the estimated cost of the project?
    Answer. The project, The United States and Brazil: Expanding 
Frontiers, Contrasting Cultures, is part of the Library's Global 
Gateway initiative that features joint digital library collaborations 
with countries around the world. The Library of Congress (LOC) is 
engaged in a number of ``frontiers'' projects with national libraries 
in Russia, Spain, and the Netherlands. The project with Brazil grew out 
of discussions between the LOC and former President Cardozo of Brazil, 
and reflects an effort by the LOC to expand its digital collaborations 
beyond Europe to important countries in the developing world. Brazil 
and the United States both have a frontier history, but their 
respective frontiers were never contiguous (unlike in the case of 
Russia and Spain), so the thematic focus is somewhat different; it 
explores parallels and differences between Brazilian and American 
culture and history.
    Much of the cost of the project has been underwritten by the Vitae 
Foundation, a private foundation in Brazil, which has paid for 
historians in Brazil to prepare essays and to send staff members from 
the National Library of Brazil to Washington to work with the LOC in 
developing a pilot site. For this effort, the LOC is using existing 
staff resources in the Hispanic Division and other divisions. In 
addition, the LOC intends to allocate $50K from funds already available 
for digitization to scan several Brazil-related collections of the LOC. 
Additional private resources will be sought for the post-pilot stage of 
the project.

                   Paper Splitting Collection Storage

    Question. The Library has awarded contracts to test efficacy and 
viability of a new paper splitting technology and to develop collection 
storage equipment specifications. What is paper splitting? Why do you 
need to develop collection storage equipment specifications? What was 
the cost of these two contracts? What is the anticipated outcome of 
these efforts?
    Answer. Paper splitting is a method of rescuing ``too-brittle-to-
serve'' library materials. The process involves splitting damaged 
sheets of paper lengthwise and inserting a thin piece of permanent 
support paper between the weakened halves of the damaged sheet. This 
inner support sheet restores strength to the item and permits it to be 
used.
    The Library's Preservation and Security Plan calls for the 
responsible care of items from the moment they are acquired to when 
they are used by patrons, including all points in between. To meet this 
responsibility, the Library has developed preservation specifications 
for the care, handling and storage of collections. An unmet need in 
this area, however, is the development of a set of preservation 
specifications for storage systems, including shelving for oversized 
materials. These specifications will assure that all future support 
systems meet preservation requirements for protecting the Library's 
collections.
    The paper strengthening contract is for $400K over three years. The 
contract to develop collection storage specifications is $83K over one 
year. Both of these actions support the development of a comprehensive 
preventive conservation program for the Library's rare and special 
collections and for the general collections. The three-year initiative 
of which paper strengthening and specification design are two parts, 
will significantly enhance the Library's ability to care for and 
protect its collections. Paper strengthening, like mass 
deacidification, will provide the Library with a new technical solution 
for ``at risk'' materials that are presently too brittle to serve. The 
storage specifications will complement standards and specifications 
that guide the Library (and libraries nationally) in the procurement 
and use of preservation-quality products.

                           Arrearage Targets

    Question. One of your priorities for FY 2003 is to meet the revised 
total arrearage goals approved by Congress. The goals of this project 
have been adjusted several times. What were the original arrearage 
targets? How many times have they been changed and why? How have these 
changes added to the cost of this project? This was a major priority 
project for the Library for several years but it seems that it has not 
gotten the attention required to complete in a timely manner. In 
addition, in the current budget you are requesting 22 FTE's for 4 years 
to reduce the arrearage. What assurance does Congress have that you 
will ever be able to complete this project without continued staffing 
and funding increases?
    Answer. Original goals: nonrare printed materials--by December 31, 
2000, eliminate the arrearage of books, printed serials, and microform; 
special format materials--by December 31, 2005, reduce rare books, 
manuscripts, maps, moving images, music, prints and photographs, and 
sound recordings to twenty percent of the level that existed at the 
time of the first arrearage census, September 1989.
    The overall target dates have been adjusted only once, in spring 
1998 as part of the planning for the initial integrated library system 
(ILS) implementation. In order to make staff resources available for 
the implementation of this milestone project, the Library proposed, and 
Congress approved, an extension of the target deadlines to September 
30, 2004, for nonrare print materials and June 30, 2007 for special 
formats.
    The Library has also identified electronic materials as an 
arrearage format, beginning in October 2001. Furthermore, heightened 
concern for the safety and security of the in-process collections has 
led the Library to count work on hand in the Acquisitions Directorate 
in the arrearage, rather than allowing for a ``working backlog'' of new 
receipts as was done in the past. This has created a new workload since 
the acquisitions arrearage, mostly serial issues, must be entered into 
the ILS as soon as possible. The Library has requested 22 new 
technician positions to eliminate this arrearage.
    The Library has consistently treated arrearage reduction as a top 
priority since 1989: Annual Program Performance Plans (AP3s) for 
Library Services include a goal for arrearage reduction; arrearage 
reduction is a requirement in the performance plans of all managers and 
supervisors in units with arrearage reduction personnel; statistics on 
arrearage reduction work accomplished and work remaining are circulated 
quarterly throughout the Library.
    The Library has made significant progress in arrearage reduction--
as of December 2002, more than 50 percent of the arrearages have been 
eliminated (39,682,153 in 1989 to 19,772,729 in 2002). The Library's 
arrearage reduction rate slowed, as predicted, when its staff were 
focused for some portion of their time to plan for, be trained to use, 
and successfully implement the Library's new ILS. Since the successful 
implementation of the ILS in FY 1999 and 2000, the Library has 
recovered to the point that its productivity output is higher than it 
was pre-ILS. However, the Library has not yet recovered from the two-
year ILS implementation period. The Library's current request--to 
extend its target deadlines for eliminating the nonrare print arrearage 
to September 2007 and for reducing the special formats arrearage to 
twenty percent of 1989 levels to September 2010--stems not from neglect 
or inefficiency, but rather from the dramatic staff attrition of the 
past ten years from which it takes years to recover the expertise which 
is lost, including the loss of 44 cataloging positions as part of the 
``recovery'' of ILS ``savings.'' Problems in timely completion of this 
project have been affected in FY 2002 by the effects of the anthrax 
scare (the Library was closed for one week) and the subsequent 
cessation of mail delivery (October 17 through March 2002), as well as 
to the loss of production time as the latest Voyager release was 
installed and staff were retrained.
    At the same time that the Library was developing the ILS, it also 
continued to acquire, as part of its bicentennial ``gifts to the 
nation'' program, large numbers of special format collections that will 
greatly benefit service to the Library's users but which also added to 
its arrearage.
    The Library will continue to make arrearage reduction a cataloging 
priority, and the requested 22 FTEs in the FY 2004 budget are important 
to completing this long-term project.

                 Collections at Culpeper and Fort Meade

    Question. The Library plans to continue work on building storage 
facilities at Culpeper, Virginia and Fort Meade, Maryland and move the 
collections to Fort Meade. What collections will be moved to these two 
facilities?
    Answer. Culpeper. All of the Library's film, video and recorded 
sound collections held by the Motion Picture, Broadcasting and Recorded 
Sound Division--nearly 4 million items total--will be moved to and 
consolidated for storage at the National Audio-Visual Conservation 
Center (NAVCC) in Culpeper. This includes the nitrate motion picture 
film housed at Wright-Patterson Air Force Base (AFB) in Dayton, Ohio, 
as well as the film and audio-visual collections currently held in the 
James Madison, Thomas Jefferson, and John Adams buildings on Capitol 
Hill, in the Landover Annex, in a temporary warehouse near Culpeper and 
at National Underground Storage in Boyers, Pennsylvania. In addition, a 
significant amount of nitrate-based photographic flat film will be 
stored in the Culpeper nitrate vaults for the Library's Prints and 
Photographs Division.
    Fort Meade. Fort Meade will have a series of modules and vaults to 
be erected over a period of several decades. Module 1, which began 
operation in 2002, was designed for books and bound periodicals from 
the general collections. Law Library, and Area Studies collections. To 
date, approximately 275,000 items have been transferred from Capitol 
Hill to Fort Meade. Subsequent modules will house not only books, but 
also special format collections such as maps, prints, photographs, 
microfilm masters, and sheet music.

               Enhancements to Integrated Library System

    Question. What will be the enhancements of the Integrated Library 
System when you upgrade to Voyager 2001.2?
    Answer. The Library has identified several enhancements that will 
result as it upgrades to Voyager 2001.2. These include:
    Improvement to the Bulk Import of cataloging data that allows 
merging of records and faster loading. These improvements will help the 
Library manage the important catalog information it receives from 
publishers, libraries, and cataloging utilities. This feature is 
particularly helpful in supporting our role as National Library.
    Improvements to Electronic Data Interchange (EDI) that permit more 
publishers and vendors to use this feature. EDI significantly reduces 
the time to process invoice information for serials and periodicals 
ordered by the Library.
    Call Slip e-mail notification. This allows staff to be sent e-mail 
notices regarding the status of their requests.
    Additional download formats in the OPAC (Online Public Access 
Catalog). The Library can define multiple download formats including 
the MARC21 character set. This will enable libraries to load LC records 
directly into their databases, without further editing to add 
diacritics and special characters. This feature is also helpful in 
supporting our role as National Library.
    Redesign of the System Administration module. This improves the 
Library's ability to create a specific employee security profile that 
matches their job duties.
    Pick and Scan Module that significantly reduces the time to update 
the location information as items are moved within the Library. This 
aids maintaining collection security.

                          Culpeper Total Costs

    Question. There is a request for 9.7 million and 4 FTE's to support 
the Culpeper project. You stat the funding will support investment, 
relocation, and program costs and additional funding will be needed in 
FY 2005 to FY 2008. What will be the total funding required for this 
project.
    Answer. total projected costs for the National Audio Visual 
Conservation Center (NAVCC) in Culpeper, Virginia for FY 2004-2008, are 
reflected in the attached chart. The one-time investment costs are 
projected to be $156.6 million, of which $122.2 million is being 
provided by the private gift of PHI, with the balance of $34.4 million 
being requested by the Library of Congress (LOC) during FY 2004-2008. 
Annual operating costs will increase by approximately $9 million, plus 
annual inflation. Base funding should be stabilized by FY 2010.
    In FY 2004, the LOC is requesting a total of $11.1 million and 8 
FTEs for this project, of which $9.7 million and 4 FTEs are requested 
in the Library Services Budget. The balance of $1.3 and 4 FTEs is 
requested in the Office of Strategic Initiatives' Budget. While the 
projections for FY 2005-2008 are based on the Library's comprehensive 
vision and detailed planning documents, numbers are best estimates, 
based on information available at this time. The Library will continue 
to further define the tasks and related support needed to develop and 
implement this project. All costs will be reviewed carefully before 
being submitted in the Library's annual budget request and summary 
charts will be updated accordingly.
[GRAPHIC] [TIFF OMITTED] T7100B.033

                       Culpeper--Relocation Costs

    Question. You plan to house 140 staff at the National Audio Visual 
Conservation Center. Most of those employees will be relocated from 
Washington, D.C. and some will be relocating from Wright-Patterson Air 
Force Base. What is your estimate of the total relocation costs for all 
employees?
    Answer. The Library is in the process of surveying the staff of the 
Motion Picture, Broadcasting and Recorded Sound Division (MBRS) to 
ascertain which staff members plan to relocate to the Culpeper, 
Virginia facility, both from the Washington, DC, location and the 
Dayton, Ohio, facility. Prior to submitting the FY 2005 budget request, 
the Library will have a clearer projection of what proportion of the 
current staff will be relocating and what proportion will be hired at 
the new location; the latter would not incur relocation costs for the 
Library.
    Our most recent estimate of employee relocation costs is based on 
the assumption that of the current 108 MBRS employees, fifteen will 
remain in Washington, D.C., to continue providing patron services in 
the motion picture and recorded sound reading rooms at the Library. The 
Library assumed for planning purposes that 81 staff members would opt 
to relocate. Based on an estimated average cost of $75K per employee 
($6.075M) plus relocation contracting assistance estimated at $100K, 
the Library projects the total relocation costs to be $6.175M. However, 
once the employee survey is completed, the Library will have a more 
accurate estimate of how many employees will be involved. The remaining 
employees of the planned 140 initial staff members will be hired with a 
duty station at Culpeper and will not incur relocation costs.

                 Collection Security--Inventory Control

    Question. There are references in the justification such as: 
``improve inventory control,'' ``achieve effective tracking, 
circulation, and inventory control,'' and ``inventory management.'' The 
Library received funding for an eight-year project to conduct a 
baseline inventory of the general, Area Studies and Law collections. 
What assurance can you give the Congress that the Library has proper 
inventory control of its collections?
    Answer. The level of assurance the Library can provide that it has 
proper inventory control of its collections increases as the following 
occurs: as items are inventoried and tracked, and as follow-up 
inventories are conducted--either full for certain collections, or 
random sampling for other collections.
    The Library's approach has been a phased program of moving toward 
its goal of inventory control:
          <bullet> The Library began in FY 2002 with an eight-year 
        retrospective inventory of its 17 million books and bound 
        periodicals already in the collections.
          <bullet> The Library is now creating item and holding records 
        for incoming items. Unfortunately, current staff cannot keep up 
        with this requirement and backlogs are increasing. Increased 
        funding will allow the Library to remain timely, and to ensure 
        the accuracy of the inventory control database.
          <bullet> The Library hopes to expand this program to the 
        special format collections, once again consistent with a phased 
        approach. In FY 2004, funding permitted, the Library will 
        concentrate on manuscripts, rare books and special collection, 
        and ethnographic collections.
          <bullet> In subsequent years, the Library will expand the 
        program to other special format collections.

              Access to Rare Book and Special Collections

    Question. What are the requirements for an individual to have 
access and use the Rare Book and Special Collections?
    Answer. The Rare Book Reading Room is open to all researchers above 
high school age (18 years or older) possessing a valid Reader 
identification card issued through the Library's reader registration 
program. Additionally, there is a short registration process in the 
reading room itself. As part of this process, readers are asked to read 
and agree to the rules for the use of rare materials in the reading 
room; for example:
          <bullet> No personal belongings may be brought into the rooms 
        (lockers are available for use by readers).
          <bullet> Exceptions may be requested for notes or other 
        material essential to research, and laptops may be used.
          <bullet> Pencils only may be used in the room, and pencils 
        are provided.

                    Collections Security--Manuscript

    Question. You have requested $100 thousand in contract support for 
five years to prepare holding records in the LC ILS for nearly 250,000 
manuscript boxes, each of which would be considered one item for the 
purposes of item level inventory control. You state that 10 percent of 
the Manuscript Division's holdings are inventoried and barcoded. What 
is the estimated number of items within the collection that are not 
inventoried and barcoded? How can you properly serve your constituents 
without proper control of the collection?
    Answer. The total number of items that are not inventoried and 
barcoded is 250,000.
    The Library's goal is to assign a unique identification number 
(barcode) to each of these 250,000 items. By so doing the Libary can:
          <bullet> State with confidence that the item exists.
          <bullet> Track, electronically, the item if it leaves its 
        storage location by creating a link between the person for whom 
        the item was retrieved and the item identification number.
    At the present time, the Library can, through catalogs, finding 
aids and other search tools, identify the collection and find the box; 
what the Library is unable to do is, in an online system, track the 
location of a specific box when it leaves the shelf.
    The concept is no different than that in our Baseline Inventory 
Program to inventory each book and bound periodical. Absent this 
program, the Library is in the following position:
          <bullet> Yes, the Library can find and serve the book by 
        knowing the author, title and classification number;
          <bullet> No, the Library cannot track the item without a 
        unique item identifier (barcode) that can be linked to a 
        researcher or staff member, so it cannot efficiently know where 
        the item is at any given point in time.

         Purchase of Library Materials--Impact of Deficiencies

    Question. There is a request for $310,000 to address critical 
deficiencies in monographs and new serials. You state that deficiencies 
in the monograph collection and new serials negatively impact the 
timeliness and the depth of responses to Congress. Give us specific 
examples that show negative impact and time delays to Congressional 
requests?
    Answer: There are significant deficiencies in the collections of 
several major jurisdictions:
          <bullet> The transcripts and related documents of the 
        Nuremberg Medical Trial, 1946-1947--has recently been produced 
        in a microfilm version. The set, costing $3,160 is essential 
        for the Law Library, which currently has no paper copies of the 
        materials included in the microfilm set. The Legal Research 
        Directorate or Law Library Reading Room receives about one 
        request a month for the materials.
          <bullet> China--With the opening of the People's Republic of 
        China (PRC) to the outside world, the need for a comprehensive 
        collection of Chinese legal materials has increased 
        dramatically. The PRC publishes about 1,000 law monographs a 
        year, but the Law Library has been able to acquire fewer than 
        400 of them. One source that would have been very useful in 
        responding to Congressional requests in the past few years is a 
        law monograph--A Review of China's Internet Regulatory Issues 
        and Cyberlaws. Another in that category is China 
        Pharmaceuticals Guide: New Policy and Regulations.
          <bullet> Japan--There are now a number of multi-volume 
        treatises on Japanese law, all of which would add significantly 
        to the quality of responses to Congressional inquiries. Of 
        particular interest are sets on financial and corporation laws, 
        which have been amended substantially in the past few years to 
        address the nation's economic crisis.
          <bullet> Italy--The Enciclopedia Giuridica is a 33-volume set 
        comprising all aspects of Italian law. It is compiled by a 
        group of 1,000 leading Italian jurists, and is constantly 
        updated. This is considered the single best resource for 
        practitioners and scholars of Italian law.

                Law Library--Use of Commercial Couriers

    Question. Increasingly, the Law Library has required commercial 
courier services to ensure the timely receipt of foreign law gazettes 
essential to congressional research. You are seeking $50,000 to cover 
this cost. How are you currently paying for these services?
    Answer. The Law Library pays for courier services out of its law 
book fund appropriation. As this increased cost has not been addressed 
in the budget process, the Law Library has had to decrease acquisition 
of needed legal materials in order to pay for the increased cost of 
courier services. Courier service is critical to the timely receipt of 
key foreign law materials required for congressional research, but is 
being funded at the expense of the breath and depth of the collections.

             Mission of the Office of Strategic Initiatives

    Question. The Office of Strategic Initiatives is a new program 
displayed in your budget this year. It has a budget of $86.9 million 
and a staff of 337 FTE's. Prepare a cross walk, from the FY 2002 
budget, that details what organizations, staffing, and funding were 
realigned, in FY 2003, to establish this new office. What is the 
mission of the Office of Strategic Initiatives?
    Answer. The responsibilities of the Office of Strategic Initiatives 
(OSI) are central to the successful execution of the Library's mission 
in the digital environment. The OSI, in coordination with the planning 
efforts of each of the service units, has primary responsibility to set 
the Library's strategic direction as the Library seeks improvements in 
traditional mission-critical operations through the use of information 
technology (IT). The OSI guides the Library in taking advantage of 
opportunities made possible by technology while at the same time 
meeting challenges posed as technology transforms traditional roles, 
responsibilities, and functions associated with the Library's mission 
performance.
    The OSI's mission is to support the Library of Congress' vision and 
strategy by directing the digital strategic planning for the Library, 
overseeing the Library's institution-wide digital initiatives, and 
leading the national program to build the required preservation network 
and infrastructure for the nation's cultural digital assets. The OSI, 
through its IT Services function, also ensures the effective delivery 
of IT resources and services in support of the Library's mission, 
functions, and activities. The OSI leads a collaborative institution-
wide effort to develop consolidated strategies, plans, programs and 
initiatives.

            Office of Strategic Initiatives--Reimbursements

    Question. Does the Office for Strategic Initiatives receive 
reimbursements from the Licensing Division for systems support? If so, 
what is the annual budget?
    Answer. Yes. An intra-agency agreement for FY 2003 in the amount of 
$267K is used for the Licensing Division, Copyright Office.

        Office of Strategic Initiatives--Network Service Charge

    Question. What is the $1 million dollars for a ``Network Service 
Charge''?
    Answer. The network service charges support both mirroring of 
Library systems and data to the Alternative Computing Facility (ACF) 
and access to the ACF in the event the James Madison facility is 
unavailable. The required availability of these Library systems demands 
real-time mirroring of data between the James Madison computing 
facility and the ACF. This mirroring is dependent upon having 
dedicated, high bandwidth telecommunications connections between James 
Madison and the ACF. Furthermore, should an event occur that renders 
the primary facility in the James Madison Building unavailable, the 
Library and Congressional staff will be accessing Library systems at 
the ACF from remote locations. The effectiveness of these 
telecommunications will depend upon reliable/responsive connections 
into the ACF.

              Cataloging Distribution Service--Service Fee

    Question. The Cataloging Distribution Service is required by law to 
charge for its products, which include costs plus ten per centum added. 
When was this percentage established? When was the last time a review/
study was conducted to determine if this percentage should be adjusted?
    Answer. This percentage was established in 1902 and included in the 
text of Cataloging Distribution Service's enabling legislation (2 USC 
150). According to the Library's records, a review/study has never been 
conducted to determine if this percentage should be adjusted.

                            Members of GLIN

    Question. Who are the current members of the Global Legal 
Information Network?
    Answer: The current members of the Global Legal Information Network 
(GLIN) are: Argentina, Brazil, Ecuador, Guatemala, Republic of Korea, 
Kuwait, Lithuania, MERCOSUR (the ``southern market'' economic 
cooperative comprising Argentina, Brazil, Paraguay, and Uruguay), 
Mexico, Organization of American States, Paraguay, Romania, Taiwan, 
Tunisia, Ukraine, United Nations (Office of Legal Affairs/Dag 
Hammarskjold Library), United States, and Uruguay.

                     New Members Targeted for GLIN

    Question. In FY 2003 you plan to begin targeted recruitment of new 
member countries to bring Global Legal Information Network (GLIN) 
membership up to 40 nations. What nations have been targeted for 
recruitment?
    Answer: Targeted recruitment is being implemented in phases. The 
first nations targeted for recruitment include: Canada, China, France, 
Germany, India, Italy, Japan, Russia, and the United Kingdom. Continued 
efforts to recruit additional nations in this hemisphere will proceed 
in concert with this first phase if possible, or follow if necessary. 
Nations to be the focus of recruitment efforts in this hemisphere 
include: Belize, Chile, Colombia, Costa Rica, El Salvador, Honduras, 
Nicaragua, Panama, Peru, Venezuela. A future phase will include 
recruitment efforts targeted at: Afghanistan, Egypt, Israel, Saudi 
Arabia, Spain, and Portugal.

                           GLIN--Base Funding

    Question. What is in the current base for the Global Legal 
Information Network (GLIN) project?
    Answer: The current base for the GLIN project is $2.9M.

                          Kissinger Endowment

    Question. What is the Kissenger Endowment Fund?
    Answer. The Kissenger Endowment Fund, established by the friends of 
Henry Kissinger, supports two programs: the Henry Alfred Kissinger 
Chair in Foreign Policy and International Relations, and the Henry 
Alfred Kissinger Lecture.
    The chair is a distinguished senior research position in residence 
at the Library for a period of nine months. The chair is expected to 
engage in research on foreign policy and international affairs related 
to the United States that will lead to publication. The chair is 
selected through an open competition. The stipend is at the same level 
as that of the Kluge chairs, $140,000. The first chair was Aaron 
Friedberg; the current chair Klaus Larres; and next year's chair holder 
will be announced shortly.
    The Kissinger lecturer, like the chair, is a person who has 
achieved distinction in the field of foreign affairs. A new lecturer is 
appointed annually, the lecture is normally given in the fall, and 
subsequently is published. Lecturers receive an honorarium of $25,000. 
The first lecturer was Henry Kissinger, the second Giscard D'Estaing, 
and George Schultz has agreed to be the lecturer in the fall of 2003.

                             Special Events

    Question. The Office of the Librarian planned and managed 484 
events, including 105 Congressionally hosted lectures, symposia, policy 
meetings, film showings, dinners and receptions. The Library absorbed 
$29.6 thousand in personnel costs in support of a number of these 
events. How was the Library able to absorb these costs?
    Answer. The first goal of the Library of Congress is to support 
Congress. Requests to host events at the Library by Congressional 
Members are considered to be a service to Congress. The requests have 
immensely increased since the re-opening of the Thomas Jefferson 
Building, especially in the use of its Members Room, and the Library 
absorbed the $29.6 thousand in personnel costs to support a number of 
Congressionally-sponsored events. For daytime and some evening events 
in the Members Room, divisions such as The Library Police and Public 
Program Services were asked to absorb personnel costs in support of 
these events by re-prioritizing their work priorities.

                       Baseline Inventory Project

    Question. What is the Library's Baseline Inventory Project?
    Answer. The Baseline Inventory Project (BIP) is a large-scale 
initiative funded by Congress in FY 2002 for an 8-year period. Its 
purpose is to provide accurate online holdings information for the 
Library's collection of books and bound periodicals numbering 
approximately 17 million volumes in the Law, Area Studies, and general 
collections. Accomplishing inventory of the Library's books and bound 
periodicals is a cornerstone of the Library's collections security 
plan.

                            Contract Savings

    Question. You saved over $500 thousand dollars by the end of FY 
2002 as a result of indefinite delivery/indefinite quantity contract 
that provides a flexible and broad approach to addressing support 
services. How did you determine these savings? If you saved $500 
thousand dollars what did you do with the savings?
    Answer. The word ``savings'' is an incorrect term. It is more 
accurately characterized as cost avoidances. The $500K was determined 
by subtracting the actual award amount from the projected cost of 14 
task orders. The projected task costs were determined using government 
estimates based on contractor wage costs submitted in response to the 
mega contract Request for Proposal (RFP) or historic cost estimates. 
The Library realized cost avoidances, not savings.

                     Capitol Visitor Center Project

    Question. One of the priorities for ISS during FY 2004 will be to 
support the implementation of the Capitol Visitor Center. What is the 
Library's level of involvement with the project? How much staff time is 
devoted to the project?
    Answer. While the Architect of the Capitol (AOC) is responsible for 
structural and mechanical modifications to the Thomas Jefferson 
Building related to the Capitol Visitors Center (CVC), Facility 
Services (FACS) manages a full range of project planning, furniture 
procurement and interior design services for relocation of Library 
staff and facilities impacted by the CVC Tunnel project. The following 
table indicates major project components by fiscal year, square footage 
and number of staff, and an estimate of FACS project hours. An 
allowance for management and administrative support, as well as Safety 
Services hours are added:

------------------------------------------------------------------------
                                   Square feet     Staff        Hours
------------------------------------------------------------------------
FY 2003 LOC project components:
    LS Relocate Baseline                 2,113           24          100
     Inventory Program (TJB Deck
     38).........................
    OS Relocate Police                   1,660           21           80
     Facilities--Interior Design
     Support.....................
    LS Relocate American Folklife        3,151           15          225
     Center--Design Phase........
FY 2003 AOC project components
 (interior design sup):
    LS Relocate Orientation              1,446            0           24
     Theater (LOC Interior
     Design).....................
    LS Relocate Retail Store (LOC        1,376            0           24
     Interior Design)............
    LS Relocate Retail Office and          933            0           24
     Storage (LOC Interior
     Design).....................
    LS Relocate and Expand Swann           901            0           24
     Gallery (LOC Int Design)....
FY 2004 LOC project components:
    LS Relocate American Folklife        3,151           15          225
     Center--Implementation Phase
    LS Relocate Visitor Services         1,608            6          200
     Office......................
    LS Contract Loan for Swann             274            1           32
     Gallery.....................
                                                            ------------
        Subtotal hours allocated.  ...........  ...........          958
                                                            ------------
        Management and             ...........  ...........          192
         administrative support..
        Safety services support..  ...........  ...........          192
                                                            ------------
            Total hours allocated  ...........  ...........        1,342
------------------------------------------------------------------------

          Contract Support for Service Unit Facility Projects

    Question. The Facility Services Office is requesting $1.3 million 
of which $800 thousand will be used for contract services to execute 
projects requested by service units as far back as FY 2001. It is 
stated that this backlog of requests coupled with new requests affects 
the work of the service units requesting the space changes. Provide 
specific examples of how the work of the service units has been 
affected. Also, if projects are deferred how will this impact programs, 
safety, and staffing initiatives? You state that $800 thousand is for 
100,000 square feet of facility projects to be identified by the 
service units. Do you have current projects to address or are you 
assuming you will have these requests? Based on your statement 
``projects to be identified'' its hard to determine if this is real 
work or anticipated work.
    Answer. Major projects deferred over recent years due to limited 
staff and/or contract support include renovation projects in the Thomas 
Jefferson and John Adams Buildings, Library Services operations 
reorganization, Collections Security, Office of Strategic Initiatives 
staff expansion due to NDIIPP, and Copyright Office, Financial Services 
Division and Law Library space alterations. Delaying these projects has 
resulted in deferred hiring or hiring at a slower pace due to no or 
little space for new employees, safety violations due to overcrowding, 
personnel working in decks, and storage of collections on floors, 
walkways--which also impacts on collections management and security, 
etc., limited conference and meeting space, making it more difficult to 
conduct business especially with external customers, delayed or multi-
phased space alterations due to limited swing space during construction 
projects, and inefficient and inconsistent allocation of space, 
impacting day to day operations and staff morale.
    Current (backlog) projects and proposed projects for FY 2004 more 
than meet the 100,000 square feet estimate. Funding will not only help 
to address this demand but also ensure that required expertise is 
available as projects are becoming more complex and time consuming due 
to the incorporation of safety corrections in the designing and 
implementation phases.

                   Office Automation Assistant in ISS

    Question. You have a need for an Office Automation Assistant at 
$90,000 per year. With a budget of $86 million and a staff of 337 FTEs 
in the Office of Strategic Initiatives (OSI) why is this service not 
provided by the OSI?
    Answer. In Integrated Support Service (ISS), ``Office Automation 
Assistant'' is a position title used for general and specialized 
clerical and administrative support in the GS-0326 job classification. 
This is not a computer programmer or personal computer (PC) technical 
support position that might otherwise be available through OSI. The 
position identified is an Office Automation Assistant contractor with 
specialized experience supporting construction administration, document 
tracking and related facilities project activities. The budget amount 
requested is based on 2000 hours at General Services Administration 
(GSA) schedule (Architecture/Engineering (A/E)/Contract)) rates, and 
will supplement existing support staff in accomplishing the current and 
expanding workload of the unit.

                          Books for the Blind

    Question. There is a request for $1 million for restoration of the 
FY 2003 one-time reduction from Talking Book Machines to fund the 
National Federation of the Blind NEWSLINE. The Committee does not 
understand the Library making a statement that there was a one-time 
reduction in the talking book machines. The Committee believes there 
was no reduction in the amount available for talking book machines in 
FY 2003 since there was over $800 thousand unobligated in this account 
at the end of fiscal year 2002. Does the Library have a comment 
regarding this issue?
    Answer. The Committee is correct that the FY 2003 purchase of 
talking book machines was not affected because available no-year funds 
from FY 2002 were available. However, the Library is requesting $1 
million to maintain the FY 2004 purchasing power for talking book 
machines because available no-year funds will be expended during FY 
2003.

                          Embassy Construction

    Question. The Committee understands that the State Department is 
moving forward with an embassy construction program and that the 
Library's share of the project could be upwards in the neighborhood of 
$88 million. For the record explain what the State Department is 
proposing. What is the Library's position on this issue? What is the 
actual cost going to be for the Library? Is this a mandatory program or 
does the Library have any options?
    Answer. The State Department (DOS) is proposing to establish a 
Capital Security Cost-Sharing Program. The program is designed to have 
all U.S. Government agencies (USGA) with overseas presence pay a 
portion of DOS' new building program. The building program proposes to 
build 160 new embassy compounds over a 12-year period for an estimated 
total of $16 billion. Each agency, including the Library of Congress 
(LOC), would be required to request funding in its yearly budget 
submission to Congress to support this program.
    DOS has proposed to charge a flat rate of $47K for controlled 
access employees and $33K for non-controlled access employees (e.g., 
LOC staff). The program will being slowly in FY 2004, with a lower 
funding rate in FY 2004 and FY 2005, and then build to a progressively 
increasing funding level which will top out at an annual cost of $1.4 
billion from FY 2006 and on. DOS would pay 55% of the yearly $1.4 
million. The remainder would be paid by all agencies with an overseas 
presence.
    Based on documents provided to the LOC earlier in the year, LOC's 
yearly total would be $1.6 million in FY 2004, $6.5 million in FY 2005, 
and a flat rate of $8.009 million from FY 2006 on. That total, along 
with the $1.114 million paid by the LOC for ICASS charges would mean 
that the LOC pays DOS nearly $9.123 million for the support of 240 
positions in six locations. This exceeds the LOC's FY 2002 total 
overseas budget of $6.339 million by $2.784 million. LOC's projected 
12-year charges would be approximately $88.1 million.
    The Library opposes this program and has not included any funds in 
its FY 2004 budget to support this program for several reasons:
          <bullet> Cost-sharing program is built on faulty methodology 
        as there is no relationship between charges and services 
        provided. The head tax proposal does not meet current federal 
        cost accounting standards which do require a relationship 
        between costs and services provided. The LOC would support the 
        allocation of rent and operating costs based on actual space 
        and administrative services provided.
          <bullet> Forces small agencies with small presence overseas 
        to subsidize larger agencies who are represented everywhere. 
        Why should LOC pay/subsidize for building and administrative 
        costs for posts where it does not operate or will never 
        operate?
          <bullet> Far from encouraging ``right-sizing,'' proposal 
        removes any incentive for DOS to ``right-size'' its own 
        personnel overseas, especially in the administrative area, as 
        ICASS positions (all DOS admin employees) would not be subject 
        to taxation. DOS would have nearly 50% of its total new 
        overseas building costs subsidized by other government 
        agencies, with approximately 21,000 ICASS position costs--
        nearly 35% of all overseas positions--allocated among all the 
        overseas agencies.
          <bullet> Forces non-DOS agencies to defer their own funding 
        and related mission-driven work for the DOS embassy program. 
        Should building embassy compounds be the number one priority 
        for non-DOS departments? DOS's FY 2002 obligations/baseline 
        totaled $1.56 billion--approximate level for out years. Why 
        can't this baseline be maintained in DOS' budget?
          <bullet> Proposal also subordinates the overseas USGA 
        presence to agencies who can afford worldwide construction, 
        rather than on agencies whose mission or work required 
        investment in specific overseas locations. LOC should be the 
        driving force in determining where to invest its overseas 
        resources, not DOS. Further, LOC's programs should not be 
        penalized due to DOS' unchecked administrative overhead.
          <bullet> While costs are shared, DOS maintains ownership and 
        control of all overseas facilities. Agencies have no voice in 
        construction priorities or designs nor inclusion in management 
        of oversight of facilities. Agencies' location and/or site-
        specific space requirements are not guaranteed, even after 
        proceeds are provided for construction. Agencies will have no 
        voice in the use or allocation of proceeds from the sale of 
        DOS-owned facilities.
    LOC has presence in six overseas locations. LOC is currently 
located within the embassy or Consulate compound in three locations 
(Cairo, Nairobi, and Rio). Therefore, approximately 80 LOC positions 
are already housed and should not be included in calculations for 
future constructions.
    LOC is located in an US-owned building in Jakarta and off campus 
(leased space) in Islamabad. DOS has not indicated any movement in co-
locating LOC employees in these locations--therefore, question why 
these approximately 57 positions should be included in the new funding 
proposal.
    In New Delhi, LOC sixth and largest office (approximately 95 
positions), DOS wants the LOC to either find leased space 
(contradicting the directive to co-locate) or pay for construction 
needed to accommodate LOC employees within the embassy compound. 
According to DOS, construction costs range from $8-9 million--and this 
in addition to, the global charge that is also based on these 95 
positions.
    The Library does not view this as a mandatory program since the 
Congress has not authorized this reimbursable program in general, or 
the inclusion of the legislative branches, nor enacted on DOS' FY 2004 
budget request, which assumes this cost-sharing program. Further, we 
question how DOS can deny safe and secure housing for overseas 
employees as a result of an agency not paying for construction costs.
    If the Congress supports this program, then the Library will need 
the additional funds to pay for its costs as it cannot absorb this new 
and significant operating cost, nor shut down its overseas offices, 
which are needed to acquire materials for its collections. The only 
alternative is to include the Library's share in the DOS' budget to 
ensure that the LOC employees receive the same safe and secure space 
and support as other overseas employees.
    [Clerk's note.--The justification of the budget request 
submitted by the Library of Congress follows:]

[GRAPHIC] [TIFF OMITTED] T7100B.034

[GRAPHIC] [TIFF OMITTED] T7100B.035

[GRAPHIC] [TIFF OMITTED] T7100B.036

[GRAPHIC] [TIFF OMITTED] T7100B.037

[GRAPHIC] [TIFF OMITTED] T7100B.038

[GRAPHIC] [TIFF OMITTED] T7100B.039

[GRAPHIC] [TIFF OMITTED] T7100B.040

[GRAPHIC] [TIFF OMITTED] T7100B.041

[GRAPHIC] [TIFF OMITTED] T7100B.042

[GRAPHIC] [TIFF OMITTED] T7100B.043

[GRAPHIC] [TIFF OMITTED] T7100B.044

[GRAPHIC] [TIFF OMITTED] T7100B.045

[GRAPHIC] [TIFF OMITTED] T7100B.046

[GRAPHIC] [TIFF OMITTED] T7100B.047

[GRAPHIC] [TIFF OMITTED] T7100B.048

[GRAPHIC] [TIFF OMITTED] T7100B.049

[GRAPHIC] [TIFF OMITTED] T7100B.050

[GRAPHIC] [TIFF OMITTED] T7100B.051

[GRAPHIC] [TIFF OMITTED] T7100B.052

[GRAPHIC] [TIFF OMITTED] T7100B.053

[GRAPHIC] [TIFF OMITTED] T7100B.054

[GRAPHIC] [TIFF OMITTED] T7100B.055

[GRAPHIC] [TIFF OMITTED] T7100B.056

[GRAPHIC] [TIFF OMITTED] T7100B.057

[GRAPHIC] [TIFF OMITTED] T7100B.058

[GRAPHIC] [TIFF OMITTED] T7100B.059

[GRAPHIC] [TIFF OMITTED] T7100B.060

[GRAPHIC] [TIFF OMITTED] T7100B.061

[GRAPHIC] [TIFF OMITTED] T7100B.062

[GRAPHIC] [TIFF OMITTED] T7100B.063

[GRAPHIC] [TIFF OMITTED] T7100B.064

[GRAPHIC] [TIFF OMITTED] T7100B.065

[GRAPHIC] [TIFF OMITTED] T7100B.066

[GRAPHIC] [TIFF OMITTED] T7100B.067

[GRAPHIC] [TIFF OMITTED] T7100B.068

[GRAPHIC] [TIFF OMITTED] T7100B.069

[GRAPHIC] [TIFF OMITTED] T7100B.070

[GRAPHIC] [TIFF OMITTED] T7100B.071

[GRAPHIC] [TIFF OMITTED] T7100B.072

[GRAPHIC] [TIFF OMITTED] T7100B.073

[GRAPHIC] [TIFF OMITTED] T7100B.074

[GRAPHIC] [TIFF OMITTED] T7100B.075

[GRAPHIC] [TIFF OMITTED] T7100B.076

[GRAPHIC] [TIFF OMITTED] T7100B.077

[GRAPHIC] [TIFF OMITTED] T7100B.078

[GRAPHIC] [TIFF OMITTED] T7100B.079

[GRAPHIC] [TIFF OMITTED] T7100B.080

[GRAPHIC] [TIFF OMITTED] T7100B.081

[GRAPHIC] [TIFF OMITTED] T7100B.082

[GRAPHIC] [TIFF OMITTED] T7100B.083

[GRAPHIC] [TIFF OMITTED] T7100B.084

[GRAPHIC] [TIFF OMITTED] T7100B.085

[GRAPHIC] [TIFF OMITTED] T7100B.086

[GRAPHIC] [TIFF OMITTED] T7100B.087

[GRAPHIC] [TIFF OMITTED] T7100B.088

[GRAPHIC] [TIFF OMITTED] T7100B.089

[GRAPHIC] [TIFF OMITTED] T7100B.090

[GRAPHIC] [TIFF OMITTED] T7100B.091

[GRAPHIC] [TIFF OMITTED] T7100B.092

[GRAPHIC] [TIFF OMITTED] T7100B.093

[GRAPHIC] [TIFF OMITTED] T7100B.094

[GRAPHIC] [TIFF OMITTED] T7100B.095

[GRAPHIC] [TIFF OMITTED] T7100B.096

[GRAPHIC] [TIFF OMITTED] T7100B.097

[GRAPHIC] [TIFF OMITTED] T7100B.098

[GRAPHIC] [TIFF OMITTED] T7100B.099

[GRAPHIC] [TIFF OMITTED] T7100B.100

[GRAPHIC] [TIFF OMITTED] T7100B.101

[GRAPHIC] [TIFF OMITTED] T7100B.102

[GRAPHIC] [TIFF OMITTED] T7100B.103

[GRAPHIC] [TIFF OMITTED] T7100B.104

[GRAPHIC] [TIFF OMITTED] T7100B.105

[GRAPHIC] [TIFF OMITTED] T7100B.106

[GRAPHIC] [TIFF OMITTED] T7100B.107

[GRAPHIC] [TIFF OMITTED] T7100B.108

[GRAPHIC] [TIFF OMITTED] T7100B.109

[GRAPHIC] [TIFF OMITTED] T7100B.110

[GRAPHIC] [TIFF OMITTED] T7100B.111

[GRAPHIC] [TIFF OMITTED] T7100B.112

[GRAPHIC] [TIFF OMITTED] T7100B.113

[GRAPHIC] [TIFF OMITTED] T7100B.114

[GRAPHIC] [TIFF OMITTED] T7100B.115

[GRAPHIC] [TIFF OMITTED] T7100B.116

[GRAPHIC] [TIFF OMITTED] T7100B.117

[GRAPHIC] [TIFF OMITTED] T7100B.118

[GRAPHIC] [TIFF OMITTED] T7100B.119

[GRAPHIC] [TIFF OMITTED] T7100B.120

[GRAPHIC] [TIFF OMITTED] T7100B.121

[GRAPHIC] [TIFF OMITTED] T7100B.122

[GRAPHIC] [TIFF OMITTED] T7100B.123

[GRAPHIC] [TIFF OMITTED] T7100B.124

[GRAPHIC] [TIFF OMITTED] T7100B.125

[GRAPHIC] [TIFF OMITTED] T7100B.126

[GRAPHIC] [TIFF OMITTED] T7100B.127

[GRAPHIC] [TIFF OMITTED] T7100B.128

[GRAPHIC] [TIFF OMITTED] T7100B.129

[GRAPHIC] [TIFF OMITTED] T7100B.130

[GRAPHIC] [TIFF OMITTED] T7100B.131

[GRAPHIC] [TIFF OMITTED] T7100B.132

[GRAPHIC] [TIFF OMITTED] T7100B.133

[GRAPHIC] [TIFF OMITTED] T7100B.134

[GRAPHIC] [TIFF OMITTED] T7100B.135

[GRAPHIC] [TIFF OMITTED] T7100B.136

[GRAPHIC] [TIFF OMITTED] T7100B.137

[GRAPHIC] [TIFF OMITTED] T7100B.138

[GRAPHIC] [TIFF OMITTED] T7100B.139

[GRAPHIC] [TIFF OMITTED] T7100B.140

[GRAPHIC] [TIFF OMITTED] T7100B.141

[GRAPHIC] [TIFF OMITTED] T7100B.142

[GRAPHIC] [TIFF OMITTED] T7100B.143

[GRAPHIC] [TIFF OMITTED] T7100B.144

[GRAPHIC] [TIFF OMITTED] T7100B.145

[GRAPHIC] [TIFF OMITTED] T7100B.146

[GRAPHIC] [TIFF OMITTED] T7100B.147

[GRAPHIC] [TIFF OMITTED] T7100B.148

[GRAPHIC] [TIFF OMITTED] T7100B.149

[GRAPHIC] [TIFF OMITTED] T7100B.150

[GRAPHIC] [TIFF OMITTED] T7100B.151

[GRAPHIC] [TIFF OMITTED] T7100B.152

[GRAPHIC] [TIFF OMITTED] T7100B.153

[GRAPHIC] [TIFF OMITTED] T7100B.154

[GRAPHIC] [TIFF OMITTED] T7100B.155

[GRAPHIC] [TIFF OMITTED] T7100B.156

[GRAPHIC] [TIFF OMITTED] T7100B.157

[GRAPHIC] [TIFF OMITTED] T7100B.158

[GRAPHIC] [TIFF OMITTED] T7100B.159

[GRAPHIC] [TIFF OMITTED] T7100B.160

[GRAPHIC] [TIFF OMITTED] T7100B.161

[GRAPHIC] [TIFF OMITTED] T7100B.162

[GRAPHIC] [TIFF OMITTED] T7100B.163

[GRAPHIC] [TIFF OMITTED] T7100B.164

[GRAPHIC] [TIFF OMITTED] T7100B.165

[GRAPHIC] [TIFF OMITTED] T7100B.166

[GRAPHIC] [TIFF OMITTED] T7100B.167

[GRAPHIC] [TIFF OMITTED] T7100B.168

[GRAPHIC] [TIFF OMITTED] T7100B.169

[GRAPHIC] [TIFF OMITTED] T7100B.170

[GRAPHIC] [TIFF OMITTED] T7100B.171

[GRAPHIC] [TIFF OMITTED] T7100B.172

[GRAPHIC] [TIFF OMITTED] T7100B.173

[GRAPHIC] [TIFF OMITTED] T7100B.174

[GRAPHIC] [TIFF OMITTED] T7100B.175

[GRAPHIC] [TIFF OMITTED] T7100B.176

[GRAPHIC] [TIFF OMITTED] T7100B.177

[GRAPHIC] [TIFF OMITTED] T7100B.178

[GRAPHIC] [TIFF OMITTED] T7100B.179

[GRAPHIC] [TIFF OMITTED] T7100B.180

[GRAPHIC] [TIFF OMITTED] T7100B.181

[GRAPHIC] [TIFF OMITTED] T7100B.182

[GRAPHIC] [TIFF OMITTED] T7100B.183

[GRAPHIC] [TIFF OMITTED] T7100B.184

[GRAPHIC] [TIFF OMITTED] T7100B.185

[GRAPHIC] [TIFF OMITTED] T7100B.186

[GRAPHIC] [TIFF OMITTED] T7100B.187

[GRAPHIC] [TIFF OMITTED] T7100B.188

[GRAPHIC] [TIFF OMITTED] T7100B.189

[GRAPHIC] [TIFF OMITTED] T7100B.190

[GRAPHIC] [TIFF OMITTED] T7100B.191

[GRAPHIC] [TIFF OMITTED] T7100B.192

[GRAPHIC] [TIFF OMITTED] T7100B.193

[GRAPHIC] [TIFF OMITTED] T7100B.194

[GRAPHIC] [TIFF OMITTED] T7100B.195

[GRAPHIC] [TIFF OMITTED] T7100B.196

[GRAPHIC] [TIFF OMITTED] T7100B.197

[GRAPHIC] [TIFF OMITTED] T7100B.198

[GRAPHIC] [TIFF OMITTED] T7100B.199

[GRAPHIC] [TIFF OMITTED] T7100B.200

[GRAPHIC] [TIFF OMITTED] T7100B.201

[GRAPHIC] [TIFF OMITTED] T7100B.202

[GRAPHIC] [TIFF OMITTED] T7100B.203

[GRAPHIC] [TIFF OMITTED] T7100B.204

[GRAPHIC] [TIFF OMITTED] T7100B.205

[GRAPHIC] [TIFF OMITTED] T7100B.206

[GRAPHIC] [TIFF OMITTED] T7100B.207

[GRAPHIC] [TIFF OMITTED] T7100B.208

[GRAPHIC] [TIFF OMITTED] T7100B.209

[GRAPHIC] [TIFF OMITTED] T7100B.210

[GRAPHIC] [TIFF OMITTED] T7100B.211

[GRAPHIC] [TIFF OMITTED] T7100B.212

[GRAPHIC] [TIFF OMITTED] T7100B.213

[GRAPHIC] [TIFF OMITTED] T7100B.214

[GRAPHIC] [TIFF OMITTED] T7100B.215

[GRAPHIC] [TIFF OMITTED] T7100B.216

[GRAPHIC] [TIFF OMITTED] T7100B.217

[GRAPHIC] [TIFF OMITTED] T7100B.218

[GRAPHIC] [TIFF OMITTED] T7100B.219

                                          Wednesday, April 9, 2003.

                      CONGRESSIONAL BUDGET OFFICE

                               WITNESSES

DOUGLAS HOLTZ-EAKIN, DIRECTOR, CONGRESSIONAL BUDGET OFFICE
BARRY B. ANDERSON, DEPUTY DIRECTOR, CONGRESSIONAL BUDGET OFFICE

                            Opening Remarks

    Mr. Culberson. We are now going to take up the fiscal year 
2004 budget for the Congressional Budget Office, and I am 
delighted to have with us today the new Director of the CBO, 
Mr. Douglas Holtz-Eakin. On February 5, 2003, he became the new 
Director of the Congressional Budget Office. The Subcommittee 
will take this opportunity to congratulate you on your new 
assignment. Thank you very much for being here.
    Before we proceed, Mr. Holtz-Eakin, please introduce the 
members of your staff that have accompanied you today.
    Mr. Holtz-Eakin. Barry Anderson, the Deputy Director, is 
here--and Sandy Davis, Dan Zimmerman, and Polly Hodges.
    Mr. Culberson. We are delighted to have you. Thank you very 
much. I am pleased to have you here. I also want to be sure to 
congratulate you on Syracuse's victory.
    Mr. Holtz-Eakin. You are a gentleman.
    Mr. Culberson. Thank you.
    We are glad to have you here, and the request that we will 
consider today for fiscal year 2004 is almost $34 million 
($33,993,000), which is an increase of 6.6 percent, or 
$2,101,000 above the fiscal year 2003 enacted level. I want to 
make sure that you know, Mr. Holtz-Eakin, that your prepared 
statement has been distributed to the Subcommittee Members and 
will be entered into the record. Certainly, we would welcome 
your summary of that testimony.
    [The statement submitted for the record follows:]

    [GRAPHIC] [TIFF OMITTED] T7100B.220
    
    [GRAPHIC] [TIFF OMITTED] T7100B.221
    
    [GRAPHIC] [TIFF OMITTED] T7100B.222
    
    [GRAPHIC] [TIFF OMITTED] T7100B.223
    
    [GRAPHIC] [TIFF OMITTED] T7100B.224
    
    [GRAPHIC] [TIFF OMITTED] T7100B.225
    
    [GRAPHIC] [TIFF OMITTED] T7100B.226
    
    [GRAPHIC] [TIFF OMITTED] T7100B.227
    
    [GRAPHIC] [TIFF OMITTED] T7100B.228
    
    [GRAPHIC] [TIFF OMITTED] T7100B.229
    
    [GRAPHIC] [TIFF OMITTED] T7100B.230
    
    [GRAPHIC] [TIFF OMITTED] T7100B.231
    
    [GRAPHIC] [TIFF OMITTED] T7100B.232
    
    [GRAPHIC] [TIFF OMITTED] T7100B.233
    
    [GRAPHIC] [TIFF OMITTED] T7100B.234
    
    [GRAPHIC] [TIFF OMITTED] T7100B.235
    
    [GRAPHIC] [TIFF OMITTED] T7100B.236
    
    [GRAPHIC] [TIFF OMITTED] T7100B.237
    
                           Opening Statement

    Mr. Holtz-Eakin. Well, thank you for the opportunity to be 
here, and I am pleased to present our request for fiscal year 
2004. I will not take a lot of your time. You have had 
obviously a long day. But let me briefly say two things about 
our request, and I am happy to answer questions in detail.
    The first is on the overall request, the 6.6 percent 
increase really has two important components. One part is a 
request for our participation in the Federal Accounting 
Standards Advisory Board, and that $365,000 represents our 
contribution, but that contribution is not a net increase for 
the government as a whole. It will replace contributions made 
by GAO or Treasury.
    So if you take that part out, our request is really 5.5 
percent, of which 3.8 is for current services, and 1.7 
represents new initiatives at CBO.
    The second point I would like to make is that if you take a 
glance at the CBO budget, in the end it is really about the 
people there. And our budget request centers on our attempts to 
configure the Congressional Budget Office so that the people 
who work there can respond to their congressional duties in a 
timely fashion--in a way that is responsive to the needs of the 
Congress; to allow us to have sufficient communications to 
strategically employ our people and not waste their time doing 
things that are not useful in Congress; and, in the end, to 
provide some support in terms of technologies so that they can 
do their job in a high-quality fashion and fulfill the duties 
that are required of the CBO.
    So I won't belabor the point. That is the nature of the 
request in the main, and I would be happy to answer any 
questions.

                           THE MISSION OF CBO

    Mr. Culberson. Mr. Holtz-Eakin you are just coming on board 
as the new Director. The previous 18 months you served as Chief 
Economist for the President's Council of Economic Advisers. 
Before you came to the CBO you served with President Bush?
    Mr. Holtz-Eakin. Yes.
    Mr. Culberson. And the President appointed you. In what 
capacity were you serving before the President appointed you?
    Mr. Holtz-Eakin. Technically, it wasn't a Presidential 
appointment. I was the Chief Economist at the Council of 
Economic Advisers, which I did at the request of the Chairman 
of the Council. Prior to that I was at Syracuse University for 
12 years where----
    Mr. Culberson. You came straight from Syracuse?
    Mr. Holtz-Eakin. I came from Syracuse. I have been 
department chairman and a variety of things there.
    Mr. Culberson. Could you describe the mission of the 
Congressional Budget Office and in what direction you would 
like to take the agency.
    Mr. Holtz-Eakin. Sure. The mission of the Congressional 
Budget Office is to support Congress in its budgetary 
deliberations, and in doing that, first and foremost, we 
provide cost estimates of the budgetary consequences of the 
different pieces of legislation on the outlay side. The Joint 
Committee does the tax side. We also in a standard budget cycle 
do our January baseline outlook for the budget, our analysis of 
the President's budgetary proposals, and a midsummer update to 
the budget outlook, and every other year, we put out a budget 
options document to give Congress and others a flavor of the 
kinds of options that exist to alter the budgetary outlook.
    And my main goal at CBO is to build on its tradition of 
high-quality, nonpartisan advice and to enhance it in any way 
that I can. And that main mission will not change.

                            DYNAMIC SCORING

    Mr. Culberson. In the fiscal year 2003 appropriation, 
Congress provided additional funding to the Joint Committee on 
Taxation to address the issues of dynamic scoring. I know this 
was of interest to the Budget Committee during the current 
selection process of the new director of the CBO. For the 
benefit of the Subcommittee, could you give us your views 
regarding this issue?
    Mr. Holtz-Eakin. I have 4\1/2\ hours of material on this.
    Briefly, my view as an economist: Dynamic scoring is 
scientifically correct. As an economist, when I analyze a 
policy, I would like to look at the world without the policy, 
look at the world in the presence of the policy, and compare 
all the changes in between. That strikes me as good science, 
and I have always said I would have to turn in my union card if 
I didn't come down there.
    On the other hand, in translating that to the Federal 
budgetary arena, I think a couple of points should be made: 
Number one, sometimes the science is not up to the task, and 
dynamic scoring is not yet ready to be, in my view, the main 
part of the budget process. I think it is appropriate to have 
it as a supplement, additional information to Congress at this 
point. I like dynamic scoring as supplementary information 
because it forces me to think about the economy underneath the 
policy and how it reacts to the policy, not just the budget in 
isolation, and I view that as a good exercise in thinking about 
policy development.
    So to the extent that it is introduced, at this point, I 
think it should be regarded as providing supplementary 
information at best. And then I would hasten to add two other 
things. Number one, my views are actually not really all that 
important. What matters is what the Budget Committees and the 
Congress in general find useful and timely in their 
deliberations, and I look forward to working with everybody in 
providing the information that people find useful. And to the 
extent that this supplementary information for which we have 
undertaken some initial efforts is useful, we are going to work 
with people and try to make sure we tailor it to the needs.

                          THE CURRENT DEFICIT

    Mr. Culberson. Speaking of dynamic scoring, how would you 
describe the causes of the current deficit that we face, and 
what impact, if any, the President's tax cuts have had on the 
deficit?
    Mr. Holtz-Eakin. Well, broadly speaking, CBO has done 
previous decompositions of changes in the surpluses. As a 
matter of course, there are decompositions into economic, 
technical, and legislative changes in the surplus outlook, and 
if you go back over the last couple of years, broadly speaking, 
the largest source of declines in the surplus has been the 
economy. And of the residual, it is about 50-50 between 
spending increases and decreases in receipts. I think that is a 
characterization of the evolution of the Federal surplus that 
CBO has documented pretty well, and it is shared by other 
analysts as well.
    Mr. Culberson. So roughly 50-50.
    Mr. Holtz-Eakin. The dominant source has been the economy.
    Mr. Culberson. A decline in receipts is the dominant source 
of the deficit?
    Mr. Holtz-Eakin. As the economy goes down, you get declines 
in receipts. You also get increasing outlays from automatic 
programs, such as unemployment insurance, even absent 
legislative initiatives. The stock market fed into this 
particular receipts downturn in a large way. And so those 
economic factors are the dominant source of declines in 
receipts and some increases in outlays. That has been the 
single largest source of changes in the surplus. Legislative 
actions of about 50 percent on the spending side and 50 percent 
on the tax side account for the remainder.
    Mr. Culberson. Can you quantify what percentage of the 
decline in receipts has been a result of the President's tax 
cuts?
    Mr. Holtz-Eakin. This is a year-old thing. We go back and 
bring you up to date, but as of the----
    Mr. Anderson. Frequently, the question is asked relative to 
the baseline we did just before the President's tax cut. Under 
that baseline, the January 2001 baseline, which was not a 
forecast, but a projection under current law, we had a 
projection of $5.6 trillion worth of surpluses for the period 
2002 through 2011. We are now at a level after the 
appropriation of about a $400 billion deficit over the same 
period. So that is about a $6 trillion decline.
    Forty-five percent of that decline, as the Director just 
said, came from economic changes. Of the 55 percent that is 
remaining, 21 percent came from the President's tax cut, 21 
percent came from spending increases, and the remainder was 
debt service on the tax cut and the spending increases. So the 
amount that the President's 2001 tax cut contributed to the 
decline of the surpluses is matched by the amount of 
noninterest spending increases.
    Mr. Holtz-Eakin. It is about $1.2 trillion; I think that is 
the number.
    Mr. Culberson. And that is over a 5-year period?
    Mr. Anderson. Ten-year period.
    Mr. Culberson. Excuse me. Over a 10-year period.
    If there is a surplus, is it accurate to say there is a tax 
surplus? Why don't I just refer to it as a tax surplus?
    Mr. Holtz-Eakin. It is the--I am maybe missing the 
question, but----
    Mr. Culberson. If there is a surplus in the Federal 
Treasury, since all the money we have in the Treasury is tax 
collections, I am just asking in terms of terminology, could 
you call it a tax surplus?
    Mr. Holtz-Eakin. Standard terminology would be receipts 
from all sources minus outlays from all sources gives you 
surplus.
    Mr. Culberson. And I am just asking in terms of 
terminology, wouldn't it be also accurate to call it a tax 
surplus since all the revenue in the Treasury is taken from tax 
receipts?
    Mr. Holtz-Eakin. Oh, I am sure we could define this to 
death in the end, because there are other sources besides just 
taxes.
    Mr. Culberson. That is a fine and a healthy way to think of 
it and refer to it, because it is a tax surplus and not a 
budget surplus--it is tax revenue and not our money, I wanted 
to ask you for definition purposes.

                         WASTE, FRAUD AND ABUSE

    I also wanted to ask you, as the Chairman has been asking 
this question of all of the witnesses and all of the agencies 
that have been appearing before us, about waste, fraud and 
abuse within the CBO. I want to be sure to ask you if you could 
describe for us the safeguards that are at your disposal to 
assure that you are, as well as can be expected, protected 
against the potential of waste, fraud and abuse.
    Mr. Holtz-Eakin. Well, I can name a couple of specifics. 
We, CBO, did have an outside contractor come in and take a look 
at our internal controls, and this is leading to an improved 
asset management system and to an improved accounts payable 
system. We will undertake our financial audit for fiscal year 
2003 and use that to guide us in the future.
    And more generally, and Barry is better equipped to speak 
to this, I can testify that under the tenure of Dan Crippen, 
the administrative structure of the Congressional Budget Office 
was improved dramatically with an eye toward both bringing 
financial management up to what I think of as the state of the 
art and ensuring in the human resources department that our 
people are, in fact, reviewed for their performance, that they 
are awarded according to whether it is appropriate performance 
or not, where those who are not performing well are informed of 
that fact.
    As I mentioned earlier, the budget is people, and so the 
better we use our people, the less likely we are to waste 
resources.

              FEDERAL ACCOUNTING STANDARDS ADVISORY BOARD

    Mr. Culberson. I note that in your appropriations request, 
you are asking legislative authority to allow you to pay the 
CBO's share of the budget for the operations of the Federal 
Accounting Standards Advisory Board. You are seeking $365,000, 
to pay for an appropriate share of the costs of operating the 
board. This is a new line item in the budget, and I just wanted 
to ask you to explain the request and the CBO's connection to 
the Board.
    Mr. Holtz-Eakin. I think Barry is best equipped to handle 
this.
    Mr. Anderson. The Federal Accounting Standards Advisory 
Board was set up in 1990, and CBO was one of the charter 
members of that Board and was on that Board up until last year 
when there was an effort to get more private sector 
representatives involved in terms of setting standards for 
Federal agencies.
    In the process of doing that, CBO was originally removed 
from the Board, but it was not the intent of the principals of 
the board, GAO, OMB, or Treasury, to do that. After some 
discussions with them over the past year, we worked out a 
method where CBO was added back to the Board, but as a partner 
with GAO, OMB, and Treasury.
    As a partner, however, we were responsible for paying a 
fair share, and that line item that you see there is really 
just our fair share of the costs of the Board.
    But as the Director said in his introductory statement, it 
is not new money. Rather, GAO, OMB, and Treasury will pay just 
a little bit less, and then we will pay approximately one-
fourth of the cost to the Board, because now we are a partner 
with the other three.
    Mr. Culberson. What is the effect on the accounting 
profession in the United States of America from the standards?
    Mr. Anderson. It affects accounting for the Federal 
Government only. The Federal Accounting Standards Advisory 
Board, or FASAB, is frequently confused with the Financial 
Accounting Standards Board, or FASB. FASB has been the Board 
that sets accounting standards for all of the private 
accounting throughout the country, and its standards have come 
into question many times over the past, particularly with the 
variety of the accounting issues that have arisen recently. But 
that is not FASAB.
    The Federal Accounting Standards Advisory Board does only 
for the Federal Government. Treasury just issued financial 
statements for the Federal Government as a whole. FASAB had 
direct input into those financial standards and to what the 
agencies reported to Treasury.
    Mr. Culberson. This $365,000 request is a new line item in 
your budget.
    Mr. Holtz-Eakin. For us.
    Mr. Anderson. For us, but not for the government.
    Mr. Culberson. I understand.
    I often get the question from constituents, why doesn't the 
Federal Government use the same accounting standards, the 
Generally Accepted Accounting Procedures, that are used in the 
private sector. Why is that? It seems to me to be good sense. 
Why don't we use the same standards as the private sector?
    Mr. Anderson. We are different. No other accounting entity 
has the ability to print money. No other accounting entity has 
the ability to get in the front of the line for credit.
    When borrowers go to Wall Street or any other financial 
market to borrow, the Federal Government is always in the front 
of the line and doesn't borrow for specific purposes as do all 
other models.
    In addition, because we don't have a profit and loss 
statement, because we do things for public purposes, there is 
reason to consider the importance of cash accounting without 
trying to disregard GAAP principles and the long-term 
consequences of cash accounting--but the importance of cash 
accounting, because it provides a tighter discipline on the 
political process. It is worth noting, I think, that virtually 
all over, Federal governments in the world use cash accounting 
or some kind of specific standards that apply to them and not 
GAAP standards that apply to the private sector.
    So I really think it would be fair if we were to say that 
we are really different here. I spent much of my career at the 
Office of Management and Budget, and when new administrations 
and Members would come in, I would take them figuratively, not 
literally, down to the basement of the Treasury and show them 
the printing process, and I would say even Microsoft doesn't 
have one of these. It does make a difference, and it does 
require a different set of accounting standards.
    Mr. Culberson. Of course, the people I represent often 
believe that a big part of the problem is that you are 
different. I am committed to a balanced budget. I would like to 
see a balanced budget. That is a separate issue, but it is a 
difference that you have outlined, and we appreciate it.
    I want to be sure Mr. Price has an opportunity to ask 
questions.

                 DYNAMIC SCORING/METHODS AND APPROACHES

    Mr. Price. Thank you. Welcome. We appreciate you being 
here, and appreciate your testimony.
    You have responded, I think, in a very balanced way on the 
dynamic scoring issue, which is the main reason you and your 
office have been in the news lately, as there has been 
speculation all around about, whether you might or might not be 
changing your way of producing analysis and what the 
implications of that might be. One reason this was judged 
newsworthy is that some of the predicted results didn't quite 
pan out. That is not so much a result of your analysis as that 
of other dynamic scoring purveyors who came up with a wide 
array of findings about the effects of the President's tax cut, 
for example, which seemed to suggest that the dynamic scoring 
could cover a multitude of methods and approaches, and that all 
of those wouldn't necessarily produce the same results.
    For example, Macroeconomic Advisers in St. Louis released a 
dynamic score of the President's new tax cut proposal. They 
found a short-term effect boosting the size of the economy, but 
found those positive effects would soon turn negative. They 
found that 17 would actually have shrunk the economy by .3 
percent while raising long-term interest rates by .75 percent, 
and that the deficit by then would be $300 billion more than 
the traditional static score would have predicted.
    Is this an outline, or is this typical, you think, of the 
kind of findings we might expect, given that most of the 
predictions have expected that static scoring would give a much 
more rosy view of the effects of these particular economic 
issues?
    Mr. Holtz-Eakin. Well, I won't speak to the details of 
Macroeconomic Advisers' analysis, but I will point out that it 
is not comparable to the work that we did. What the CBO did in 
its analysis of the President's budgetary proposals was to look 
at macroeconomic impact of the budget as a whole. Those 
proposals consisted of roughly $1.5 trillion worth over 10 
years in receipts policies, reductions in receipts, and $2.2 
trillion in outlay policies, including $400 billion for 
Medicare, prescription drugs, and a lot of other things.
    Our analysis was designed to complement the traditional CBO 
analysis by taking those budgetary proposals as a whole and 
looking at the macroeconomic consequences in a variety of 
different settings and assumptions.
    So it was neither an analysis of the President's tax 
proposals, nor was it a comment on dynamic scoring per se. It 
was an analysis of these particular budgetary proposals on the 
whole and doesn't really speak to any individual policy. It 
reflects the balancing effects. So it is an apples and oranges 
comparison. It is commonly made, and I have seen lots of that, 
but it is not strictly correct.
    Mr. Price. For clarification, you are not proposing that 
the official, so to speak, way of analyzing or of presenting 
budgetary projections, budget deficits, related debt, be 
changed? You are not proposing presenting those in a way that 
differs from past practices?
    Mr. Holtz-Eakin. We put in our analysis all of the past 
practice, the traditional macroeconomic analysis that CBO and 
others have done. We took the President's budgetary proposals 
at their word that they were assertions, that they were 
macroeconomic activity, and we have examined that. You can't 
look at one proposal in isolation. It is a budgetary 
proposition as a whole, and we analyzed that.
    Our view is we look forward to working with the committees. 
It is a first step. If it is useful and helps to illuminate the 
budgetary process; then we will be happy to fine-tune it in the 
future.
    I guess the way I think about it is this: What CBO does as 
a matter of course, and has done as long as I have known that 
CBO has been in existence, is produce a budgetary baseline each 
January, a projection under current law of the economic 
budgetary outlook. And this analysis in doing that would take 
into account the economic impacts of any policy that would be 
in place come January 1st, and that is standard operating 
procedure.
    What this essentially did was imagine the President's 
proposals as enacted as a whole and redid the baseline, just 
imagined that they were put into law and that we were asked the 
question, what would a baseline look like in the presence of 
these proposals? And that is the analysis that we did, and it 
struck us that an additional piece of information about those 
budgetary proposals might be informative and useful, and we did 
it as quickly as we could. But I will point out that it was an 
enormous effort, and if you have read the report, you can see 
there are a lot of possibilities in terms of the way the 
analyses could be done.
    I viewed it personally as a first step, hardly the final 
statement about dynamic analysis or macroeconomic impacts in 
any way, and, you know, where we go from here is something that 
I am eager to work with Congress on.

                         RESPONSIBLE BUDGETING

    Mr. Price. I think most people's inclination is to think 
that more information is better than less, more alternatives 
are better than less, but that is not necessarily always true. 
They are not necessarily always what we are looking for in 
terms of responsible budgeting. We also, I think, look to CBO 
for some considered judgment about what is most reliable, what 
is most accurate, what is responsible to base a policy on, 
because if we don't have that, I think there is a tendency to 
pick the most optimistic scenario, the most optimistic possible 
projection, and to hang our hat on that. And that is, I think, 
not the way we should proceed.
    And so I think with the generating of these alternative 
models and alternative ways of looking at the budget reality, I 
would hope Congress would also look to your office to offer a 
reality check and to render your best judgment as to what is 
truly reliable or what the most reliable numbers look like. Do 
you accept that?
    Mr. Holtz-Eakin. I understand the responsibility of CBO to 
produce nonpartisan, high-quality analysis of the budgetary 
outlook, and I would hasten to point out that your judgment 
about whether more information is better or worse we can 
discuss. The quality of the macroeconomic analysis that I am 
quite proud of we produced. I think it is a very professional 
job that fits the proud legacy of CBO as a nonpartisan entity. 
And the fact that there is a range of estimates is not, in my 
view, a statement that we don't know what will come down. It 
is, rather, a matter of the technology of modeling, that 
different models emphasize different aspects of economic 
reality. And we thought it useful to show people that if you 
emphasize the business cycles, these are the kinds of effects 
you can expect to see. If you are more interested in the long-
run supply cycle of an economy, these are the kinds of impacts 
you might see. To the extent that that information proves not 
useful to the readers, well, then, a lesson learned, and we can 
move forward in the future.
    Mr. Price. How much of your staffing needs, in your budget 
requests, is linked to the kind of expansion of capacity we are 
talking about? Is it a factor, or are you able to do this out 
of existing resources?
    Mr. Holtz-Eakin. We did it out of existing resources. But 
the heart of our budgetary requests in terms of people is to 
improve wherever possible the quality of our baseline estimates 
of receipts. As I think everyone in this room is aware, over 
the past couple years, forecasting receipts has been a great 
professional challenge at CBO and elsewhere. But that challenge 
lies at the intersection of macroeconomics finance, given the 
large role of the stock market, and the stock market-related 
variable compensation, bonuses, options, and then the tax role. 
As it turns out, in hiring professional economists, those are 
some of the hardest areas. And so we are trying to hire in the 
area of finance, which is difficult, bringing more capacity 
there, and our approach is to try to build a capacity through 
visiting scholars and through our fellowship program, perhaps 
by reaching out to some of the State-level analysts in States 
where those sources of receipts are important, California and 
New York. And so the request is really centered on the receipts 
baseline more than anything else.

                            FISCAL REVERSAL

    Mr. Price. Well, finally, let me just ask you to revisit 
briefly the rough breakdown you gave regarding the components 
of the fiscal reversal we are looking at here. I think you said 
$6 trillion.
    Mr. Anderson. Well, we started, as I said, 2 years ago----
    Mr. Price. Given the estimates of 2 years ago, and then you 
gave a breakdown----
    Mr. Anderson. We went from $5.6 trillion--an approximately 
$5.6 trillion surplus, covering the years 2002 through 2011, to 
approximately a $400 billion deficit in total over those 10 
years.
    Mr. Price. A $6 trillion reversal?
    Mr. Anderson. Right. And of that $6 trillion reversal, 
approximately 45 percent of it, or $2.7 trillion of it, was 
because of economic changes at----
    Mr. Price. Is that a reduction in the flow of revenues? Is 
it increases in entitlement spending, or is it both?
    Mr. Anderson. Both. By far most of it is the reduction of 
flow of revenues, but when the economy didn't perform as well 
as it was forecasted 2 years ago, there was also an increase in 
food stamps, unemployment benefits, and other entitlement 
spending.
    Mr. Price. So you are calling that an economic factor 
rather than putting it under the spending category?
    Mr. Anderson. I am calling it an economic factor. One can 
break out economic to both revenue and spending, but, right, I 
am putting it under economic.
    Mr. Price. So you are saying 21 percent is attributable to 
the President's tax cut?
    Mr. Anderson. Correct.
    Mr. Price. And the past tax cut----
    Mr. Anderson. The one in 2001.
    Mr. Price [continuing]. Plus a certain amount of debt 
service for savings----
    Mr. Anderson. Twenty-one percent for the President's tax 
cut. Twenty-one percent for new spending. Most of that spending 
was discretionary, but there was also spending for the Farm 
Bill and for other various laws that have been passed over the 
past 2 years. And that total spending, not counting the debt 
service, also equals 21 percent.
    Mr. Price. So that breakdown does not show the new tax cut 
proposal.
    Mr. Anderson. Correct.
    Mr. Price. Does it assume that the 2001 tax cut proposal 
will be permanent?
    Mr. Anderson. No. But, again, this only goes through 2011, 
so the expiration of the tax cut applies only to 1 year.
    Mr. Price. But that is still a fairly good chunk of----
    Mr. Anderson. A hundred and some billion dollars, right.
    Mr. Price. Does it assume any fix to the alternative 
minimum tax?
    Mr. Holtz-Eakin. No. Only--as a projection of current law. 
It does not anticipate any legislative action.
    Mr. Price. Does it assume the renewal of things like the 
research and development tax credit? Are those----
    Mr. Holtz-Eakin. Current law.
    Mr. Price. All right. So, therefore, the 21 percent figure 
is pretty low if you assume one or more of these additional 
elements might be part of the mix. And the estimate of the 
fiscal reversal is low by that same token, correct?
    Mr. Anderson. I am sorry. The estimate----
    Mr. Price. You would be underestimating fiscal reversal--if 
by taking these additional factors into account, the hole could 
be dug deeper, in other words.
    Mr. Anderson. It could be.
    Mr. Price. All right. Well, thank you.
    Thank you, Mr. Chairman.

                     CONGRESSIONAL DIRECTION OF CBO

    Mr. Kingston [presiding]. I wanted to ask you a couple of 
questions. You have 236 employees. How many of those are 
experienced personnel who are intimately familiar with the CBO 
and have weathered a few political changeovers of philosophy in 
party?
    Mr. Holtz-Eakin. In my 2 months on the job, I didn't learn 
that, so I am now----
    Mr. Kingston. Let me restate, because this isn't a trick 
question. There have been many different philosophies on the 
CBO, and there is always the suspicion that the Majority Party 
is really manipulating and squeezing things, no matter who the 
Majority is. Within your 236 employees, are there some people 
with good, omniscient institutional knowledge that can predict 
and intercept these changes?
    Mr. Anderson. Absolutely.
    Mr. Holtz-Eakin. That is a characteristic of the 
organization, not just a few people.
    Mr. Kingston. Have they been able to provide direction? It 
appears to me that every 2 to 3 years Congress tries to change 
the tide and maybe some of these folks have some sage advice to 
share with us on a bipartisan basis.
    Mr. Holtz-Eakin. I will just give personal testimony at 
this point, from having arrived only 2 months ago. The 
experience I have had on every issue is that when I discuss 
with the staff what is at play, what the issues are, I get top-
notch economic analysis, top-notch budgetary implications, and 
top-notch counsel telling me, ``This is the way it will look to 
everybody involved--you should be aware of all these factors.'' 
And I can't speak highly enough about it, the degree to which 
all the points are laid out.
    Mr. Kingston. However, it is still possible that Congress 
is moving you in a direction that might not be a great idea. We 
are coming in and saying, no, you need to do this or that, 
whether the debate of the day is dynamic scoring or another 
argument. It is still possible that you are politically or 
philosophically manipulated by either party or the dynamics of 
the town.
    Mr. Holtz-Eakin. Again, let me speak from my point of view 
on that. I am the first the CBO Director ever to go from a 
White House staff position to the CBO, and for that reason have 
been placed squarely on notice about the CBO's legacy of 
nonpartisanship. What I can tell you is that, number one, in 
the end if the CBO gets pushed one way or the other, it will be 
my responsibility, and it is not my intention for that to 
happen. When I complete my term, 4 years from now, what I hope 
people look back and see is that it was a first-rate place with 
the best analysis in town, and that it did its job.
    And I will tell you the second thing, which is one of the 
reasons that I think it is entirely possible to fulfill that 
goal, is that the staff works very hard to make it possible for 
a Director to do that.
    Mr. Kingston. That is something this Committee is 
interested in--a variety of scientific or economic purity.
    Mr. Holtz-Eakin. I am very interested in that.

                            CBO'S EXPERTISE

    Mr. Kingston. Looking at some of the things the CBO 
studies, is it possible that you spread your expertise too 
thinly? We think about the implications of this pending bill or 
this tax bill, and yet you become involved in all kinds of 
things, including military advice which seems just outside of 
what you should be doing.
    Mr. Holtz-Eakin. Well, in our written submission, one of 
the things you will see in there is the notion--the dual 
notions of communications and a strategic plan. My view is that 
our studies are done at the request of Congress, so that the 
areas in which we end up working are ones in which Members have 
displayed an interest in more analysis.
    But I think there is always a payoff to building into our 
planning a more formal and enhanced planning process where we 
formalize what has gone on for a long time. The staff meet with 
Congressional staff to talk about the issues that are going 
forward. We focus our results on those issues and turn them 
into the CBO projects and deploy people to meet those needs.
    Mr. Kingston. Why should this Committee spend money on you 
researching the long-term implications of occupation. That is 
DOD's job, and should be out of DOD's budget, not out of the 
CBO's.
    Mr. Holtz-Eakin. I think----
    Mr. Kingston. I believe if you are the only guy in town 
studying it, then that is a great thing to do. However, it 
seems that if you have a really good study, you are still going 
to be trumped by DOD's study, especially given the propensity 
of Pentagon types to prefer their own.
    Mr. Holtz-Eakin. If you go back to what I believe is the 
original intent of the 1974 Budget Act, which put the CBO into 
existence, it was to have an independent estimate of the 
budgetary consequences of different activities and not to rely 
solely on those produced by the administration or Federal 
agencies. We end up doing things of that nature for exactly 
that reason, providing independent estimates and to give 
insight into the budgetary consequences of that particular----
    Mr. Anderson. If I may, Mr. Chairman, let me give you an 
example. We provide cost estimates of the Defense Appropriation 
Bills to the Appropriations Committee. The Defense Department, 
through the Office of Management and Budget, through this 
administration and previous administrations, takes the amount 
of budget authority that the Congress provides and gives 
Congress an estimate of the outlays. We do that, too. Over the 
years, the differences between the administration's estimate of 
the outlays and the CBO's estimate of the outlays sometimes 
have been very, very large. We are very proud of our estimates. 
As opposed to being trumped by the Department, if you look at 
the history, we have come out much closer to the actual figures 
than what the Department does.
    But for us to do that job well, we have to take a look at 
the analysis of how the Department spends its money, but we 
certainly don't give policy advice with respect to how to do 
that.

                        NATIONAL MISSILE DEFENSE

    Mr. Kingston. How relevant were the technical 
characteristics of last year's study on the National Missile 
Defense System, for example, in the defense debate in Iraq or 
North Korea?
    Mr. Anderson. There were a number of factors in National 
Missile Defense proposals that were being taken into account in 
terms of Congress's consideration. We looked at not only 
information that was publicly available to others, but also 
tried to use our expertise, which is considerable, on the cost 
estimates of this so that when the Department or other 
proponents of the National Missile Defense came up with 
estimates to say this is what it would cost, we would be able 
to comment and give our own independent, objective, nonpartisan 
view on that.
    I can't speak to the real relevance of that study right 
now, because I think the debate still going on, but I know that 
the Department pays a lot of attention to what we say, that its 
staff are very interested and, in fact, very often really try 
to help us, help us perhaps in the way of trying to persuade or 
convince us of the wisdom of their ways, because our 
independent stature matters.
    Mr. Kingston. They don't lend any FTE's to the effort.
    Mr. Anderson. Oh, no, no.

                 UTILIZING RESOURCES ON RELEVANT ISSUES

    Mr. Kingston. Have you ever tracked how relevant some of 
your analysis work is? I don't want to see you wasting your 
resources.
    Mr. Holtz-Eakin. I will give you a particular example. CBO 
did an analysis last year at the request of Senator Conrad on 
the potential cost of the war in Iraq, and those estimates 
were--it was possible to derive those estimates only because 
the experts in this area knew of the potential range of 
strategic plans that could be deployed, a heavy air scenario, a 
heavy ground scenario, which turned out to be the one that went 
on. They knew all the details about logistics and supply lines. 
They knew the corps capacity in Kuwait and that how fast you 
could get men in and out literally is a matter of the 
constraints. They knew the available aircraft and ships. It 
took an enormous range of expertise to put those cost estimates 
together. They were dead on.
    Mr. Kingston. What were their estimates?
    Mr. Holtz-Eakin. The estimates were about $14 billion to 
deploy the troops, $10 billion for the first month of combat, 
and $8 billion for every month thereafter, $9 billion redeploy 
the troops back here, and a range of 1 to $4 billion per month 
for occupation. If you look at the request in the Supplemental, 
we have reconciled it nearly perfectly with those estimates 
that were done quite awhile ago.
    And as Barry pointed out, our estimates of the outlay 
effects, of how fast that, say, $60 billion into Department of 
Defense budget authority will turn into outlays, is different 
than what we get from the Department of Defense, and I would 
judge in the end will be better.
    Mr. Anderson. We did those estimates when some others in 
government were quoting estimates that were wildly different, 
wildly different.
    Mr. Kingston. My concern is I want to see you utilizing 
your resources on things that are relevant to policy 
decisionmaking and not because you can do it.
    What is your scorecard over time when you predict the 
effects of a tax or spending bill? Do you keep a scorecard, 
because your critics outside the CBO say, ``Well, they are 
always wrong.'' It would be nice to see ``Here is what we 
predicted, and here is what happened.'' People can blast CBO, 
of course, but we could defend you with a good scorecard or we 
could try to find out if there is a different way to conduct 
CBO's business.
    Mr. Holtz-Eakin. CBO has a very good track record, and I 
would be happy to walk you through what is a regular 
compilation of the enormous amount of evidence on this front. I 
would point out, so that people understand the terms of the 
debate, that we don't really get to predict things. We project 
current law, and if people change the law, then we will be 
wrong. It is our mandate by statute to do projections in that 
fashion.
    However, to inform people of the ability for us to be wrong 
for reasons like that, CBO has made a standard part of its 
projections what we refer to as fan charts, which show the band 
of uncertainty that surrounds the number and the degree to 
which there is a wide band of uncertainty or a fairly tight 
one. And so we tried to be very clear both about our record. 
And I think if you look at a January baseline, you will see a 
discussion of CBO's forecasting record.
    We also, in presenting our results, present the range of 
uncertainty so readers can consume them intelligently and 
recognize those places where we have tight priorities about how 
accurate it is going to be and those where we are not quite so 
sure.
    Mr. Kingston. I would like to follow up with you on that.
    [Clerk's note.--The following information was provided for 
the record.]

[GRAPHIC] [TIFF OMITTED] T7100B.238

[GRAPHIC] [TIFF OMITTED] T7100B.239

[GRAPHIC] [TIFF OMITTED] T7100B.240

[GRAPHIC] [TIFF OMITTED] T7100B.241

                         RECONSTRUCTION OF IRAQ

    Mr. Kingston. Mr. Moran.
    Mr. Moran. Jack, you have explored the questions that need 
to be explored. Our main concern is that we have nonpartisan, 
objective, professional response to information provided to 
CBO. I have every reason to believe that it will be all of 
those criteria.
    Mr. Price has asked a number of those questions about 
dynamic scoring, which we see as something that could be 
abused. It doesn't necessarily have to be. As long as it gets 
fully explained and not relied upon and not used for partisan 
purposes, we don't object to it. We just don't want it to be 
used to mask the real costs of undertaking the tax cuts.
    The only thing I would ask, the margins--here is your 
estimate of cost for reconstruction--in other words, total 
cost--was so right on in terms of the initial cost being 
consistent with the supplemental request. What is your cost for 
the rest of the carrying out the full objective of rebuilding 
Iraq?
    Mr. Holtz-Eakin. I don't have that number, but what I can 
tell you is consistent with the details that go into the other 
estimates, the staff is undertaking thinking about this in two 
very different ways to see how the two approaches would give 
the same answer. One is to look at roughly per capita 
reconstruction costs in places like Bosnia and Kosovo. In the 
other, they mapped out in tremendous detail what they felt 
would be the strategic targets that would be bombed, their 
scale, and as a result the cost of reconstructing them building 
by building by building, and they are adding those numbers up 
as we speak.
    Mr. Moran. Well, we would be very interested in seeing 
those numbers, because as DOD said, they have no idea what the 
cost would be. But the fact is your estimate was consistent for 
several months, and it turns out to have been right on target. 
It would save them a lot of grief if they had just at least 
shared with us. CBO's estimate at least was done in a 
professional, objective manner.
    But I don't want to belabor the hearing. I don't have any 
problems with Mr. Holtz's statement at this point, Mr. 
Chairman, and I hope they get their budget request.

                            Closing Remarks

    Mr. Kingston. I have been in the Majority, I have been in 
the Minority. When you set the law, set the speed limit, you 
can be as partisan as you want if you control the Majority but 
I want my speedometer in my car and I want the radar detector 
of the State patrolman to be nonpartisan. I think that you are 
that guy. You absolutely have to be a sanctuary of 
nonpartisanship, and that goes not just to the charge of your 
agency, but to the charge of your employees. If you speculate 
someone is grinding a political ax, and you discover you are 
right, you should squeeze them out, because your name should be 
above the fray as CBO. We need to have legislative counsel that 
is--and I mean the legal body, as well as general--to be 
counted on for impartiality. We need to have nonpartisan 
sanctuaries as fountains of information for accurate studies. I 
think we are all in agreement on that.

   ESTIMATES OF THE POTENTIAL COSTS OF A MILITARY CONFLICT WITH IRAQ

    We thank you for your time. I apologize I had to leave 
earlier, but there was a last-minute change. I had to handle 
something on the Floor. Best of luck. Please send us your 
summary of the war costs. I believe all of our offices would be 
interested in that.
    Mr. Holtz-Eakin. Yes.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7100B.242
    
    [GRAPHIC] [TIFF OMITTED] T7100B.243
    
    [GRAPHIC] [TIFF OMITTED] T7100B.244
    
    [GRAPHIC] [TIFF OMITTED] T7100B.245
    
    [GRAPHIC] [TIFF OMITTED] T7100B.246
    
    [GRAPHIC] [TIFF OMITTED] T7100B.247
    
    [GRAPHIC] [TIFF OMITTED] T7100B.248
    
    [GRAPHIC] [TIFF OMITTED] T7100B.249
    
    [GRAPHIC] [TIFF OMITTED] T7100B.250
    
    [GRAPHIC] [TIFF OMITTED] T7100B.251
    
    [GRAPHIC] [TIFF OMITTED] T7100B.252
    
    [GRAPHIC] [TIFF OMITTED] T7100B.253
    
    [GRAPHIC] [TIFF OMITTED] T7100B.254
    
    [GRAPHIC] [TIFF OMITTED] T7100B.255
    
    [GRAPHIC] [TIFF OMITTED] T7100B.256
    
    [GRAPHIC] [TIFF OMITTED] T7100B.257
    
    [GRAPHIC] [TIFF OMITTED] T7100B.258
    
    [GRAPHIC] [TIFF OMITTED] T7100B.259
    
            QUESTIONS FROM CHAIRMAN KINGSTON FOR THE RECORD

            Request for Three Full-Time Equivalent Positions

    Question. You are requesting three FTEs and $519,000 to address 
your economic forecasts and baseline projections for tax receipts. For 
the record, can you elaborate on the need for the positions and why 
this is an area of particular concern?
    Answer. Recent fluctuations in federal receipts and the difficulty 
that we and most other forecasters experienced in projecting revenues 
under the circumstances highlighted the problem. Given the importance 
of this information to the budget and appropriations processes, we 
believe it is imperative that we enhance our capabilities in this area. 
Although we will shift additional resources internally to do so, the 
three FTEs requested are our best estimate of the minimum additional 
resources needed.
    For a more detailed discussion of the difficulty in creating the 
receipts baseline and the resources needed to solve the problem, see 
the April 24, 2003, letter to the Chairman on this topic that is 
inserted earlier in this hearing record.

                 Improving Projections of Tax Receipts

    Question. In your justification, you state that during the next two 
years, CBO will undertake major efforts to improve its baseline 
projections of tax receipts. What are the improvements that you hope to 
achieve? How many of the three FTEs requested will be devoted to this 
issue? What do you see as CBO's shortcomings in this area.
    Answer. While CBO uses its 10-year economic forecasts as the basis 
for projecting revenues, various factors beyond the level of economic 
activity influence the level of receipts. Over the past two decades, 
the average errors in our January estimates of revenues have averaged 
1.9 percent for the current year and 4.6 percent for the budget year. 
While there are reasonable explanations for those misestimates, we need 
to increase our efforts to improve in this area. The three additional 
staff included in our budget request are critical to this effort.
    A more detailed explanation of CBO's forecasting record and plans 
to improve it can be found in the April 24, 2003, letter to the 
Chairman on this topic that is inserted earlier in this hearing record.

                      Important Budget Initiatives

    Question. The CBO wants to devote resources to attract talented 
people, develop their skills, properly equip them, organize key work 
processes, and capitalize on technology. What are your plans to achieve 
all of these initiatives?
    Answer. We plan to achieve these initiatives by building on 
progress made in recent years. During fiscal year 2004, we will 
continue to pursue the goal of identifying, hiring, retaining, and 
equipping a highly skilled and diverse workforce. To accomplish this 
goal, we have developed a comprehensive plan that includes:
          <bullet> Broad and more aggressive recruiting to attract 
        permanent staff and scholars with term appointments, with an 
        emphasis on hard-to-staff areas such as macroeconomics, 
        financial economics, tax, and health economics.
          <bullet> Increasing our investment in building employees' 
        skills, professional development, and management training 
        including the implementation of standardized training plans for 
        typical positions.
          <bullet> Equipping our staff with a modern work environment 
        and advanced technology at an economical price by working with 
        the Architect of the Capitol to upgrade our space and by 
        replacing aging hardware and software and strengthening our 
        network security and reliability.
          <bullet> Upgrading internal systems like ones for job 
        applicant tracking and financial management to improve internal 
        service delivery and support the efforts outlined above.
    More information about these initiatives may be found in the CBO 
testimony provided for the record.

                    Publication Distribution System

    Question. Another issue that CBO wants to address in FY 2003 is to 
develop a new publication distribution system. What are your plans for 
the new system? For the record, provide a listing of routine recipients 
of your publications.
    Answer. The system will replace a very old legacy system that must 
be run off-site by a contractor. The system is serviceable but 
inflexible and does not integrate well with Web-based publishing. As 
the use of the Web (versus paper) distribution of products has grown, 
this has become a serious drawback, and modifying this system 
accordingly would be prohibitively expensive. The new system will allow 
us to store and use email addresses, apply addresses automatically to 
documents reproduced in-house, and import custom mailing lists 
appropriate to individual reports--and therefore to easily tailor 
distribution. All in all, it should save time, considerable labor and 
money. It should facilitate the movement toward electronic distribution 
and allow us to inexpensively make system changes in the future. By 
tailoring distribution, we have already been able to reduce 
distribution where appropriate, but this system will allow us to do it 
more quickly and with less effort.
    As regards our routine distribution, the only typical distribution 
is to all Members and selected Congressional staff for mandated reports 
or other important reports that are of general interest to the 
Congress. For less visible reports that we have been asked to undertake 
by a committee, we also distribute to the requesters and their 
committee staff and other committees of jurisdiction (and any affected 
agencies). Finally we have a set of federal agency staff, for example, 
at GAO and CRS, who want most CBO publications; and we have mailing 
lists of private citizens who request publications on selected topics. 
We periodically cull the latter, and we have generally been reducing 
the size of these public mailing lists as more of our business shifts 
to the Web.
    [Clerk's note.--The justification of the budget request 
submitted by the Congressional Budget Office follows:]

[GRAPHIC] [TIFF OMITTED] T7100B.260

[GRAPHIC] [TIFF OMITTED] T7100B.261

[GRAPHIC] [TIFF OMITTED] T7100B.262

[GRAPHIC] [TIFF OMITTED] T7100B.263

[GRAPHIC] [TIFF OMITTED] T7100B.264

[GRAPHIC] [TIFF OMITTED] T7100B.265

[GRAPHIC] [TIFF OMITTED] T7100B.266

[GRAPHIC] [TIFF OMITTED] T7100B.267

[GRAPHIC] [TIFF OMITTED] T7100B.268

[GRAPHIC] [TIFF OMITTED] T7100B.269

[GRAPHIC] [TIFF OMITTED] T7100B.270

[GRAPHIC] [TIFF OMITTED] T7100B.271

[GRAPHIC] [TIFF OMITTED] T7100B.272

[GRAPHIC] [TIFF OMITTED] T7100B.273

[GRAPHIC] [TIFF OMITTED] T7100B.274

[GRAPHIC] [TIFF OMITTED] T7100B.275

[GRAPHIC] [TIFF OMITTED] T7100B.276

[GRAPHIC] [TIFF OMITTED] T7100B.277

[GRAPHIC] [TIFF OMITTED] T7100B.278

[GRAPHIC] [TIFF OMITTED] T7100B.279

[GRAPHIC] [TIFF OMITTED] T7100B.280

[GRAPHIC] [TIFF OMITTED] T7100B.281

[GRAPHIC] [TIFF OMITTED] T7100B.282

[GRAPHIC] [TIFF OMITTED] T7100B.283

[GRAPHIC] [TIFF OMITTED] T7100B.284

[GRAPHIC] [TIFF OMITTED] T7100B.285

[GRAPHIC] [TIFF OMITTED] T7100B.286

[GRAPHIC] [TIFF OMITTED] T7100B.287

[GRAPHIC] [TIFF OMITTED] T7100B.288

[GRAPHIC] [TIFF OMITTED] T7100B.289

[GRAPHIC] [TIFF OMITTED] T7100B.290

[GRAPHIC] [TIFF OMITTED] T7100B.291

[GRAPHIC] [TIFF OMITTED] T7100B.292

[GRAPHIC] [TIFF OMITTED] T7100B.293

[GRAPHIC] [TIFF OMITTED] T7100B.294

[GRAPHIC] [TIFF OMITTED] T7100B.295

[GRAPHIC] [TIFF OMITTED] T7100B.296

[GRAPHIC] [TIFF OMITTED] T7100B.297

[GRAPHIC] [TIFF OMITTED] T7100B.298

[GRAPHIC] [TIFF OMITTED] T7100B.299

[GRAPHIC] [TIFF OMITTED] T7100B.300

[GRAPHIC] [TIFF OMITTED] T7100B.301

[GRAPHIC] [TIFF OMITTED] T7100B.302

[GRAPHIC] [TIFF OMITTED] T7100B.303

[GRAPHIC] [TIFF OMITTED] T7100B.304

[GRAPHIC] [TIFF OMITTED] T7100B.305

[GRAPHIC] [TIFF OMITTED] T7100B.306

[GRAPHIC] [TIFF OMITTED] T7100B.307

[GRAPHIC] [TIFF OMITTED] T7100B.308

[GRAPHIC] [TIFF OMITTED] T7100B.309

[GRAPHIC] [TIFF OMITTED] T7100B.310

[GRAPHIC] [TIFF OMITTED] T7100B.311

[GRAPHIC] [TIFF OMITTED] T7100B.312

[GRAPHIC] [TIFF OMITTED] T7100B.313

[GRAPHIC] [TIFF OMITTED] T7100B.314

[GRAPHIC] [TIFF OMITTED] T7100B.315

[GRAPHIC] [TIFF OMITTED] T7100B.316

[GRAPHIC] [TIFF OMITTED] T7100B.317

[GRAPHIC] [TIFF OMITTED] T7100B.318

[GRAPHIC] [TIFF OMITTED] T7100B.319

[GRAPHIC] [TIFF OMITTED] T7100B.320

[GRAPHIC] [TIFF OMITTED] T7100B.321

[GRAPHIC] [TIFF OMITTED] T7100B.322

[GRAPHIC] [TIFF OMITTED] T7100B.323

[GRAPHIC] [TIFF OMITTED] T7100B.324

[GRAPHIC] [TIFF OMITTED] T7100B.325

[GRAPHIC] [TIFF OMITTED] T7100B.326

[GRAPHIC] [TIFF OMITTED] T7100B.327

[GRAPHIC] [TIFF OMITTED] T7100B.328

[GRAPHIC] [TIFF OMITTED] T7100B.329

[GRAPHIC] [TIFF OMITTED] T7100B.330

[GRAPHIC] [TIFF OMITTED] T7100B.331

[GRAPHIC] [TIFF OMITTED] T7100B.332

[GRAPHIC] [TIFF OMITTED] T7100B.333

[GRAPHIC] [TIFF OMITTED] T7100B.334

[GRAPHIC] [TIFF OMITTED] T7100B.335

[GRAPHIC] [TIFF OMITTED] T7100B.336

[GRAPHIC] [TIFF OMITTED] T7100B.337

[GRAPHIC] [TIFF OMITTED] T7100B.338

[GRAPHIC] [TIFF OMITTED] T7100B.339

[GRAPHIC] [TIFF OMITTED] T7100B.340

[GRAPHIC] [TIFF OMITTED] T7100B.341

[GRAPHIC] [TIFF OMITTED] T7100B.342

[GRAPHIC] [TIFF OMITTED] T7100B.343

[GRAPHIC] [TIFF OMITTED] T7100B.344

[GRAPHIC] [TIFF OMITTED] T7100B.345

[GRAPHIC] [TIFF OMITTED] T7100B.346

[GRAPHIC] [TIFF OMITTED] T7100B.347

[GRAPHIC] [TIFF OMITTED] T7100B.348

[GRAPHIC] [TIFF OMITTED] T7100B.349

[GRAPHIC] [TIFF OMITTED] T7100B.350

[GRAPHIC] [TIFF OMITTED] T7100B.351

[GRAPHIC] [TIFF OMITTED] T7100B.352

[GRAPHIC] [TIFF OMITTED] T7100B.353

[GRAPHIC] [TIFF OMITTED] T7100B.354

[GRAPHIC] [TIFF OMITTED] T7100B.355

[GRAPHIC] [TIFF OMITTED] T7100B.356

                                        Wednesday, April 9, 2003.  

                       GENERAL ACCOUNTING OFFICE

                               WITNESSES

DAVID M. WALKER, COMPTROLLER GENERAL, GENERAL ACCOUNTING OFFICE
GENE L. DODARO, CHIEF OPERATING OFFICER, GENERAL ACCOUNTING OFFICE
ANTHONY CICCO, JR., DEPUTY CHIEF MISSION SUPPORT OFFICER/CHIEF 
    INFORMATION OFFICER, GENERAL ACCOUNTING OFFICE
STANLEY J. CZERWINSKI, CONTROLLER, GENERAL ACCOUNTING OFFICE

                           Welcoming Remarks

    Mr. Kingston. The final agency tonight is the General 
Accounting Office, and we have with us the Comptroller General, 
the Honorable David M. Walker, and several members of his 
staff. We welcome all of you. I will ask each of you to 
introduce yourselves at the proper time.
    The budget request the Subcommittee will be considering for 
the GAO is $466.6 million ($466,621,000) in direct 
appropriation and authority to use offsetting collections of $6 
million. This is a net increase of $18.4 million, or 4.1 
percent above the fiscal year 2003 enacted level.
    Mr. Moran, do you have a statement you would like to make 
at this time?
    Mr. Moran. I don't think so. I have been very happy with 
GAO. You know, they were cut back in terms of resources. I have 
never been disappointed with anything GAO was doing. So I 
consider myself the cheerleader. Actually I am a little 
embarrassed by it, so I try to keep a low profile, but I like 
what they do, and I think they do it objectively and 
professionally.
    Mr. Kingston. We have your prepared statement which has 
been circulated to the Members on the Subcommittee. Your 
prepared statement will be printed at this point in the record. 
If you want to make a brief opening statement it would be in 
order after the introduction of your staff. We will then 
proceed directly into questions.
    [The statement submitted for the record follows:]

    [GRAPHIC] [TIFF OMITTED] T7100B.357
    
    [GRAPHIC] [TIFF OMITTED] T7100B.358
    
    [GRAPHIC] [TIFF OMITTED] T7100B.359
    
    [GRAPHIC] [TIFF OMITTED] T7100B.360
    
    [GRAPHIC] [TIFF OMITTED] T7100B.361
    
    [GRAPHIC] [TIFF OMITTED] T7100B.362
    
    [GRAPHIC] [TIFF OMITTED] T7100B.363
    
    [GRAPHIC] [TIFF OMITTED] T7100B.364
    
    [GRAPHIC] [TIFF OMITTED] T7100B.365
    
    [GRAPHIC] [TIFF OMITTED] T7100B.366
    
    [GRAPHIC] [TIFF OMITTED] T7100B.367
    
    [GRAPHIC] [TIFF OMITTED] T7100B.368
    
    [GRAPHIC] [TIFF OMITTED] T7100B.369
    
    [GRAPHIC] [TIFF OMITTED] T7100B.370
    
    [GRAPHIC] [TIFF OMITTED] T7100B.371
    
    [GRAPHIC] [TIFF OMITTED] T7100B.372
    
    [GRAPHIC] [TIFF OMITTED] T7100B.373
    
    [GRAPHIC] [TIFF OMITTED] T7100B.374
    
    [GRAPHIC] [TIFF OMITTED] T7100B.375
    
    [GRAPHIC] [TIFF OMITTED] T7100B.376
    
    [GRAPHIC] [TIFF OMITTED] T7100B.377
    
    [GRAPHIC] [TIFF OMITTED] T7100B.378
    
    [GRAPHIC] [TIFF OMITTED] T7100B.379
    
    [GRAPHIC] [TIFF OMITTED] T7100B.380
    
                            Opening Remarks

    Mr. Walker. Thank you, Mr. Chairman. Congratulations on 
assuming the Chairmanship.
    To my immediate right is Gene Dodaro, who is our Chief 
Operating Officer. To his right is Tony Cicco, who is our Chief 
Information Officer and Deputy Chief Mission Support Officer. 
And on the far right is Stan Czerwinski, who is our Controller.
    It is a pleasure to be here, Mr. Chairman. As you noted, we 
are asking for a 4.1 percent increase. Hopefully, we are going 
to be able to reduce that to a 3.1 percent increase very 
shortly, because included in the 4.1 percent is a $4.849 
million request that is in both the House and Senate 
supplemental bills for safety and security issues. Therefore, 
if the supplemental bill is enacted into law, we would be able 
to reduce our request to 3.1 percent.
    We believe ours is a modest request. We understand that the 
Congress is under considerable pressure with regard to 
budgetary matters, and we are trying to lead by example and 
make sure that we are only asking for what we need.
    In addition, as you will probably see in our budget request 
not only for this year, but in the past several years since I 
have been Comptroller General, we are trying to keep the 
baseline increases to a minimum. So, we come forth each year 
with specific requests with business cases if we need an 
investment in a particular item. We reverse it the next year. 
In other words, we are very up front to say we would like the 
Congress to fund these particular items, here is what it is 
going to cost, and here is what you are going to get for it. 
And then, the next year we will eliminate it from our baseline. 
And, if there is anything else that we are going to ask for, we 
will do that. So, we are not trying to build the baseline. We 
are not trying to build our empire.
    Fiscal year 2002 was an outstanding year for GAO, a record 
year in many ways. I am going to leave a copy of our FY 2002 
Performance and Accountability Highlights Report with you. I 
think all the Members have received a copy. We take very 
seriously our responsibility to lead by example. We are in the 
performance and accountability business. Our job is to try to 
help maximize government performance and ensure accountability. 
We are very results-oriented.
    Last year, as a result of the Congress' and agencies' 
adoption of GAO findings and recommendations, we achieved $37.7 
billion in financial benefits. That is an $88 return for every 
dollar invested in GAO--number one in the world. There is 
nobody even close to achieving this level of return on 
investment in our line of business, and we hope to do better.
    We have almost doubled our performance results for 
financial benefits in the last 4 years. But more importantly, 
we are also trying to be in the vanguard of government 
transformation, to change how government does business from 
strategic planning to organizational alignment, to human 
capital strategy, financial management, change management, and 
knowledge management. We believe we are in the vanguard, and we 
are committed to staying there. We are also trying to help 
others to improve.
    We are using best practices. We are developing 
methodologies. We are working in a very constructive and 
nonpartisan manner with Cabinet officials and with OMB on good 
government issues where, frankly, it shouldn't make any 
difference as to who is in charge of the Executive Branch. The 
issues need to be addressed.
    The last comment that I would make is that 2\1/2\ years ago 
as part of the fiscal year 2001 Appropriation request, the 
Congress helped us to achieve some additional human capital 
reforms to be able to make better use of our most valuable 
asset, namely our people. We are going to be reporting, as 
required by law, within the next month or so on the results of 
those flexibilities. We think our experience has been very 
positive.
    We are going to be seeking a permanent extension of two of 
those authorities that were granted last year to the entire 
Executive Branch. Furthermore, we are going to be transmitting 
the request to the oversight committees, but also we will make 
you aware of it, for some additional human capital 
flexibilities. We believe we have the infrastructure in place 
that we can start experimenting more with pay-for-performance 
models beyond the current Executive Branch models. We look 
forward to working with you and others on this issue.
    Mr. Chairman, I want to focus the rest of my time 
responding to questions from you and other Members. Thank you 
for the opportunity for a brief opening statement.

                 WASTE, FRAUD, ABUSE, AND MISMANAGEMENT

    Mr. Kingston. I read some body language here that Mr. Moran 
has a football in his arm and ready to make the dash.
    Mr. Moran. I was supposed to be someplace now. And it is 
downtown. So now I am confident I will be 20 minutes late. But 
David Price is going to represent me better than I could do 
myself. As far as the Minority side is concerned, we are well 
represented with Mr. Price, and I thank the GAO for all the 
good work they do.
    Mr. Kingston. We have been talking with the other witnesses 
today about waste, fraud and abuse, and Jim had pointed out we 
should put in the word ``excess'' because that is accurate. 
However, you are probably one of the best agencies who can look 
at this, ferret it out and give us ideas. How do you address 
this within GAO itself? What suggestions do you have as we go 
through this budget? As one reads some of the statistics about 
government waste, it is unbelievable the amount of 
inefficiencies we have.
    Mr. Walker. I know a lot of people like to use the term 
waste, fraud, abuse, and mismanagement, and clearly we should 
have zero tolerance for waste, fraud, abuse and mismanagement. 
There is a lot that we do in that area, which I will come back 
to, but from a practical standpoint, it will never be zero in 
the largest, most complex, most diverse and arguably the most 
important entity on the face of the Earth, namely the U.S. 
Government.
    But I think it is important that we also focus on economy, 
efficiency and effectiveness, because there is a lot more money 
involved and a lot of enhanced performance involved when you 
deal with economy, efficiency and effectiveness.
    With regard to fraud, waste, abuse and mismanagement, we 
publish our high risk list every 2 years. I have a copy here, 
and I would like to include it in the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7100B.381
    
                            HIGH RISK SERIES

    Mr. Walker. Our work in this area started primarily in the 
early 1990s as reviews of waste, fraud, abuse and 
mismanagement, but now we have broadened it to where we are 
dealing with economy, efficiency and effectiveness. In some 
areas, only the Executive Branch is required to take action. 
There are also areas that Congress has to be part of the 
solution, whether it be postal reform, human capital reform, 
rationalizing the excess infrastructure within the Federal 
Government, or modernizing disability programs to come up with 
a new definition of disability for the one that is 50 years 
old. We are committed to continue our work in this area.
    Furthermore, we have a fraudnet hotline where we receive a 
number of tips from time to time, and based upon those tips 
either we follow up or we refer them to the Inspectors General 
to follow up. If we refer them to the Inspectors General, we 
make sure they follow up so it doesn't drop through the cracks.
    We also do a tremendous amount of work as part of the 
hundreds of engagements we do every year, over 85 percent of 
which were mandated by Congress or requested by Congress, where 
we make ranges of recommendations not only to eliminate fraud, 
waste, abuse and mismanagement, but to improve economy, 
efficiency and effectiveness. In our financial benefits for the 
past few years, which are outlined in our performance and 
accountability report, we have specific examples of 
recommendations dealing with some problems with the food stamp 
programs that resulted in saving $2.2 billion. We made 
recommendations with regard to the Department of Energy's 
Hanford plant out West to recompete a contract, which resulted 
in saving $2.8 billion. Furthermore, we came up with a 
methodology and investments for the Department of Health and 
Human Services which they adopted as ways to try to identify 
improper payments in the Medicare program, which resulted in a 
significant reduction in improper payments in the Medicare 
program. The value we received last year was $8.1 billion.
    But there are other things that we continue to do. As for 
ourselves, we have an inspector general position that we 
voluntarily established. We are not required to have an 
inspector general. We have an executive team, which is 
constantly looking for ways to do more with what resources we 
have, because we are assuming that resources are going to be 
constrained. So we are always looking for ways to create 
process improvements--leveraging technology, competitive 
sourcing, or whatever it might be--to get as much as we can out 
of what resources we have.

                            FOOD STAMP ABUSE

    Mr. Kingston. Was it electronic benefits transfer where you 
had the food stamp abuse?
    Mr. Dodaro. Basically that had to do with determining 
eligibility for benefit payments and the appropriate level of 
funding needed. We find that in a number of benefit programs. 
The Supplemental Security Income Program is another one where 
income and related eligibility determinations are made without 
enough information. For example, in that area the Department of 
Health and Human Services was collecting information for child 
support enforcement, but they weren't integrating that database 
with their Supplemental Security Income database for 
determining eligibility. So we made a recommendation that they 
integrate that database, which gave them more information to 
determine income levels for applications for Supplemental 
Security Income. As a result, they denied some people benefits 
entirely that weren't eligible, or it resulted in less benefits 
being paid.
    Mr. Walker. It also came off the high risk list. That was 
an example of where not only did it save money, but it came off 
the high risk list.
    Another example where there is a problem is the unearned 
income tax credit, and that is one of the areas on the high 
risk list, and there is a problem determining eligibility. That 
may, in fact, require some legislative action.
    Mr. Dodaro. We also have used techniques like data mining 
and data matching to look at the use of travel cards and 
purchase cards particularly at DOD, FAA, and HUD; at Education, 
we looked at Pell grants. In all those areas, we find 
indications of potential fraud that we refer for further 
investigation by appropriate agencies, whether it be the FBI, 
or the inspectors general. Also, there is a lot of money 
recovered as a result of those activities. For example, we 
found at DOD a number of people were bouncing checks in their 
payments on travel cards, and as a result that indicated they 
weren't making proper payments or there were inappropriate uses 
of the funds. People were using the cards for purchasing 
nongovernment items. For example, somebody was buying 
automotive supplies and household goods and then turning around 
and selling them. And so as a result of that, we were able to 
refer that individual for further investigation, who was 
prosecuted appropriately.

                 LEGISLATIVE BRANCH MANAGEMENT REVIEWS

    Mr. Kingston. I am going to assume that some agencies are a 
little faster to react to your reports than others, and some 
are resistant. Unfortunately, our jurisdiction is somewhat 
limited. Do you have any examples in the Legislative Branch 
that is not just a past victory, but one that exists now, which 
this Committee could pursue further?
    Mr. Walker. One of the things we do with increasing 
frequency or have done with increasing frequency within the 
last couple of years is we are finding that the Legislative 
Branch is asking us to assist in dealing with Legislative 
Branch challenges. We have done work, for example, at the 
Library of Congress dealing with their hiring practices. We 
have done work at the Architect of the Capitol looking at some 
of their management practices and what they are doing with 
regard to management of the Capitol Visitors Center project. We 
have done work with the Capitol Police trying to improve their 
financial management operations. We are being asked right now 
to do additional work in some of these regards, and also at the 
Government Printing Office.
    The Government Printing Office is based upon a concept that 
is decades old, and there is a need to fundamentally review and 
reassess what business they ought to be in and how they ought 
to go about discharging those responsibilities.
    We have done work on developing the pros and cons of 
merging the different police forces, in the Legislative Branch. 
So providing assistance is an area where I find Congress is 
looking to GAO with increasing frequency to improve economy, 
efficiency and effectiveness because, obviously, you don't want 
to have those problems in the Legislative Branch.
    Mr. Dodaro. Recently, we made a number of recommendations 
as a result of an operations management review of the Architect 
of the Capitol both to create better financial management, 
information technology systems, human capital, worker safety 
programs. Congress has mandated us to continue to follow up to 
see how well the Architect is implementing those 
recommendations, and to provide semiannual reports to your 
committee and other appropriate committees in the Congress.
    We are still following the Capitol Police's management 
improvement efforts in human capital, financial management, and 
other areas. We have just been commissioned to do a management 
review of the Government Printing Office as well. So there are 
a number of activities that we are currently involved in either 
following up on our recommendations or to see to what extent 
they have been implemented. We find that--just like we do in 
the executive agencies, as you pointed out--in some cases, 
people act more quickly on our recommendations than others. But 
we are committed to following up and providing periodic 
reports.
    Mr. Walker. We measure success by results--to what extent 
do we make recommendations and the people adopt the 
recommendations. If they do, how much money does that either 
save or free up; and how does it enhance safety, security, or 
other areas. Last year the measure was 79 percent of the 
recommendations that we had made 4 years prior had been 
adopted. Sometimes it takes a long time, but we follow up 
constantly. That level is up considerably from what it was 
several years ago. So we very much have an incentive to follow 
up, because that is how we measure success.
    Mr. Kingston. David. I have some more questions on this.
    [The questions submitted for the record follow:]

                        Questions for the Record

    Question. How is the High-Risk List determined?
    Response. Our criteria for determining which federal programs and 
operations should be designated as high risk is contained in our 
November 2000 guidance document, Determining Performance and 
Accountability Challenges and High Risks (GAO-01-159SP). That document 
also contains the criteria considered in determining whether to remove 
a high-risk designation.
    In summary, when determining whether a government program or 
operation is high risk, we consider whether it involves national 
significance or a management function that is key to performance and 
accountably. We also consider whether the risk is
          <bullet> inherent, which may arise when the nature of a 
        program creates susceptibility to fraud, waste, and abuse; or
          <bullet> a systemic problem, which may arise when the 
        programmatic; management support; or financial systems, 
        policies, and procedures established by an agency to carry out 
        a program are ineffective, creating a material weakness.
    We also consider qualitative factors outlined below.
    Risk is seriously detrimental to
          <bullet> Public health or safety
          <bullet> Service delivery
          <bullet> National security
          <bullet> National defense
          <bullet> Economic growth
          <bullet> Privacy or citizens' rights
    Risk could result in
          <bullet> Significantly impaired service
          <bullet> Program failure
          <bullet> Significantly reduced effectiveness
          <bullet> Significantly reduced efficiency
          <bullet> Injury or loss of life
          <bullet> Unreliable decision-making data
          <bullet> Reduced confidence in government
          <bullet> Unauthorized disclosure, manipulation, or misuse of 
        sensitive information, such as personal, financial management, 
        or programmatic data maintained in computerized systems
    In addition to qualitative factors, we also consider the exposure 
to loss in monetary or other quantitative terms. At a minimum, $1 
billion must be at risk in such areas as:
          <bullet> the value of major assets (e.g., loans receivable) 
        being impaired;
          <bullet> revenue sources (e.g., taxes due) not being 
        realized;
          <bullet> major agency assets (e.g., inventory or property) 
        being lost, stolen, damaged, wasted, or underutilized;
          <bullet> improper payments; and
          <bullet> contingencies or potential liabilities (e.g., 
        environmental cleanup costs).
    The $1 billion threshold relates to that portion of a major program 
or mission area that is at risk, not to the financial aspects of the 
program or mission area as a whole.
    In making high-risk determinations, we analyze the risks from 
qualitative and quantitative standpoints. A program or function may be 
highly vulnerable to risk arising from a qualitative factor, such as 
loss of life, but may not necessarily meet the minimum quantitative 
dollar threshold. Conversely, it is possible for an exposure to be 
significant quantitatively, that is, placing $1 billion or more at 
risk, but not involve a qualitative factor. In some instances, 
individual qualitative and quantitative factors alone will not be high 
risk, but in combination, they may call for a high-risk designation. 
Thus, we consider the totality of qualitative and quantitative factors 
in deciding whether a high-risk designation is warranted.
    Before making a high-risk designation, we also consider the 
corrective measures an agency may have planned or under way to resolve 
a material control weakness and the status and effectiveness of these 
actions.
    In addition, we have increasingly used the high-risk designation to 
draw attention to the challenges faced by government programs and 
operations in need of broad-based transformation. For example, in 2001, 
we designated as high risk strategic human capital management across 
government and the U.S. Postal Service's transformation and fiscal 
outlook. Since then, the President has made human capital a top 
initiative of his Management Agenda, while the Congress enacted key 
government wide human capital reforms as it created the Department of 
Homeland Security (DHS). In addition, a promising Postal Service 
transformation plan has been produced and the President formed a 
commission to focus on Postal Service transformation.
    Question. Over the past two fiscal years what is your estimate of 
the dollars saved as a result of the GAO reviews and audits of high-
risk list items?
    Response. In our Performance and Accountability Reports for fiscal 
year 2001 and 2002, GAO has recorded accomplishments of over $39 
billion in financial benefit related to areas on our January 2001 high-
risk list.
    These financial benefits stem from a range of actions taken by the 
Congress and executive agencies in response to our work and 
recommendations that resulted in cost savings and/or avoiding 
unnecessary costs. In addition to these financial benefits, our work 
related to high-risk areas informs congressional deliberations and 
oversight and causes agencies to be more proactive in these areas. The 
following chart summaries financial benefits related to high-risk areas 
recorded in fiscal years 2001 and 2002.

Financial Benefits Related to GAO's High-Risk Areas--Fiscal years 2001-
2002

Area:                                                Dollars in millions
    Medicare program..........................................    $8,134
    HUD single-family mortgage insurance and rental assistance 
      programs................................................     7,931
    DOD support infrastructure management.....................     6,922
    DOD contract management...................................     3,341
    Department of Energy contract management..................     3,032
    DOD weapon systems acquisition............................     2,913
    DOD systems modernization.................................     2,476
    DOD inventory management..................................     2,218
    DOD financial management..................................       952
    Supplemental Security Income..............................       797
    FAA air traffic control modernization.....................       189
    IRS financial management..................................       167
                    --------------------------------------------------------------
                    ____________________________________________________

        Total.................................................   $39,072
    Of the four new areas added to our high-risk list in January 2003, 
we recorded financial benefits of $1.6 billion in fiscal years 2001 and 
2002 related to two--modernizing federal disability programs and the 
Medicaid program.
    We have also accumulated an additional $8.4 billion in financial 
benefits in fiscal year 2003 to date related to areas on our updated 
January 2003 high-risk list. Potential areas of additional savings are 
being considered and are likely to increase this total in the near 
future.
    Question. Your budget submission indicates that you have seven 
agency-wide performance measures that you use to assess your 
performance. I see that these performance measures include financial 
and other benefits, testimonies, and product recommendations. How does 
your performance in these areas help Congress meet its oversight 
responsibilities?
    Response. GAO's mission is to support the Congress in carrying out 
its constitutional responsibilities and to help improve the performance 
and ensure the accountability of the federal government for the benefit 
of the American people. To help the Congress make effective oversight, 
policy, and funding decisions, GAO examines the use of public funds; 
evaluates federal programs and activities; and provides analyses, 
options, recommendations, and other assistance through the conduct of 
financial audits, program reviews and analyses, legal opinions, 
investigations, and other services. GAO's activities are designed to 
ensure the executive branch's accountability to the Congress under the 
Constitution and to continuously improve the economy, efficiency, and 
effectiveness of the federal government.
    In helping Congress meet its oversight responsibilities, GAO 
examines the full breadth and scope of federal activities and programs, 
publishes thousands of reports and other documents annually, and 
provides a number of related services. By making recommendations to 
improve the practices and operations of government agencies, GAO 
contributes not only to the increased effectiveness of and 
accountability for federal spending, but also to the enhancement of the 
taxpayers' trust and confidence in their federal government.
    Because GAO's watchword is accountability, we recognize that GAO 
must itself be accountable for how well it fulfills its mission of 
supporting the Congress. The indicators you have asked about--financial 
benefits, other benefits; past recommendations implemented, new 
recommendations made, and new products with recommendations; and 
testimonies--are all means of measuring the support that GAO provides 
the Congress in meeting its oversight responsibilities. Along with 
timeliness, they constitute the seven annual measures we use to track 
the progress of the agency as a whole.
Financial and other benefits
    One way in which GAO measures its contributions to the work of the 
Congress is to report on the financial and non-financial benefits that 
accrue from congressional and executive branch actions from GAO's work. 
Financial and non-financial benefits are a useful measure of GAO's 
contributions because they reflect the results of actions that the 
Congress--or, more frequently, the federal agencies for which Congress 
has oversight responsiblity--takes in response to the information and 
recommendations that GAO provides.
    In fiscal 2002, GAO reported financial benefits of $37.7 billion. 
The financial benefits GAO reports are generated when agencies act on 
GAO's findings and recommendation to make government services more 
efficient, to improve budgeting and spending of tax dollars, or to 
strengthen the management of federal resources. These include GAO's 
work to curb Medicare fraud and abuse, to improve budgeting practices 
for public housing programs, and to reduce losses from farm loans.
    Many of the benefits that flow to the American people from GAO's 
work cannot be measured in dollar terms. During fiscal 2002, GAO 
documented 65 instances in which information we provided to the 
Congress resulted in statutory or regulatory changes, 391 instances in 
which federal agencies improved services to the public, and 450 
instances in which core business processes were improved at agencies or 
government-wide reforms were advanced. These actions spanned the full 
spectrum of national issues, from combating terrorism to better 
targeting funds to high-poverty school districts. In these and other 
instances, GAO strives to provide information and analysis that will 
assist the Congress in fulfilling its legislative responsibilities and 
providing oversight for the federal government. For example during 
fiscal year 2002, experts from GAO's staff testified at 216 
congressional hearings covering a wide range of complex issues. On 
national preparedness alone, we testified on border security, 
bioterrorism, nuclear smuggling, seaport and aviation security, and the 
formation of the Department of Homeland Security. In fiscal 2002, GAO's 
work contributed directly to congressional consideration of many 
legislative initiatives, including:
          <bullet> Help America Vote Act of 2002, P.L. 107-252
          <bullet> Homeland Security Act of 2002, P.L. 107-296
          <bullet> Public Health Security and Bioterrorism Preparedness 
        and Response Act of 2002, P.L. 107-188
          <bullet> Aviation and Transportation Security Act, P.L. 107-
        71
          <bullet> Federal Information Security Management Act of 2002, 
        P.L. 107-347
          <bullet> Sarbanes-Oxley Act of 2002, P.L. 107-204
    The following examples illustrate how GAO's services have helped 
the Congress fulfill its oversight role through this process.
          <bullet> In the area of aviation security, GAO drew on an 
        extensive body of completed work and provided significant 
        background information to a number of committees as the 
        Congress drafted the Aviation and Transportation Security Act. 
        We also continued to provide the Congress with information on 
        aviation, port, and transit security. For example, in response 
        to requests from House and Senate authorizing committees, we 
        provided timely information on U.S. and foreign-owned screening 
        companies and the capabilities of explosives detection systems 
        and trace devices. We also provided information on the pros and 
        cons of moving the Transportation Security Administration to 
        the Department of Homeland Security and of arming commercial 
        pilots. Additionally, we testified before the House 
        Subcommittee on National Security that ports present security 
        risks, not only because of the possibility that ships could 
        carry weapons of mass destruction or other hazardous cargoes, 
        but also because of the potential for terrorists to attack 
        cruise ships or petrochemical facilities at or near ports. 
        Finally, we testified before the Senate Committee on Banking, 
        Housing and Urban Affairs on the challenges that transit 
        agencies face in make their systems secure. These challenges 
        include the systems' accessibility and high ridership, the high 
        cost of security improvements, and the need to coordinate 
        security concerns among federal, state, and local government 
        agencies and private sector companies.
          <bullet> In the area of Homeland Security, GAO's past 
        recommendations were incorporated into the Homeland Security 
        Act. Under the act, as GAO had recommended in reports from 1997 
        to 2002, the federal government has established a focal point 
        for combating terrorism, developed a plan for countering 
        terrorism, implemented risk management to enhance security at 
        certain federal departments, and defined key terms such as 
        ``homeland security'' and included the definitions in the 
        National Strategy for Homeland Security. These actions will 
        promote leadership among the many entities involved in homeland 
        security and help to ensure that their efforts are mutually 
        reinforcing and that they are using resources efficiently. In 
        so doing, the federal government has taken important first 
        steps to unify the efforts of all levels of government and the 
        private sector with regard to homeland security.
          <bullet> In the area of terrorism and risk insurance, in the 
        aftermath of the September 11, 2001, attacks, GAO assessed the 
        changes taking place in the insurance industry, the potential 
        implications of these changes on the economy, and alternative 
        approaches for government assistance to the industry. In 
        October 2001, during testimonies before House and Senate 
        Committees, GAO described alternative government-sponsored 
        insurance programs used in other countries to cover losses from 
        terrorist or catastrophic events. In February 2002, GAO again 
        testified before the Congress to report that the insurance 
        industry intended to largely exclude coverage for losses 
        resulting from any future terrorist attacks, creating further 
        uncertainty and economic vulnerability in the marketplace. GAO 
        also outlined the desirable features of any government-
        sponsored program established to help ensure that availability 
        of terrorism insurance coverage in the financial marketplace. 
        The House and Senate used this information in structuring 
        reform proposals.
GAO recommendations
    Because developing implementable recommendations is an important 
part of GAO's work for the Congress and helps to improve how the 
government functions, we track the number made each year. For example, 
the 1,950 recommendations made in fiscal year 2002 include 
recommendations to the Secretary of State calling for the development 
of a government-wide plan to help other countries combat nuclear 
smuggling and those to the Chairman of the Federal Energy Regulatory 
Commission calling for the agency to develop an action plan for 
overseeing competitive energy markets.
    One way we measure our impact in improving the government's 
accountability, operations, and services is by tracking the percentage 
of recommendations that we made 4 years ago that have since been 
implemented. At the end of fiscal year 2002, 79 percent of the 
recommendations we made in fiscal year 1998 had been implemented.
Timeliness
    We chart the percentage of our products that are delivered on the 
day we agreed to with our congressional clients because for our work to 
be used it must be timely. While a vast majority of our products (96%) 
were on time in fiscal year 2002, we missed our target of providing 98 
percent of them on the promised day and are taking steps to improve our 
performance in the future.

                     MEASURABLE FINANCIAL BENEFITS

    Mr. Price. I want to also thank Mr. Walker and colleagues 
for being here and thank you for their testimony. I have great 
regard for the work you do. I think it is an indispensable arm 
of the Legislative Branch.
    I am intrigued by figure 1 in your testimony on page 6, the 
calculation--actual dollar calculation of financial benefits of 
GAO's work, and that must give you great satisfaction to be 
able to claim in the fiscal year 2003, for example, almost $38 
billion worth of savings from your work. I assume that would be 
$38 billion in savings realized in that fiscal year?
    Mr. Walker. They were recorded by GAO in fiscal year 2002.
    Mr. Price. I am curious about your methodology here and 
what the big ticket items were. You cite a couple of them, but 
how do you arrive at such a figure?
    Mr. Walker. It is an excellent question, and let me clarify 
for the record. We intentionally use the term ``financial 
benefits.'' The reason we use that term is that in some cases 
it is an absolute savings. In other cases what ends up 
happening is that we will identify something that frees up 
additional resources, but the Congress decides to redeploy 
those resources for other purposes, and, therefore, it may not 
result in decreased spending. It may result in providing the 
means for Congress to meet another need that otherwise it may 
not have been able to meet.
    Three of the highest financial benefits that we recorded in 
last year's total include food stamps, $2.2 billion; DOE's 
Hanford plant, $2.8 billion; and Medicare payments, $8.1 
billion.
    Mr. Price. That $8.1 billion, I thought, was spread over 2 
years.
    Mr. Dodaro. It is a 2-year time period.
    Mr. Walker. Basically what we do is determine whether or 
not people adopt our recommendation, and then look at what is 
the nature of the recommendation--is it a capital-type item, or 
is it an operating item. Depending upon whether it is a capital 
item or an operating item, we will either take the discounted 
present value of 2 years' worth of savings or 5 years. We could 
claim more years than that, but we are trying to be 
conservative. We take the discounted present value of the 
amounts involved and that is what we count in that particular 
year.
    Candidly, Mr. Chairman, Mr. Price, I think one of the 
things that the Congress needs to consider doing with greater 
frequency in connection with all budgetary matters is to 
consider discounted present value concepts, because now you are 
making budget decisions based upon 10 year cash flows, but the 
world is not going to end at the end of 10 years. And the 
information that you are using to make those decisions, 
frankly, doesn't give you all that you need to understand what 
the longer-range implications are. So we use discounted present 
value concepts, because we believe that makes the most economic 
sense.
    Our inspector general will independently review and 
evaluate anything in excess of a billion dollars.
    Mr. Price. Examine it for accuracy.
    Mr. Walker. Reasonableness and accuracy.
    Furthermore, all of the items are reviewed within the GAO 
by our Quality and Continuous Improvement Office. We are also 
looking into the possibility of using our external auditors, 
who perform an independent audit each year. We have always 
gotten a clean opinion--no material control weaknesses, no 
compliance problems. We are looking to see if our external 
auditor would expand the scope of their audit at some point to 
audit these numbers and express an opinion.

                      SOURCE OF BENEFITS ESTIMATES

    Mr. Dodaro. Actually, these estimates typically come from 
independent third parties rather than GAO. For example in the 
Medicare area, we had recommended that the Department create a 
fraud unit to examine claims, to follow up on tips, and to put 
controls in place for known areas where people are trying to 
exploit the Medicare system inappropriately. As a result, they 
estimated how many recoveries they have had based upon having 
these fraud units in place, as well as looking at claims review 
for medical necessity, and things that aren't necessarily being 
paid as a result.
    So estimates usually come from third parties, and then we 
subject them to a process where people have to identify the 
source of it, the linkage and the contribution to GAO work. 
They are independently checked and verified. And then they go 
through another two levels of review that Dave is talking 
about. We hold ourselves accountable for support and evidence 
for these financial benefits to make sure we are accurate and 
that we are fair and are balanced. And we think we are 
conservative.
    Another area where we had some good financial benefits 
during this past year is we recommended that DOD not take 
excess property off its books until disposed. They were sending 
it to disposal centers and taking it off their books. We 
recommended that until they actually disposed of the inventory, 
they leave it available, and as a result, they were able to 
save millions of dollars because those items were then 
available to be used, rather than DOD purchasing additional 
items during that year.
    We also highlighted areas where congressional investment 
decisions in either weapons systems or information technology 
systems would not yield appropriate benefits. For example, in 
the V-22 program, the Marine helicopter area, we identified 
problems with the maturity of the technology, that it wasn't 
ready to go into full production. We brought that to the 
attention of the special panel that was created over at DOD. As 
a result, they delayed production. Congress rescinded some 
money, as well as it didn't approve additional tens of millions 
of dollars by not sending that into production. We also 
recommended DOD consolidate their data information centers.
    So, across the government--these benefits are pretty well 
spread out in a number of areas. We identified some big-ticket 
items.

                            ASSET RECOVERIES

    Mr. Price. The way you describe it, it is somewhat of a 
mixed bag. There are expenditures foregone because you created 
some skepticism about those. And there are moneys that are 
recaptured because of the work on fraud.
    Mr. Walker. There are asset recoveries. By the way, when we 
calculate the benefit, it is net of any additional cost. So to 
the extent that you had to spend a little money, for example, 
to put these fraud units in place to save money, it is netted 
against the savings.
    Mr. Price. If you could furnish a list for the record of 
the major items that go into this calculation, say, the items 
over a billion, I think it would be useful, both in the 
necessity of your work, and I appreciate your work, and also to 
clarify the kind of statistics we are talking about here in 
terms of these savings.
    Mr. Walker. Happy to do it.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7100B.382
    
    [GRAPHIC] [TIFF OMITTED] T7100B.383
    
    [GRAPHIC] [TIFF OMITTED] T7100B.384
    
    [GRAPHIC] [TIFF OMITTED] T7100B.385
    
    [GRAPHIC] [TIFF OMITTED] T7100B.386
    
                      CHALLENGES TO RECORDS ACCESS

    Mr. Price. Now in your statement there is a paragraph on 
page 9 that I would commend you for as an example of very 
careful wording and----
    Mr. Walker. Which one might that be?
    Mr. Price. ``In light of certain records access challenges 
during the past years, and with concerns about national and 
homeland security unusually high at home and abroad, it may 
become more difficult for us to obtain information from the 
Executive Branch [you could say even more difficult] and report 
on certain issues. If this were to occur, it would hamper our 
ability to complete congressional requests in a timely 
manner.''
    And this is what I want to ask you about. ``We are updating 
GAO's engagement acceptance policies and practices to address 
this issue and may recommend legislative changes that will help 
to assure that we have reasonable and appropriate information 
that we need to conduct our work for the Congress and the 
country.'' Apart from the celebrated case involving the Vice 
President, I wonder if you could fill in some of the blanks 
here about the kind of challenges you are facing, in what ways 
national homeland security concerns may have increased those 
challenges, and what you think you are going to need in terms 
of legislative changes or other changes to enable you to do the 
job.
    Mr. Walker. First, I think it is important to note for the 
record that irrespective of what party controls the White 
House, GAO for decades has had a higher degree of difficulty in 
obtaining information no matter whether it is national 
security, foreign policy, law enforcement or matters involving 
the White House. The degrees of difficulty vary, but they have 
always been somewhat more challenging. When the celebrated case 
occurred, there were concerns on behalf of a variety of parties 
as to whether and to what extent there might be an attempt by 
some within the Administration, namely within the Justice 
Department or White House Counsel's Office, to try to make a 
bigger deal out of that decision than was justified.
    As you know, we believe that decision was wrong, was 
flawed, and was based in part on a material factual error. 
Nonetheless we decided for good reason not to appeal it because 
it does not set a binding precedent on other cases, and 
because, as you know, 99.5 percent of the work that GAO does 
does not involve the Office of the President or Vice President, 
and therefore, in the broader scheme of things, we felt it was 
appropriate not to appeal.
    We have been very vigilant, extra vigilant, to monitor 
whether and to what extent we are having additional records 
access challenges. Every week we have a managing directors 
meeting which I chair, and one of the standard agenda items is 
``Are we having records access challenges?'' I am pleased to 
say at this point we have not had a proliferation of records 
access challenges. We were about ready to issue our first 
demand letter under the statute this Friday to the Department 
of Energy, but I am also pleased to say that we have reached an 
agreement with the Deputy Secretary of DOE. It looks like we 
aren't going to have to do that. We are going to monitor this 
situation. If we have a problem, we will let Congress know. We 
are prepared with legislative options if those options prove to 
be necessary, although they may not be necessary.
    Candidly, I have decided to administratively adopt the 
policy that if we are ever faced with a situation again where 
we have to consider whether or not to go to court, I am going 
to not only consult with Congress, which I did this last time 
extensively on both the decision to sue as well as the decision 
not to appeal, but also to seek a vote from at least one 
committee with jurisdiction over the matter as to what their 
views are about our going to court. I believe that is 
appropriate. I don't believe that I should be bound by that 
vote because of the independence required of the position, 
because of the need not to disenfranchise the Minority, but I 
believe it is prudent and appropriate, and I am going to do 
that.
    But as I said, so far we have not had a proliferation of 
problems, but if we do, I can assure you that I will let this 
subcommittee and others know. We won't hesitate to request help 
if we need it.

                       POTENTIAL FOR CODIFICATION

    Mr. Price. What would be the scope of a legislative 
agreement if it became necessary?
    Mr. Walker. If we were to do something legislatively, it 
would probably be along the lines of codifying what I might 
otherwise do administratively. I think what that would do is it 
would provide a further insurance policy that people would not 
be able to make a bigger deal out of this last decision. 
Specifically, it would virtually ensure that they wouldn't be 
able to argue that the court has already decided whether or not 
we have the right to sue in another circumstance; that we might 
be estopped for bringing another case. We don't believe that is 
the case. But if Congress updated the statute, it would 
virtually moot the issue because the judge would have based his 
decision upon a statute that had been updated.
    And as I said, there are pros and cons to considering a 
statutory update. Sometimes when you try to achieve a statutory 
update, if it is not absolutely necessary, what comes out at 
the end of the process may not be what you first sought. So, 
there are pros and cons of that. Right now I don't think it is 
essential, but I will keep you posted.
    Mr. Price. Thank you, Mr. Chairman.

                       LAPSE OF BUDGET AUTHORITY

    Mr. Kingston. Thank you.
    At the end of the year, if you have budget money left over, 
you want to keep your baseline, but you don't want to turn the 
money back in. Have you ever done studies on how widespread 
that practice is?
    Mr. Walker. I am sure we have. I can't say we have done it 
within the last several years.
    Mr. Dodaro. We have done studies on that issue in the past, 
not recently, Mr. Chairman. You find mixed results, I believe, 
when you do these studies. Part of the issue involves the 
Continuing Resolution situation like this past year, and some 
of the agencies would come back and say, well, we didn't know 
what our budget would be, so we held up our procurements or 
didn't have the ability to do it earlier. There may also be 
unique circumstances of the budget cycle. Some agencies have 
multiyear money as opposed to annual appropriations, and the 
trend has been to move in that direction, I believe. So that 
further complicates that type of an analysis.
    Mr. Kingston. Currently, there has been a large amount of 
money rapidly appropriated to Homeland Security and the 
Department of Defense, and it would be surprising if the money 
was utilized efficiently. Is it time to examine that again, 
particularly for those two agencies?
    Mr. Walker. I have already announced and told both the 
Department of Defense and the Department of Homeland Security 
that we will be doing work to ascertain where did the money go, 
who got it, and what did we get for it. That includes both the 
Departments, because you are right, there is a lot of money 
going out very quickly, including items such as the conflict 
and postconflict activities in Iraq, including contracting 
arrangements. I believe it is fully appropriate to do that, and 
we are committed to doing that.
    Mr. Kingston. You don't need a congressional request to 
conduct those investigations?
    Mr. Walker. No. If we could get a bipartisan request from 
the Appropriations Committee or a committee which had 
jurisdiction, that would help. It is not required by law. 
Basically the way we do the work, it is either a mandate, which 
is about 24 percent of our work, or it is a request from a 
committee or a Member of Congress. Under the law we are only 
required to do requested work from committees. Anything other 
than a request from the committee is discretionary, and we have 
priorities. Also, the Comptroller General has statutory 
authority to initiate reviews, audits, investigations on his 
own.
    Last year, about 11 percent of our work was in that latter 
category where we initiated it, and much of that has been high 
value-added work. We did work on Homeland Security on our own 
initiative. We did work on the Human Capital Challenge in the 
Federal Government on our own initiative and work at the U.S. 
Postal Service. What often happens is after we end up doing the 
initial research and development work, Congress shares an 
interest and asks us to do a number of follow-up engagements. 
So that process works very well.
    Mr. Dodaro. There are some provisions in the Department of 
Homeland Security Act where the Department was given some 
special procurement flexibilities. I believe we are required to 
look at how they exercise those flexibilities.
    Mr. Kingston. I have a question related to Homeland 
Security that I submit for you to answer for the record.
    [The question submitted for the record follows:]

    Question. What work has GAO done related to identifying 
vulnerabilities and challenges related to homeland security and 
national preparedness?
    Response. In its role in supporting Congress, GAO has produced over 
200 reports and other products related to homeland security--including 
more than 70 products before September 11th. Based on our work prior to 
September 11th, GAO had recommended the creation of a central focal 
point in the federal government for homeland security related 
issues.\1\ GAO was subsequently asked to assist with the deliberations 
over the Department of Homeland Security's formation by looking into 
questions involving flexibilities for managing human capital, 
information sharing, management, acquisition, budget and program 
transfer authorities; and lessons available from other reorganizations 
in the public and private sectors. GAO also provided important 
information to the Congress as it drafted the Aviation and 
Transportation Security Act, while providing continuing assistance with 
information on aviation, port, and transit security. Further, GAO 
provided information to Congress regarding efforts to prepare for and 
respond to bioterrorism and to address terrorism insurance issues.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Combating Terrorism: Selected 
Challenges and Related Recommendations, GAO-01-822 (Washington, D.C.: 
Sept. 20, 2001).
---------------------------------------------------------------------------
    In terms of specific reviews, GAO has completed a number of reports 
related to vulnerabilities and challenges in the homeland security 
area. For example, GAO has issued reports and/or testimonies 
highlighting issues ranging from the need to conduct and complete 
comprehensive threat risk assessments for a variety of critical 
sectors, to specific assessments of vulnerabilities in IT systems, visa 
programs, cargo and port security, laboratory security, financial 
market vulnerabilities, and threats to human health and food supplies 
from bioterrorism. Our recent reports on homeland security and the 
establishment of the Department of Homeland Security raised several 
issues of overarching applicability.\2\ Because of the various 
vulnerabilities and challenges, we designated the implementation and 
transformation of the department as a high-risk area. First, the size 
and complexity of the effort make the challenge especially daunting, 
requiring sustained attention and time to achieve the department's 
mission in an effective and efficient manner. Second, components being 
merged into the department already face a wide variety of existing 
challenges that must be addressed. Finally, the department's failure to 
effectively carry out its mission exposes the nation to potentially 
very serious consequences.
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, Major Management Challenges and 
Program Risks: Department of Homeland Security, GAO-03-102 (Washington, 
D.C.: Jan. 2003); GAO-03-260; and U.S. General Accounting Office, 
Highlights of a GAO Forum: Mergers and Transformation: Lessons Learned 
for a Department of Homeland Security and Other Federal Agencies, GAO-
03-293SP (Washington, D.C.: Nov. 14, 2002).
---------------------------------------------------------------------------
    We also reported that a number of agencies will face challenges in 
meeting dual or unrelated missions while maintaining and strengthening 
their homeland security operations. Additional actions to clarify 
missions and activities will be necessary, and some agencies will need 
to determine how best to support both homeland security and non-
homeland security missions. For example, in a recent report we raised 
issues regarding the need for the Federal Emergency Management Agency 
and U.S. Coast Guard--both now part of the Department of Homeland 
Security--to balance multiple missions.\3\ Creating an effective 
structure that is sensitive to balancing the needs of homeland security 
and non-homeland security functions will be critical to the successful 
implementation of homeland security programs.
---------------------------------------------------------------------------
    \3\ GAO-03-102.
---------------------------------------------------------------------------
    Finally, we have reported that many agencies tasked with homeland 
security functions are challenged by long-standing human capital 
problems that will need to be addressed. One of these challenges has 
been the ability to hire and retain a talented and motivated staff. For 
example, we reported that the Immigration and Naturalization Service 
was unable to reach its program goals in large part because of such 
staffing problems as hiring shortfalls and agent attrition.\4\ 
Moreover, to accomplish national and homeland security missions some 
agencies have recognized the need for new skills in the workforce. It 
is anticipated that agencies will need employees skilled in information 
technology, law enforcement, foreign languages, and other 
proficiencies. For example, we have reported that the FBI has an action 
plan to hire translators, interpreters, and special agents with 
language skills--areas where the federal government currently has a 
shortage.\5\
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, Immigration Enforcement: 
Challenges to Implementing the INS Interior Enforcement Strategy, GAO-
02-861T (Washington, D.C.: June 19, 2002).
    \5\ U.S. General Accounting Office, Foreign Languages: Human 
Capital Approach Needed to Correct Staffing and Proficiency Shortfalls, 
GAO-02-375 (Washington, D.C.: Jan. 31, 2002).
---------------------------------------------------------------------------
    In addition, we have examined vulnerabilities and challenges in 
many other specific areas, illustrated by the following examples.
    Improving Department of Defense Force Protection Efforts: At the 
request of two congressional committees, GAO is continuing to evaluate 
the approach taken by each military service to protect military 
personnel, equipment, and capabilities from terrorist attacks and is 
examining the protection measures taken at domestic and overseas ports 
used for military deployments. In a collaborative effort, GAO worked 
with the Department of Defense to identify and implement changes needed 
to improve the effectiveness of the department's force protection 
approach. This year, as a result of GAO recommendations, the 
departments took steps to (1) improve its threat assessment 
methodology, (2) develop a departmentwide antiterrorism/force 
protection strategy, and (3) consistently apply risk management 
principles to prioritize requirements.\6\
---------------------------------------------------------------------------
    \6\ For our recent work on this issue, see U.S. General Accounting 
Office, Combating Terrorism: Actions Needed to Guide Services 
Antiterrorism Efforts at Installations, GAO-03-14 (Washington, D.C.: 
Nov. 1, 2002) and Combating Terrorism: Actions Needed to Improve DOD 
Antiterrorism Program, GAO-01-909 (Washington, D.C.: Sept. 19, 2001).
---------------------------------------------------------------------------
    Protecting the Public from Nuclear Terrorism: The United States has 
spent over $5 billion to prevent the transfer of nuclear material and 
scientific expertise that could be used to develop a nuclear bomb or a 
radiological weapon from Russia and other states of the former Soviet 
Union to terrorists or countries of concern. Because of our work, the 
federal agencies involved have (1) begun to develop an overall plan to 
coordinate their international efforts, (2) consolidated programs to 
better target limited resources, (3) focused on ensuring that security 
improvements are sustained by the host countries, (4) decided to 
upgrade radiation detection equipment already installed and establish 
minimum standards for new installations, and (5) begun to develop a 
strategic plan for installing nuclear detection equipment on U.S. 
borders.\7\
---------------------------------------------------------------------------
    \7\ For our recent work on this issue, see U.S. General Accounting 
Office, Nonproliferation R&D: NNSA's Program Develops Successful 
Technologies, but Project Management Could be Strengthened, GAO-02-904 
(Washington, D.C.: Aug. 23, 2002) and Nuclear Nonproliferation: 
Security of Russia's Nuclear Material Improving; Further Enhancements 
Needed, GAO-01-312 (Washington, D.C.: Feb. 28, 2001).
---------------------------------------------------------------------------
    Upgrading U.S. Export Controls on Sensitive Technologies: GAO's 
many reviews of U.S. export control laws and programs have contributed 
to the congressional debate over how to revamp the current system and 
prevent sensitive technologies from falling into the hands of 
terrorists or states that support them. Among the improvements needed, 
GAO noted better justification for loosening controls over high-
performance computers, better monitoring of the recipients of sensitive 
technologies, and greater information sharing among supplier countries 
that export sensitive technologies. GAO's reports and testimonies have 
helped the Congress understand the weaknesses in the current process of 
controlling sensitive technology exports and how proposed changes to 
the Export Administration Act will affect the delicate balance between 
protecting our national security and promoting U.S. economic 
interests.\8\
---------------------------------------------------------------------------
    \8\ For our recent work on this issue, see U.S. General Accounting 
Office, Nonproliferation: Strategy Needed to Strengthen Multilateral 
Export Control Regimes, GAO-03-43 (Washington, D.C.: Oct. 25, 2002).
---------------------------------------------------------------------------
    Contributing to the Debate on Terrorism Insurance: In the aftermath 
of the September 11, 2001, attacks, GAO assessed the changes taking 
place in the insurance industry, the potential implications of these 
changes on the economy, and alternative approaches for government 
assistance to the industry. In October 2001, during testimonies before 
House and Senate Committees, GAO described alternative government-
sponsored insurance programs used in other countries to cover losses 
from terrorist or catastrophic events. In February 2002, GAO again 
testified before the Congress to report that the insurance industry 
intended to largely exclude coverage for losses resulting from any 
future terrorist attacks, creating further uncertainty and economic 
vulnerability in the marketplace. GAO also outlined the desirable 
features of any government-sponsored program established to help ensure 
the availability of terrorism insurance coverage in the financial 
marketplace. The House and Senate used this information in structuring 
reform proposals.\9\
---------------------------------------------------------------------------
    \9\ For our recent work on this issue, see U.S. General Accounting 
Office, Terrorism Insurance: Rising Uninsured Exposure to Attacks 
Heightens Potential Economic Vulnerabilities, GAO-02-472T (Washington, 
D.C.: Feb. 27, 2002) and Terrorism Insurance: Alternative Programs for 
Protecting Insurance Consumers, GAO-02-175T (Washington, D.C.: Oct. 24, 
2001).
---------------------------------------------------------------------------
    For a list of GAO's key products on homeland security, see GAO's 
website listing at http://www.gao.gov/homelandsecurity.html with 
hyperlinks to the searchable full-text reports.

                        PERFORMANCE RECOGNITION

    Mr. Kingston. What would really be great is if there was a 
philosophical recommendation of GAO. Also, is there a way to 
compensate certain governmental employees that were given a 
bonus for saving money? Tony are you the H.R. Guy?
    Mr. Walker. Chief information officer.
    Mr. Kingston. Is there a way to pay employees a bonus for 
saving money?
    Mr. Walker. Sure, there is a way to do it. There are 
certain laws on the books, primarily the Incentive Awards Act. 
It is not the False Claims act--where if somebody ends up 
coming forward, they can get a percentage of the savings if 
there is some fraud, waste, abuse or mismanagement.
    But I think other than that, clearly the agencies have the 
ability through spot cash award programs and other types of 
incentive programs to provide some type of incentive to promote 
efficiency, to the extent that they don't otherwise pay people 
more than they are statutorily allowed to pay people under 
current law.
    I think one of the other problems, quite frankly, that we 
have in the Federal Government is if you look at the way that 
we pay people, about 85 percent of the money is on autopilot. 
It is based on the passage of time, the rate of inflation, and 
your geographic location; nothing to do with your skills, 
knowledge, performance, or contributions in any way. I believe 
that we are going to have to move away from that system and 
move toward a new system that is equitable and fair, but 
differentiates on compensation based upon some basic factors.
    Mr. Kingston. Have you studied that?
    Mr. Walker. Yes, we have.
    Mr. Kingston. Do you have a paper on that?
    Mr. Walker. We have more papers than you can imagine, Mr. 
Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7100B.387
    
                         PERFORMANCE MANAGEMENT

    Mr. Kingston. Is that a legislative proposal or a cultural 
change?
    Mr. Walker. It is really a cultural change. What has to 
happen, quite frankly, is federal government agencies need to 
have modern, effective, credible and validated performance 
management systems, linked to their strategic plans, that are 
tied to their desired outcomes where they end up holding people 
accountable. I will tell you that we have one at GAO. We are in 
the lead of the federal government. There is nobody even close 
to us with regard to this area. But it is amazing how few 
federal agencies have that, and that doesn't take any change in 
legislation whatsoever.
    I was before a joint subcommittee hearing yesterday of 
Senate Governmental Affairs and House Government Reform on 
human capital practices and would be happy to provide that 
testimony to you and speak to you about it because I think you 
would be interested.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7100B.388
    
    [GRAPHIC] [TIFF OMITTED] T7100B.389
    
    [GRAPHIC] [TIFF OMITTED] T7100B.390
    
    [GRAPHIC] [TIFF OMITTED] T7100B.391
    
    [GRAPHIC] [TIFF OMITTED] T7100B.392
    
    [GRAPHIC] [TIFF OMITTED] T7100B.393
    
    [GRAPHIC] [TIFF OMITTED] T7100B.394
    
    [GRAPHIC] [TIFF OMITTED] T7100B.395
    
    [GRAPHIC] [TIFF OMITTED] T7100B.396
    
    [GRAPHIC] [TIFF OMITTED] T7100B.397
    
    [GRAPHIC] [TIFF OMITTED] T7100B.398
    
    [GRAPHIC] [TIFF OMITTED] T7100B.399
    
    [GRAPHIC] [TIFF OMITTED] T7100B.400
    
    [GRAPHIC] [TIFF OMITTED] T7100B.401
    
    [GRAPHIC] [TIFF OMITTED] T7100B.402
    
    [GRAPHIC] [TIFF OMITTED] T7100B.403
    
    [GRAPHIC] [TIFF OMITTED] T7100B.404
    
    [GRAPHIC] [TIFF OMITTED] T7100B.405
    
    [GRAPHIC] [TIFF OMITTED] T7100B.406
    
    [GRAPHIC] [TIFF OMITTED] T7100B.407
    
    [GRAPHIC] [TIFF OMITTED] T7100B.408
    
    [GRAPHIC] [TIFF OMITTED] T7100B.409
    
    [GRAPHIC] [TIFF OMITTED] T7100B.410
    
    [GRAPHIC] [TIFF OMITTED] T7100B.411
    
    [GRAPHIC] [TIFF OMITTED] T7100B.412
    
    [GRAPHIC] [TIFF OMITTED] T7100B.413
    
                        HUMAN CAPITAL PRACTICES

    Mr. Kingston. We would be interested, on a bipartisan 
basis, to promote that.
    We have a problem on a number of agencies hiring lawyers 
who could get better paying jobs in the private sector. Perhaps 
there is a way to pay them based on their production. More than 
likely, not all those lawyers are worth $90,000, but some of 
them are worth $200,000. It would be great to have that range 
within the system.
    I said the same thing in the Legislative Branch in terms of 
our staff. Some of them move to the private sector and make a 
lot more money, and they are in position to save the Federal 
Government a lot of money by doing some things differently.
    Mr. Walker. Most of the good ideas, as you know, are in the 
heads of the employees who are doing the job day in and day 
out. And it is a way of trying to recognize and reward people 
for their ideas. That is a cultural transformation. And central 
to that is committed, dedicated, persistent leadership and 
performance management reward systems that encourage and reward 
performance. I would be happy to work with you on that. I think 
there is a lot that can and should be done. And we are doing a 
lot not only within GAO in that regard, but we are doing a lot 
to try to help others.
    Mr. Kingston. I have more questions I will submit for you 
to respond to for the record.
    [The questions for the record follow:]

            QUESTIONS FROM CHAIRMAN KINGSTON FOR THE RECORD

    Question. Your justification mentions that in FY 2002 you issued a 
plan that provides the context for your human capital activities. Is 
this your Human Capital strategic plan? Does it reflect all of the 
changes you want to make to your human capital policies, practices and 
systems? Please provide a copy of your current human capital strategic 
plan for the record.
    Response. The plan we referred to in our justification was the 
workforce plan that we developed as a tool to help us operationalize 
our overall strategic plan. The workforce plan, along with our human 
capital tactical plan, provide the framework to implement the specific 
initiatives necessary to transform our vision into reality.
    Our overall strategic plan, Strategic Plan for Fiscal Years 2002-
2007, provides a blueprint for the areas in which we expect to conduct 
research, audits, analyses, and evaluations to meet the Congress' 
needs, and we allocate the resources we receive from the Congress 
accordingly. The strategic plan includes 4 overarching goals and is the 
basis for managing our organizational performance, determining our 
workforce needs, aligning our organization and allocating our resources 
to meet the needs of the Congress. Like any other high-performance 
organization, our workforce needs are directly linked to our strategic 
vision of what we want to accomplish to serve the Congress and what 
kind of organization we want and need to be. Our strategic plan 
provides a framework for our human capital policies, practices and 
systems.
    To successfully carry out its responsibilities to the Congress for 
the benefit of the American people, GAO's work must be professional, 
objective, fact-based, nonpartisan, nonideological, fair, and balanced. 
GAO should also lead by example. As a result, one of our four goals is 
to ``Maximize The Value Of GAO By Being A Model Federal Agency And A 
World-Class Professional Services Organization''. The focus of this 
effort is to make GAO a model organization--one that is client and 
customer driven; exhibits the characteristics of leadership and 
management excellence; leverages its institutional knowledge and 
experience; is devoted to ensuring quality in its work processes and 
products through continuous improvement; and is regarded as an employer 
of choice.
    Along with financial management, information technology, and 
facilities management, our human capital strategies are incorporated 
within this goal to align and integrate our human capital policies and 
practices to support our mission. Our human capital-related strategic 
objectives under this goal are to:
          <bullet> sharpen GAO's focus on clients' and customers' 
        requirements,
          <bullet> enhance leadership and promote management 
        excellence,
          <bullet> leverage GAO's institutional knowledge and 
        experience,
          <bullet> continuously improve GAO's business and management 
        processes, and
          <bullet> become the professional services' employer of 
        choice.
    We supplement these performance goals with specific key efforts and 
we assess our progress against the goals every 2 years.
    Question. Will you need additional legislation to accomplish what 
you want to do with your human capital endeavors? Could you explain in 
detail what additional initiatives you believe are important to GAO to 
take? Do you believe that the changes you are proposing are applicable 
to the rest of the government? Will these changes cost more or do you 
believe they will save money?
    Response. Strategic human capital management must be the 
centerpiece of any government agency seeking to become a world-class 
organization. As a first step in meeting this challenge, GAO identified 
and used appropriate administrative authorities available to accomplish 
human capital reform. The second step for strategic human capital 
management is to pursue incremental legislative reforms to give GAO 
additional tools and flexibilities to hire, manage, and retain the 
human capital it needs. Consistent with this approach, GAO was 
successful in obtaining legislation in calendar year 2000, Public Law 
106-303 that provided us with such increased human capital 
flexibilities as the authority to grant early voluntary retirements and 
hire Senior Level staff. However, more work remains to be done. 
Therefore, we are proposing a second human capital bill that will 
assist GAO in meeting the various human capital challenges that we 
currently face and need to address.
    The proposed bill has 7 sections. The first provision seeks to make 
the authority for voluntary early retirements and voluntary buyouts 
that GAO received under Public Law 106-303 permanent instead of 
expiring on December 31, 2003. Our use of the voluntary early 
retirement authority has helped us to realign the agency and achieve 
various human capital goals while satisfying the early retirement 
desires of a number of GAO personnel. The voluntary buyout provision 
would serve a similar benefit if we ever choose to use it. We do not, 
however, have any plans to do so at this time.
    Two other provisions will allow GAO to institute a more 
performance-oriented pay system and remove us from certain provisions 
in title 5 of the United States Code concerning the setting of 
permanent pay. The first of these provisions will enable GAO to place 
greater emphasis on knowledge, skills, position and performance rather 
than on the passage of time, the rate of inflation, and geographic 
location as is currently the case in making permanent pay decisions. As 
a corollary to this, we are also seeking to modify the title 5 
provisions related to the grade and pay of employees who are demoted 
due to such conditions as a work force restructuring or 
reclassification. Importantly, GAO employees would not have their basic 
rate of pay cut under this provision. However, future pay increases 
would be set consistent with the pay parameters of the person's new 
position. This latter provision would achieve an equitable solution to 
the title 5 antiquated system that enables employees to be paid for a 
long period of time in excess of the work they are actually performing. 
The current approach violates the merit principles of equal pay for 
equal work.
    We are also seeking greater flexibility with respect to reimbursing 
employees for relocation benefits and for providing upper level 
experienced hires with little or no federal experience, the ability to 
earn increased amounts of annual leave. The legislation would also 
authorize GAO to engage in an executive exchange program with private 
sector organizations involving areas of mutual concern and in positions 
where we have experienced a supply and demand imbalance. It has obvious 
benefits for all participants by enhancing their skills and knowledge 
and would also enable GAO to leverage the expertise of private sector 
employees.
    Lastly, we are proposing that GAO should have its name changed to 
the Government Accountability Office to more accurately reflect the 
work of the agency as a multi-disciplinary professional services 
organization rather than an agency that pre-audits government vouchers 
as was the case in 1921 when GAO was first created. This move will help 
to assure that our name reflects the modern agency and professional 
services organization we have become, while retaining our global brand 
name of GAO. This step will also help us in our recruiting, in the 
press, with the public, on the Hill and within the administration.
    As has been the case in the past, we also expect that our use of 
these authorities will provide valuable lessons to Congress and 
agencies on how human capital flexibilities can be used in a context 
that helps an organization achieve its mission while still ensuring 
that adequate safeguards, including reasonable transparency and 
appropriate accountability mechanisms, are in place to prevent abuse. 
Nevertheless, it should be noted that like other government agencies, 
we have consistently found that much of what we need to do to be 
successful in regards to human capital and other management areas, we 
can do under current authorities available to most agencies.
    Many of the initiatives that we have undertaken have required one-
time investments to make them a reality. We worked with the Congress to 
present a business case for funding a number of these initiatives. 
Fortunately, the Congress has supported these and related GAO 
transformation efforts. The result has been a stronger, better 
positioned, more effective, results-oriented, and respected GAO. As we 
engage in these changes, we also know that we are not perfect and we 
never will be. This is a work-in-progress for us as it is for others. 
In fact, we are constantly evaluating our internal efforts, seeking to 
learn from others, and making refinements as we go along. We certainly 
believe that over time our management improvement initiatives yield 
greater efficiencies and savings. More directly however, our human 
capital initiatives are at center of our efforts to better serve the 
Congress and the American people. The significant financial and non-
financial benefits that we have produced in recent years have been the 
direct result of the combined efforts of our single greatest assets--
our people. Human capital programs that help us attract, retain, 
develop, and reward the top talent we have are critical to our efforts 
to continue to improve our performance and assure our accountability.
    Question. The Subcommittee notes that GAO has 11 field offices at 
various locations within the United States. As part of cost cutting 
measures the GAO, several years ago, closed your office in Europe. With 
all the activity and issues facing the United States in the Middle East 
and other areas in Europe, has the GAO given consideration to reopening 
the European office? Do you think it is an issue that should receive 
some consideration? What would be the annual cost of operating the 
European Office?
    Response. As part of efforts to update our strategic plan for 
serving the Congress, we conduct an environmental scan to factor in 
developments that changed since our last update that may influence the 
work we do. As part of this effort, GAO assesses alternatives related 
to how we conduct work related to issues in the Middle East and Europe, 
including reopening an office in Europe.
    In December 1999, GAO completed an assessment of the costs of re-
establishing an office in Europe. We assessed the costs at four 
locations--Brussels, Belgium; Frankfurt, Germany; Paris, France; and 
London, UK, to determine whether it would be cost effective to 
reestablish an office in Europe at that time. GAO's travel costs 
(airline, per diem and miscellaneous travel expenses) to Europe totaled 
about $500,000. Our analysis showed that the incremental costs for a 
single, unaccompanied mid-level employee for a four-year period would 
vary from a low of $298,000 in Brussels to a high of $539,000 in Paris. 
These incremental costs were costs in addition to salary and benefits 
and included moving costs, cost of living allowance, State Department's 
support services costs and living quarters allowance. Additional family 
members would mean higher potential costs, such as education costs for 
school-age children. Furthermore, one cannot make a strict comparison 
between the travel costs to Europe and the costs of establishing a 
staff member in Europe since that staff member would still have travel 
costs to all but their European official duty station. Accordingly, we 
concluded that establishing an office in Europe would not be cost 
effective at that time.
    Question. The Committee notes that one issue you have reviewed is 
the area of ``Supporting Embassy Rightsizing Initiatives.'' For the 
record could you explain your work in this area? This is of particular 
concern to the Subcommittee because the Library of Congress has been 
requested to participate in a rebuilding initiative at various Embassy 
locations with a price tag for the Library's share of about $88 million 
dollars. Are you aware of this rebuilding issue? Do you have any 
comments or observations?
    Response. GAO has issued several reports addressing the need for a 
comprehensive and meaningful approach to rightsizing the U.S. overseas 
presence--assuring that the right numbers of people are in the right 
place at overseas diplomatic posts. To support the long-standing need 
for a rightsizing initiative, we developed a framework that identifies 
critical elements of embassy operations--physical security, mission 
priorities and requirements, and cost--and also includes rightsizing 
options for consideration. Our reports have recommended that OMB and 
the Department of State use the framework for their rightsizing 
initiatives. While our work has not specifically addressed issues 
related to rebuilding initiatives of the Library of Congress, our most 
recent report on planning for new embassy construction (GAO-03-411, 
Embassy Construction: Process for Determining Staffing Requirements 
Needs Improvement, April 7, 2003) discusses the pros and cons of 
proposals for cost sharing of new construction among all agencies with 
operations overseas.
    Question. We note that you are still working on the asbestos 
removal program at the GAO building. What is the projected completion 
date of this project? Will there be any budget reductions once this 
project is complete?
    Response. In fiscal year 2003, we began the last major phase of 
asbestos removal and renovation in the GAO Building and expect to 
complete our asbestos removal and renovation project by the end of this 
calendar year. However, there are small, inaccessible pockets of 
asbestos in the building that are encapsulated. For example, behind the 
exterior walls on two floors of our building, there are pipes for a 
heating system that we no longer use that are wrapped in asbestos. 
Although we have no plans to disturb these areas, it is possible that 
they could be disturbed during future building modernizations and then 
we would have to remove the asbestos.
    In recent years, the asbestos removal and renovation project has 
primarily been funded using rental income from building tenants and 
revenue from our audit work. In fiscal year 2004, these funds will be 
used to offset building maintenance and operations costs.
    Question. You have implemented a number of security enhancements 
and requested supplemental funding for security issues. What are you 
planning still to do to enhance GAO security?
    Response. After the events of the September 11th terrorist attacks 
and subsequent anthrax incidents, we designated safety and security as 
a key management challenge and immediately increased the level of the 
agency's safety and security. GAO contracted with a professional 
security firm to conduct a comprehensive security evaluation and threat 
assessment. The enhancements implemented as a result of recommendations 
emanating from these thorough reviews will further strengthen our 
security posture and help reduce our susceptibility to criminal or 
terrorist attacks. In addition, implementation of these upgrades will 
ensure conformity with the Department of Justice's Level IV security 
guidelines for the GAO Building, as well as homeland security 
recommendations.
    We established an executive level steering committee to provide 
oversight, review contractor recommendations, and develop a multi-year 
implementation plan. To date, we have developed an emergency 
preparedness and response plan, a continuity of operations plan, and a 
shelter in place plan. These plans represent a vital element of an 
overall emergency preparedness program and help ensure our ability to 
respond in the event of an emergency or a need to again serve as a 
contingency for the House of Representatives.
    In the areas of physical and personnel security, we have increased 
guard coverage, expanded background investigations and security 
clearances to ensure appropriate access, enhanced perimeter security, 
upgraded air filtration systems to protect against biological hazards, 
and upgraded the GAO building fire alarm and public address systems.
    In the information security arena, we strengthened network access 
and intrusion detection capabilities, implemented user authentication 
tools, installed software to monitor user compliance with security 
standards, completed security control and risk assessments for critical 
information systems, and established an off-site disaster recovery 
facility.
    During fiscal year 2003, we plan to continue enhancing our 
perimeter access control systems, upgrade our security access control 
and intrusion detection system, including electronic turnstiles; 
establish a separate visitor entrance; relocate the Security Command 
Control Center to a more secure location; obtain protective equipment 
and supplies; and expand efforts to protect against chemical and 
biological intrusions.
    In fiscal year 2003 and 2004, we will also continue to expand our 
disaster recovery capability, including off-site backup and recovery of 
key information; enhance remote access to provide in the event the GAO 
building is inaccessible; access options for a remote worksite; 
strengthen network access and intrusion detection capabilities through 
enhanced firewalls, data encryption tools, enhanced controls at the 
desktop and in wireless devices, and install analysis software to 
detect and correct issues remotely.
    As we continue to assess future needs, while implementing currently 
identified security and safety features, we will identify and 
prioritize further actions needed to protect our staff, assets and 
information.

                            Closing Remarks

    Mr. Kingston. David?
    Mr. Price. No further questions. Thank you for sticking 
with us into the evening hours, and I look forward to working 
with you to do an effective job.
    Mr. Walker. Thank you.
    Mr. Kingston. Thank you for your testimony. The 
subcommittee stands in recess until 10 a.m. Thursday, at which 
time a Members only briefing will be given by the Capitol 
Police.
    [Clerk's note.--Following is the justification of the 
budget estimate submitted to the Subcommittee by the General 
Accounting Office:]

[GRAPHIC] [TIFF OMITTED] T7100B.414

[GRAPHIC] [TIFF OMITTED] T7100B.415

[GRAPHIC] [TIFF OMITTED] T7100B.416

[GRAPHIC] [TIFF OMITTED] T7100B.417

[GRAPHIC] [TIFF OMITTED] T7100B.418

[GRAPHIC] [TIFF OMITTED] T7100B.419

[GRAPHIC] [TIFF OMITTED] T7100B.420

[GRAPHIC] [TIFF OMITTED] T7100B.421

[GRAPHIC] [TIFF OMITTED] T7100B.422

[GRAPHIC] [TIFF OMITTED] T7100B.423

[GRAPHIC] [TIFF OMITTED] T7100B.424

[GRAPHIC] [TIFF OMITTED] T7100B.425

[GRAPHIC] [TIFF OMITTED] T7100B.426

[GRAPHIC] [TIFF OMITTED] T7100B.427

[GRAPHIC] [TIFF OMITTED] T7100B.428

[GRAPHIC] [TIFF OMITTED] T7100B.429

[GRAPHIC] [TIFF OMITTED] T7100B.430

[GRAPHIC] [TIFF OMITTED] T7100B.431

[GRAPHIC] [TIFF OMITTED] T7100B.432

[GRAPHIC] [TIFF OMITTED] T7100B.433

[GRAPHIC] [TIFF OMITTED] T7100B.434

[GRAPHIC] [TIFF OMITTED] T7100B.435

[GRAPHIC] [TIFF OMITTED] T7100B.436

[GRAPHIC] [TIFF OMITTED] T7100B.437

[GRAPHIC] [TIFF OMITTED] T7100B.438

[GRAPHIC] [TIFF OMITTED] T7100B.439

[GRAPHIC] [TIFF OMITTED] T7100B.440

[GRAPHIC] [TIFF OMITTED] T7100B.441

[GRAPHIC] [TIFF OMITTED] T7100B.442

[GRAPHIC] [TIFF OMITTED] T7100B.443

[GRAPHIC] [TIFF OMITTED] T7100B.444

[GRAPHIC] [TIFF OMITTED] T7100B.445

[GRAPHIC] [TIFF OMITTED] T7100B.446

[GRAPHIC] [TIFF OMITTED] T7100B.447

[GRAPHIC] [TIFF OMITTED] T7100B.448

[GRAPHIC] [TIFF OMITTED] T7100B.449

[GRAPHIC] [TIFF OMITTED] T7100B.450

[GRAPHIC] [TIFF OMITTED] T7100B.451

[GRAPHIC] [TIFF OMITTED] T7100B.452

[GRAPHIC] [TIFF OMITTED] T7100B.453

[GRAPHIC] [TIFF OMITTED] T7100B.454

[GRAPHIC] [TIFF OMITTED] T7100B.455

[GRAPHIC] [TIFF OMITTED] T7100B.456

[GRAPHIC] [TIFF OMITTED] T7100B.457

[GRAPHIC] [TIFF OMITTED] T7100B.458

[GRAPHIC] [TIFF OMITTED] T7100B.459

[GRAPHIC] [TIFF OMITTED] T7100B.460

[GRAPHIC] [TIFF OMITTED] T7100B.461

[GRAPHIC] [TIFF OMITTED] T7100B.462

[GRAPHIC] [TIFF OMITTED] T7100B.463

[GRAPHIC] [TIFF OMITTED] T7100B.464

[GRAPHIC] [TIFF OMITTED] T7100B.465

[GRAPHIC] [TIFF OMITTED] T7100B.466

[GRAPHIC] [TIFF OMITTED] T7100B.467

[GRAPHIC] [TIFF OMITTED] T7100B.468

[GRAPHIC] [TIFF OMITTED] T7100B.469

[GRAPHIC] [TIFF OMITTED] T7100B.470

[GRAPHIC] [TIFF OMITTED] T7100B.471

[GRAPHIC] [TIFF OMITTED] T7100B.472

[GRAPHIC] [TIFF OMITTED] T7100B.473

[GRAPHIC] [TIFF OMITTED] T7100B.474

[GRAPHIC] [TIFF OMITTED] T7100B.475

[GRAPHIC] [TIFF OMITTED] T7100B.476

[GRAPHIC] [TIFF OMITTED] T7100B.477

[GRAPHIC] [TIFF OMITTED] T7100B.478

[GRAPHIC] [TIFF OMITTED] T7100B.479

[GRAPHIC] [TIFF OMITTED] T7100B.480

[GRAPHIC] [TIFF OMITTED] T7100B.481

[GRAPHIC] [TIFF OMITTED] T7100B.482

[GRAPHIC] [TIFF OMITTED] T7100B.483

[GRAPHIC] [TIFF OMITTED] T7100B.484

[GRAPHIC] [TIFF OMITTED] T7100B.485

[GRAPHIC] [TIFF OMITTED] T7100B.486

[GRAPHIC] [TIFF OMITTED] T7100B.487

[GRAPHIC] [TIFF OMITTED] T7100B.488

[GRAPHIC] [TIFF OMITTED] T7100B.489

[GRAPHIC] [TIFF OMITTED] T7100B.490

[GRAPHIC] [TIFF OMITTED] T7100B.491

[GRAPHIC] [TIFF OMITTED] T7100B.492

[GRAPHIC] [TIFF OMITTED] T7100B.493

[GRAPHIC] [TIFF OMITTED] T7100B.494

[GRAPHIC] [TIFF OMITTED] T7100B.495

[GRAPHIC] [TIFF OMITTED] T7100B.496

[GRAPHIC] [TIFF OMITTED] T7100B.497

[GRAPHIC] [TIFF OMITTED] T7100B.498

[GRAPHIC] [TIFF OMITTED] T7100B.499

[GRAPHIC] [TIFF OMITTED] T7100B.500

[GRAPHIC] [TIFF OMITTED] T7100B.501

[GRAPHIC] [TIFF OMITTED] T7100B.502

[GRAPHIC] [TIFF OMITTED] T7100B.503

[GRAPHIC] [TIFF OMITTED] T7100B.504

[GRAPHIC] [TIFF OMITTED] T7100B.505

[GRAPHIC] [TIFF OMITTED] T7100B.506

[GRAPHIC] [TIFF OMITTED] T7100B.507

[GRAPHIC] [TIFF OMITTED] T7100B.508

[GRAPHIC] [TIFF OMITTED] T7100B.509

[GRAPHIC] [TIFF OMITTED] T7100B.510

[GRAPHIC] [TIFF OMITTED] T7100B.511

[GRAPHIC] [TIFF OMITTED] T7100B.512

[GRAPHIC] [TIFF OMITTED] T7100B.513

[GRAPHIC] [TIFF OMITTED] T7100B.514

[GRAPHIC] [TIFF OMITTED] T7100B.515

[GRAPHIC] [TIFF OMITTED] T7100B.516

[GRAPHIC] [TIFF OMITTED] T7100B.517

[GRAPHIC] [TIFF OMITTED] T7100B.518

[GRAPHIC] [TIFF OMITTED] T7100B.519

[GRAPHIC] [TIFF OMITTED] T7100B.520

[GRAPHIC] [TIFF OMITTED] T7100B.521

[GRAPHIC] [TIFF OMITTED] T7100B.522

[GRAPHIC] [TIFF OMITTED] T7100B.523

[GRAPHIC] [TIFF OMITTED] T7100B.524

[GRAPHIC] [TIFF OMITTED] T7100B.525

[GRAPHIC] [TIFF OMITTED] T7100B.526

[GRAPHIC] [TIFF OMITTED] T7100B.527

[GRAPHIC] [TIFF OMITTED] T7100B.528

[GRAPHIC] [TIFF OMITTED] T7100B.529

[GRAPHIC] [TIFF OMITTED] T7100B.530

[GRAPHIC] [TIFF OMITTED] T7100B.531

[GRAPHIC] [TIFF OMITTED] T7100B.532

[GRAPHIC] [TIFF OMITTED] T7100B.533

[GRAPHIC] [TIFF OMITTED] T7100B.534

[GRAPHIC] [TIFF OMITTED] T7100B.535

[GRAPHIC] [TIFF OMITTED] T7100B.536

[GRAPHIC] [TIFF OMITTED] T7100B.537

[GRAPHIC] [TIFF OMITTED] T7100B.538

[GRAPHIC] [TIFF OMITTED] T7100B.539

[GRAPHIC] [TIFF OMITTED] T7100B.540

[GRAPHIC] [TIFF OMITTED] T7100B.541

[GRAPHIC] [TIFF OMITTED] T7100B.542

[GRAPHIC] [TIFF OMITTED] T7100B.543

[GRAPHIC] [TIFF OMITTED] T7100B.544

[GRAPHIC] [TIFF OMITTED] T7100B.545

[GRAPHIC] [TIFF OMITTED] T7100B.546

[GRAPHIC] [TIFF OMITTED] T7100B.547

[GRAPHIC] [TIFF OMITTED] T7100B.548

[GRAPHIC] [TIFF OMITTED] T7100B.549

[GRAPHIC] [TIFF OMITTED] T7100B.550

[GRAPHIC] [TIFF OMITTED] T7100B.551

[GRAPHIC] [TIFF OMITTED] T7100B.552

[GRAPHIC] [TIFF OMITTED] T7100B.553

[GRAPHIC] [TIFF OMITTED] T7100B.554

[GRAPHIC] [TIFF OMITTED] T7100B.555

[GRAPHIC] [TIFF OMITTED] T7100B.556

[GRAPHIC] [TIFF OMITTED] T7100B.557

[GRAPHIC] [TIFF OMITTED] T7100B.558

[GRAPHIC] [TIFF OMITTED] T7100B.559

[GRAPHIC] [TIFF OMITTED] T7100B.560

[GRAPHIC] [TIFF OMITTED] T7100B.561

[GRAPHIC] [TIFF OMITTED] T7100B.562

[GRAPHIC] [TIFF OMITTED] T7100B.563

[GRAPHIC] [TIFF OMITTED] T7100B.564

[GRAPHIC] [TIFF OMITTED] T7100B.565

[GRAPHIC] [TIFF OMITTED] T7100B.566

[GRAPHIC] [TIFF OMITTED] T7100B.567

[GRAPHIC] [TIFF OMITTED] T7100B.568

[GRAPHIC] [TIFF OMITTED] T7100B.569

[GRAPHIC] [TIFF OMITTED] T7100B.570

[GRAPHIC] [TIFF OMITTED] T7100B.571

[GRAPHIC] [TIFF OMITTED] T7100B.572

[GRAPHIC] [TIFF OMITTED] T7100B.573

[GRAPHIC] [TIFF OMITTED] T7100B.574

[GRAPHIC] [TIFF OMITTED] T7100B.575

[GRAPHIC] [TIFF OMITTED] T7100B.576

[GRAPHIC] [TIFF OMITTED] T7100B.577

[GRAPHIC] [TIFF OMITTED] T7100B.578

[GRAPHIC] [TIFF OMITTED] T7100B.579

[GRAPHIC] [TIFF OMITTED] T7100B.580

[GRAPHIC] [TIFF OMITTED] T7100B.581

[GRAPHIC] [TIFF OMITTED] T7100B.582

[GRAPHIC] [TIFF OMITTED] T7100B.583

[GRAPHIC] [TIFF OMITTED] T7100B.584

[GRAPHIC] [TIFF OMITTED] T7100B.585

[GRAPHIC] [TIFF OMITTED] T7100B.586

[GRAPHIC] [TIFF OMITTED] T7100B.587

[GRAPHIC] [TIFF OMITTED] T7100B.588

[GRAPHIC] [TIFF OMITTED] T7100B.589

[GRAPHIC] [TIFF OMITTED] T7100B.590

[GRAPHIC] [TIFF OMITTED] T7100B.591

[GRAPHIC] [TIFF OMITTED] T7100B.592

[GRAPHIC] [TIFF OMITTED] T7100B.593

[GRAPHIC] [TIFF OMITTED] T7100B.594

[GRAPHIC] [TIFF OMITTED] T7100B.595

[GRAPHIC] [TIFF OMITTED] T7100B.596

[GRAPHIC] [TIFF OMITTED] T7100B.597

[GRAPHIC] [TIFF OMITTED] T7100B.598

[GRAPHIC] [TIFF OMITTED] T7100B.599

[GRAPHIC] [TIFF OMITTED] T7100B.600

[GRAPHIC] [TIFF OMITTED] T7100B.601

[GRAPHIC] [TIFF OMITTED] T7100B.602

[GRAPHIC] [TIFF OMITTED] T7100B.603

[GRAPHIC] [TIFF OMITTED] T7100B.604

[GRAPHIC] [TIFF OMITTED] T7100B.605

[GRAPHIC] [TIFF OMITTED] T7100B.606

[GRAPHIC] [TIFF OMITTED] T7100B.607

[GRAPHIC] [TIFF OMITTED] T7100B.608

[GRAPHIC] [TIFF OMITTED] T7100B.609

[GRAPHIC] [TIFF OMITTED] T7100B.610

[GRAPHIC] [TIFF OMITTED] T7100B.611

[GRAPHIC] [TIFF OMITTED] T7100B.612

[GRAPHIC] [TIFF OMITTED] T7100B.613

[GRAPHIC] [TIFF OMITTED] T7100B.614

[GRAPHIC] [TIFF OMITTED] T7100B.615

[GRAPHIC] [TIFF OMITTED] T7100B.616

[GRAPHIC] [TIFF OMITTED] T7100B.617

[GRAPHIC] [TIFF OMITTED] T7100B.618

[GRAPHIC] [TIFF OMITTED] T7100B.619

[GRAPHIC] [TIFF OMITTED] T7100B.620

[GRAPHIC] [TIFF OMITTED] T7100B.621

[GRAPHIC] [TIFF OMITTED] T7100B.622

[GRAPHIC] [TIFF OMITTED] T7100B.623

[GRAPHIC] [TIFF OMITTED] T7100B.624

[GRAPHIC] [TIFF OMITTED] T7100B.625

[GRAPHIC] [TIFF OMITTED] T7100B.626

[GRAPHIC] [TIFF OMITTED] T7100B.627

[GRAPHIC] [TIFF OMITTED] T7100B.628

[GRAPHIC] [TIFF OMITTED] T7100B.629

[GRAPHIC] [TIFF OMITTED] T7100B.630

[GRAPHIC] [TIFF OMITTED] T7100B.631

[GRAPHIC] [TIFF OMITTED] T7100B.632

[GRAPHIC] [TIFF OMITTED] T7100B.633

[GRAPHIC] [TIFF OMITTED] T7100B.634

[GRAPHIC] [TIFF OMITTED] T7100B.635

[GRAPHIC] [TIFF OMITTED] T7100B.636

[GRAPHIC] [TIFF OMITTED] T7100B.637

[GRAPHIC] [TIFF OMITTED] T7100B.638

[GRAPHIC] [TIFF OMITTED] T7100B.639

[GRAPHIC] [TIFF OMITTED] T7100B.640

[GRAPHIC] [TIFF OMITTED] T7100B.641

[GRAPHIC] [TIFF OMITTED] T7100B.642

[GRAPHIC] [TIFF OMITTED] T7100B.643

[GRAPHIC] [TIFF OMITTED] T7100B.644

[GRAPHIC] [TIFF OMITTED] T7100B.645

[GRAPHIC] [TIFF OMITTED] T7100B.646

[GRAPHIC] [TIFF OMITTED] T7100B.647

[GRAPHIC] [TIFF OMITTED] T7100B.648

[GRAPHIC] [TIFF OMITTED] T7100B.649

[GRAPHIC] [TIFF OMITTED] T7100B.650

[GRAPHIC] [TIFF OMITTED] T7100B.651

[GRAPHIC] [TIFF OMITTED] T7100B.652

[GRAPHIC] [TIFF OMITTED] T7100B.653

[GRAPHIC] [TIFF OMITTED] T7100B.654

[GRAPHIC] [TIFF OMITTED] T7100B.655

[GRAPHIC] [TIFF OMITTED] T7100B.656

[GRAPHIC] [TIFF OMITTED] T7100B.657

[GRAPHIC] [TIFF OMITTED] T7100B.658

[GRAPHIC] [TIFF OMITTED] T7100B.659

[GRAPHIC] [TIFF OMITTED] T7100B.660

[GRAPHIC] [TIFF OMITTED] T7100B.661

[GRAPHIC] [TIFF OMITTED] T7100B.662

[GRAPHIC] [TIFF OMITTED] T7100B.663

[GRAPHIC] [TIFF OMITTED] T7100B.664

[GRAPHIC] [TIFF OMITTED] T7100B.665

[GRAPHIC] [TIFF OMITTED] T7100B.666

[GRAPHIC] [TIFF OMITTED] T7100B.667

[GRAPHIC] [TIFF OMITTED] T7100B.668

[GRAPHIC] [TIFF OMITTED] T7100B.669

[GRAPHIC] [TIFF OMITTED] T7100B.670

[GRAPHIC] [TIFF OMITTED] T7100B.671

[GRAPHIC] [TIFF OMITTED] T7100B.672

                                             Tuesday, May 20, 2003.

                      UNITED STATES CAPITOL POLICE

                               WITNESSES

WILLIAM H. PICKLE, SERGEANT AT ARMS, U.S. SENATE, AND CHAIRMAN, CAPITOL 
    POLICE BOARD
WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF REPRESENTATIVES, AND 
    MEMBER, CAPITOL POLICE BOARD
ALAN M. HANTMAN, FAIA, ARCHITECT OF THE CAPITOL, AND MEMBER, CAPITOL 
    POLICE BOARD
TERRANCE W. GAINER, CHIEF, CAPITOL POLICE, AND EX-OFFICIO MEMBER, 
    CAPITOL POLICE BOARD

                           Opening Statement

    Mr. Kingston. I want to welcome everyone here today, and 
thank you for coming. The Subcommittee will come to order. We 
will hear the testimony from the U.S. Capitol Police and the 
Government Printing Office on their fiscal year 2004 budget 
requests. We welcome Mr. William H. Pickle, Sergeant at Arms of 
the Senate and the Chairman of the Capitol Police Board. He is 
accompanied by other Board Members, Mr. Bill Livingood, 
Sergeant at Arms of the House of Representatives, Mr. Alan 
Hantman, Architect of the Capitol, and Ex-officio Board Member, 
Chief Terrance W. Gainer.
    Mr. Moran, do you have a statement at this time?
    Mr. Moran. Very quickly, Mr. Chairman. Obviously, we all 
know about Mr. Livingood. He has done a great job. The new 
Capitol Police Chief did a very fine job for the District of 
Columbia, and so he comes with an impressive resume. But as 
with everything, we need coordination, cooperation, and 
consultation with Congress. I am not sure in terms of the 
Capitol Police how much of that consultation has been 
accomplished, but that is the reason for this special hearing. 
I am glad that you called it.
    Mr. Kingston. Chairman Pickle and Chief Gainer, your 
prepared statements have been submitted to the committee and 
will be inserted into the record at this time. You are welcome 
to make an opening statement, that would be in order. If not, 
the Subcommittee will move on to its line of questions.
    [The prepared statements submitted by the Chairman of the 
Capitol Police Board and the Chief of the United States Capitol 
Police follow as well as the bio of the Chief of Police:]

[GRAPHIC] [TIFF OMITTED] T7100C.001

[GRAPHIC] [TIFF OMITTED] T7100C.002

[GRAPHIC] [TIFF OMITTED] T7100C.003

[GRAPHIC] [TIFF OMITTED] T7100C.004

[GRAPHIC] [TIFF OMITTED] T7100C.005

[GRAPHIC] [TIFF OMITTED] T7100C.006

   Terrance W. Gainer, Chief of Police, United States Capitol Police

    Terrance W. Gainer was appointed chief of the United States 
Capitol Police on June 3, 2002. Chief Gainer began his law 
enforcement career as a Chicago Police officer in 1968, and 
rose through the ranks as a homicide detective, sergeant and 
executive assistant in the Administrative Services Bureau. An 
accomplished attorney who was admitted in Illinois, Federal 
District Court and U.S. Supreme Court, Chief Gainer served as 
the chief legal officer of the Chicago Police Department from 
1981 through 1984, where he assisted in negotiating the city's 
first labor contract with the police union.
    Chief Gainer entered Illinois state government in 1987, 
serving first as Deputy Inspector General, then, until 1989, as 
Deputy Director of the Illinois State Police, where he also 
served as Chief of Staff. He then served for nearly two years 
at the U.S. Department of Transportation as Special Assistant 
to the Secretary and Director for Drug Enforcement and 
Compliance. In March 1991, Governor Jim Edgar appointed Chief 
Gainer to the position of Director of the Illinois State 
Police. In May 1998, Chief Gainer moved to Washington, D.C., to 
accept the position of Executive Assistant Chief of the 
Metropolitan Police Department, where he served as second-in-
command of the 4,200-member department.
    As Chief of the United States Capitol Police, Chief Gainer 
commands a force of sworn and civilian personnel who provide 
comprehensive law enforcement, security, and protective 
operations services for the United States Congress, its staff, 
and visitors.
    Chief Gainer was born in Chicago, Illinois, and received 
his bachelor's degree from St. Benedict's College in Atchison, 
Kansas, and both his master's and juris doctor degrees from 
DePaul University of Chicago. A 1993 graduate of the FBI 
National Executive Institute, Chief Gainer has taught at 
national law enforcement training centers and the Chicago and 
Springfield campuses of the University of Illinois. Chief 
Gainer is a decorated veteran who served in Vietnam and retired 
as a Captain in the United States Naval Reserve in 2000.

                    Opening Statement of Mr. Pickle

    Mr. Pickle. Thank you, Mr. Chairman. I will rehash mine and 
I will be very brief, sir.
    Again, good morning, Mr. Chairman. Good morning, Mr. Moran.
    We, the Board, are very honored to be here this morning to 
appear before you. As you mentioned before, I have with me Alan 
Hantman, Bill Livingood and Chief Terry Gainer. Terry was 
appointed the Chief just this past June and from all accounts, 
I am relatively new here myself, I have been here three months, 
but from all accounts Terry has done a wonderful job and we all 
applaud his efforts.
    In the very short time that I have been here, I have to 
tell you that I have come to respect and admire this police 
department a great deal. I have been exposed to them now for 
almost 30 years on and off, and they have grown as world 
security and world events have pushed them into a direction 
that none of us thought was possible here a number of years 
ago.
    There is a strong sense of cooperation, a strong sense of 
commitment by this Board to do the right thing by the police 
department, and we are very supportive of the police 
department, both in its request for staffing and in its desire 
to be one of the premier Federal law enforcement agencies, 
because it truly is a unique agency.
    The Capitol is probably one of the most unique sites in the 
world, certainly in this country, because we have what we call 
the people's House, a place that we want to maintain as open as 
possible and, at the same time, we have over 100,000 people 
coming and going here each day. We ask this police department 
to do an almost impossible task: keep it open, but also keep it 
secure. They are really very difficult, but parallel, duties.
    The Department is at a crossroads on several issues. The 
first is space. We are very supportive of their space request 
to you and the Committee has been very supportive. Hopefully, 
we will have some movement on the new headquarters in the near 
future and the off-site delivery center will hopefully be 
identified soon as well. We thought we had identified a place 
previously, but that has been sold out from under us, so to 
speak.
    These two particular spaces are especially important right 
now because, as you know, there is a large staffing increase 
request before you, and I am sure you are going to cover that 
quite thoroughly during this hearing. We believe these staffing 
increases are important. We believe they are critical. We are 
working closely not only internally, but we have looked at 
outside vulnerability studies, outside consulting studies, and 
we are trying to do the best we can, not only in providing 
security, but also we want to scrub these numbers and make sure 
that they are things we have to have and there are not more 
resources being requested than are truly needed.
    With that, Mr. Chairman, I have nothing further. I will 
turn it over to Chief Gainer, but we are prepared to answer any 
questions you may have. Thank you.

                   Opening Statement of Chief Gainer

    Mr. Kingston. Thank you.
    Chief Gainer. Thank you, Mr. Chairman. I will try to 
summarize my remarks because I think it is important to keep in 
context of the requests we have. I join with the Board in 
appreciating the opportunity to come here and present our 
fiscal year 2004 budget, and I thank the Committee for their 
continued support of the police. Frankly, the pay and other 
incentives that were approved in the Fiscal Year 2003 
Appropriations are a significant advantage to recruiting, 
hiring, and retaining good people, men and women, in officer 
positions as well as attracting highly qualified civilian 
professionals for key support roles and functions.
    Truly it is my honor to serve as Chief of Police for this 
fine organization that continues to make great strides in our 
mission to protect and support the Congress in meeting its 
constitutional responsibilities.
    We have done a lot since 9-11, but there are still many 
challenges ahead. In fact, the Capitol building we know was a 
target of the terrorists on September 11 and even the most 
recent briefings we have had today indicate that we are still a 
target. The terrorists clearly were not successful on that day. 
We were fortunate, but we must remain steadfast in ensuring the 
Department continues moving forward. Expansion as well as 
consistently fine-tuning how we currently operate is imperative 
to ensuring that we provide a safe and secure environment that 
enables Congress to fulfill its responsibility.
    There remains a constant underlying threat and that reality 
is ever changing. The Agency needs to maintain the ability to 
be prepared for any situation, which means we must have assets 
to detect, deter, and mitigate a wide range of threats to the 
public safety and the legislative process. We continue to work 
closely with the Sergeants at Arms and both the House and 
Senate leadership on this issue.

                             BUDGET REQUEST

    Specifically, our budget request of approximately $290.5 
million, which is a result of the supplemental, can be reduced 
to $275.5 million, represents a necessary and balanced plan to 
directly address the threats of today and proposes the 
utilization of resources to ensure the protection of Congress, 
its Members, staff, and visitors, and the legislative process. 
I acknowledge that our plan is robust, it is ambitious, but we 
have taken great efforts for the first time to tie both our 
budget, and our staffing request to a strategic plan. The 
strategic plan that we have crafted and will continue to work 
on at the direction of this Committee and others is a road map 
for the next 5 years to guide our operation and direct our 
efforts.
    Our plan identifies three focus areas or strategic thrusts. 
They are prevention, response, and support. Specifically, these 
are defined as preventing the occurrence of unlawful acts that 
could disrupt the business and operations of Congress, 
developing and deploying an effective incident management 
capability, and establishing a fully integrated and 
professional administrative support infrastructure. To reach 
those goals we have asked for additional staffing and increased 
technology and physical security.
    We know this Committee has been very supportive in their 
funding of us and our increased number of police officers and 
civilian personnel, but it is still regretfully not enough. 
This increase in staff is the largest and most important part 
of our budget and, hence, our plans that will enable us to 
effectively carry out our mission. We need the right numbers, 
organized into an effective and flexible blend of capabilities 
and skills.
    The study that I previously mentioned on the manpower is 
tied to our strategic plan and represents our professional 
recommendations. As of May 3, we have 1,437 sworn personnel and 
230 civilians on-board, and plan ending the fiscal year with 
1,569 personnel sworn and 326 civilians. Our fiscal year 2004 
budget request will position us to finish 2004 with 1,833 sworn 
and 573 civilian. The fiscal year 2004 budget estimate for 
salaries is $218.3 million, a 25.1 percent increase over the 
previous year.
    The fiscal year 2004 budget also requests that we provide 
improvements to patrol mobile response, allow expansion of our 
Containment Emergency Response Team, provide greater expertise 
and hazardous device-related work, allow new training 
initiatives, enhance physical and technical security measures, 
expand and modernize personnel management, physical services, 
and information technology.
    In the area of protective service, it would allow for 
appropriate staffing of dignitary protection, intelligence-
gathering, and threat assessment capabilities. The additional 
staff would also allow expansion of facilities management, 
property management, vehicle maintenance and activities to more 
effectively manage the assets we have and seek. It also 
provides for much needed administrative support for our bureaus 
and offices.
    Another important initiative is the development of a 
Hazardous Material Response Team, HMRT, to ensure that we 
adequately can mitigate and respond to any threat or incident 
that we encounter. This highly trained team of civilian 
professionals stands ready to deal with any chemical, 
biological, or radiological incident which might occur on the 
Capitol complex. This team is needed in addition to the other 
highly trained elements that deal with explosives, armed 
intruders, unruly crowds, and disturbed individuals.

                            GENERAL EXPENSES

    Our general expense request of approximately $72.2 million 
will be reduced by the $15 million related to the Fiscal Year 
2003 Supplemental for approximately $57.2 million to fund the 
operational and administrative capacity of the department. We 
have designed and implemented security systems to detect and 
prevent unauthorized physical and electronic access around the 
complex.
    Much of this budget will go to maintaining these systems at 
peak performance and creating necessary expansions. 
Maintenance, life cycle replacement, and expansion of services 
will cost an additional $8 million over the previous year. Also 
included is the fit-out of our new off-site delivery facility. 
The Capitol Police will incorporate in that facility cutting 
edge technologies to examine all incoming deliveries and stop 
any harmful package from entering the Capitol complex. The 
equipment and technology required to appropriately complete 
this facility will cost $4.3 million.
    Funding is also requested for personnel equipment for new 
staff, modernization of core IT systems, creation of the 
Capitol's first horse-mounted unit, which has proven effective 
in many other agencies across the country, including the Park 
Police and the Metropolitan Police Department for crowd 
control, demonstration activity, patrol activity, and community 
relations.
    I want to join with the Chairman, in his emphasis onour 
critical deficiencies in space. We have interim and long-range space 
requirements. The interim requirements are being met by looking outside 
the Capitol complex. The long-term solution lies with the new 
headquarters building. We have identified a site and processes are 
under way for leadership approvals and design in conjunction with the 
Architect of the Capitol. We continue to look for a suitable site to 
meet the requirements for a new off-site delivery center.

                      DEPARTMENT'S ACCOMPLISHMENTS

    As we speak about the future and our funding request, it is 
important to recognize the Department's accomplishments in the 
past year which could not have been achieved without the 
support of this Committee. On behalf of the Department I have 
submitted, and the Capitol Police Board unanimously approved, 
the Facilities Master Plan. Additionally, I have made staffing 
adjustments and I am requesting approval of a reorganization 
that will enable us to continue to quickly move forward on many 
of these initiatives.
    As I previously mentioned, for the first time we have tied 
our strategic plan to our budget and staffing requests. The 
Department in November, as you may know, became accredited by 
the National Commission on Accreditation for Law Enforcement 
Agencies, otherwise known as CALEA.
    Additionally, as we all know, communication is the most 
fundamental and vital area to a healthy organization. We have 
improved communication within the Department by several mediums 
to include a biweekly newsletter; I meet regularly with 
officials to address their concerns; and I have opened up a 
line of communications with officers by setting up an e-mail 
account in which they can e-mail me directly to either voice 
their concerns, which happens more often than I would wish, or 
to send kudos. It is a way to get to know what they are 
feeling.
    We are also broadening the communications links by planning 
town hall meetings with officers, producing an annual report, 
which has not been done at all or in many years, and soliciting 
volunteers for a Chief's Advisory Council to be comprised of 
various levels of members across the Department to bring 
forward policies and issues that may need attention. I have 
also fostered close and constructive working relationships with 
both the sworn and the civilian unions.
    Effective communication in that the employees know that 
they are being heard goes a long way towards morale. With 
improved morale, I believe we can cultivate a better work 
force.
    Additionally, we are rejuvenating and recreating an awards 
program that will quickly recognize our employees' hard work 
and get awards to them as quickly as we are able to get 
discipline. We are creating a fitness program that will 
generate healthier and happier employees. The work that has 
been done in planning this and other accomplishments that I 
have briefly mentioned are just a few of the hundreds of 
accomplishments achieved by this Capitol Police team.

                          STATE OF TRANSITION

    We are in a state of transition, as the Chairman mentioned. 
I commend the men and women of the United States Capitol Police 
for continually performing their duty in a diligent and 
professional manner. The responsibilities that rest on their 
shoulders are daunting. Each day, they must ensure the safety 
and security of the Congressional community and the thousands 
who visit these buildings by protecting them from acts of 
violence. In doing so, they allow the national legislative 
process to proceed unhindered.
    The level of support and funding provided to the U.S. 
Capitol Police must be commensurate with the level and quality 
of service expected by Congress and the American people. We all 
shoulder the responsibility to ensure the safety and security 
of all of those who work and visit these symbolic and historic 
buildings. This budget request is integral to ensuring that the 
continued development and operational readiness of the 
Department continues.
    In closing, again, I would like to thank you for the 
support that you have provided to the police over this past 
year and the years prior to my arrival. As I have said, there 
are many challenges ahead, but I think together we can meet 
those challenges.
    I would be happy to answer any questions that I may, sir. 
Thank you.

                     STRATEGIC PLAN IMPLEMENTATION

    Mr. Kingston. Thank you very much. You have certainly done 
a great job on outlining, you are a very focused guy, and I 
think your Department is doing a great job. I enjoy working 
with the United States Capitol Police and I have great 
appreciation for the officers on the line. And like every other 
Member of Congress, I have a few relationships where the 
rapport is good and useful. We like what your Department is 
doing.
    In the fiscal year 2003 appropriations bill, a procedure 
was established requiring an initial plan to be submitted to 
Congress. The plan would provide policies, procedures, time 
lines, and actions to be taken to meet the mandate of the 
legislation, including the actual development of a long-range 
strategic plan and yearly implementation plans in consultation 
with the Comptroller General.
    It appears that you are moving forward without the plan 
being submitted. Am I wrong on that?
    Chief Gainer. Are you referring to the strategic plan, sir?
    Mr. Kingston. The action plan.
    Chief Gainer. The strategic plan. An action plan?
    Mr. Kingston. As I understand it, you were required to have 
an initial action plan approved by the Police Board.
    Chief Gainer. Correct.
    Mr. Kingston. And then submit it to the Committees of 
Congress. And has that been done?
    Chief Gainer. No. It is still a work in progress. What 
happened is when I came here, in meetings with this Committee 
it was pointed out that we did not have a strategic plan. We 
immediately began working on a strategic plan and a manpower 
analysis. Then, in February of this year, when the budget was 
ultimately passed, in the law was a direction to develop an 
updated strategic plan and to submit an initial action plan.
    Mr. Kingston. As I understood it, by August the plan was to 
be submitted that would outline the future implementation.
    Chief Gainer. That is correct, and we will meet that date.
    Mr. Kingston. So we will have that plan, and none of it 
will be implemented beforehand. There is some concern that some 
implementation has begun before it has been submitted.
    Chief Gainer. Well, I think some of the dilemma is since I 
have arrived here the requirements have changed somewhat. If we 
go to the organizational chart as far as the thing we are 
talking about and the implementation, for instance, of the 
Office of Plans and Operations, we formed that plan, advised 
the Board, and we started to implement it and then we were told 
by the Committee that I could not do that until the Committee 
approved our organization. I then worked on and submitted the 
organization, the strategic plan, through the Board and have 
done that, and the Board has approved it, and we would be 
passing the initial plan on, the organization chart, the 
strategic plan on to the Committee. Then again, the 2003 budget 
put a further requirement for a strategic plan that mirrored 
closer to the GAO's requirement, and also laid the requirements 
on for the submission of these plans to the three other 
committees besides this one. So I am really trying to get the 
plans together and to the appropriate committees before any 
action is taken.
    Mr. Kingston. I understand from Chairman Taylor that we 
didn't want anything done until we looked at the plan. Is that 
your understanding?
    Chief Gainer. Yes, sir.
    Mr. Kingston. Has the Comptroller General been included in 
this? He has to review it too, right?
    Chief Gainer. Yes. Again, we were in the midst of a 
strategic plan, of getting it done when the 2003 legislation 
passed. Given the new requirements in the 2003 legislation, we 
have contacted the GAO, we have met with them, they have the 
plan, they have their strategic plan, they have a staffing plan 
and they are working on that with us.
    Mr. Kingston. GAO has the plan?
    Chief Gainer. Yes, sir.
    Mr. Kingston. They told us they did not. So we need to make 
sure.
    Chief Gainer. Well, they have the plan, the strategic plan 
that I completed. From that strategic plan we will develop with 
them the plan required under 2003. So they do not have that 
finished product because it is a work in progress.
    As I understand it, their initial reaction to the strategic 
plan that I had commissioned and finished simultaneously with 
the 2003 request is that frankly it is a good plan, but it is 
more detailed than needed and that it will be adjusted to 
eliminate some of the detail, but it is a good guidepost for 
us. So I don't think there is a conflict on where our current 
strategic plan will be and the one required by the legislation.
    Mr. Kingston. We may need to have a further meeting on 
that. GAO is telling us that it is complicated and time-
consuming. Their concern, as I understand it, is they want to 
make sure that this thing is vetted, well thought out, and that 
everybody is on board before it is implemented. We want the 
Capitol complex to be as secure as possible, so you are doing 
what you should be doing--moving it along; however, maybe the 
Washington bureaucracy isn't ready to react as quickly as you 
are right now. We may need to talk to them, because GAO is 
saying that they don't have the plan and they are not 
comfortable right now.
    Chief Gainer. We will go back to GAO and work through that. 
But, I also would point out to the Committee that actually the 
reorganizational change that is suggested in any of the plans 
is not whopping. Now, the number of people is a different 
issue, but some of the changes actually, I guess whopping is in 
the eyes of the beholder. I don't think our reorganizational 
requests that I would submit to the Committee, are significant 
or I would hope that I could work with the committee staff or 
GAO to move this along. Because, we are going to be at a 
security disadvantage, I feel, if we are not able to move on 
some of the things I am suggesting. But it is the will of the 
Committee.

                             EXPANDING ROLE

    Mr. Kingston. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Well, ``whopping,'' it is your word, but I think it is an 
appropriate word. Three thousand police officers for Capitol 
Hill is a whopping big number. You are expanding the role of 
the Capitol Police substantially, including in the areas where 
I question are necessary. The idea of being able tomake arrests 
pretty much anywhere in D.C., Maryland, or Virginia is a substantial 
expansion and appears to raise constitutional issues where separation 
of powers are defined, as well as the appointments clause. We can talk 
about that later, but that is just part of the context of this whopping 
expansion, which is the word you used. I have some concerns about it.
    Your police officers are going to take another gun home 
with them in addition to their official weapons. Everyone is 
going to be issued Blackberries in addition to the radio 
communication that you already have. You are going to set up a 
mounted police force in addition to the mounted officers that 
the Park Police have, which is just a stone's throw away in 
terms of jurisdiction. You have all kinds of additional money 
for emergency response. You are going to triple the civilian 
work force in less than 4 years. We once used to have a 
criteria where you would have two officers at each entranceway, 
but that was when you had 1,680 sworn officers. You are now 
going up to substantially beyond that and it will represent 
an--if you take into consideration this request and the 2005 
request, you are going to have an 80 percent increase in sworn 
officers as well as the tripling of the civilian personnel work 
force in less than 4 years.
    Whopping is an appropriate term, I guess, for your 
expansion plans. You can start anywhere you want, but it goes 
from the bizarre to the ridiculous. Half a million dollars for 
laundry for shirts cleaned every week that we are going to be 
paying for. I think you may be going a little into an area 
where a whole lot of scrutiny is going to be assigned to the 
Capitol Police. We don't have to worry about an invading Army; 
we are prepared for that. It is almost as though we are in 
medieval times. The lords and the nobles had their own armies, 
you know, and they were prepared to defend a fortress. This is 
not a fortress. We have a whole lot of help and you are 
supposed to be coordinating with the other branches of law 
enforcement.
    I want good pay, benefits, the highest level of 
professionalism for all of the Capitol Police officers, but I 
do not want to see this Congress funding a new army. I don't 
think we need a general, we need someone that recognizes the 
context and the jurisdiction of the Capitol Police.
    Do you have any comments?
    Chief Gainer. Yes, sir. Congressman, you raise a lot of 
issues, and if I could just go back to probably one of the more 
mundane ones and that is the organization of the Department and 
my using the term ``whopping,'' which I clearly now regret.
    That was in reference to the changes in the organization. 
The additional things we would like in the budget, whether it 
is personnel or jurisdiction, which I think are different 
issues, all need to be wrestled with individually. But I was 
referring first again to the ``W'' word, the reorganization I 
would like to make in the Department which includes, if I can, 
just the consolidation of the three different offices that are 
in three different places in the Department and consolidating 
that with our communications unit for better communication, 
plus to elevate our physical security operation, which is now 
part of administrative services, and put Mr. Greeley on an 
equal footing with operations and administration. And some 
changes in training to make training more focused. I would hope 
that if nothing else that we could move on this, because that 
needs to be done irrespective of if I get one more civilian or 
one more sworn officer or a mounted unit or any of the others. 
So that is what I was referring to. That is the difference.
    But let me try to connect some of these in the order that 
you mentioned.

                       EXPANSION OF JURISDICTION

    Mr. Moran. I didn't mention training. I don't have any 
problems with training. That falls under professionalism, and I 
want our officers to have all of the professional skills and 
training that they seek and that you think are necessary. That 
is part higher compensation, getting the very best people in 
the Capitol Police force. I don't have a problem with training. 
I do have some concerns that there may not be enough room at 
Glenco because of the Homeland Security Department's needs 
there. You may be competing with the same training slots. 
Training is not a problem. It is expansion of your turf beyond 
any conceivable grounds that I could have imagined, since I 
have been on this subcommittee.
    Chief Gainer. If I may then, sir, let me address the 
expanded jurisdiction issue. The reason that was proposed is 
multiple. One of the first reasons is we now have 
responsibilities for assets that are not in the District of 
Columbia, whether it is in Cheltenham or whether it is the 
combined computer center out in Virginia. So in theory, 
whenever officers go to either of those places on duty, they 
don't have typical police authority. That is just one aspect.
    Another aspect is, at the request of Congress, both the 
House and the Senate, we perform checks of various locations of 
Members of Congress and Senators' homes, and when we send our 
officers out there on duty, they are actually going with no 
authority. So I may go to a leader's home or a Congressman's 
home and see someone burglarizing the house next door to that 
Congressman. Our officer has no authority other than what a 
citizen has, to call the police, and it just strikes me that is 
an unbelievable underutilization of some people who are as well 
trained or as trained as any other policemen in this vicinity.
    The other issue is I would rather fight the terrorists, and 
we still believe they are coming, away from the portals of 
Congress rather than on the steps of Congress. And as we move 
towards an expanded truck jurisdiction which, for instance, the 
City and others are looking at as a model of how to regulate 
truck traffic and antiterrorist activities, the first step that 
has already been approved will take our jurisdiction to the 
Anacostia on the east and on 14th Street along Independence and 
Constitution on the west. Under the current milieu, I don't 
have authority, once we see a truck that we think is 
suspicious, we think it may be a terrorist, I don't have 
authority to go down and take action and do something about 
that truck.
    I know the Committee recognizes that our officers see a lot 
of different criminal activity. The expanded jurisdiction is 
not meant to take the place of what Chief Ramsey and his people 
do or any other local jurisdictions. In the papers that I have 
crafted and the orders that would go along with this, it would 
limit the officers to take action in those incidents where life 
was in jeopardy or serious property crime. They would always be 
secondary to backing up the local law enforcement officers.
    The legislation that we proposed mirrors that of the United 
States Park Police that includes the environs of the District 
of Columbia. Currently we have to summons people. I have called 
every major law enforcement agency in the area, Virginia State 
Police, Maryland State Police, all of the contiguous county 
chiefs, all of the local chiefs of the largest departments, and 
I can provide a list. All of them were surprised that we did 
not have that jurisdiction. Because in states such as Virginia 
and cities such as your own, they have interjurisdictional 
compacts with each other, and they were astounded we did not 
have jurisdiction outside the complex. I could have an officer 
there performing what the officer thinks is a duty and they 
cannot take police action. Plus, when our officers are out 
doing that, it leaves them with a terrible liability where they 
have to take some action that the most reasonable person thinks 
a sworn officer ought to take, and then someone comes back and 
says you had no jurisdiction.
    [The information submitted for the record by the USCP 
follows:]
[GRAPHIC] [TIFF OMITTED] T7100C.007

                    EXPANDED JURISDICTION CONTINUED

    Mr. Moran. Well, there have been some court cases that have 
said that the Constitution does not permit the execution of the 
laws to be vested in an officer answerable only to the 
Congress. So I think you may have some legal problems in doing 
that.
    Mr. Kingston. If the gentleman will yield.
    Mr. Moran. I am happy to yield to the Chairman, because I 
think this is an area that needs more explanation.
    Mr. Kingston. I want to talk about the jurisdictional issue 
also, Chief Gainer.
    First of all, is it really a problem right now--your 
officers checking on a Member's house and they see somebody 
breaking in? Probably not. To me the broader question is how 
often are they going out there? My concern would be the 
utilization of police officers for unintended purposes by 
Members of Congress. I don't think they should be going out to 
people's houses to begin with. If I live in Arlington and I 
think there is a problem, I should call the Arlington police. 
It is not your job to take care of my house in Arlington, 
Virginia. And to me, if Members of Congress are asking your 
personnel to do that, they should not, and perhaps our 
committee should focus on an abuse of your officers. The 
jurisdiction, as I understand it, would be expanded to all of 
the District of Columbia, Arlington, Fairfax, Loudoun, Prince 
William, Stafford Counties and the City of Alexandria, Prince 
George's, Charles, Anne Arundel and Montgomery Counties in 
Maryland. That is a lot of new territory and it is a lot of 
money at a time of big budget constraints. I want to be safe 
while I am here, but if something happens to me back home, it 
is simply a chance I take. I am probably not having my house 
broken into because I am a Member of Congress, but because it 
might be an attractive target for some other reason.
    Chief Gainer. Mr. Chairman, I hear you, but a couple of 
issues, Sir. Number one, I don't see that this would be 
additional funds, because the expanded jurisdiction is just 
related to our authority, and no Member of Congress, to my 
knowledge, is asking or abusing the request. We do our analysis 
of what homes we visit or don't visit based on the security 
analysis, and it does have to do with leaders and some members 
of key committees, and it is those individuals who live outside 
our normal jurisdiction. So we are not just paying visits to 
anyone; it is threat and analysis driven.
    You asked the question, how often do we do that? Again, we 
now have facilities, and if the Library of Congress merger 
takes place, we will have more facilities outside this 
immediate jurisdiction. But even without the LOC, which is 
controversial in itself, we have facilities in Virginia for 
which I am responsible. We have officers going continually to 
and from Cheltenham, Maryland, and they do not have the legal 
authority to take any action. There are numerous cases that I 
could share with you. For instance our officers see dangerous 
drunk drivers in their direct commutes to these places for 
which their authority to make arrests, again that are very 
reasonable and lifesaving, is questionable.
    One of the reasons that I have asked for the statute is to 
confront directly the limit of our power, and I think 
attorneys, as I am, can argue both sides of whether it is an 
abuse of our discretion.
    Finally, if I may, Sir, again I know you all know this, but 
Timothy McVeigh, the murderer from Oklahoma, was not caught 
within what would be the parameters of the Oklahoma Federal 
Building's jurisdiction. He was stopped at a traffic stop by a 
State trooper well out of the jurisdiction of the local law 
enforcement authorities. And if my officers have the authority 
and the power to just capture or prevent one of those 
individuals, then I do think it is worth it.
    Mr. Moran. Mr. Chairman, would you yield for a moment?
    Mr. Kingston. Yes.
    Mr. Moran. Any of your police officers that make arrests, 
you then have to be involved with the prosecution. So you have 
to go to court, local court, you have to sit through all of 
those trials. I know the way it works. My brother was a 
prosecutor in Arlington, and I was mayor in Alexandria. I mean 
it makes sense if you have half a dozen cases that are coming 
up on the docket. It does not make sense if you have one 
Capitol Police officer having to wait much of the day for that 
particular case to come up sitting there in court because they 
have to be there; if they are not there, then the case normally 
gets thrown out for lack of the arresting officer.
    I think you are taking on an awful lot of additional 
responsibility that is way beyond the original scope of law 
enforcement responsibility that was vested with the Capitol 
Police, to give you powers that go beyond our immediate 
protection.
    And I agree with the Chairman. I would like to know how 
many Members are asking you to go to their homes to provide any 
kind of personal protection, because it just doesn't seem 
necessary. I can understand with regard to the buildings, but 
those buildings are in other jurisdictions and also are within 
the jurisdiction of other local police forces to protect them, 
as would any other building that have to be protected. That 
falls within their responsibility.
    So thanks for yielding.

                        Questions for the Record

    [Clerk's note.--The following questions were submitted to 
the Capitol Police to be answered for the record regarding 
expanded jurisdiction. The Committee also requested the General 
Accounting Office to review the responses and provided 
observation regarding the responses.]

[GRAPHIC] [TIFF OMITTED] T7100C.008

    Question. What is the purpose for seeking the expanded 
jurisdiction? What problem is the Capitol Police attempting to address 
by expanding its jurisdiction?
    Response. In legally empowering sworn officers with increased 
authority, Congress would be protecting the individuals employed by the 
United States Capitol Police from certain personal liabilities if they 
should act in performance of their duties while in various areas of the 
District of Columbia, the State of Maryland, and the Commonwealth of 
Virginia. There would be less legal risk to Congress, Committees, the 
Capitol Police Board and the Department. Currently, unless on an 
assignment, (where authority is strictly limited to U.S. Code 
violations) Sworn employees have little more legal authority than any 
other citizen. Sworn officers have a moral obligation to stop and 
render help to individuals in need of immediate assistance, as well as, 
if they should find themselves in the middle of a life-threatening 
situation. As representatives of the Congress, sworn employees should 
be able to assist the public, if needed. With the increased role the 
Department has taken in protecting Congress and its Members, it is 
extremely important to legally empower United States Capitol Police 
officers with the requisite legal authority to carry out their mission 
on a daily basis. Sworn officers of this Department traverse many areas 
of the District of Columbia outside the current extended jurisdiction 
zone, the State of Maryland and the Commonwealth of Virginia all the 
time, on assignments related to the mission of protecting Congress, 
Committees, or individual Members. The current legal authority does not 
reflect the increased role that Department sworn employees play in the 
current world climate. We have obligations and responsibilities in both 
Maryland and Virginia.
    GAO Observation. On October 6, 1992, the Capitol Police were 
granted its request to extend its jurisdiction to the area immediately 
surrounding the Capitol Complex in an effort to provide needed 
liability protection for the Capitol Police officers operating in an 
official capacity. At the time of the request, there were media reports 
of increased crime in the District and several vicious attacks on 
Capitol Hill. The police officers complained that when they walked on 
the streets between the Capitol and other nearby facilities, they could 
not make arrests when they saw crimes occurring on those streets 
without fear of personal liability. At the time, there were also 
examples where arrests were being invalidated in Court when the officer 
did act because the Courts viewed the arrest as being outside his 
jurisdiction. The Capitol Police response seems to imply that the 
justification for expanding the jurisdiction is similar to its reason 
in 1992 and the need is magnified by the increased role the Capitol 
Police have in the current world climate. The response did not include 
specific examples of any legal obstacles currently experienced by the 
Capitol Police and any specific threats that exist now that did not 
exist in 1992, what the Capitol Police's role should be in addressing 
those threats, and what is the deficiency in the 1992 law in addressing 
those threats. Furthermore, it is not clear as to what obligations and 
responsibilities the Capitol Police have for geographic areas in nearby 
Maryland and Virginia.
    Question. Please explain how the boundaries were determined and the 
factors that led to the inclusion of Maryland and Virginia 
jurisdictions?
    Response. The boundaries were determined based on the jurisdictions 
in which Congress has facilities outside the Capitol grounds, such as 
Canine facility, AOC facility in Blue Plains, the Alternative Computer 
Facility in Prince William County, as well as facilities in which 
members visit and residences outside of the District of Columbia. It 
also includes jurisdictions in which Capitol Police may traverse 
frequently such as Andrews Air Force Base, Dulles International 
Airport, Reagan National Airport, Arlington Cemetery. The term environs 
mirrors current legislative authority for U.S. Park Police.
    GAO Observation. The boundaries for the proposed expanded authority 
were based on criteria of where U.S. Capitol Police traverse frequently 
in connection with their official duties, which would appear to be a 
reasonable approach. The reference to mirroring U.S. Park Police raises 
the issue of whether the U.S. Capitol Police and U.S. Park Police are 
similar enough in their mission, roles and responsibilities to use the 
U.S. Park Police authority as an appropriate guide for the U.S. Capitol 
Police. For example, the U.S. Park Police have primary responsibility 
for a wide range of geographic areas in the greater metropolitan 
Washington area, including the George Washington Parkway. The Capitol 
Police does not have primary responsibility for such a broad geographic 
area. As a result, the USCP should be more specific as to how the U.S. 
Capitol Police situation is similar to the U.S. Park Police to include 
similarities that exist in the need for extended authority in other 
jurisdictions, how it works, and the rationale behind it.
    Question. Why are the standard coordination efforts among law 
enforcement agencies insufficient to meet the needs of the Capitol 
Police and it therefore needs explicit arrest authority in 
jurisdictions arounds the D.C. area?
    Response. The coordination efforts among law enforcement agencies 
is strong and practical for most planned events. Emergency, life-
threatening situations have different requirements. Police officers 
often have to take immediate action in order to protect life and 
property, therefore, it is not sufficient to delay action for fear of 
civil liability when this authority would allow us to stop, detain, 
and/or arrest an individual committing a serious crime in order to 
protect life and property. Capitol Police officers must currently call 
the local or state law enforcement agency in emergencies. The public 
has an expectation for a police officer to take action to protect life 
and property. Calling for another law enforcement agent to arrive can 
delay the process and increase the risk of life or loss of property.
    GAO Observation. See observation for questions (1) and (8). To 
justify the extent to which this is a problem, the Capitol Police might 
have provided information on the extent to which their personnel have 
taken action and been at risk; taken action and had a civil suit filed; 
and not taken action or delayed action until local or state law 
enforcement agencies were notified and complaints were received from 
citizens.
    Question. What would Capitol Police officers be able to do with 
their new authority that they are currently unable to do? Should any 
limitations be placed on the use of this authority?
    Response. We would be able to have the legal authority to act, if 
necessary, in furtherance of the mission of the Capitol Police to 
facilitate Congress in carrying out its Constitutional responsibilities 
in this post 9-11 era. Capitol Police would have police authority to 
protect members of Congress, secure Congressionally owned, leased or 
occupied facilities, as well as protect life and property with legal 
authority while carrying out the day-to-day responsibilities. As was 
the case in 1993, when Congress created the Extended Jurisdictional 
Zone, the Department will utilize internal administrative controls to 
ensure that employees remain focused on the mission-based purpose of 
expanding legal authority. (Please refer to previously received 
documents that contain an explanatory chart and proposed General 
Order).
    GAO Observation. The Capitol Police's answer, in conjunction with 
the explanatory chart and proposed General Order cited, was responsive 
to the question.
    Question. Would the Capitol Police always have the increased 
policing authority or should it be for only emergency situations? 
Should there be a ``trigger'' mechanism to permit the use of this 
expanded policing authority?
    Response. The Capitol Police would have the legal authority to 
protect employees while conducting official duties in the expanded area 
in order to conduct daily assignments in carrying out the mission of 
the Department to support and facilitate Congress in carrying out its 
Constitutional responsibilities. Employees must have the ability to 
respond to perceived threats coming from outside the Capitol Grounds, 
while en route on official duties, or at a Congressional facility. For 
example, the Capitol Police should not have to wait to act on a 
suspected truck carrying explosives, it is more advantageous to stop 
the vehicle off Capitol Grounds prior to detonation, rather than wait 
for the vehicle to arrive on the Grounds, or to respond following 
detonation of any hazardous devices. Therefore, authority would be 
needed to act. Additionally, for example, while en route to a 
Congressional facility in Prince William County, Virginia, an employee 
observes a woman being beaten by a male on Interstate 66. Rather than 
simply notify the Virginia State Police, the employee would be able to 
stop, detain, and place in custody the perpetrator and call for medical 
attention for the victim. The employee would have the legal authority 
to take the male into custody under statutory authority. Under current 
law, the employee takes on the risk of civil liability and is acting as 
a citizen outside the scope of legal authority. Once in custody, the 
employee would notify the State Police and turn over custody.
    GAO Observation. Similar to the response to question 3, the Capitol 
Police response bases the need for the expanded authority on the need 
to respond and not be personally liable. The examples provided are 
illustrative of the type of situations where the Capitol Police 
theoretically would want to be able to respond to emergency, life-
threatening events. To help ensure that any new authority is fully 
understood and used appropriately, the Capitol Police might have 
expanded upon circumstances and criteria for triggering when and how 
its personnel are to exercise expanded policing authority. They should 
clearly state what authority they feel they need to effectively perform 
their role and mission in specific circumstances.
    Question. Has this proposal been vetted with other area law 
enforcement agencies and the political leadership in the affected 
jurisdictions? What process did you use to vet the proposal? What has 
been the reaction of other law enforcement agencies and the political 
leadership in the affected jurisdictions?
    Response. Chief Gainer spoke to the chief or superintendents of the 
agencies listed on the document provided during the week of June 9 in a 
package regarding expanded authority. The Department sent documents 
regarding the proposal to the affected political leadership, as well as 
several meetings that have been conducted.
    GAO Observation. The Capitol Police appear to have shared the 
proposal with area law enforcement agencies and political leadership; 
however, the extent to which the Capitol Police actually followed a 
systematic and documented process for vetting the proposal is not 
addressed. Importantly, the Capitol Police response does not summarize 
or detail the reactions of other law enforcement agencies and political 
leadership in the affected jurisdictions to the proposal.
    Question. Is the Capitol Police proposing/allowing similar 
authorities for area law enforcement organizations in the areas 
traditionally under the jurisdiction of the Capitol Police? Why or why 
not?
    Response. The Capitol Police is not proposing nor has Capitol 
Police received a request from other agencies for similar authority on 
Capitol Grounds. The Capitol Police is seeking to expand the authority 
of the Department to provide legal authority for employees when 
conducting their official duties.
    GAO Observation. While it might not be deemed necessary for 
Maryland or Virginia police officers to have reciprocal arrangements 
with the Capitol Police, it may make sense for MPDC to have a 
reciprocal agreement. In response to question 5, the Capitol Police 
cite the example that while en route to a Congressional facility in 
Prince William County, Virginia, an employee may observe a woman being 
beaten on Interstate 66, and not be in a position to take action. MPDC 
police officers could similarly see a life threatening or serious 
property offenses occurring on Capitol Grounds. The Capitol Police 
response does not take into consideration whether it would be 
appropriate to reciprocate the expanded jurisdiction to MPDC on the 
Capitol Grounds in life threatening or serious property offenses. The 
Capitol Police response explains that they do not seek to provide 
reciprocal arrangements for other area law enforcement.
    Question. Regarding the expanded jurisdiction within the District, 
has an attempt been made to enter into a cooperative agreement with the 
Metropolitan Police Department under DC Code Sec. 5-133.17 to provide 
the expanded jurisdiction you are requesting?
    Response. Chief Ramsey and the Deputy Mayor of Public Safety and 
Justice support the expanded jurisdiction within the District.
    GAO Observation. Section 133.17 of Title 5 of the DC Code provides 
authority for the Capitol Police to enter into a cooperative agreement 
with the Metropolitan Police Department to assist in carrying out crime 
prevention and law enforcement activities in the District, including 
the power to arrest in the District. The Capitol Police's response does 
not address whether the Capitol Police intends to have a formal 
agreement with the Metropolitan Police Department on the circumstances 
under which the Capitol Police will exercise any new expanded 
jurisdiction either unilaterally or in coordination with the 
Metropolitan Police. If there is to be such an agreement, the response 
does not provide any indication of the process or mechanism the Capitol 
Police expects to follow in satisfying that intent.
    Question. If the requested expansion were approved, what 
arrangements, if any, would need to occur with other law enforcement 
agencies in Maryland and Virginia jurisdictions?
    Response. Memorandum of Understandings were discussed with a number 
of chiefs and Chief Gainer anticipates executing them as appropriate, 
for clarification.
    GAO Observation. The Capitol Police response indicates that 
discussions have occurred with other police chiefs but does not address 
other officials--county attorneys, county board members, etc.--in 
extended jurisdictions/areas who also might need to be involved. 
Furthermore, the Capitol Police's response does not address what 
arrangements, if any, would be needed to train the Capitol Police on 
various state crimes.
    Question. The Capitol Police is preparing a comprehensive strategic 
plan at the Subcommittee's request. (a) Is this jurisdictional issue 
addressed in that plan? (b) How does the proposal for an expanded 
jurisdiction relate to the Capitol Police's overall vision and mission?
    Response. There are no staffing implications and budget 
implications are minimal and indirect.
    GAO Observation. The Capitol Police's response does not directly 
address how the request for expanded jurisdiction is consistent with 
Police's strategic plan, including its vision and mission, rather than 
the staffing and budget implications, which are covered in a separate 
question.
    Question. How would the Capitol Police operationalize its increased 
policing authority in the expanded jurisdiction? Does the Capitol 
Police envision an active or passive role in the expanded jurisdiction? 
Would the Capitol Police expand their routine patrol areas under the 
expanded jurisdiction? Under what circumstances would these patrols be 
carried out? Under what circumstances would arrests be made?
    Response. The Capitol Police envisions conducting official duties 
both passive and active in nature in support of the Department's 
mission in the expanded authority/jurisdiction areas. The expanded 
authority is not intended to authorize the rendering of routine law 
enforcement functions. Department employees will only conduct official 
duties in furtherance of the mission of the Department in the expanded 
jurisdictions. Arrests would be made in order to protect life and 
property.
    GAO Observation. The Capitol Police does not envision the proposed 
expanded authority to involve the Capitol Police rendering routine law 
enforcement functions. However, the Capitol Police response does not 
discuss more specific policies, procedures, and guidance to define 
circumstances under which their personnel should act and to establish 
the working relationship with local law enforcement.
    Question. As you know, the Subcommittee is carefully reviewing the 
Capitol Police's request for a very large increase in staffing. What 
are the staffing and budgetary implications, for the both the sworn and 
civilian personnel, of the expanded jurisdiction?
    Response. There are no staffing implications and budget 
implications are minimal.
    GAO Observation. The response appears to be consistent with the 
Capitol Police's response on how it plans to use the new authorities. 
However, as noted in our observation on the Capitol Police's response 
to question number 3, additional information from the Capitol Police on 
cases where in the past the Police have needed the authority and have 
not been able to use it, would be helpful to further assessing any 
budget and staff implications, as well as processes and procedures on 
how the expanded authority would work including training.
    Question. Where are the staffing implications reflected in the 
comprehensive staffing analysis prepared by the Capitol (Police) and 
provided to the Subcommittee?
    Response. the draft staffing analysis shared with the subcommittee 
plan does not reflect proposed expanded authority since there are no 
additional staff implications. This merely is a tool for our officers 
for the protection of the public and themselves.
    GAO Observation. The response appears to be consistent with the 
Capitol Police's response on how it plans to use the new authorities. 
However, as noted in our observation on the Capitol Police's response 
to question number 3, additional information from the Capitol Police on 
cases where in the past the Police have needed the authority and have 
not been able to use it, would be helpful to further assessing any 
budget and staff implications.
    Question. Would you agree that making arrests is generally an 
executive function? If so, how do you vest the Capitol Police, which is 
a legislative branch entity with the arrest authority to enforce any 
violation of federal or state law anywhere in the District and parts of 
Maryland and Virginia without raising a question under the doctrine of 
separation of powers?
    Response. Outside Capitol Grounds, arrests are made by Capitol 
Police personnel in furtherance of the mission of the Department in 
ensuring that Congress is able to carry out its Constitutional 
responsibilities.
    GAO Observation. Even if expanded jurisdiction furthers law 
enforcement generally, the Capitol Police response does not explain how 
and under what circumstances arrest authority for any federal or state 
law furthers the Capitol Police's mission in ensuring that Congress is 
able to carry out its constitutional authority. In this regard, like 
the response to question 4, the Capitol Police response provides no 
clear criteria for when the Capitol Police believe that it will be 
authorized to make arrests in the District, Maryland, and Virginia as a 
matter of law under its expanded jurisdiction proposal and how the 
expanded authority, as the Capitol Police defines it, directly relates 
to the activities of Congress.
    Question. Similarly, under the Appointments Clause of the 
Constitution, persons who perform a significant governmental duty 
exercised pursuant to a public law are officers of the U.S., and as 
such must be appointed pursuant to the Appointment Clause. The Capitol 
Police Board appoints the Chief of the Capitol Police. How does vesting 
general authority in members of the Capitol Police to enforce the law 
by making arrests for any violations of federal or district law within 
DC not violate the Appointments Clause because the Capitol Police are 
not subject to the control or supervision of an officer of the U.S.?
    Response. While admittedly, it is essential that significant 
constitutional issues such as those raised by the Appointments Clause 
which may require limitation on any additional grant of the Capitol 
Police policing authority must be thoughtfully reconciled, the 
Appointments Clause has not historically prevented the other branches 
of government from exercising some necessary authority, provided that 
such authority is essential to the safeguarding of coordinate branches 
of the government, including certain arrest authority of the Capitol 
Police, and has not been viewed as executing laws nor an improper 
``encroachment beyond the legislative sphere.''
    GAO Observation. The Capitol Police's response recognizes the 
constitutional concerns but did not contain factual support for its 
response and did not completely address the issue in question. We agree 
that this issue needs to be given more thought.
    Question. Article 1, Sec. 8, cl. 17 provides Congress with 
exclusive authority to legislate in all cases whatsoever over the 
District. How would you harmonize Article 1, Sec. 8, cl. 17 that 
empowers Congress to delegate authority to officials of the District to 
act on local matters with this expanded jurisdiction?
    Response. As stated, Article 1, Sec. 8, Clause 17 provides Congress 
with the ``exclusive authority to legislate in all areas whosoever over 
the District'' as the federal enclave for the seat of the federal 
government. Even the ``Home Rule Act'' provides the Congress with 
authority to reserve this prerogative. Thus, if the Congress determined 
that the expansion of the USCP authority within such federal enclave 
were necessary to protect the federal legislative function, it would 
appear that this constitutional provision would bolster the authority 
of Congress to legislate regarding such an issue.
    GAO Observation. The Capitol Police's response recognizes Congress' 
authority to legislate in this area.
    Question. Similarly, how would you harmonize Article 1, Sec. 8, cl. 
17 with the authority for the USCP to act on state matters with this 
expanded jurisdiction in the neighboring States?
    Response. Article 1, Sec. 8, Clause 17 deals essentially with the 
exclusivity of legislative authority over the seat of the government 
but does not preclude the prerogative of the Congress to legislate 
federally even through such legislation may have impact on the various 
states.
    GAO Observation. The Capitol Police's proposal would extend its 
jurisdiction outside the District of Columbia into various counties of 
both Maryland and Virginia. The Capitol Police's response acknowledges 
that Congress is not precluded from legislating over matters in the 
District but does not state the source of Congress's power to authorize 
its agent, the Capitol Police, to exercise police power in the states 
for state crimes and the limitations, if any, on that power.
    Question. What is the authority of federal law enforcement 
officials to enforce laws on purely state or local matters?
    Response. While this question requires more extensive research, 
certain federal law enforcement officials have authority to ``enforce 
laws on . . . state and local matters.'' (See, for example, authority 
of US Park Police; US Secret Service; US Marshall Service, Federal 
Bureau of Investigations, Drug Enforcement Administration, etc.)
    GAO Observation. We agree that more extensive research is needed 
and it should include the authority of federal law enforcement 
officials to enforce laws on purely state and local matters, 
particularly when the activity does not involve federal officials and 
is not occurring on federal property.
    Question. It is your understanding that a Capitol Police arrest for 
a state crime during an emergency situation when the Congress is 
temporarily relocated to Maryland or Virginia would federalize the 
state crime?
    Response. No, although it is recommended that consideration be 
given to the applicability and sufficiency of criminal sanctions for 
interference and/or disruption of congressional functions if relocated 
due to emergency situations.
    GAO Observation. We have no additional observations.
    Question. Who is going to prosecute violations in these expanded 
areas? Will the violations be prosecuted in federal or state courts?
    Response. Prosecutorial decisions will be made by prosecutors. If 
the violation is a federal crime, presumably, federal prosecutors will 
prosecute. If the violation is a state crime, presumably, state 
prosecutors will prosecute. It should be noted that it is anticipated 
that USCP, even in circumstances wherein they may be authorized to act, 
will have a limited role in prosecution, for instance, as a witness and 
would not be required to be in court for each court appearance unless 
specifically needed to testify at a particular hearing.
    GAO Observation. The Capitol Police's answer was responsive to the 
question.
    Question. With respect to the District, this expanded language 
makes the Capitol Police equivalent with the Metropolitan Police 
Department. As such, the Capitol Police would be responsible for 
policing the District. If not, explain who would retain primary 
responsibility for police services in these local jurisdictions?
    Response. The expanded authority language does not make the Capitol 
Police equivalent with the Metropolitan Police Department. The primary 
policing responsibility for the District of Columbia remains with the 
Metropolitan Police Department, except for the Capitol buildings and 
grounds. USCP personnel would take appropriate enforcement action to 
protect life or in cases of serious property offenses.
    GAO Observation. See our observation on the responses to questions 
8 and 16. We do note that in 1992 when the Capitol Police's 
jurisdiction was extended, the statute included clarifying language in 
providing that the authority granted ``does not affect the authority of 
the metropolitan police force of the District of Columbia with respect 
to the [expanded area].''

                       IMF DEMONSTRATION SUPPORT

    Mr. Kingston. Chief Gainer, another issue that concerns me 
is the loaning of our Capitol Hill police. I understand that 
when the IMF and anti-war demonstrations occurred, we had 200 
Capitol Police officers assisting. Is that right?
    Chief Gainer. Yes, sir, approximately.
    Mr. Kingston. We are hearing a steady drumbeat of we are 
understaffed, we are understaffed. However, this was a day when 
the United States Congress was in session and yet we had enough 
extra staff to send 200 to the Washington, D.C. Police 
Department?
    Chief Gainer. Yes, sir.
    Mr. Kingston. Well, why should the United States Capitol 
Police assist if the incident wasn't on Capitol Hill grounds?
    Chief Gainer. Well, for two reasons in no particular order. 
Number one, they needed the help. They needed the help, and I 
provided that. By the same token, when I was the Executive 
Assistant Chief of the Metropolitan Police Department, I 
brought eight platoons up to the Capitol to assist the Capitol 
Police. As recently as January, when we had the State of the 
Union Address, we brought in 200 local officers from both 
Maryland and Virginia in addition to several platoons from the 
Metropolitan Police Department. So the practice of us assisting 
the Metropolitan Police Department started years ago, and the 
number that I have introduced has only changed slightly from 
that.
    Again, the intelligence at that point was that the 
anarchists that we thought would attack IMF last time and did 
in the year 2001 and 2002 are just a stone's throw away from 
here. The anarchists began, the ones that we are concerned 
about, at Union Station, which is contiguous to our 
jurisdiction. We trade back and forth.
    Mr. Kingston. Is there an accounting procedure for payment 
of services?
    Chief Gainer. Actually, the Metropolitan Police Department 
through a grant of Congress does pay all of the officers who 
come there except us because we are under a grant of Congress. 
So but for the law that the Congress has established, they 
would reimburse us. But that having been said, Congress has 
also directed us, when I again was at MPD, to work closely with 
each other and we do that.
    I looked at the numbers, because I knew this was a concern 
based on our last testimony. Less than one-tenth of 1 percent 
of the hours that were available were spent assisting the 
District of Columbia, and I have not even added up how many 
times they were up here as recently as a month ago. They put 
their platoon of horses on our West Front to assist us with the 
protestors. So it really is a good working relationship to do 
that together, sir, and it was very good training for our 
officers, and it was very good for morale.
    Mr. Kingston. If you had expanded jurisdictional arrest 
power, wouldn't there be more pressure to borrow our officers 
for demonstrations or activities?
    Chief Gainer. That potential exists, and I think our 
request, even under how we operate today, has to be evaluated 
on what is going on. For instance, 2 or 3 months ago when there 
was a concern by the FBI that terrorists had brought and 
secreted explosive devices in the various rental storage units 
throughout the area, we assisted in the search. We are the 
department who has the most bomb dogs, so we did look 
internally and did assist the other departments in securing 
those storage units. I did not take away from the K-9 unit what 
was required here. We did spend extra money to do that because 
those people might have been off but, again, sir, I frankly 
think that is exactly what we should be doing. If I can help 
find terrorists who have allegedly secreted explosive devices 
in Arlington, I would rather do it there than on the front 
steps.
    Mr. Kingston. It would appear to me that a bomb dog or 
specialist unit would make more sense than 200 personnel. If 
they need that many, a better alternative would be to call the 
National Guard or another law enforcement entity.

                     OFFICE INSPECTIONS AND SURVEYS

    Mr. Price. Thank you, Mr. Chairman. We are glad to have you 
here. We appreciate your testimony.
    Let me ask you about your request for inspections and 
surveillance, which is $1.2 million, and then an additional 
$800,000 to perform security surveys of Members' and Senators' 
district and State offices.
    What is that request based on? Why do you think it is 
necessary? Is there any specific threat or assessment that it 
responds to?
    Chief Gainer. On various occasions over the years and in 
the year that I have been here, there have been requests for 
our security specialists, especially in the leadership area, to 
go and do a professional evaluation of the physical security of 
the office and the IT security of the office. It was our 
desire, frankly, to set up a unit that would afford this 
opportunity to more Members. So many of the Members of 
Congress, be it the House or Senate, are involved in some very, 
very high level activities from an intelligence point of view 
or financial point of view, and it seemed like we could be in 
the best position to take the skills that we have honed and 
share them with Members at their district or state offices.
    Specifically I will tell you, again during the past year, 
there was some specific intel on certain Members of Congress 
and threats to their office, we went to those offices and 
looked at it from a security point of view, worked with the 
local law enforcement officers to ensure that they could repel 
any attacks or minimize the risk.
    Mr. Price. So your activities in this area thus far have 
been mainly in response to Member requests?
    Chief Gainer. Member requests, senior Members of the House 
and Senate, and based on intelligence or threats. But again, 
sir, as I was analyzing it, and when you ask the people to 
think what the best prevention mode is, it seemed incongruous 
that we would do all we can to protect you on the days you are 
here and do nothing to at least advise and give you information 
on the days you are not here.
    Actually, I think our obligation and charter is to provide 
for your security, whether you are in the Washington,D.C. area 
or in your home State. Mostly, you work with the local officials in 
that regard, but most of the time the offices, especially of the 
Congress, are in locations and places where the local police department 
has neither the skills, the training, or the tools that we do.
    Mr. Price. Well, I expect there is not a member of this 
body that has not in the last couple of years taken a look at 
our district office situations and the kinds of vulnerabilities 
there may be there, whether it is opportunity to people who 
want to come in and occupy the office or other sorts of issues.
    To what extent are your resources to assess these 
situations unique, and what is going to be done about it once 
the assessment is over? What is going to be the net result that 
you would anticipate? I can imagine going out and pointing out 
certain vulnerabilities; I am not sure I see what your 
responsibility is beyond that.
    Chief Gainer. Well, from our perspective, from the police 
departments, there may be none, other than alerting you to what 
your vulnerabilities are, and then you would be responsible for 
your office. You would be in the best position to determine 
whether local law enforcement can assist you with that, or your 
contract with the person who is leasing you the facility can 
help you change locks or move the phone access box, or whether 
you go back into your own budget and say I think it is 
important enough to spend X amount of my own budget to correct 
this error. But sir, without that information, I think you 
could be at a disadvantage.
    A couple of times in the past several months, Members of 
Congress' offices were taken over by people who wanted to take 
over their office, and then the Member and the local police 
department is in a dilemma about that, but then the next 
question is, is there a simple way that we could have avoided 
someone compromising our office or getting into this space or 
that space? Mostly any person with any background in security 
could say, this little bit of tinkering will improve the safety 
of the people who are at your offices while you are here.
    Mr. Price. Well, I am one of those members, and I have to 
say that our cooperative relationship with the local police 
department was exemplary. It never occurred to me to bring in 
outsiders to help us deal with that. The people who occupied 
the office came in a very legitimate fashion. I cannot imagine 
closing that off. The problem is they decided not to leave, and 
then the question was, how do we handle that? We handled it, I 
believe, very patiently and in a noninflammatory way and we had 
ideal cooperation from local police.
    Now, my question is, is this kind of capacity greatly 
lacking, do you think, out in our local communities? Are you 
anticipating interjecting yourselves into these local 
situations in a much more systematic way, as opposed to the 
present practice of coming in at a Member's request?
    Chief Gainer. Let me answer that I have utter confidence in 
local law enforcement to respond to your situations. Again, a 
lot of times all we do is consult with them because they want 
some information on whether it is a Federal property or not a 
Federal property, when can we charge, when can we not. But what 
I am talking about is we could interject ourselves and go out 
and do a site survey, a security survey if the locals do not 
have the ability to do that. In a perfect world, I wish we had 
a unit large enough to do that systematically.
    Now again, when we first proposed this, when it was first 
brought to my attention it was huge because of the numbers of 
Members of Congress. So we scaled that back, but the preference 
would be to make available to those who need it, and I think 
more need it than don't, an ability to do some type of survey 
of their offices.

                         LIBRARY POLICE MERGER

    Mr. Price. All right. Let me ask you about the proposed 
merger with the Library of Congress police. The Librarian of 
Congress, in hearings before the Subcommittee a few weeks ago, 
did express some concerns about that. I understand that there 
are unique functions of the securities force at the Library, 
specific security needs. What is the Capitol Police's position 
on the idea of merging those forces?
    Chief Gainer. The direction of the Congress is for me to 
submit a plan by August 19th. We intend to do that. We have 
formed an executive working group that is chaired by myself and 
the Deputy Librarian. We have an executive committee that then 
oversees, I think it is seven working groups that are tackling 
the issues that would come up: operations, personnel, training, 
physical security, and legal. They are working through those 
issues. I have had very frank conversations with both the 
Librarian and the Deputy Librarian about what their desire is 
and what our desire is. And we have at least pledged in the 
plan that we will fully vet the yin and yang of everybody's 
position, so when Congress goes back and takes a look at it, 
they will have all the information they need to approve a 
merger or not.
    Mr. Price. So you are confident you are in a position to 
assess these specific, unique security needs that the Library 
has flagged?
    Chief Gainer. Yes, sir.

                          RECRUITMENT EFFORTS

    Mr. Price. Can you address briefly your recruitment 
efforts, how successful those have been, what sorts of plans 
you have? You are obviously here talking about a substantial 
increase in additional personnel. What can we learn about 
recruiting the kinds of people you need from the effort you 
have already undertaken.
    Chief Gainer. We are blessed in that regard and blessed, I 
think specifically, because it is an organization that first 
has a fundamentally good reputation, and second what Congress 
has done in the last couple of years, whether it is the 
handsome pay raise and cost of living increases or the 
educational benefits or the specialty pay incentives. All those 
have made this a place where people want to stay, or people 
want to come. Right now in this greater metropolitan area, we 
lead the agencies in starting salary. Right now we have 
inquiries of people who left to go to the TSA to come back.
    So at the moment we have no problem meeting our recruiting 
needs. The only thing we have to slow down for is the ability 
of FLETC to accommodate our training needs. They can handle 
about 360 individuals a year. The next request that I have for 
FY-04 would be 320 new people plus attrition. Right now 
attrition has dropped to about 6 percent down from double that 
of last year. So frankly, between attrition decreasing and the 
numbers that we would be--respectively asking Congress, I think 
we can do that.
    We are also exploring, based on the will of the Congress, 
our ability to bring people in via a lateral program, that is 
other officers from other Federal agencies or accredited 
agencies would go directly into our police department with 
training that is substantially abbreviated from that of FLETC. 
So we have unlimited opportunities. We are getting a good cadre 
of people, a diverse group and very highly educated.
    Mr. Price. Perhaps for the record, you could indicate what 
the numbers look like in terms of the positions you fill and 
the kind of applicants you have had so we have some sense of 
the kind of selectivity you have been able to exercise, and how 
attractive these positions have been.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7100C.009
    
                           TRAINING CAPACITY

    Mr. Price. If I might, Mr. Chairman? I would appreciate, 
Chief Gainer, your saying a little more about the crunch on 
your training capacity. Are you going to be able to continue 
getting those training slots and getting the quick turnaround 
that you need with these new personnel and with the pressures 
we know are coming from other agencies and departments?
    Chief Gainer. The ability of the Federal Law Enforcement 
Training Center at Glynco, Georgia, is really critical. Their 
ability to take all we can send is critical. And I can say the 
bad news is as recently as Friday, the Federal officials in 
Georgia notified us that they may move us from FLETC which was 
a surprise to me. We were just in the midst this week of 
sending down four members who volunteered to go down for a 3-
year stint, sold their homes, changing schools with their 
families, taking spouses out of work to go down there when they 
called Friday and said to keep them here.
    I called the senior officials in the FLETC organization and 
said it was unacceptable because they were just in my office 
and never told me. They advised me that there is a discussion 
of moving all basic law enforcement training out of FLETC in 
Georgia and either go to Artesia, New Mexico or possibly to 
train all our individuals at Cheltenham. I said much of that is 
speculative. What about the poor souls who just sold their 
houses and getting ready to move down there? I need to know 
whether they are going to be accepted and housed. They called 
back late Friday night, yes, send them. They said, it probably 
won't be much before about 6 months to a year before we would 
reach a decision.
    I give you this background because it is important about 
FLETC. To uproot families, sell homes, take kids out of school 
is not a deal I would want. They assured me it would probably 
be no worse, no shorter than a year and they would compensate 
our officers or their families for any discombobulation caused 
by reversal in their decision to have us train down there.
    All that having been said, I am operating under the 
premises they can train and will accept 360 of our officers, 
and I am confident, based on our hiring that I will be able to 
send 360 officers there.
    Mr. Price. Sounds like that may be a rather shaky premise, 
though.
    Chief Gainer. It could be if it changed. They assured me 
they would not do that without further consultation. If they 
decided to change, frankly I just don't see government moving 
in 6 months to say you are out of Glynco and you are some place 
else. But that is at least the information I had in a very 
circuitous manner.
    Mr. Kingston. Mr. Tiahrt.

                             STAFFING PLANS

    Mr. Tiahrt. Thank you, Mr. Chairman. Just looking at your 
projected head count, it looks like fiscal year 2001 that ended 
September 30th, 2001, right after the September 11th attacks, 
and then fiscal year 2003, your total head count went up by 
about 100. Then over the next 3 years, you plan on doubling 
that head count. Does part of this increase come by absorbing 
other officers from the Library of Congress? I am trying to 
understand why we are doubling the number of officers over the 
next 3 years.
    Chief Gainer. The potential merger of the Library of 
Congress has nothing to do with the numbers I am talking about. 
There is probably a little bit of confusion on the actual 
numbers because a budget was submitted pursuant to the 
procedures that said one set of numbers that was based on 
decisions 9 months or so ago. We then did a staffing plan that 
had another set of numbers, and again we continually share that 
with the committee. It was a draft proposal. I then sat down 
with the Board, rescrubbed our numbers and substantially 
changed those.
    So the bottom line, if the staffing plan and strategic plan 
passes, all the various committees musters, what I am actually 
asking for in the number of officers for fiscal year 2004 is 
320.
    Mr. Tiahrt. Is that an increase of 320 officers?
    Chief Gainer. Over today's number.
    Mr. Tiahrt. How many civilians does that include?
    Chief Gainer. The 2004 increase of civilians would be 233. 
Just to give a perspective, because you mentioned 2005, I would 
then be asking in our staffing plan not here, for another 
increase of 427 officers and only five civilians. I think it is 
important that the numbers don't stand alone, that we then talk 
about why I am asking for those numbers and what categories of 
events they would be involved in.
    Mr. Tiahrt. You apparently had a threat assessment and you 
looked at what you are going to be dealing with and what 
threats you are anticipating over the next few years. Is that 
the basis for your increase?
    Chief Gainer. Our staffing plan, the threat analysis, the 
studies that were done in 1998 as part of a best practices 
review. We are learning what is going on on a daily basis. If I 
could, as an example in response to Congressman Moran, the 
thought that you could have either one or two officers at a 
door, it would be a unique circumstance where one officer would 
ever work. Some doors two could. But in this day and age it 
needs to be three or four. Now, the reason for that is we have 
various electronic devices we are working there, none the least 
of which is the magnetometer, the itemizer, and then officers 
positioned to back them up.
    If I can just point out what we learned in the last 24 
hours from the bombings overseas. This is law enforcement 
information, from open sources in the news, that indicated the 
terrorists dismounted from their vehicles and attacked the 
entrance of these buildings, whether it was the guard tower or 
where the gates are.
    So to think that you can only have one officer or 
twoofficers there in the current milieu just puts those people at risk.
    We know that the terrorists, based on what is going on in 
Europe, open source information, are attacking multiple sites 
at multiple locations. The plan we have lays out what we think 
is the optimum staffing plan for the doors that the Congress 
wants open. Frankly, we could do with less numbers than we have 
today or tomorrow if we make decisions about how we want to 
balance security here and openness.
    Unlike other police departments, we have a bit of dilemma 
because we try to maintain a very open sieve but keep out the 
wrong people from coming through the door.
    Mr. Tiahrt. Was there a threat report written about this 
threat assessment that you used to come up with the head count, 
or did you have a group of people get together and come up with 
these figures and this projection?
    Chief Gainer. The study that was originally done prior to 
when I arrived, the formula that we are using to arrive at the 
particular numbers at the particular doors and the particular 
units I have all that written out plus the intelligence which 
could not be shared in this open forum but could be gleaned 
from many of the open things that we are reading about in the 
paper that I would be happy to share with you.

                   HAZARDOUS MATERIALS RESPONSE TEAM

    Mr. Tiahrt. You are naming several things that are included 
in FY 2004 as far as activities. One is the Hazardous Material 
Response Team. Is this a new development or is this something 
you have been doing in the past?
    Chief Gainer. The work that our Hazardous Material Response 
Team would do is based on prior approval from the Congress. The 
work has been done in the past by our Hazardous Device Section, 
our bomb unit. What the Hazardous Material Response Team would 
do is to provide civilian personnel, mostly with long 
firefighter backgrounds who are better trained, and better 
experienced, to deal with the chem bio area.
    So they would work in close conjunction with our current 
bomb unit but they would be a separate division. We have 
actually scaled back the number of people that was originally 
envisioned when I arrived here the number I think was in the 
neighborhood of 60-plus, seemed too big to me and we have 
scaled that back to 40-plus.

                               CVC IMPACT

    Mr. Tiahrt. How much of your headcount has changed because 
of what we are doing on the east side of the Capitol? When the 
Capitol Visitor Center opens, how does that impact the head 
count for the Capitol Police?
    Chief Gainer. Part of the manpower allowance is for the 
CVC, I will dig my numbers out, or my helpers will help me. But 
it is significant because we anticipate, based on my 
conversations, that the CVC will provide an unprecedented level 
of security. We anticipate no lessening of any of the doors or 
garages or openings. So there will be people added.

                             STAFFING NEEDS

    Mr. Tiahrt. With the Transportation Security Agency, they 
went out and hired a lot of people. Now they are contracting 
some because they found out they overprojected some of their 
risks and potential points of where they check people. Do you 
have any padding built into your projections where you may have 
overshot the mark?
    Chief Gainer. No. I mean, someone could go back through 
this and I can rescrub it, but I don't think that would be 
significant because it has less to do with the number of 
visitors, although the number of visitors is significant, 
unlike the airport issue about large, and small airports, and 
more to do with the amount of portals that are open and what 
equipment we have at each one of those portals. Regrettably, if 
you have a door at one of the office buildings, that is going 
to be open 12 hours a day, I cannot operate the machinery there 
without the right staffing whether it is going to be 10 people 
or 200 people entering.
    What you will see unfortunately is 300 people queued up 
because the spurts come and go. So the brief answer is no, I 
don't believe there is a lot of fat in here. Unless we make a 
decision as an institution to begin closing doors, closing 
garages and limiting how people come in and out and/or make a 
decision to employ more technology.
    Mr. Tiahrt. So, you are saying you picked out your portals, 
as you refer to them, did the head count for that portal and 
did that for each location where you have people coming and 
going?
    Chief Gainer. Our formula is multiple. Some doors will be 
for visitors only, some for staff and visitors, some for 
vendors; based on what we have determined, the number of people 
is based on that and the amount of equipment we have there.
    Mr. Tiahrt. It looks like we are not growing 
geographically, but we are growing the number of portals. The 
size seems kind of dramatic. Somebody coming from the outside 
might think the number of Capitol Police is excessive. Just 
look at the increase from 2002 to 2005. From the projections we 
have, it looks like you are going to double in size, but we are 
not doubling the number of portals.
    I guess you are saying you have more people at each 
location and you are picking up a few new things like this 
Hazardous Material Response Team, et cetera.
    Chief Gainer. Yes. But it is not just a few new 
responsibilities. For instance in the CVC, it would require 135 
more people to do the policing in the CVC over what we have 
now. That is because as I recall, there is going to be at least 
8 different ways visitors will traverse into the building when 
it is open. Again, if we are going to have the level of 
security that we think necessary, the itemizer, check IDs, the 
magnetometer, the x-ray machine, all that requires someone to 
operate it.
    Mr. Tiahrt. Thank you very much.

                       SIZE OF FORCE COMPARISONS

    Mr. Kingston. I wanted to follow up on Mr. Tiahrt's 
question, because I think we have a chart about some of these 
projections. The sworn officers are in dark blue and the 
civilians are in light blue. This shows the projected growth 
from fiscal year 2003 until fiscal year 2004 as well as fiscal 
year 2005. The third chart would be our final force. However, 
Fairfax County, Prince Georges County and Montgomery County all 
have less police officers than we would have on Capitol Hill. 
Where we get constant criticism as a body is for excesses in 
spending.
    This would appear to be more congressional backslapping--we 
are taking care of ourselves, however, we are not funding 
education and Social Security, we are not doing enough on 
prescription drugs, but look at what we are doing to protect 
ourselves.
    Mr. Moran may know the population of Fairfax Countyoffhand. 
What would it be--2 or 300,000?
    Mr. Moran. Fairfax is much larger. Fairfax is almost 1 
million people. Arlington County is about 180,000.
    Mr. Kingston. There are 1,800 officers for nearly a million 
people. What do we have?
    Chief Gainer. Our current strength is 1,437 sworn. It is a 
telling graph. It is a powerful graph, but I think it only 
tells a portion of the story. Because I think it is very 
difficult to compare our department with what the workload is 
of those jurisdictions. For instance, in knowing the District 
of Columbia, they do not have the intelligence operation that 
we have. They do not operate the number of K-9 officers that we 
have. They do not do the dignitary protection that we do. So it 
might be of greater value to compare to us other Federal law 
enforcement agencies.
    We have pieces of very similar things, we do some of the 
things that the uniform Secret Service does, we do some of the 
things that the CIA does only on a domestic basis, we do some 
of the things that the FBI does and do some of the things that 
the local law enforcement provide. If you cut out of our 
department many of the portal duties, and for instance then 
just look at our cars and equipment, the chart would be 
completely flipped. The other thing I want to mention about 
personnel that we didn't even talk about, last year our 
officers worked 560,000 hours in overtime. 560,000 hours. Plus 
they worked another 117,000 hours in compensatory time.
    If we just did the simple math on what we are asking these 
men and women to do, they are not home, they are not getting 
their training, they are not getting the other life beyond 
being here because of demands that we put on them.
    Mr. Chairman, I readily submit we could cut this Department 
in a third if we would all decide we don't want you to do A, B, 
C, D, E and F. But for us to deliver the security services that 
we have delivered over the years and we need to deliver, I am 
just submitting to you that if we keep our same work force we 
need to fund 677,000 hours in overtime, dramatically weaken 
training, and we are going to burn these kids out.
    Mr. Kingston. There is roughly a 75 percent increase by the 
end of fiscal year 2005.
    Chief Gainer. Over what, sir?
    Mr. Kingston. Over the current 1,780 positions. I think 
there are 1,667 in here currently.
    Chief Gainer. I will accept your math. Yes, Sir.
    Mr. Kingston. It is hard to sell that degree of an 
increase.
    Mr. Moran.
    Mr. Moran. I appreciate your line of questioning, Jack. I 
think there are a number of areas in which you could be getting 
into and once you get into those it is limited, unlimited 
resources that you would demand, intelligence. Expanding 
geographical jurisdiction. How much do we ask for overtime in 
this budget? $20 million for overtime. I think a lot of this is 
deliberate expansion of the scope of the responsibility. And I 
think it has gotten out of hand.
    And I would like to hear from Mr. Livingood. You know we 
have got a lot of folks throughout the Federal Government that 
are conscientious about knowing the restraints and parameters 
in which they are supposed to operate. And they try to conserve 
resources. I think it is an embarrassment if you have a million 
people in Fairfax County with all of the facilities that 
Fairfax County has to have a police force substantially smaller 
than the Capitol Police force--I won't make comparisons. But I 
think we will get ourselves into a position where we are not 
preparing for any constraints on the size.
    Again, it is not a matter of not compensating the 
personnel, but it is a matter of trying to keep your 
responsibilities within reasonable limitations knowing that 
there are all kinds of other law enforcement agencies around 
that we apparently prefer to duplicate their resources rather 
than to enable them to complement our efforts.
    Bill, did you want to say something about this? I have 
tremendous respect for your judgment, Bill.
    Mr. Livingood. Mr. Moran, I think that for to us provide 
the safety and security in today's climate, it is a little 
different than it was several years ago. We have asked for an 
increase in manpower, both uniform and civilian, to complete 
our responsibilities and make sure that our responsibilities 
for security are sufficient for not only Members, of course, 
but for the visiting public that come here every day. We have 
added, as you well know, barriers all around the streets here 
for the House perimeter. And that takes quite a bit of 
manpower, extra manpower. We have not expanded our jurisdiction 
per se, we have increased our portals, as the Chief calls it, 
or barricades or entrances here significantly. We have the CVC 
coming up.
    I will say that the Board sat down with the Chief a week 
ago and went through these figures again. There are some 
changes because the Chief looking at it with us and others felt 
that there were areas that could be cut both civilian and 
uniform and we are coming back with that figure.
    Mr. Moran. Well, any terrorist can commit any terrorist act 
that they choose to if they spent enough time planning it, 
regardless of all the preparations. This place looks like a 
fortress. It is not representative of the Capitol of the free 
world as far as I am concerned. We have got a proposal to 
create an army and with mounted police and expanded 
jurisdiction and additional areas each officer is assigned to. 
You have got officers training in Israel. You have got--you 
want to get involved in demonstrations that are clearly the 
D.C. Metropolitan Police's responsibility.
    I think this thing is getting out of hand. I am not 
comfortable with the direction with which it is going. If we go 
back to a lower level of alert status we are still going to 
have the 3,000 police officers, you are still going to be 
involved in intelligence, you are still going to have expand 
the responsibilities way beyond the jurisdiction of Capitol 
Hill. You are still going to have six new horses and stables 
and the black barriers and double the number of weapons. 
Because these things are never cut back once you establish 
them. We should not be trying to establish our own military 
force up here.
    We have got all kinds of law enforcement agencies. So I 
have no problems with what the Sergeant at Arms is doing, but I 
have a lot of problems with the proposal. But it is up to the 
chairman and we will see what they want to do. I think these 
proposals go beyond the scope of the Capitol Police's 
responsibility. We will see what the Congress wants. Maybe the 
Congress wants to spend unlimited resources and provide 
unlimited authority and jurisdiction. Because that is basically 
what you are asking for.
    Mr. Chairman, we are going to have a vote soon, we are 
going to have the GPO up here. Just to give you a sense that I 
am not in such a bad mood, the GPO is doing a great job. You 
know Bruce James is keeping his resources within reasonable 
limits. His excellent relationships between management and 
staff, all the major problems are being ironed out. And that is 
going well. I am glad you called this hearing. Because I think 
this Capitol Police situation needs a lot of scrutiny on the 
part of this committee.
    Mr. Kingston. Mr. Culberson.

                             OUTSIDE REVIEW

    Mr. Culberson. Thank you, Mr. Chairman. I will be very 
brief but I want to say for the record how much I appreciate 
the work that you do, in both the Chief and the Sergeant at 
Arms office. We deeply appreciate the concern and attention you 
pay to protecting this building. But I do have to say I agree 
with the others on their questions. I am just concerned about 
the size of the request. And wanted to ask the Chief and 
perhaps the Chairman may know, has a third party ever come in 
and reviewed your operations? Any other outside experts either 
from the FBI or Justice Department or any outside private 
consulting firm?
    Is there anyone other than this committee and you who can 
talk to us about the scope of your work, and what is a 
reasonable request for the future?
    Chief Gainer. Sure. The most recent outside agency to come 
in was from the Commission on Accreditation for Law Enforcement 
Agencies. We were the first Federal full service law 
enforcement agency to be accredited. We went through a long 
process of that. Four or five day inspection by three top law 
enforcement officials from outside the area, they pulled apart 
our policies procedures and practices. That full commission 
granted us accreditation. Plus we have had several others over 
the years. Before I came here, we had a private vendor come in, 
either KPMG or Booz Allen who did a complete study.
    Mr. Culberson. When was that, sir?
    Chief Gainer. Also, the Secret Service has come up and 
evaluated. Booz Allen was in 1998.
    Mr. Culberson. How was that done, was that done at your 
request or the Congress's request?
    Chief Gainer. It was done in 1998, and I am not sure who 
provoked it.
    Mr. Culberson. It seems to me, in light of new threats we 
face, it may not be bad to have an outside review done again. 
Or perhaps I could talk to you all off the record about how we 
would have a third party come in that everyone agrees on, an 
objective expert that can look at what you all are doing and 
give us another opinion. I think that would be helpful.
    Finally, Mr. Chairman, that may be also helpful perhaps if 
we could have a better measure of what we are being asked to 
fund for the Capitol Police if we could have a closed door or 
confidential briefing on what is the nature of the threat. Why 
do you feel you need this level of personnel and equipment? 
Maybe there are some things that you know that you can't 
discuss with us here in this open hearing, and might more 
appropriate in a closed hearing. I appreciate the work you all 
do.

                        HOUSE CHAMBER RENOVATION

    Finally, I have a question for the Architect of the 
Capitol. Thank you for the good work you do here, sir. Is there 
going to be an effort in the years ahead to redo the House 
Chamber to restore it to the way it appeared in the 19th 
century? Can you talk to me about that on the record?
    Mr. Hantman. I certainly can. We have had a study done of 
the life safety issues throughout the Capitol Building itself. 
The specific life safety issue that has not yet been addressed 
is the restoration of the Chamber to its original design in the 
1850s. It turns out, Congressman, that the design of the 
ceiling was actually a grid system, for which we have some old 
photos, that can very well accommodate sprinkler systems, 
lighting systems, and those kind of upgrades. Taking a look at 
what it would cost for us to update the current Chamber with 
modern systems today, which is a 1950's Chamber as you are well 
aware, versus doing that upgrade with the 1850s original design 
indicates that there is a fairly large amount of costs that we 
would have to spend in either case. So the premium of going to 
the restoration is something that is being discussed right now 
and, in fact, should be presented to the Leadership of the 
House shortly.
    Mr. Culberson. So the idea is being presented to the 
Leadership. There has been no formal discussion or timetable 
established?
    Mr. Hantman. That is correct.
    Mr. Culberson. I express my support for it. Thank you for 
the work that you are doing. Thank you, Mr. Chairman.

                            Closing Comments

    Mr. Kingston. Chief Gainer and the panelists, Mr. Pickle, 
thank you very much for your testimony. Chief Gainer, we are 
hardest on those we love. If we can't be frank with each other, 
we are not doing anybody any good. I think overall, everybody 
is certainly very supportive of the professionalism and the 
efficiency of your department, but we also have other concerns 
that we need to discuss. And I can see Mr. Pickle has been 
itching to make a point.
    Mr. Pickle. I have been itching. Pardon this expression, 
but I don't want the Chief to be the only one getting beat up 
here today. In a polite way I say that. Because the Board did 
review these numbers and we did scrub them. I am the new guy on 
the block. I have been here 3 months. But when you look at the 
three of us, we have got about 100 years plus of law 
enforcement. When Bill Livingood and I just saw those numbers, 
and like Mr. Moran said, they are outrageous when you first see 
them. But probably because we had more time to go through a 
briefing by the Chief and look at some of the vulnerabilities 
up here, we agreed to those numbers. We scrubbed them again 
last Thursday.
    We have scrubbed them actually twice, I believe. We are 
trying to knock them down. But the dilemma we have is we only 
respond to the demands of Congress. We do nothing unless you 
want it. Safety is paramount to this institution and for the 
public and the staff. We want to give you the best service we 
can. The Chief's numbers again are huge. Can we scrub them 
more? We certainly will. We will look at them and give you 
every classified or sensitive briefing we can. But before I 
stop, I want to say that the expanded jurisdiction we are 
talking about is something the Board also looked at and the 
Board supports that.
    None of the bodies mentioned in these increases are for 
expanded jurisdiction. Expanded jurisdiction is a tool, that is 
all it is. It can be managed or mismanaged. It is managed well 
now by agencies such as the Secret Service and Park Police. I 
think it can be managed well by this chief. But it is a tool. I 
know there is a lot of opposition. Ithas been brought up before 
over the years. But never in a time like we have here since 2001 where 
it is really important.
    It is important not only to protect millions of dollars in 
investments that you have outside the District, and that is 
what do you have outside the District, but it is also to 
protect the lives of these officers who may have to respond. It 
is also to give them some legal authority to do what they need 
to do. But again, it is only a tool. It doesn't mean they are 
going to go out here patrolling these suburbs. I know the Chief 
would not want that. We do welcome your support and we are 
willing to sit down and brief you as thoroughly as you want on 
this.
    Mr. Kingston. I appreciate your comments.
    Mr. Livingood.
    Mr. Livingood. I want to reiterate what Mr. Pickle said, 
that we did scrub these figures substantially. You have not 
seen those figures. And we will go back and look at them one 
more time. There is a big difference. There is a difference 
between what you see today and what we scrubbed or changed from 
what the Chief did. And I agree, that we have to be responsible 
and we intend to make sure we are responsible.

                            OFFICERS PRESENT

    Mr. Moran. Could I ask one other question that I am just 
curious about? Why is the hall full of Capitol Police and so 
many Capitol Police in this room? Is there a security threat in 
this room, Chief? Why are they here?
    Chief Gainer. They are here to support their Chief and 
their budget. They are concerned about all the issues they 
raised, and they want to be part of the outcome.
    Mr. Moran. Did you alert them?
    Chief Gainer. I asked the head of each of the unions to 
come. But to my delight, the union turned around and asked 
their own individuals. I am delighted to work with them, 
delighted to serve with them, and delighted to be in the room 
with them.
    Mr. Moran. I am happy that you are so delighted. But are 
they on regular pay?
    Chief Gainer. I would have to check to see what each of 
their statuses is.
    Mr. Moran. All of you are--have taken leave for this period 
of time that you are here?
    Chief Gainer. Well, they could be on a break, sir, they 
could be on a different shift, they could be on their lunch, 
they could be on compensatory time. I will be happy to take the 
names of everybody and check and see what the status is.
    Mr. Moran. I don't need the names. I am just curious that 
we have been talking about the fact that we are so 
understaffed, yet the hallway is full of police officers and 
they are here. I am happy to have police officers around, 
whenever they are needed and they feel that they are needed. I 
am curious as to why they are needed here to show political 
support for their chief.
    Chief Gainer. I don't think it is political. I think it is 
professional support.
    Mr. Moran. Professional support. I see.
    Mr. Kingston. Thank you very much.
    [Clerk's note.--The justification of the budget request 
submitted by the United States Capitol Police follows:]

[GRAPHIC] [TIFF OMITTED] T7100C.010

[GRAPHIC] [TIFF OMITTED] T7100C.011

[GRAPHIC] [TIFF OMITTED] T7100C.012

[GRAPHIC] [TIFF OMITTED] T7100C.013

[GRAPHIC] [TIFF OMITTED] T7100C.014

[GRAPHIC] [TIFF OMITTED] T7100C.015

[GRAPHIC] [TIFF OMITTED] T7100C.016

[GRAPHIC] [TIFF OMITTED] T7100C.017

[GRAPHIC] [TIFF OMITTED] T7100C.018

[GRAPHIC] [TIFF OMITTED] T7100C.019

[GRAPHIC] [TIFF OMITTED] T7100C.020

[GRAPHIC] [TIFF OMITTED] T7100C.021

[GRAPHIC] [TIFF OMITTED] T7100C.022

[GRAPHIC] [TIFF OMITTED] T7100C.023

[GRAPHIC] [TIFF OMITTED] T7100C.024

[GRAPHIC] [TIFF OMITTED] T7100C.025

[GRAPHIC] [TIFF OMITTED] T7100C.026

[GRAPHIC] [TIFF OMITTED] T7100C.027

                                           Tuesday, May 20, 2003.  

                       GOVERNMENT PRINTING OFFICE

                               WITNESSES

BRUCE R. JAMES, PUBLIC PRINTER
WILLIAM H. TURRI, DEPUTY PUBLIC PRINTER
FRANK A. PARTLOW, JR., CHIEF OF STAFF
JUDITH C. RUSSELL, SUPERINTENDENT OF DOCUMENTS

                            Opening Remarks

    Mr. Kingston. The budget request for 2004 totals $135.6 
million ($135,567,000). This is an increase of $16.5 million, 
or 13.9 percent over the fiscal year 2003 enacted level. There 
are three appropriation accounts involved, the Congressional 
Printing and Binding Appropriations at $91.1 million, the 
Superintendent of Documents Program at $34.5 million, and the 
Revolving Fund at $10 million. Mr. Moran, do you have a 
statement at this time?
    Mr. Moran. Thank you, Mr. Chairman. I think things are 
getting a lot better at GPO. We have had a lot of problems. We 
brought in somebody who wants to communicate. He is reaching 
out, he wants to talk. I haven't heard anyone who has the 
bottom line has been negative of the work that Mr. James is 
doing. So I am not going to have many questions. It is great to 
see real progress at GPO. Everybody may not be on board, but I 
think you are going in the right direction.
    Mr. Kingston. Mr. James, your prepared statement has been 
submitted to the Members of the Committee and will be placed in 
the record at this point. If you have a statement you wish to 
make, it will be in order at this time, and then we will move 
to our line of questions.
    [The prepared statement submitted by the Public Printer to 
the Committee follows:]

[GRAPHIC] [TIFF OMITTED] T7100C.028

[GRAPHIC] [TIFF OMITTED] T7100C.029

[GRAPHIC] [TIFF OMITTED] T7100C.030

[GRAPHIC] [TIFF OMITTED] T7100C.031

[GRAPHIC] [TIFF OMITTED] T7100C.032

[GRAPHIC] [TIFF OMITTED] T7100C.033

[GRAPHIC] [TIFF OMITTED] T7100C.034

[GRAPHIC] [TIFF OMITTED] T7100C.035

[GRAPHIC] [TIFF OMITTED] T7100C.036

[GRAPHIC] [TIFF OMITTED] T7100C.037

[GRAPHIC] [TIFF OMITTED] T7100C.038

[GRAPHIC] [TIFF OMITTED] T7100C.039

                    PUBLIC PRINTERS OPENING REMARKS

    Mr. James. Well, thank you, Mr. Chairman. We are very happy 
to be here today to present the GPO's budget request for fiscal 
year 2004. I also would like to compliment you and the Members 
of the Subcommittee on the excellent staff you have in Liz 
Dawson and Chuck Turner. We really look forward to working with 
them.
    With me at the table are Bill Turri, my deputy. Bill is, as 
you may know, former Chief Executive Officer of Case Hoyt 
Corporation in Rochester, New York. Case Hoyt is regarded as 
one of the best, if not the best printer in the United States. 
I think we are very fortunate to have a person like Mr. Turri 
willing to enter into government service.
    Also with me is Judy Russell who is the Superintendent of 
Documents. I think you can recognize Judy at the table. Judy is 
the 22nd Superintendent of Documents in the history of the 
country. She is the first woman to occupy that position. The 
reason she has that job is she is the most qualified person in 
the country to do it.
    And sitting at my immediate right is General Frank Partlow, 
who is my Chief of Staff, and I think many of you have had an 
opportunity to meet General Partlow, one of America's 
distinguished military people. And he came in last summer 
almost 4 months before I was confirmed by the Senate, came to 
Washington on his own on my behalf to begin to make the 
contacts and set things up. So we had a smooth transition after 
I took the oath of office and came to work.
    So as you've said, we have submitted our prepared remarks 
and I am not going to go back through that again. But I would 
like to make just a few remarks.
    Mr. Chairman, the GPO has a proud history, one built on a 
singular dedication to meeting the printing needs of the 
Federal Government and the information needs of the American 
people.
    But GPO's middle name tends to obscure our true mission, 
which is keeping America informed by distributing the official 
information products of the government. This is a mission that 
traces its origins to our Founding Fathers.
    Just as the GPO's middle name gets in the way of 
understanding our true mission, the nature of what we do--
printing--has been eclipsed by revolutionary changes in 
electronic information technologies, especially the Internet. 
While printing will not disappear in our lifetime, its lives in 
our lives and the lives of GPO's customers has forever been 
changed.
    We need to sort out what belongs in print and what best 
belongs in information retrieval systems. We need to allow the 
public to define their own information needs, then search 
against databases of information that we can construct to 
retrieve only what they need and only when they need it.
    Therein lies the challenge for the GPO. Like every other 
manufacturing business in America, GPO must reinvent itself if 
it will remain viable for the future.
    Our first step is to determine the facts surrounding GPO's 
strengths and weaknesses and the problems and opportunities 
facing us. We are already doing this by participating in the 
GAO study of Federal printing and information policy ordered by 
Congress. When this study is concluded later this year, we will 
have a factual basis on which to build a strategic plan.
    Once the plan is developed, our next task will be to gain 
support from Congress, the Administration, our customers, the 
library and information communities, the printing industry, and 
the labor unions and from all of those who have a stake in the 
future of Federal information policy. Then we must carry out 
the plan to transform the GPO into an information service 
equipped and staffed to meet the demands of the 21st century.
    Since I took office in early December, we have begun 
several initiatives to transform our operations. First, we have 
implemented a new organizational model for the GPO that will be 
more responsive to the needs of our customers and employees. We 
have established, as we have discussed, Mr. Chairman, a chief 
operating officer model in which my deputy serves as the day-
to-day operations chief of the GPO, allowing me to focus my 
attention, 80 percent of my time, on the future and where we 
are going with this organization with Federal information 
policy.
    We have taken a number of actions to improve the conditions 
for our employees. We have implemented the first new employee 
performance incentive program at GPO in more than a decade.
    We have expanded our workforce development budget by almost 
tenfold to ensure that no one is left behind as we transform 
our operations.
    We are expanding the use of digital communications 
internally to provide employees with the information they need 
to do their jobs effectively.
    We have begun recruitment efforts at America's colleges and 
universities to reverse the decades-long drain on GPO's talent.
    At the same time we have implemented a buyout program for 
up to 300 employees who are eligible to retire. This will 
generate cost savings and create opportunities to transition 
our workforce to new technologies and business practices.
    To tell everyone that we are leaving the past behind, we 
have redesigned the GPO logo to create a new image for the 21st 
century.
    I have been meeting with Members of Congress, key 
congressional staff, Federal agency heads, the library and 
information communities, the printing industry and others, to 
win support for GPO and to increase our business. And of 
course, much of that has been listening to those communities 
and what their requirements are going to be in the future.
    I have also been meeting with our top management from our 
suppliers, the printing companies, and the printing equipment 
manufacturers to explore the opportunities for GPO to assume a 
leadership position in technological innovation in the digital 
information era. When I was growing up in the printing business 
in the 1960s, the GPO enjoyed a worldwide reputation for 
technology. We were the technology leaders in the world. We 
have relinquished that position in recent years, and it is my 
intention to restore the GPO to a prominent position as one of 
the innovative companies in the world in using technology and 
introducing new technology to the information process.
    To deal with the printing issues raised last year by the 
Office of Management and Budget, I have kept up a dialogue with 
OMB officials about their concerns. Rather than blowing apart a 
system of printing set up generations ago, I asked OMB to walk 
forward with me to devise a new approach for Federal printing 
and information policy that fits the 21st century.
    I have challenged the library and government information 
communities to help us in developing a new depository library 
program model. More than 50 percent of the information coming 
into the program now is available only in electronic form, 
never reaching ink on paper.
    Last but not least, we have set up a contingency planning 
effort to prepare ourselves to protect our employees and carry 
out continuity of government operations in the event of an 
emergency. We are doing this in concert with similarplanning 
efforts ongoing in the House and Senate and in the Federal agencies and 
the District of Columbia.

                         TRANSFORMATION OF GPO

    Mr. Chairman, the transformation of the GPO is well 
underway. In order to make it happen, however, the GPO needs 
funding not only to continue product and service provision, but 
to begin making the investments we know are needed now to 
position us for the future. Our appropriations request for 
fiscal year 2004 is targeted at these two objectives; the 
maintenance of product and service quality and investment in 
necessary technological improvements and critical workforce 
restructuring.
    For the Congressional Printing and Binding Appropriation, 
we are requesting $91.1 million for fiscal year 2004, an 
increase of just 1.7 percent over the funding that was approved 
for fiscal year 2003. This allotment will cover all estimated 
Congressional printing requirements for fiscal year 2004 as 
detailed in our budget submission.
    For the Salaries and Expenses Appropriation of the 
Superintendent of Documents, we are requesting an increase of 3 
percent or $871,000 over the amount of approved for fiscal year 
2003. This is to cover mandatory pay and benefit increases as 
well as modest price level changes.
    To begin essential investment in GPO's future, we are 
requesting additional funds above the levels required for 
continuation of these services. These funds, amounting to 
slightly less than 2 percent of GPO's total annual budget, 
represent a new point of departure for GPO. We are asking for 
$4.1 million for the Salaries and Expenses Appropriation to 
replace obsolete technology used by the GPO Access system, 
which is now nearly a decade old. Congress and the public are 
increasingly dependent on this system and we need to upgrade it 
to provide the service they have come to expect.
    We are also asking for $10 million for our Revolving Fund 
to fund the extraordinary expense of our buyout program. This 
amount is needed in order to avoid spending funds we have 
earmarked for essential technology improvements.
    Along with our appropriations request, we are seeking two 
technical legislative changes to Title 44 of the U.S. Code. The 
first, is a change in the pay levels for GPO top executives 
that will improve our ability to attract and retrain leadership 
talent. The other is to give us the authority to accept 
contributions of equipment and services as well as transfer or 
donate surplus equipment to appropriate entities. We have 
briefed the Joint Committee on Printing on both of these 
changes and have their support for them.
    We are also requesting an increase for GPO's representation 
fund to help us promote the concept of changing the GPO. These 
changes will help us in transforming the GPO.
    Mr. Chairman, the GPO's appropriations request for fiscal 
year 2004 represents a new departure for this agency in 
preparing for the future. GPO desperately needs to move forward 
aggressively to seize opportunities that can be provided by 
marrying new technology with best practices found throughout 
the private sector. Our budget request will help us take these 
steps forward.
    I thank you for your support and your encouragement of 
change at the GPO, and I look forward to working with you and 
the Members of this Subcommittee in your consideration of our 
request. This concludes my remarks and I would be pleased to 
answer any questions you may have.
    [The bio of Bruce James, the Public Printer follows:]

    [GRAPHIC] [TIFF OMITTED] T7100C.040
    
                            BUY OUT REQUEST

    Mr. Kingston. Thank you very much, Mr. James. On this $10 
million for the buyout, if it is going to save $18 million, is 
that just government talk? Because if it is really going to 
save $18 million, why can't we just--you know, why don't you 
give us $8 million?
    Mr. James. Mr. Chairman, unfortunately I inherited an 
organization that is losing money. We have, for four 
consecutive years, lost cumulatively more than $40 million. 
This year I expect to lose about $18 million. I find that just 
intolerable. I have never run an organization in my life that 
loses money. I think that we can manage this to break even as 
we should and what we are doing with reducing employment by 
roughly 10 percent is to reduce $18 million of expense. So 
unfortunately, the $10 million investment will do nothing but 
break us even. And if you choose not to give us that $10 
million, basically I think what we are doing here is 
shortchanging the future of the GPO. I would like to have that 
money available to make the investments in the future that we 
are going to need to have.
    Mr. Kingston. What is your time frame for turning GPO 
around to profitability or breaking even?
    Mr. James. We will have a break-even operation next fiscal 
year. Actually, we will make a slight profit next fiscal year.
    Mr. Kingston. Will your budget request then diminish?
    Mr. James. Yes, exactly. We will not ask for that $10 
million again.
    Mr. Kingston. But overall, will your budget request be 
diminished?
    Mr. James. I think that is fair to say yes, it will be down 
overall. We have two areas that Congress funds. One is the 
appropriation for Congressional Printing and Binding. And that 
is pretty well determined by the requirements that you have. 
And so, depending on what your requirements are, that number 
will go up and down any given year.
    The second one is for the Superintendent of Documents 
operation. Frankly, unless we have a new business model, I 
can't tell you what is going to happen with that. My guess is 
that we will continue to make increasing investments in that 
area. We hope to make those in technology, we hope that they 
aren't continuing ongoing operating expenses associated with 
that technology, but time will tell. The other special 
appropriations here that we are asking for, the technology for 
the Superintendent of Documents Operation, we will get back to 
you from time to time talking about that area and working with 
your staff on setting appropriate investment levels for that.
    This $10 million that I am asking for the Revolving Fund is 
a one-time request. And unless we decide to do additional 
workforce restructuring, which would lower our costs even 
further, I would not expect to come back to you for that again.
    Mr. Kingston. The President has been insisting on no more 
than a 4 percent increase overall, with the military increase 
in the 7 percent range and then other departments lower. This 
certainly would fall in other departments and 13.9 percent is 
nearly 10 percent greater than 4 percent.
    Mr. James. Mr. Chairman, our largest appropriation is the 
Congressional Printing and Binding Appropriation. We have kept 
that under 2 percent. I think we can manage our business to 
achieve that. The other area that we are asking for, a 3 
percent increase for mandatories, is for the Salaries Expense 
appropriation of the Superintendent of Documents. We don't have 
much control over that. It is mostly salaries. Those salaries 
are set by law. So we are just paying the expenses that we are 
required to pay.
    Where we are asking for additional funds beyond that are 
the investments for the future. The one is the $10 million 
investment which will yield back to the government, $18 
million, and that is an ongoing $18 million every year. So I 
think that $10 million is a good investment to make. If I were 
in the private sector, I would make that type of investment.
    The other investment is for the distribution of online 
information, I think we waited too long to do that. I think we 
should have done it in prior years. We are the ones responsible 
for distributing electronic information. And we are operating a 
system that is put together with archaic technology that makes 
us very vulnerable. We should not permit that to continue. 
Frankly, I think this investment again makes a lot of sense. I 
think it will save us having to pay expenses for a failing 
system in the future.
    Mr. Kingston. How many years do you think the $18 million 
will last? I was under the impression that it was a lump sum 
total, but I am now hearing that it is $18 million per year.
    Mr. James. $18 million a year forever. We are talking about 
reducing 300 positions, reducing 300 positions right now at 
GPO. And we may, at some point, want to add some of those back 
in. But we would do it only under a new business model, and 
only knowing exactly why we are adding those slots. And we 
would only do it in conjunction with the JCP and your staff and 
the Senate staff' too.
    Mr. Kingston. Thank you. I have further questions regarding 
the GPO's transformation as well as the revolving fund and the 
requested $3 million for the electronic FDLP transition.
    [The questions and responses submitted for the record 
follow:]

    Question. The Public Printer has talked about the need to transform 
much of what GPO does to bring it into the 20th century. What are some 
of the specific changes that are needed? What are your thoughts 
concerning service to the Congress? Should the GPO continue in the role 
as the clearinghouse for all government printing? Do you have 
legislative proposals in mind? What are your estimates of the cost to 
bring GPO into the 20th century? Will there be savings to offset cost 
of the modernization program?
    Response. It is important to understand that for a long time, the 
GPO has been the center of government information activities, which 
mostly involved printed documents. About 10 years ago, digital 
documents began to replace printed documents. That transition moved 
slowly, especially in the government, but it soon became obvious that 
there were a number of problems that needed to be solved to allow the 
GPO to capitalize on this digital migration and make the necessary 
transition to the 21st Century.
    How do we do this? The actions we've undertaken to date, which are 
spelled out in detail in my prepared statement, are laying the 
groundwork for where we go from here. Government printing is declining, 
but the GPO's mission to make Government information available--
perpetually available--is not going away. Instead, the challenges are 
increasing. We need to effectively meet those challenges for both 
executive and congressional information products by increasing the 
GPO's use of technology, which is where we have fallen behind.
    A current study of Government printing and information issues, 
undertaken by the GAO at Congress' request, will provide us with the 
facts we need in order to effectively plan for the future. The study is 
slated for completion by December 2003. From there we will build our 
plan, which will include any necessary legislative changes. At this 
point, it is not possible to estimate the cost to transform the GPO, 
but I would emphasize that any funding we seek to implement our vision 
of the GPO's future should be regarded as an investment that will show 
very specific returns for Congress, Federal agencies, the public, and 
most importantly the taxpayers.
    Question. Managing the revolving fund so that it can at least break 
even has been a continuing challenge. Describe how the fund operates 
and what changes are needed so that you can operate in the black rather 
than in the red?
    Response. GPO's revolving fund is operated in accordance with 
Section 309 of Title 44 U.S.C. and is supposed to break even. The fund 
consists of all the assets, liabilities, and equity accumulated since 
its inception and is used to temporarily finance operations until 
reimbursement is made from annual appropriations to GPO and other 
Federal agencies.
    Agencies place printing orders with GPO and GPO either produces the 
job in its plant or procures the printing from private sector printing 
contractors. GPO pays for the printing and then, after all the costs 
are known, invoices the ordering agency for the cost, thereby 
reimbursing the revolving fund.
    GPO also operates a Sales Program where the public can purchase 
publications. Since GPO successfully implemented the GPO ACCESS system, 
fewer paper publications are being sold each year. The Sales Program 
has sustained the most significant operating shortfalls over the past 
several years.
    The revolving fund is required to recover all costs through rates 
and prices charged to customers. These costs include both the direct 
costs of providing printed products and services as well as all 
overhead costs. The revolving fund has failed to break even because 
workload and revenues have been declining rapidly. GPO has attempted to 
reduce cost principally by reducing the number of employees through 
normal attrition. Unfortunately, revenues have been declining faster 
than cost and this causes the fund to operate in the red. Federal 
printing has been declining for over a decade and the demand for ink on 
paper products is not going to increase.
    In order to operate the revolving fund on a break-even basis as 
intended by law, GPO must take immediate action to reduce costs by at 
least $18 million per year. The Joint Committee on Printing has 
approved GPO's request to offer incentive payments to 300 employees, 
about 10% of the existing workforce, in order to accelerate attrition 
before the beginning of Fiscal Year 2004. GPO has requested $10 million 
to fund these incentive payments. This program is expected to reduce 
operating costs by $18 million in FY 2004 and in the succeeding years. 
GPO plans to operate the revolving fund in the black next year.
    Longer term, GPO must be transformed from a printing plant to an 
electronic information operation and also must be relocated into a 
smaller, less-expensive building. GPO's mission is to disseminate 
Federal Government information. Until recently, GPO accomplished its 
mission by disseminating ink-on-paper products. However, the Internet 
has had a dramatic impact on the need for ink-on-paper products and the 
way information is processed and distributed. The transformation will 
reduce GPO's overhead support costs dramatically by changing the 
structure of the workforce and reducing the need for space, utilities, 
building maintenance and repair costs. Implementation of these changes 
will allow the revolving fund to be operated on a self-sustaining basis 
in the future.
    Question. You have requested 3 new FTE's for the Depository Library 
Distribution increased workload of managing the expanding FDLP 
electronic collections. In addition, you have requested $3 million 
dollars to continue the transition to a more electronic FDLP. What is 
the increased workload? If you are moving forward with an electronic 
FDLP would this not decrease FTE's rather than increase FTE's?
    Response. GPO has requested 3 additional FTE's and $3 million for 
equipment and software to improve current and future access to 
government publications in electronic format. These increases are 
directly related to the increased workload of managing an expanding 
collection of electronic files on GPO Access. GPO's commitment to 
permanent public access, the activities that together ensure that 
electronic resources are widely available both today and into the 
future, entails significant and ongoing expenditures. Included in this 
request are funds to migrate the data on GPO Access from a 
technologically obsolete software platform to a state-of-the-art 
package. Periodic data migration and conversion is an inherent 
characteristic of an electronic public information dissemination 
system.
    <bullet> Since 1994, GPO ACCESS retrievals have exceeded 1.6 
billion, the equivalent of 39.2 billion typewritten pages.
    <bullet> GPO ACCESS currently averages 32 million document 
retrievals per month.
    <bullet> GPO ACCESS contains over 148,000 titles and points to over 
93,000 others, for a total of 241,000 titles.
    <bullet> GPO ACCESS provides use of over 2,800 databases through 
more than 80 applications.
    GPO has requested $3 million for capital expenditures to handle the 
increased workload, to improve security, and to modernize obsolete 
systems components. $2.4 million of this is earmarked for upgrading and 
further securing GPO Access; $0.4 million is for depreciation of the 
Integrated Library System (ILS); and $0.2 million is for secure backups 
of the ILS data and public interface.
    GPO has requested 3 additional FTE's for the Federal Depository 
Library Program (FDLP) to assist in the management of the FDLP 
Electronic Collection. The additional FTE's are directly related to the 
increased workload of managing the expanding range of files available 
to the public through GPO Access.
    Approximate 59% of the nearly 35,000 new FDLP titles made available 
during FY 2002 were disseminated electronically. The 241,000 titles on, 
or accessible from, GPO Access make up the FDLP Electronic Collection, 
and size of the collection is constantly expanding, at the rate of 
1,500 titles or more per month. GPO guarantees the public will have 
permanent access to the online titles in the FDLP, in similar fashion 
to the assurance that physical products in the FDLP will be permanently 
accessible at the regional depository libraries. Permanent public 
access for online electronic files entails an organizational commitment 
to preserving and maintaining the data, beginning with capturing the 
non-GPO Access content, and including refreshing files to prevent 
deterioration of storage media, migrating files to newer file formats 
to prevent technological obsolescence, managing backup and mirror 
sites, and other ongoing activities.
    The 3 additional FTEs will be largely dedicated to the identifying, 
describing, and archiving online resources in the FDLP. This staffing 
increase is essential to carrying out the permanent public access 
responsibility inherent in the primarily electronic Federal Depository 
Library Program.

                              ROLE OF GPO

    Mr. Kingston. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. Mr. James, glad to 
welcome you and your colleagues. I have a couple of questions. 
One refers to an ongoing matter that has been raised in our 
hearings before, the other follows up on what you said today. 
As you know, there were a number of provisions added to 
appropriations measures last year clarifying the role of GPO as 
the sole source of government printing contracts. OMB appears 
to think otherwise and reportedly wants to decentralize 
printing. In recent months we haven't heard much about that 
discussion.
    Has that issue been resolved? Is there some sort of 
agreement with OMB? What is the current state of play?
    And let me just add, apropos of your 2004 request, should 
OMB prevail, or if the position we understand they have taken 
should prevail, how would that affect your bottom line or your 
2004 budget request?
    Mr. James. We have not resolved the issue with OMB. I have 
a meeting this afternoon with Director Daniels to make a 
proposal to him for the resolution. He and I met last week to 
discuss this.
    It is my intention to try and resolve this before he leaves 
government service. I would hate to have that issue hanging. I 
feel like I am not in control. I would like to be back in 
control of this situation so I could intelligently answer 
questions for you about our ongoing operations.
    I can tell you that the proposed regulations that OMB 
promulgated, now I guess close to a year ago would have two 
effects. One is, they would substantially raise the cost to the 
government for the procurement of printing because the printing 
procurement would be in the hands of people that are not 
experienced and we would not have the ability to get the 
advantage of the consolidated purchasing power of the 
Government Printing Office.
    It would also put us in the position of having to continue 
our operations as Congress has set these operations up. We 
would have to continue to pay and fund these operations, and we 
would have less revenue to pay for those operations. So we 
would find ourselves in a spiraling deficit situation.
    I am well aware of both of those issues.
    I also understand, I think, Director Daniels' interest in 
making certain that the government runs as efficiently as 
possible, and I do not consider him the enemy of the GPO; I 
consider him an ally in wanting to get the best value for the 
taxpayer, our taxpayers.
    I think that we can resolve this issue. I think I 
understand what his bottom line is, and I think he understands 
what my bottom line is; and it is my intention to try and 
resolve this. I would rather we resolve it than bring it to you 
for resolution. Let me put it that way.
    Mr. Price. So your budget request for 2004 assumes 
continuation of current policy?
    Mr. James. It does.
    Mr. Price. All right. Thank you.

                       TRANSITION TO ELECTRONICS

    Mr. Kingston. I have a further question on that topic as 
well, which I will submit for the record.
    [The question and response follows:]

    Question. There has been a lot of discussion about the 
executive branch contracting for its own printing rather than 
using the GPO, as required by law. Has the executive branch 
stopped using the GPO for contract printing? What are your 
views on this issue and what is needed to resolve it?
    Response. The executive branch has not stopped using the 
GPO for contract printing, but the amount of work the GPO is 
procuring is declining as the result of the increased use of 
electronic information technologies by agencies and due to a 
certain amount of dissatisfaction among some of our customers 
with the way the current system is operating. GPO has a 
tremendous amount of experience in buying printing and can get 
great prices for our customers, but in my mind there's great 
room for improvement in the way the government's information 
needs are met. What is needed is an innovative approach that 
relies on technology to create a print buying system that our 
customers will want to use, that propels the printing 
industry's federal document production practices forward, and 
that results in expanded public access to government 
information. I think such a system could be achieved within the 
framework of current law, and I've already been talking about 
it with OMB Director Mitch Daniels.
    [Note: Subsequently, on June 6, 2003, GPO and OMB announced 
an agreement on executive branch printing. The text of the 
announcement and the agreement, along with a news article from 
the Federal Page of the Washington Post for June 6, 2003, 
follow:]

[GRAPHIC] [TIFF OMITTED] T7100C.041

[GRAPHIC] [TIFF OMITTED] T7100C.042

[GRAPHIC] [TIFF OMITTED] T7100C.043

[GRAPHIC] [TIFF OMITTED] T7100C.044

                             GPO TRANSITION

    Mr. Kingston. Mr. Price.
    Mr. Price. You spoke orally and your written testimony 
elaborates this transition that GPO is going through in terms 
of what should be printed, what will continue to need to be 
available in printed form, and what documents might best belong 
solely in an information retrieval system. Of course, there are 
many stakeholders in that decision, and I think particularly of 
researchers, historians, future users, people trying to 
retrieve documents and information years, decades from now. It 
strikes me that their viewpoint and their stake in this might 
be somewhat different from the array of present users, 
contemporary users, that you might be thinking of.
    So my question is, how does that influence your thinking, 
and how does that influence the patterns of consultation that 
you have set up as you make these decisions?
    Mr. James. Well, you identified one of the most important 
areas that we are working on. When I talk about our middle name 
sometimes getting in our way at the Government Printing Office, 
sometimes when people think about us, they think what we do is 
sit over there and run a bunch of printing presses. And while 
the work, the printing that we do and the presses that we have 
are important, most of those presses are devoted to 
congressional printing.
    As you well know, we buy out almost all of the government's 
needs through the private sector, through more than 2,500 
printers that we contract with for those needs.
    Now, what we have here is an interesting mission. The core 
mission of the GPO is really making certain that government 
information, the documents of the United States Government, are 
available broadly throughout the United States to all of our 
citizens at no cost, and that the information, the documents of 
the United States Government are preserved forever, so that 
patrons of libraries throughout the country can go in and 
retrieve government documents, be they 50, 100, 150 years old.
    Originally, of course, those documents were all done in ink 
on paper through printing presses. About 30 years ago, we 
introduced microfiche into the process, so we began to furnish 
a number of government documents microfiched to libraries. They 
loved it. More efficient, much easier to store. Recently, 
within the last 10 years, we have introduced digital technology 
where we furnish CD-ROMs or DVDs containing information to 
libraries.
    The next generation is going to move to an electronic 
database where patrons of libraries will be able to sit down at 
terminals and access that information directly through GPO 
Access, which is our Web portal. We maintain more than 145,000 
titles on our own computer system, and host web sites for about 
20 agencies. We also use that same Web portal to point to an 
additional 92,000 titles which are linked to GPO Access, so 
that a citizen could come in through our Web portal and be 
directed to where the information is that they need.
    Librarians from the depository libraries deal frequently 
with this. I spoke with them in Reno about 3 weeks ago. There 
were 400 librarians there, including a special group of 15 who 
serve as council to me. While my council and I were meeting, 
there were many people in the audience that were watching this 
and listening to what we were talking about. And you can 
imagine, if you were a librarian who was taught how to deal 
with books, how to number books, how to file books, how to find 
information in books, you can imagine your feeling confronting 
tomorrow where those books, many of those books, will be going 
away.
    What I advised the librarians was that, this year, for the 
first time, more than 50 percent of the United States 
Government documents would be available to them only in digital 
form; we would not print them. Within 5 years, expect 95 
percent of the government's documents will be available only in 
digital form.
    Now, this raises some interesting issues and some problems 
that we need to work on; and, I think that what brought me out 
of retirement and brought me here is how interesting and 
difficult some of these challenges are. Many of you have heard 
me say that if I send you a paper document, or if you ordered 
from the Superintendent of Documents, a copy of a government 
publication, and you receive that in a government franked 
envelope, you have every reason to believe, when you open that 
envelope, that it is an authentic United States Government 
publication.
    On the other hand, if you enter our Web portal and you 
download that same publication to your computer, we have no way 
today of authenticating that as a genuine government 
publication. We have not established a chain of custody from 
the point of author or origin to the point that that document 
is downloaded.
    You also would have an opportunity to pass that from friend 
to friend to friend. Anybody in that process could add or 
subtract information; yet it would still contain a U.S. 
Government heading on it. So one of our large challenges over 
the next year or two, three at the most, is to find a way to 
authenticate United States Government information.
    There are a lot of people working on it. There are people 
within the government, there are people outside of the 
government. I have met with most of those inside of the 
government. We have met with a number of scientists around the 
country that are looking at these problems.
    As I talk to my folks about it, this is as much a business 
problem as it is a technology problem. We have todefine the 
business side of it first. Once we get that defined, then the 
technology, I believe, will fall in place. I am not sure we will have 
to invent anything; I think it is just how we organize it.
    At the other end of the scale, we know if we put ink on 
paper, that a document will probably be around for 300 or 400 
or 500 years, maybe forever if it is not exposed to direct 
sunlight. However, if I record something magnetically, we do 
not know how long that information will still be on that 
magnetic media. If we had done something 10 years ago, it would 
probably be gone today, because we didn't know what we didn't 
know.
    My concern is a lot of what we don't know today. I 
believe--I am charged by Congress with keeping the information 
in perpetuity, so I have to devise a scheme--and again, I think 
a lot of this has to do with business--I have to devise a 
scheme that will guarantee that the government has this 
information in perpetuity, and that gives people access to it, 
so that the scholars--which is where you started this 
question--so scholars and researchers throughout this country, 
and really throughout the world, will have easy and ready 
access to the information, the documents of the United States 
Government.
    Mr. Kingston.
    Mr. Culberson.

                             COST RECOVERY

    Mr. Culberson. Thank you, Mr. Chairman. I will be very 
brief.
    I just want to tell you how impressed I am with your work, 
Mr. James, and ask you if the Government Printing Office can 
collect some of the costs of its services from the general 
public through the sale of publications. Isn't that correct?
    Mr. James. That is correct.
    Mr. Culberson. So couldn't you regain some of that cost 
from the public, as well as the Congress?
    Mr. James. We have a system under which we establish our 
direct costs and then indirect costs associated with those 
publications, and it is a formula that we use that has been 
approved by Congress; and we are at the maximum on those 
numbers. It would not be fair to include this kind of $10 
million charge into those numbers.
    We are not including the $18 million we are losing every 
year in those charges. And I will tell you, as I have looked at 
these things as a practical matter, our prices are already very 
high. I think if we raise those prices--and it is a reasonable 
question--if we raise the prices much more than we are now, I 
think we will see further falling sales and it will actually be 
self-defeating. We will have less money.
    Mr. Culberson. Mr. Chairman, I think they have called a 
vote, so I will pass for now, thank you.

                       TRANSITION TO ELECTRONICS

    Mr. Kingston. Please finish what you were saying to Mr. 
Price.
    Mr. James. Okay.
    We talked about the fact that the Government Printing 
Office is in the process of finding a way to authenticate 
electronic government information, and we are in the process of 
finding a way to preserve that. And the third area that we are 
looking at, and remains in my mind very perplexing, is how do 
we deal with the issue of ``versions''. Again, if you think 
about getting a physical, tangible product, a paper product, it 
may say ``second printing'' or ``third printing''. At some 
point, it was frozen and that was the information at that time.
    Well, we now have agencies with the ability to update 
information every day in their database and keep it current, 
and that is one of the marvels and one of the marvelous things 
about an electronic database: You can keep it current. But as 
it changes from day to day to day to day, where do we draw the 
line? What do we save? It is unlikely we can save every day's 
work. It doesn't make any sense.
    So this business of having to define what constitutes a 
``version'', I think Congress is going to have to get involved 
in this. I think we are going to have to engage the library 
community in looking at this. It is a very interesting 
intellectual problem of what will a version be in the 21st 
century.
    Mr. Kingston. Thank you. I have additional questions on 
these topics that I submit to be answered for the record.
    [The questions and responses submitted follow:]

    Question. Controlling government documents and managing their 
distribution in this age of electronics presents different challenges 
than you have had to deal with in the past. What are your views on how 
we should manage and control the process of capturing government 
documents, printed and electronic, and making them available to the 
public?
    Response. When GPO Access began in 1994, most online publications 
were by-products of the printing process. Today, many publications are 
``born digital'' and appear online without any print counterpart. These 
publications must be identified, harvested, described, and preserved 
without any of the printing production cues of the pre-electronic era.
    Among the challenges of managing current and permanent access to 
Government publications in the electronic FDLP are:

                  DISCOVERY OF PUBLICATIONS ON THE WEB

    In the Web era, we lack the automatic and largely transparent 
system of riders added to print orders submitted to GPO that in turn 
provided publications to be distributed. GPO is developing systems and 
practices that enable us to effectively find publications that agencies 
are making available on the Web, and to efficiently gather the 
information about those publications that we need to drive our 
cataloging, dissemination and archiving functions. However, to solve 
the problem of electronic ``fugitive documents'' GPO needs agencies 
and/or agency contractors to furnish electronic files of their 
publications, whether or not there is a print counterpart. This will 
enable GPO to provide cataloging, dissemination and data preservation 
services for those digital objects.

                 ASSURING ONGOING INTEGRITY OF CONTENT

    In the print world, a user was assured that a publication from a 
Government agency, printed through GPO, had passed various approvals 
and was a fixed, official document. In the Web environment, 
publications are not consistently reviewed and are not fixed in time by 
the printing process. Yet users still need and expect the information 
to be official and to be able to access the various versions (editions) 
of the same publication over time. GPO is building mechanisms that 
assure that trust, both for publications stored on GPO servers and 
those that are on agency servers to which GPO provides persistent 
links. This effort is beginning with the implementation of PKI (Public 
Key Infrastructure) software to assign digital signatures, as well as 
through a partnership with Stanford University and others in the LOCKSS 
(Lots of Copies Keeps Stuff Safe) project.

                   ASSURING ONGOING ACCESS TO CONTENT

    GPO's current strategy for assuring access and integrity is to 
point to publications on the originating agency server for as long as 
possible, and to simultaneously capture and maintain a working archival 
copy that will be invoked only at the point that the publication is no 
longer available from the originating site. In order for this strategy 
to be successful, we are adapting our cataloging practices to respond 
to the changing demands of this less stable environment, and we are 
developing systems and processes for preserving data and reliability, 
consistently rendering it for the user.

    ENHANCING AND EXTENDING THE SERVICE ROLE OF DEPOSITORY LIBRARIES

    The link between Government information, technology, and users at 
all levels of skill, knowledge, and proficiency is the depository 
librarian. More than ever, users need assistance in making sense of the 
mass of Government information, and not all users are equally 
enfranchised in terms of technological savvy and understanding of the 
Government. GPO is developing additional training and support services 
that enhance the ability of depository librarians to carry out this 
function.

                          MIGRATION OF CONTENT

    Once published, a paper publication is relatively stable for many 
years. Electronic publications, however, must be periodically refreshed 
so that they remain compatible with new hardware, operating systems and 
other software. We are already facing the need to extract content from 
some of the early CD-ROM titles that were distributed to depository 
libraries, which can only be used on computers running the Windows 3.1 
operating system. Obviously, depository libraries cannot become museums 
for obsolete hardware and software. To ensure permanent public access, 
GPO must work with the publishing agencies to migrate the content of 
these CD-ROMs to new formats. Similarly, as we choose a new platform 
and new retrieval software for GPO Access, we must migrate the 
databases from their historical formats to more modern formats that 
take advantage of the new hardware and software capabilities.
    Question. What plans does the GPO have for upgrades to the ACCESS 
online services?
    Response.

                            WAIS REPLACEMENT

    GPO plans to procure a new platform to replace the WAIS search and 
retrieval software for GPO Access databases. Part of our plan for this 
initiative is a requirement to migrate all WAIS databases on GPO Access 
to the new platform simultaneously to ensure continuity throughout the 
site and ease of use for our customers.
    The customer functionality of the current WAIS search engine is 
extremely limited, and has fallen behind the current industry standards 
for search engines that include features such as natural language 
queries and other more sophisticated search capabilities. Additionally, 
from a technical standpoint, replacement of the WAIS search engine is 
necessary as GPO plans to take better advantage of documents tagged in 
XML format.
    GPO is currently investigating both short and long term solutions 
to replace WAIS.

                         XML DOCUMENT ENCODING

    Extensible Markup Language (XML) is a flexible text format derived 
from SGML that was originally created to meet the needs of large-scale 
electronic publishing. XML encodes and converts or translates content 
so it is independent of how it is displayed, thus offering universal 
compatibility. GPO plans to transition from encoding electronic files 
from GPO locator codes and SGML to XML. Encoding documents in XML will 
allow GPO to be flexible in its repurposing of content, not only for 
print and Web use, but also for cutting edge content delivery, such as 
PDF and WAP phones. In addition, XML text can be read by machines, 
which will promote efficient searching and data mining. GPO is working 
closely with the House and Senate in coordinating the development of 
XML-enabled documents for the Legislative Branch.

                    PUBLIC KEY INFRASTRUCTURE (PKI)

    GPO plans to implement Public Key Infrastructure (PKI) technology 
that will include the use of digital signatures for Congressional and 
other information made available through GPO Access. This will help 
ensure the protection of data against unauthorized modification or 
substitution to information. It will also enable GPO customers to 
verify the authenticity and integrity of the information they are using 
from GPO Access. Customers with a free software reader will be able to 
confirm that information was approved for submission to GPO by the 
appropriate Federal agency and that it has not been altered since it 
was signed.

                            NEW APPLICATIONS

    GPO is working towards adding new applications to its collection of 
knowledge. One example is a Statutes At Large application, which will 
further enhance GPO Access users' ability to track a bill throughout 
the legislative process.
    GPO is working with the Office of the Federal Register (OFR), 
National Archives and Records Administration (NARA) to provide an 
electronic Code of Federal Regulations Application (e-CFR), that will 
be updated daily, as opposed to the current annually updated Code of 
Federal Regulations application, that mirrors the printed products. The 
e-CFR will consist of two linked databases: the ``current Code'' and 
``amendment files.'' The current Code database will be updated 
according to the effective dates of amendments published in the Federal 
Register. As amendments become effective, the changes will be 
integrated into the current Code database to display the full text of 
the currently updated CFR. For future-effective amendments, hypertext 
links will be inserted into the affected sections or parts of the 
current Code to take users to the pertinent amendment files. Currently, 
a beta test site of the e-CFR is available via GPO Access.

          IMPROVED FUNCTIONALITY FOR EXISTING GPO ACCESS SITE

    GPO Access was re-launched in April 2003 with a consistent 
interface design and under a new URL <http://www.gpoaccess.gov>. The 
goal of the redesign is to make Federal information more accessible to 
users unfamiliar with the Federal Government. To this end, GPO is 
working toward re-examining existing databases to improve functionality 
and understanding. This includes improved functionality of databases, 
interlinking publication references within documents, such as the 
History of Bills and the Congressional Record, and consolidating all 
GPO Access resources under a single domain and interface.

                            ONLINE BOOKSTORE

    Over the past several years, GPO staff made a number of 
enhancements to the U.S. Government Online Bookstore to improve the 
customer experience in regard to searching and ordering Federal 
Government publications. In order to move forward more quickly with the 
``next generation'' of services that customers are expecting from the 
online bookstore, GPO recently placed a Request for Information (RFI) 
in FedBizOps. The purpose is to procure the services of a consultant 
that can identify an e-commerce solution and make a recommendation on 
how GPO should proceed with a commercial e-commerce product solution. 
This includes, among other items, reviewing the capabilities currently 
in use for the front-end interface and back-end legacy systems for the 
online bookstore, correlating GPO's needs with commercially available 
e-commerce software, and preparing a detailed report recommending a 
complete commercial off the shelf (COTS) e-commerce solution. The 
consultant GPO ultimately selects for this service will be expected to 
complete all of our requirements in a 60-day period. This will enable 
us to move forward more quickly and efficiently to make a number of 
enhancements that are required for the online bookstore to better serve 
our customers.

                              BEN'S GUIDE

    When Ben's Guide was released in December 1999, the site was 
intended for a target audience of students ranging from kindergarten 
through twelfth grade. As time passed and word of Ben's Guide spread, 
it became evident that adults and students alike were utilizing the 
site. The present version of the site does not adequately address its 
current varied audience, and therefore, GPO is moving toward a complete 
redesign of Ben's Guide that implements new technologies designed not 
only to educate, but also to engage the user. In so doing, Ben's Guide 
to U.S. Government for Kids will become Ben's Guide to U.S. Government 
and a site constructed by comprehension, not grade level, will be 
introduced.

                           ARCHIVE DOCUMENTS

    Mr. Kingston. Mr. Culberson.
    Mr. Culberson. No further questions. Thank you, Mr. 
Chairman.
    Mr. Kingston. Something that has occurred to me is that 
most Members of Congress have been asked by a local university 
to archive their documents, and consequently, we are all 
feeling this is our shot at immortality.
    However, as we gather our own archives together, we have a 
number of videotapes of great speeches that even our children 
and family will not listen to, but we are sure some Political 
Science 101 kid will watch. Videotape deteriorates, correct?
    Mr. James. Yes, sir.
    Mr. Kingston. What is the best method of preservation from 
videotape?
    Mr. James. Well, as I sit here today, I cannot give you any 
recommendations on behalf of the Government Printing Office. I 
think we have to get to the point that I can give you solid 
recommendations.
    There are certainly techniques and technologies that are 
employed today to transfer things from film to videotape to 
digital magnetic storage devices. The problems associated with 
that are very similar to what we have with storing typed 
information, typed characters, the same nature of problems; and 
we are just going to have to work out a solution to the whole 
thing.
    Mr. Kingston. We do not want to give you mission expansion.
    However, if you wrote a letter to Members of Congress, what 
would your method of archiving congressional records be?
    It is possible that we the Members are storing information 
inefficiently and incorrectly.
    Mr. James. I was just thinking, it sounds like a marketing 
idea for us. I think it is a very interesting question.
    Let me look into that, and I will respond back to you then, 
Mr. Chairman. It sounds quite interesting.
    Mr. Kingston. The documents could be relevant to somebody, 
and the better job we do of collecting them and organizing 
them, the easier it would be for everybody.
    Mr. James. We are getting ready, as you know, to produce 
the next edition of the Congressional Biographical Directory; 
and it goes back to the very first Member of Congress all the 
way through the current membership of Congress, and we have 
been doing the same thing for 100 years. It looks very much the 
same.
    I think what you are talking about here is, how do we take 
advantage of new technology to really expand that information 
so that not just scholars but the average citizen would have 
access to the speeches and the histories of Members of 
Congress.
    I think that is a wonderful question. I will look into 
that, and I will get back to you and discuss that further with 
you.
    [The submitted response follows:]

                    Archiving Congressional Records

    GPO is participating with other entities in the Legislative Branch 
to implement and extend capabilities to support video, video archiving, 
and video searching of archived material. The Library of Congress along 
with the House has taken a number of steps to demonstrate options in 
the retention and retrivel of proceedings. Although Congress has not 
yet determined officially how this material will be made available to 
the Congress and externally to the public, GPO stands ready to assist 
any such effort through the provision of public access and permanent 
storage.
    GPO can also support the conversion of other materials to 
electronic formats. Member offices, as one example, have material that 
may come from a variety of sources, including physical papers, Web 
sites, video tapes and other materials that document the 
accomplishments and activities of the Member during his or her term in 
office. As the Chairman noted, increasingly it is desirable that these 
materials be converted into a uniform electronic archive, which can be 
provided to the Member and/or retained for permanent public access.
    GPO can develop a specific program to support Members. As part of 
this effort, cost recovery and associated issues will need to be 
addressed in view of GPO's current statutory authority.

                         WASTE FRAUD AND ABUSE

    Mr. Kingston. Okay. Thank you.
    Could you submit a statement concerning waste, fraud, and 
abuse for the record?
    Mr. James. I would be pleased to, Mr. Chairman.

              GPO Actions To Deter Fraud, Waste, and Abuse

    GPO has a comprehensive approach to deter fraud, waste, and abuse 
designed to protect the taxpayers' funds and to improve the efficiency 
and effectiveness of operations. Key aspects of GPO's control structure 
are the conduct of vulnerability assessments, the annual financial 
audit, and audits and investigations conducted by the GPO Office of 
Inspector General (OIG). GPO management conducts annual vulnerability 
assessments and internal control reviews. These reviews help to insure 
that an effective internal control structure is established and 
maintained by GPO managers for all programs, functions, and activities. 
The Inspector General (IG) is responsible for staying abreast on the 
progress of implementation by management of the annual assessments and 
control reviews, examining the completeness of the assessments, and 
consolidating the review results in an annual letter of compliance to 
the Public Printer.
    GPO's annual financial statement audit process provides the overall 
organizational discipline and the results of the audit provide the 
overall assurance that the operational systems in place are adequate to 
prevent material fraud. Every employee is charged with the 
responsibility, and is encouraged, to report suspected fraud, waste, 
and abuse to management or directly to the OIG. Our internal control 
program is designed to identify these same issues at the institutional 
and systemic levels. Additionally, the OIG independently initiates as 
many efforts as possible within the limits of resources to recommend 
improvements and corrective actions to further eliminate the 
opportunity for fraud, waste, and abuse within GPO and fully prosecute 
any incident of waste, fraud, and abuse.
    GPO received an ``unqualified opinion'' on its financial statements 
for FY 2002, following a comprehensive, independent audit of its 
financial operations by KPMG LLP. This is the highest level of 
assurance that an audit firm can give on an organization's financial 
statements. FY 2002 was the sixth consecutive year that we have 
received such an opinion since Congress enacted an annual audit 
requirement for GPO in 1996. As part of their independent audit, KPMG 
LLP found two reportable conditions related to internal control. The 
first is related to year-end publications for sale inventory, which 
included a significant number of publications that are considered 
obsolete or slow moving, as defined by GPO's policies. The second is 
related to strengthening information technology general and application 
controls. GPO is taking actions to improve these areas and resolve 
these findings.
    GPO's OIG was created by the Government Printing Office Inspector 
General Act of 1988, Title II of Public Law 100-54 (October 18, 1988). 
Public Law 104-316, the General Accounting Office Act of 1996, provides 
that the GPO Inspector General conducts audits under the direction of 
the Joint Committee on Printing (JCP), and conducts annual audits of 
the GPO financial statements when requested by the JCP.
    Marc A. Nichols was appointed IG of the GPO on March 17, 2003, and 
brings a new vision to the OIG, improving the organizational structure, 
information technology, and the relationship with divisions within the 
agency. The IG is responsible for conducting and supervising audits, 
investigations, and inspections relating to GPO, recommending policies 
to promote economy, efficiency, and effectiveness in GPO operations. 
The OIG is being restructured to accomplish its mission.
    The OIG Office of Investigations (OI) conducts and coordinates 
investigations relating to employee misconduct and monetary or material 
losses occurring in GPO programs and operations. These investigations 
may include contractors, program participants, or GPO officials and 
other employees. Special Agents in the Office of Investigations are 
also designated as special police officers pursuant to 44 U.S.C. 317, 
and have full law enforcement authority on premises occupied or under 
the control of GPO and adjacent areas.
    The OI continues an aggressive effort to detect, prevent, and 
investigate the loss of Government assets. The OI reviews Federal and 
GPO programs susceptible to fraud, waste and abuse in coordination with 
the Office of Audits. In addition, the OI seeks to recover monetary 
funds and investigative costs payable directly to the GPO as part of 
criminal and civil adjudications, or through administratively 
negotiated settlements.
    The OIG Office of Audits conducts independent and objective audits 
relating to GPO, as required by the Government Printing Office 
Inspector General Act of 1988; provides leadership and coordination, 
and recommends policies to promote the economy, efficiency, and 
effectiveness of GPO's programs, operations, and activities; and keeps 
the Public Printer and Congress fully and currently informed about 
problems and deficiencies relating to the administration and operations 
of the GPO.
    The OIG Office of Inspections and Evaluations provides the IG with 
an alternate mechanism to traditional audit and investigative 
disciplines to assess GPO programs and activities. Additionally, the 
office assists the IG in responding to Congressional and management 
requests for assistance. The work of the office is characterized by 
rapid turnaround on reviews, which are normally limited to a single 
issue.

                                Closing

    Mr. Kingston. I have a few more questions for the record. 
We appreciate you coming here today, and wish you all the 
success with your transformation of the GPO from a nineteenth 
century printing factory to a twenty-first century operation 
that will meet the needs of the Congress, Federal agencies, and 
the American public.
    [The questions and responses submitted follow:]

                       Government Printing Office

                        QUESTIONS FOR THE RECORD

    Question. The General Accounting Office has recently 
undertaken a General Management Review of the Government 
Printing Office. What is the status of the review? Have any 
significant issues come to light so far? If so, how do you plan 
to deal with them?
    Response. The GAO has begun a General Management Review of 
the Government Printing Office to identify improvements to 
GPO's management infrastructure to help GPO effectively respond 
to its current and emerging challenges, including ensuring that 
it has the management capabilities needed to successfully 
transform itself in terms of what it does, how it does it. The 
first deliverable is anticipated in September 2003, which will 
include a briefing/report on the current status of GPO's human 
capital management. No significant issues have come to light so 
far.
    Question. There has been a question raised about the 
possibility of opening a GPO bookstore within the new Capitol 
Visitor Center. What are your views on this issue? Would this 
bookstore be an increase to your sales program or would it just 
divert customers from North Capitol Street to the Capitol 
Visitor Center?
    Response. Today, most people prefer to access Government 
information on the Internet. Still, there is a role and a place 
for making government documents directly available for sale, 
and the Capitol Visitor Center is a perfect case in point. 
Providing the ability to purchase copies of the pocket-sized 
Constitution, the History of the Capitol, the Congressional 
Record, and other documents and products by and about the 
Congress would be a real service to the public that would be 
used and appreciated.
    We don't think a large physical area would be required for 
this, just enough space to offer visitors to the Capitol a 
place to obtain their own copies of publications directly 
relevant to their visit. With the cost saving actions we have 
underway for the sales program, an outlet in the Visitor Center 
would not increase the burden on the program. We plan a 
significant reconfiguration of our current bookstore space on 
North Capitol Street, and we do not believe an outlet in the 
Visitor Center would duplicate or conflict with our plans.
    Question. The Office of the Superintendent of Documents by-law 
distributes to other government agencies and to Members of Congress 
certain publications. For the record, prepare a list of each 
publication that is distributed, to whom they are distributed, and what 
is the public law reference that requires the distribution. Also, what 
is the estimated annual cost of this distribution program?
    Response. The Documents Bylaw Distribution Program consists of 
storage and distribution of publication and subscription titles in 
support of various Federal agencies and the Congress. This program is 
authorized in part by Title 44, of the United States Code, and in part 
under the enabling legislation of the agencies whose publications are 
distributed. By law distributions are made under specific provisions of 
law, which require GPO to make distribution free of charge to the 
recipient and the publishing agency. Costs associated with the storage, 
handling, and distribution of bylaw publications are funded through the 
Salaries and Expenses Appropriation. Printing and binding costs for 
copies distributed are charged against the appropriations of the 
issuing components of the Government. In fiscal year 2004, the cost for 
the By-law Distribution Program is estimated to be $221,000, primarily 
for distribution of the Congressional Record.
        By-law distribution activity          FY 2002 copies distributed
Congressional Record (Title 44, Ch. 7, Sec 906)...............   912,502
Congressional Record (Microfiche).............................    27,308
Presidential Documents (Title 44, Ch. 17, Sec 1701)...........   108,252
Congressional List (USDA) (Title 44, Ch. 17)..................    20,106
Legations (State Department) (Title 44, Ch. 17, Sec. 1717)....    16,500
File Copies (All Agencies) Title 44, Ch. 17, Sec. 1713, 1714, 
    1718......................................................       735
Official Report of the Supreme Court..........................       414
Monthly Catalog (Title 44, Ch. 17, Sec. 1711).................       288
U.S. Reports..................................................       155
Congressional Serial Set Catalog (Title 44, Ch. 17, Sec 1710).        19

    Clerks's note.--The budget justification of the Government 
Printing Office submitted to the Committee follows:]

[GRAPHIC] [TIFF OMITTED] T7100C.045

[GRAPHIC] [TIFF OMITTED] T7100C.046

[GRAPHIC] [TIFF OMITTED] T7100C.047

[GRAPHIC] [TIFF OMITTED] T7100C.048

[GRAPHIC] [TIFF OMITTED] T7100C.049

[GRAPHIC] [TIFF OMITTED] T7100C.050

[GRAPHIC] [TIFF OMITTED] T7100C.051

[GRAPHIC] [TIFF OMITTED] T7100C.052

[GRAPHIC] [TIFF OMITTED] T7100C.053

[GRAPHIC] [TIFF OMITTED] T7100C.054

[GRAPHIC] [TIFF OMITTED] T7100C.055

[GRAPHIC] [TIFF OMITTED] T7100C.056

[GRAPHIC] [TIFF OMITTED] T7100C.057

[GRAPHIC] [TIFF OMITTED] T7100C.058

[GRAPHIC] [TIFF OMITTED] T7100C.059

[GRAPHIC] [TIFF OMITTED] T7100C.060

[GRAPHIC] [TIFF OMITTED] T7100C.061

[GRAPHIC] [TIFF OMITTED] T7100C.062

[GRAPHIC] [TIFF OMITTED] T7100C.063

[GRAPHIC] [TIFF OMITTED] T7100C.064

[GRAPHIC] [TIFF OMITTED] T7100C.065

[GRAPHIC] [TIFF OMITTED] T7100C.066

[GRAPHIC] [TIFF OMITTED] T7100C.067

[GRAPHIC] [TIFF OMITTED] T7100C.068

[GRAPHIC] [TIFF OMITTED] T7100C.069

[GRAPHIC] [TIFF OMITTED] T7100C.070

[GRAPHIC] [TIFF OMITTED] T7100C.071

[GRAPHIC] [TIFF OMITTED] T7100C.072

[GRAPHIC] [TIFF OMITTED] T7100C.073

[GRAPHIC] [TIFF OMITTED] T7100C.074

[GRAPHIC] [TIFF OMITTED] T7100C.075

[GRAPHIC] [TIFF OMITTED] T7100C.076

[GRAPHIC] [TIFF OMITTED] T7100C.077

[GRAPHIC] [TIFF OMITTED] T7100C.078

[GRAPHIC] [TIFF OMITTED] T7100C.079

[GRAPHIC] [TIFF OMITTED] T7100C.080

[GRAPHIC] [TIFF OMITTED] T7100C.081

[GRAPHIC] [TIFF OMITTED] T7100C.082

[GRAPHIC] [TIFF OMITTED] T7100C.083

[GRAPHIC] [TIFF OMITTED] T7100C.084

[GRAPHIC] [TIFF OMITTED] T7100C.085

[GRAPHIC] [TIFF OMITTED] T7100C.086

[GRAPHIC] [TIFF OMITTED] T7100C.087

[GRAPHIC] [TIFF OMITTED] T7100C.088

[GRAPHIC] [TIFF OMITTED] T7100C.089

[GRAPHIC] [TIFF OMITTED] T7100C.090

[GRAPHIC] [TIFF OMITTED] T7100C.091

[GRAPHIC] [TIFF OMITTED] T7100C.092

[GRAPHIC] [TIFF OMITTED] T7100C.093

[GRAPHIC] [TIFF OMITTED] T7100C.094

[GRAPHIC] [TIFF OMITTED] T7100C.095

[GRAPHIC] [TIFF OMITTED] T7100C.096

[GRAPHIC] [TIFF OMITTED] T7100C.097

[GRAPHIC] [TIFF OMITTED] T7100C.098

[GRAPHIC] [TIFF OMITTED] T7100C.099

[GRAPHIC] [TIFF OMITTED] T7100C.100

[GRAPHIC] [TIFF OMITTED] T7100C.101

                                           Wednesday, May 21, 2003.

                        ARCHITECT OF THE CAPITOL

                               WITNESSES

ALAN M. HANTMAN, FAIA, ARCHITECT OF THE CAPITOL
AMITA POOLE, ADMINISTRATIVE ASSISTANT
GARY GLOVINSKY, CHIEF FINANCIAL OFFICER
FRANK TISCIONE, SUPERINTENDENT, HOUSE OFFICE BUILDINGS
CARLOS ELIAS, SUPERINTENDENT, U.S. CAPITOL BUILDING

                            Opening Remarks

    Mr. Kingston. Good morning. The Subcommittee will now come 
to order. Welcome, all of you, and thank you for being here 
today. We will now take up the fiscal year 2004 budget of the 
Office of the Architect of the Capitol. We have Mr. Alan 
Hantman, the Architect of the Capitol, and several of his 
staff. Please introduce whomever you please.
    [Clerk's note.--The bio of the Architect of the Capitol, 
Alan Hantman, follows:]

            Alan M. Hantman, FAIA, Architect of the Capitol

    Alan M. Hantman, FAIA, was appointed the tenth Architect of the 
Capitol by President Bill Clinton on January 6, 1997; he was confirmed 
by the Senate on January 30, 1997, as the first Architect to be subject 
to the new selection procedure established in 1989.
    As Architect of the Capitol, Mr. Hantman is responsible for the 
mechanical and structural maintenance of the Capitol, the care and 
improvement of the Capitol grounds, and the arrangement of inaugural 
and other ceremonies held in the building or on the grounds. He is 
charged with the upkeep of all of the Congressional Office Buildings, 
the Library of Congress Buildings, the United States Supreme Court 
Building, the Thurgood Marshall Federal Judiciary Building, the Capitol 
Power Plant, the Capitol Police headquarters, and the Robert A. Taft 
Memorial. He is responsible for the care of all works of art in the 
Capitol under the direction of the Joint Committee on the Library, 
provides advice and assistance as requested by the House Fine Arts 
Board with respect to items in its Registry, and is responsible for the 
maintenance and restoration of murals, outdoor sculpture, and other 
architectural elements throughout the Capitol Complex. In addition, he 
is responsible for the operation of the Senate Restaurants subject to 
the Senate Committee on Rules and Administration, and he serves as the 
Acting Director of the United States Botanic Garden under the Joint 
Committee on the Library.
    The Architect of the Capitol serves as a member of the Capitol 
Police Board and the Capitol Guide Board as well as an ex officio 
member of the United States Capitol Preservation Commission. He is a 
member of the District of Columbia Zoning Commission, Advisory Council 
on Historic Preservation, and National Capital Memorial Commission. He 
is also an ex officio trustee of the National Building Museum and a 
member of the Art Advisory Committee to the Washington metropolitan 
Area Transit Authority.
    Before his appointment, Mr. Hantman had been with the Rockefeller 
Center Management Corporation since 1986 serving as Vice President for 
Architecture, Planning, and Construction. In this position, he was 
responsible for ensuring the maintenance of Rockefeller Center's high 
standards as a cohesive urban complex, as a world-renowned blending of 
art and architecture, as both a National Historic and a New York City 
landmark, and as an attractive, high-quality environment for the 65,000 
tenants and 200,000 visitors who use it daily.
    Mr. Hantman played a leading role in Rockefeller Center 
Corporation's $300 million Capital Improvement Program as well as in 
the day-to-day management of the 15-million-square-foot ``city within a 
city.'' His work included coordination of internal architectural, 
engineering, and display/graphics professionals, project managers, and 
plan reviewers and archivists. The selection and monitoring of 
consulting architects, engineers, artists, preservationists, and 
construction contractors was also an important part of his 
responsibilities. In 1995 Mr. Hantman was named Vice President, 
Facilities Planning and Architecture, and given strategic planning 
responsibilities for all buildings at Rockefeller Center along with 
continued oversight of all art, architecture, and preservation issues.
    Mr. Hantman had previously held the position of Project Director 
for architectural and planning projects with the Cushman & Wakefield, 
Inc., Development Consulting Group. His responsibilities included 
providing consulting services for programming, planning, and design for 
major corporate headquarters buildings, office structures, and a wide 
variety of other commercial undertakings. He also served as Assistant 
Chief Architect with the national architectural-engineering firm of 
Gibbs & Hill, Inc., and worked with the internationally known 
architectural firm of Ulrich Franzen & Associates.
    Mr. Hantman has been elected a Fellow of the American Institute of 
Architects; he has lectured on the design and evolution of the United 
States Capitol building, Rockefeller Center, computer-assisted design, 
and facilities management at various industry, university, and private 
forums. Mr. Hantman was graduated from the City College of New York 
with a Bachelors in architecture and from the City University of New 
York Graduate Center with a Masters in urban planning.
    A registered architect in the state of New York, Mr. Hantman is 
also certified by the National Council of Architectural Registration 
Boards. The New York Society of Architects awarded him its Sidney L. 
Strauss Award, ``for outstanding achievement for the benefit of the 
architectural profession,'' for his work at Rockefeller Center.

                             BUDGET REQUEST

    Mr. Kingston. The budget request that the Subcommittee will 
consider is $448 million ($447,857,000), an increase of $119.4 
million, or 36.4 percent over the fiscal year 2003 enacted 
level. There are 8 appropriation accounts in this budget: 
General Administration, $158.6 million ($158,570,000); the 
Capitol Building, $52 million ($52,368,000); Capitol Grounds, 
$7 million ($6,986,000); the House Office Buildings, 67 million 
($66,779,000); the Capitol Power Plant, $102 million 
($102,157,000); Library Buildings and Grounds, $47.1 million 
($47,108,000); Capitol Police Building and Grounds, $2.9 
million ($2,970,000); and the Botanic Garden, $10.9 million 
($10,919,000).
    This does not include funds for the operations of the 
Senate Office Buildings. The other body will consider their own 
needs for their own operations. That is estimated at $66 
million ($66,063,000).
    I want all of the Members of the Subcommittee to understand 
that it is my intention to hold another hearing regarding the 
issues related to the Capitol Visitor Center (CVC), and that is 
because we are having a study completed on the CVC that is 
ongoing as we meet. As the Members are aware, a contract issued 
by the Architect of the Capitol to Tishman Construction Company 
of Washington, D.C., to establish the final cost to complete 
the Capitol Visitor Center project. Those numbers are to be 
reviewed and vetted by the General Accounting Office, and when 
the final numbers are made public, this Subcommittee will hold 
our hearings regarding this most controversial project. So I 
ask, to the extent possible, that Members withhold their 
questions regarding the CVC until our hearing related to the 
costs to complete estimates.
    Obviously, this Committee respects the First Amendment, and 
our Type A independent contractors on this Subcommittee may ask 
anything they please. However, I think it would be best if we 
wait until the GAO has a chance to scrub the Tishman report in 
order that we have the most information possible.
    Mr. Moran, do you have a statement you would like to make 
at this time?
    Mr. Moran. Well, thank you, Mr. Chairman. And I am sure a 
description of Mr. LaHood as a Type A personality will be borne 
out during our hearing. I thank you for convening this hearing. 
And I think that yesterday's hearing raised some very 
legitimate issues with regard to the Capitol Police and the 
police chief's ambitious plans. But Congressman Culberson's 
recommendation to have some additional closed-door hearings on 
that seemed to make some sense as well from this side of the 
aisle. It may move us forward.
    I am sure we are going to have some tough questions for the 
Architect as well, because it is kind of a relationship between 
a landlord and a tenant. But our questions go beyond leaky 
faucets and radiators that don't heat and so on. We have got 
some major issues and some tremendous sums of money involved.
    The visitor center is the major issue, and I know you are 
going to have a separate hearing on that, so we are trying to 
confine our questions to other issues beyond the visitor 
center, but there are enough of those issues. We hear a lot of 
questions asked about whether past directives made by the 
Committee have been fully implemented, and some questions are 
going to address that. And then there are, of course, 
complaints and expressions of discontent on the part of rank-
and-file employees. I know the Architect wants to address 
those. So I appreciate you having the hearing, and I look 
forward to participating. Thank you.
    Mr. Kingston. Thank you, Jim.
    I should have mentioned before that these are some of the 
questions that the Tishman GAO study is going to look into: 
What was the AOC's estimate of completing the project; which 
aspects of the project are not included in the estimate; does 
the estimate involve changes in the project scope or quality; 
how much more money will it be to complete; what risk or 
uncertainties are out there in terms of being able to finish 
it; and what is the basis for the contingency funds that are 
included in the estimate?
    They are examining many things that willprove to be very 
useful to the Committee. I look forward to the CVC hearing.
    Mr. LaHood, do you have any comments, or Mr. Tiahrt?
    Alan, please introduce your staff. Your prepared statement 
has been provided to the Members of the Subcommittee and will 
be inserted into the record at this point.
    [The prepared statement submitted to the Committee by the 
Architect of the Capitol for the record follows:]

[GRAPHIC] [TIFF OMITTED] T7100D.001

[GRAPHIC] [TIFF OMITTED] T7100D.002

[GRAPHIC] [TIFF OMITTED] T7100D.003

[GRAPHIC] [TIFF OMITTED] T7100D.004

[GRAPHIC] [TIFF OMITTED] T7100D.005

[GRAPHIC] [TIFF OMITTED] T7100D.006

[GRAPHIC] [TIFF OMITTED] T7100D.007

[GRAPHIC] [TIFF OMITTED] T7100D.008

[GRAPHIC] [TIFF OMITTED] T7100D.009

[GRAPHIC] [TIFF OMITTED] T7100D.010

[GRAPHIC] [TIFF OMITTED] T7100D.011

[GRAPHIC] [TIFF OMITTED] T7100D.012

[GRAPHIC] [TIFF OMITTED] T7100D.013

[GRAPHIC] [TIFF OMITTED] T7100D.014

                           Opening Statement

    Mr. Hantman. Thank you, Mr. Chairman, and good morning. 
First of all, I would like to introduce my witnesses and the 
staff. Gary Glovinsky, Chief Financial Officer; Amita Poole, 
Chief of Staff; Carlos Elias, Capitol Building Superintendent; 
and Frank Tiscione, House Office Building Superintendent.
    If I may, Mr. Chairman, just a little background about our 
responsibilities, and then I would just like to highlight some 
of the areas of the written testimony for the public, if I 
could.
    The Architect of the Capitol, as you know, Mr. Chairman, 
serves as steward of the United States Capitol and the other 
historic buildings, the grounds, the artwork located throughout 
the Capitol complex. Architect of the Capitol is not only my 
title, but identifies 2,000 people in the organization 
responsible for operation and the maintenance ofsome 14 million 
square feet of buildings. This includes, of course, the House and the 
Senate office buildings, the Supreme Court, the Library of Congress, 
Botanic Garden, the Capitol power plant, as well as many other 
buildings.
    On any given day there are literally hundreds of projects 
being worked on across the Capitol complex, most of it being 
done behind the scenes. The AOC is involved in everything from 
upkeep of the lawns and the flower beds to restoring and 
preserving artwork in the Capitol; flying flags over the 
Capitol; custodial work; running the trains; moving furniture; 
painting walls after each election cycle brings us new Members 
to Congress; and overseeing the construction of security 
measures; historical information and publications are provided; 
and of course the design and construction of major buildings.
    Our dedicated staff has something like 50 job titles. We 
have people working 24 hours a day, 7 days a week. Essentially, 
Mr. Chairman, we are responsible for a small city over here, 
the day-to-day workings of this small city. I call the work of 
the AOC a magnificent challenge.
    If I may, I would like to highlight a couple of parts of 
the written statement. The budget as submitted to this 
committee represents my responsibilities for facilities 
management, for project delivery, for stewardship at the 
Capitol complex. But, just as importantly, it really responds 
to our client needs, and our clients include the Library of 
Congress, the Capitol Police, the House itself, the Senate 
itself. All of these folks have needs, and their capital 
project needs come into our budget.
    We also respond to the needs of our customers relative to 
the fire and life safety issues, and certainly, as we are all 
aware, greatly expanded security requirements. I have 
thoroughly reviewed this budget request to be sure that we have 
the resources necessary to fulfill our responsibilities 
effectively and efficiently, while also looking to identify 
savings wherever possible.

                          SIGNIFICANT PROJECTS

    Mr. Hantman. The most significant factor in the increase in 
our 2004 budget is the request for funds to purchase the shared 
alternate computer facility, at $61 million. This, of course, 
is for the House, it is for the Senate, Library of Congress, 
Capitol Police, for the Architect of the Capitol as well.
    Other significant projects in the request are 40.8 million 
to continue with the west refrigeration plant, 26.5 million for 
phase 2 of design of the Capitol Building master plan, 18.7 for 
high-voltage switch gear in nine separate buildings across the 
entire campus, 12.6 million for the Library of Congress for 
their needs, and of course we are continuing in our elevator 
modernization program in Rayburn and Cannon, and some 4.2 also 
for a Capitol complex master plan.
    These projects, Mr. Chairman, are in addition to the 200 or 
so other projects that are currently underway, and among them, 
as I stated, are substantial projects to meet the demand for 
heightened security as a result of our war on terrorism.
    Now, one of the greatest challenges we face is to 
sensitively incorporate all of these changes, the health, the 
safety, the security, the accessibility into these historic 
buildings. Although our workload has grown tremendously, we are 
monitoring our workload and our projects, and I am proud to say 
that we have--in the first quarter of 2003, 98 percent of our 
projects were within budget, and we are working to make that 
the case for all of our projects.
    Not only are we working to complete the projects on time 
and within budget, we are doing much more work much more 
safely. With the generous support of Congress, we have 
increased our life safety professional staff, modified work 
practices, provided protective equipment and safety training.
    According to recent OSHA statistics, we have cut our total 
injury and illness rate by 53 percent, and our lost time 
injury/illness rate by 36 percent in the last 2 years alone. 
This dramatic decline is a substantial achievement for our 
predominately shop-oriented, blue-collar workforce, and we are 
very proud of that, and I am committed to going forward to make 
sure that we eliminate all preventable injuries and work-
related illnesses.
    And, again, there are no citations issued by the Office of 
Compliance. In fact, in their annual report they noted improved 
workplace safety, quite a turnaround from our prior years.
    Essentially, Mr. Chairman, there is a lot to be said, some 
of it is in the record, and I really look forward to the 
questions so we can discuss the issues as appropriate. So thank 
you.
    Mr. Kingston. Thank you very much.

                      CAPITOL BUILDING MASTER PLAN

    Mr. Kingston. Alan, you have requested twenty-six and one 
half million dollars to implement the U.S. Capitol master plan. 
Is that the strategic plan?
    Mr. Hantman. When we talk about a strategic plan, we are 
talking about the goals, the missions of the entire agency and 
how all of the issues feed into that, including a master plan 
for the building itself, and each individual building, and then 
a total master plan, campuswide, for all of the facilities, our 
whole 14-million-square-foot complex, sir.
    Mr. Kingston. What do you envision the implementation of 
such a project and the associated cost?
    Mr. Hantman. Well, Mr. Chairman, this is really a very 
complex project. Fundamentally, if I can give a little 
background on that, the Capitol Building master plan study 
proposes to coordinate five projects. One of them is comprised 
of an overview of the Capitol infrastructure master plan. 
Second part is a sprinkler system installation throughout the 
building. Third part is a House Chamber study. Fourth is a 
Senate Chamber study. And fifth is security work to be 
implemented throughout the building. As a once-in-a-lifetime 
project, coordination of these five projects together would 
ensure that the disruption of spaces throughout the Capitol 
occurs only once.
    January 23rd, 1995, established the Congressional 
Accountability Act, Public Law 104-1. Since Congress enacted 
this act, the Office of Compliance has conducted periodic 
inspections of the facilities under the jurisdiction of the 
AOC. Those inspections identified a series of fire and life 
safety code deficiencies requiring corrective action. Now, many 
of these deficiencies have already been corrected. Those that 
are low-hanging fruit we have really tried to deal with, but 
there are some very significant ones that require in-depth 
analysis and study to determine how best to integrate the 
solutions with the Capitol's unique architectural configuration 
and the historical features in the building.
    Since it is the responsibility of this office to take 
corrective action to abate violations identified by the Office 
of Compliance, as well as those we identified through our own 
self-inspection, it became necessary to undertake this study to 
review the existing building conditions against the applicable 
life safety and fire codes. Now, the main purpose of this study 
is to review code deficiencies and develop a series of 
recommendations on the corrective actions necessary to comply 
with the codes in a prescriptive manner, or through 
alternative, more creative means called equivalencies that we 
can do without destroying the historic nature of the building.
    Now, significantly, the main significant issues are 
addressing adequate means of egress from the building, a 
building wide sprinkler system, smoke controls at vertical 
openings such as the grand stairways, additional security 
controls, ducted air returns. We have approximately 56 
different air handling systems in the building right now, and 
infrastructure improvements across the building; that is, 
electrical power, lighting upgrades, emergency power, smoke 
detectors, evacuation alarms, telecommunications, air 
conditioning systems, energy standards, et cetera.
    As you know, Mr. Chairman, this building has been built 
over 200 years, and 8 additions to the building have been done. 
So there is a whole pastiche of things being added together, 
and we need to take a consistent comprehensive look at the 
building in its totality.
    So the building study initially as proposed would 
conceptually take at least 7 years to implement, based on a 
phased approach. It would essentially require the emptying of 
the building sections for a period of time to allow a full 
implementation of the recommended upgrades. Now, this approach 
would require swing space outside of the Capitol Building that 
we provide to house people and functions that would be 
displaced during a specific phase of the project.
    The original study talked about 6 phases for the project 
over at least 7 years, but in order to achieve this, we would 
need to begin in fiscal year 2004 and continue through 2006 in 
order to reflect the construction phases that are necessary.
    Prior to beginning the design development and preparing the 
construction documents, we would have to do graphic 
documentation of the existing building.
    Mr. Kingston. I was just commenting to Mr. Ray LaHood that 
I would have described it as the whole pastiche myself.
    But what I need to do, Alan, is give each Member about 5 
minutes so that we can have a good rotation here. With that I 
yield to Mr. LaHood.

                     BANDSTAND FOR CAPITOL GROUNDS

    Mr. LaHood. Thank you, Mr. Chairman.
    I want to bring to your attention a project that I hope you 
will take an interest in. I have met with the folks from the 
Smithsonian on a bandstand that was donated to the Capitol, to 
the Smithsonian several years ago from Jacksonville, Illinois. 
It is a bandstand that exists. It is in very bad condition. I 
have been trying to get them to fix it up for several years, 
and I just had a meeting with the director of the agency within 
the Smithsonian, and I wonder if you and your staff could meet 
with those folks and determine if it is possible to move that 
bandstand somewhere on the Capitol grounds that then can be 
used possibly for concerts and other activities that will take 
place.
    They are committed, and I am committed, to providing the 
money, which is infinitesimal. It is about $160,000 to fix it 
up. But they would like to have the bandstand moved, and I can 
think of no better place than somewhere on the Capitol grounds. 
So if you and your staff could meet with the folks from the 
Smithsonian and begin some discussions about that, I would 
appreciate it. And if you need some help from our office to 
facilitate that, I will be happy to do that.
    Mr. Hantman. If we just get the name of the contact person.

                            HOUSE STAFF GYM

    Mr. LaHood. We will do it. Absolutely.
    The other, I know we are not supposed to talk about the 
Capitol Visitor Center, but at a hearing that we had previously 
with some other folks that we have jurisdiction over, we talked 
about the House staff gym, and I was told that I should talk 
with you and your folks about the idea of a footprint for the 
House staff gym, that an interim step had been taken by Mr. 
Egan, which is to enter into a contract with the Gold's Gym 
whereby Capitol Hill staff can go there and sign up for a 
membership and use that, and I consider that an interim step. 
And I still have as a goal, I think our committee has as a 
goal, the idea that at some point on campus here there will be 
a House staff gym. So when it comes time for us to consider the 
Capitol Visitor Center, the question that I will have is, is 
all of the space there being allocated, and would you consider 
looking at some sort of a footprint in that facility for the 
House staff gym? Or, if not that, then I am told by Mr. Egan 
and others that it is going to be up to you to figure out where 
this is going to be located.
    So I will leave that in your hands, and you don't--if you 
want to comment on it, you can.

                            NATIONAL GARDEN

    Mr. LaHood. The question I would have is what is being done 
or will be done with the fenced property in front of the 
Botanic Garden, which is, as you know, we have talked about 
this before, a terrible eyesore for people coming towards the 
Capitol to have that beautiful facade there, but that lousy-
looking lot that needs a plot of grass or some beautiful 
plantings or something. And I don't know, I think the Botanic 
Garden has been finished now for about a year. Can you tell us 
what your plans are, because, I mean, that is the entrance to 
the Capitol for many of the visitors. It is a lousy-looking 
piece of property.
    Mr. Hantman. I fully agree with you, Mr. LaHood. What is 
happening over there is that the National Fund for the U.S. 
Botanic Garden has been raising private funds to create 
essentially a National Garden on that site.
    Now, unfortunately what happened is the Executive Director 
of the National Fund just passed on several months ago, and he 
was the chief fund-raiser for this facility. So the 
availability of privately-raised funding, money, really can't 
support the scope of work that the fund would like to have 
right now.
    But we put the project out to bid, and what we have are the 
bidders now breaking down their numbers into a basic cost for 
the facility as well as six additional options. And we hope to 
be meeting with the National Fund within the next month and 
having them focus on what funds they have available, how we can 
commit this so we actually can award a bid so that we can start 
beautifying that property.
    I fully agree with you, and, in fact, some of the things 
that are on that property right now, there was some emergency 
elements stored, they are being taken away as we speak.
    Mr. LaHood. The Chairman said that the bids came in $2 
million over; is that right?
    Mr. Hantman. I am not sure what the number was. It was 
over.
    Mr. LaHood. Have they raised a significant amount of money 
or insignificant amount?
    Mr. Hantman. My understanding is they have raised under $10 
million at this point in time. They were committing to 
something like 14----
    Mr. LaHood. You know what, you can make a beautiful piece 
of property with $10 million, I will tell you that.
    Mr. Hantman. That is exactly what we are going to be 
discussing with them.
    Mr. LaHood. If they have got $10 million, let's go. I mean, 
that thing is an eyesore for the entrance to the Capitol, plus 
all of the money we have spent to fix up the Botanic Garden, 
that is a beautiful spot.
    Mr. Hantman. That is exactly the goal of our next meeting.
    Mr. LaHood. I guarantee you, for $10 million you could do 
an awful lot to make that piece of property look awfully 
pretty.
    Let me just say a couple of other things.
    Mr. Kingston. If the gentleman will yield. It would be 
preferable to maintain only 5 minutes so all members can ask 
questions.
    Mr. LaHood. If my 5 minutes is up, then we will move on.
    Mr. Kingston. We have been joined by Mr. Price, however, 
Mr. Tiahrt was here first, so I must yield 5 minutes to him.

                           STATUE REPLACEMENT

    Mr. Tiahrt. Thank you, Mr. Chairman.
    First of all, I wanted to thank you for helping me with the 
replacement of the Kansas statue, Governor Glick, with General 
Eisenhower. I am very pleased we are going to have the ceremony 
on June 4th, and I appreciate your cooperation.
    We have a trucker from Kansas that has contributed 
transportation costs to bring Mr. Eisenhower to Washingtonand 
to take Mr. Glick back to Kansas. I think you have arranged to have 
Glick ready to go.
    Mr. Hantman. Absolutely.
    Mr. Tiahrt. I want to make sure he gets beyond the Potomac 
River. At first, we only had enough money to get him to the 
Potomac River, and I didn't know whether we were going to dump 
him or keep him there. Fortunately, we are going to get him 
back to the Kansas State Capitol.

                            WEST LAWN EVENTS

    Mr. Tiahrt. There was a function on the west side of the 
Capitol about a month ago, maybe 3 weeks now, where they have a 
24-hour Bible read-a-thon. My wife came down with people from 
the church we attend in Fairfax, Virginia, and they didn't have 
access to the area. The event was for some reason moved away 
from the fountain onto the grass on the west side of the 
Capitol. Some of the ladies in the church were in their 
sixties, and they were wearing skirts. These ladies were forced 
to climb over that stone wall, which was not a pretty sight.
    In the future I hope we can make arrangements, if events 
are going to be moved onto the grass, for accessibility over 
the stone wall.
    Mr. Hantman. I will talk to the Capitol Police about that 
and make sure that we have such accommodations. I am not sure 
what the specific rationale was at that point in time, but we 
will follow through on that.

                           RAYBURN ELEVATORS

    Mr. Tiahrt. Thank you very much.
    Could you tell me when the Rayburn elevators are going to 
be worked on? I know they are scheduled, but I just don't know 
when it is going to happen.
    Mr. Hantman. Let me ask Frank Tiscione, who is our 
Superintendent of the House.
    Mr. Tiscione. Sir, we are going to award a contract in 
September or October of this year, and we are going to start on 
the banks, the two banks that are on the west side of the 
building, the ones that are connected to the Longworth. We are 
going to do that over the Christmas holidays.
    Mr. Tiahrt. The west side of the building connected to 
Longworth?
    Mr. Tiscione. I mean the east side. We are going to do that 
over the Christmas holidays to minimize the disruption, because 
those are the most heavily used elevators. And then we will 
proceed from there to start modernizing the rest of the 
elevators on a one-by-one basis in each of the corridors.
    Mr. Tiahrt. I hadn't noticed this until I moved to Rayburn, 
but those elevators have to go all of the way to the top before 
they go back to the bottom.
    Mr. Tiscione. That is part of the effort to change the 
controls in there to make them so that--there is nothing that 
we can do now because the controls are so old to fix that 
problem that we have.

                             HOUSE CHAMBER

    Mr. Tiahrt. All right. Thank you.
    You mentioned yesterday, I believe it was, about the House 
Chamber and taking it back to its original plan. Was it the 
turn of the century?
    Mr. Hantman. Originally it was designed in the 1850s.
    Mr. Tiahrt. We are now in a 1950s design? I don't 
understand the advantage to going back to the 1850s structure.
    Mr. Hantman. Well, there is a fundamental need, 
Congressman, to go back and take a look at the fire and life 
safety, the security issues in both the House and the Senate 
Chambers at this point in time.
    So the question of investing all of the dollars to install 
all of these utilities and facilities into the Chamber when, in 
fact, it would really compromise the aesthetics of the existing 
Chamber as well, since it can't be done in an easy, simple way. 
If you are going to have to go through the pain and suffering 
of putting those systems in in the first place, we could put 
them in as part of a restoration project in a scheme which 
actually lends itself a lot more strongly and easily to 
distribution of utility lines, of the distribution of sprinkler 
lines and lighting that doesn't cause glare when the TV cameras 
are on, things of that nature.
    So to incorporate all of those facilities into--I can share 
with you the ceiling pattern that existed in the 1850s, and the 
historic nature of the room is really quite wonderful. So the 
concept of the current Chamber, which is, again, very clearly a 
1950s Chamber, could really be enhanced by the restoration at 
the same time that we are incorporating all of these necessary 
systems.
    Mr. Tiahrt. Do you have pictures of what the Chamber was 
like? I would like to see those at some point.
    Mr. Hantman. Absolutely. And we can share with you a 
rendering of what it would potentially look like going forward 
also.
    Mr. Tiahrt. That is all I have, Mr. Chairman. Thank you.
    Mr. Kingston. Thank you.
    Mr. LaHood, do you want to read your questions into the 
record?
    Mr. LaHood. Mr. Architect, if you could just put these in 
the record, or answer them for me sometime, or call my office 
or whatever.

                            HOUSE STAFF GYM

    Mr. LaHood. Is it possible that the staff gym could be made 
a part of the Capitol complex master plan? That is one 
question.
    [The response for the record follows:]

                            House Staff Gym

    Question. Could you look at unallocated space within the Capitol 
Visitor Center (CVC) and develop a footprint for a staff gym? If space 
is unavailable in the CVC, what other recommendations can you provide 
for a location of a staff gym?
    Response. The allocation of space in the CVC is determined by our 
Oversight Authority. We would gladly pursue the design and construction 
of a House Staff Gym within the CVC when given the approval and 
direction of our Oversight Authority.
     In working in concert with the House Office Building Commission, 
who has responsibility for assigning space, the AOC has identified 
space for potential locations for a Staff Gym. The AOC is in the 
process of conducting a study which will provide concept designs and 
cost estimates for Staff Gyms in these locations. The study is 
scheduled for completion on October 20, 2003. Once the study is 
complete, the AOC will provide these alternatives and costs for 
consideration and direction from our Oversight Committees.
    Question. Is it possible that the staff gym could be made a part of 
the Capitol complex master plan?
    Response. The AOC will be awarding a House Office Building Master 
Plan in September 2003. This Master Plan will assess the facility space 
needs for the House and determine the requirements for the construction 
of new space within the House Complex. The House Staff Gym will 
definitely be programmed into the House Master Plan and alternatives 
will be presented for consideration of a Permanent House Staff Gym in 
July 2004. The House Master Plan is scheduled for completion in 
December 2004.

                          O'NEILL PARKING LOT

    Mr. LaHood. And the other question is with respect to the 
O'Neill Building parking lot, which I have been told is 
temporary, if you could tell us what plans you have for that, I 
would appreciate it.
    Thank you, Mr. Chairman.
    [The response for the record follows:]

                          O'Neill Parking Lot

    Question. A temporary parking lot currently occupies the former 
O'Neill building site. What are your plans for that site?
    Response. The former O'Neill building site is being considered as a 
future site for a new facility. As part of the HOB Master Plan process, 
the consultants will review the site and make recommendations and 
provide alternatives for building a new facility at the site. The site 
does have limitations on the size of building that can be constructed 
on the site due to the train tunnel that runs through the site, but the 
consultants will review all aspects and propose recommendations on the 
size facility that can be constructed.

                            PROJECT OVERVIEW

    Mr. Kingston. Thank you.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Hantman, welcome to the subcommittee. We appreciate 
your testimony.
    I would like to ask you to give us an overview of projects 
that are underway and projects that are projected. I notice 
that you have here a $22 million request for design and related 
studies for work to be done in the future, but let's focus 
first on construction and renovation projects that you 
currently have underway. And I am thinking mainly of those that 
might cost a million or more, if that is a convenient break-off 
point.
    How many projects do you have underway that are budgeted at 
$1 million or more? And of these projects, can you give us an 
estimate about the projected schedule and any projected cost 
overruns? Of those projects, how many are behind schedule? Are 
there delays that we should know about, and can you estimate 
the impact of those delays? And then, are there cost overruns 
that we are incurring that the subcommittee should be aware of?
    Mr. Hantman. Right. If it is okay, that is quite a 
comprehensive list, sir.
    Mr. Price. It is. You can do some of that for the record. 
But if you can highlight some of that for the record here 
orally, I would appreciate it.
    Mr. Hantman. Surely. The largest project that we are 
talking about, sir, is certainly the visitor center. We have a 
project at the Capitol Power Plant right now, that was the 
first phase of that project, which was something in the range 
of $10 million for new coal handling facilities from the coal 
yard to go under Virginia Avenue to serve the new refrigeration 
plant area that we have under construction. And that is on time 
and on budget.
    The second phase for that work has just been awarded, and 
that project is for the west refrigeration plant. The east 
refrigeration plant right now is 40 to 50 years old. It uses 
fluids and elements that are not EPA certified-safe. In fact, 
the fluids are not being manufactured anymore. So the concept 
of deactivating the east chiller plants and building new 
capacity and expanded capacity is what this project is all 
about. And we have just awarded that project within our budget, 
and we have some contingency dollars left there as well.
    There is another project which is about to start on the 
Supreme Court. It is not under the purview of this committee, 
but it is a major project and renovation of the Supreme Court 
building that we are working on.
    We are also working on a series of projects for the Library 
of Congress right now. We have completed book module number 1 
at Ft. Meade. We are planning book modules number 2, 3, and 4 
and a copyright facility, and those are moving ahead very well.
    There is the book storage module that is successful now out 
there. In fact, we have retained the Corps of Engineers, who 
has a presence on that base to work with us. What we are trying 
to do, sir, is to manage managers and make sure that we can 
outsource a lot of the workload that we have over here.
    Major projects we also have going on are for perimeter 
security. As you may have seen, we have pretty well completed a 
good part of the inner circle of perimeter security at Capitol 
grounds, and we are under construction now on perimeter 
security around the House office buildings. We are on budget 
with that. We just met with Chairman Ney and with the Speaker's 
office and reviewed the schedule for all of the sections of 
that work going forward, and we are about to start the same 
project over on the Senate side as well.
    So those are the most significant projects that we are 
talking about right now, and I will provide you with a full 
list of all of the other projects.

                      PROJECT COSTS AND SCHEDULES

    Mr. Price. Am I understanding you correctly, though, that 
no major projects, defined as we have, over a million dollars, 
are significantly behind schedule, and none of them are 
significantly over budget? Is that your testimony?
    Mr. Hantman. Again, as I indicated before, that 98 percent 
of our projects are within budget at this point in time. Let me 
pull out the other ones that we are having some budget issues 
with, and I will certainly highlight them on your list.
    Mr. Price. Any of those that you would like to highlight 
here today?
    Mr. Hantman. Not at this time, sir.
    Mr. Price. All right. We would appreciate having that.
    [The information follows:]

                            Project Overview

    Question.How many projects do you have underway that are budgeted 
at $1 million or more? And of these projects, can you give us an 
estimate about the projected schedule and any projected cost overruns? 
Of those projects, how many are behind schedule, and are there delays 
that we should know about, and can you estimate the impact of those 
delays? And then, are there cost overruns that we are incurring that 
also the subcommittee should be aware of?
    Response. The AOC had a total of 217 funded projects as reported in 
its March 2003 Quarterly Capital Project Report. Within those 217 
projects, 119 had Current Working Estimates (CWE) that exceeded $1 
million.
    Within the 119 projects, there were 23 projects that were behind 
schedule in March, and three that had CWEs exceeding the approved 
budget. The following table is supplied for the record that notes the 
schedule and budget status of the 119 projects. The projects are sorted 
by Project Number.
    The following information is supplied for the record.

    [GRAPHIC] [TIFF OMITTED] T7100D.015
    
    [GRAPHIC] [TIFF OMITTED] T7100D.016
    
    [GRAPHIC] [TIFF OMITTED] T7100D.017
    
    [GRAPHIC] [TIFF OMITTED] T7100D.018
    
    [GRAPHIC] [TIFF OMITTED] T7100D.019
    
    [GRAPHIC] [TIFF OMITTED] T7100D.020
    
    [GRAPHIC] [TIFF OMITTED] T7100D.021
    
    [GRAPHIC] [TIFF OMITTED] T7100D.022
    
    [GRAPHIC] [TIFF OMITTED] T7100D.023
    
                       PROJECT DESIGN AND STUDIES

    Mr. Price. And let me just turn to the related issue of 
work you are anticipating for the future.
    You are talking about $22 million for design and related 
studies. I wonder how many projects these funds would cover? 
Again, we are talking mainly major projects here, over $1 
million. And do you have any cost figures as to what the 
eventual cost, the eventual total cost of these projects will 
be, the ones included in this $22 million for the design and 
related studies?
    Mr. Hantman. If it is all right, I will get back to you for 
the record on that as well, sir.
    Mr. Price. Any highlights there in terms of what the major 
items are?
    Mr. Hantman. Okay. In the Capitol building, we have 
projects for upgrading emergency evacuation notification 
systems. In the House office buildings we have garage floor 
repairs in the Rayburn House Office Building. That is a $1.4 
million project; the HVAC system, a design project for the 
Rayburn House Office Building. The Cannon renovation project is 
$1 million. A design for Lot 7 potential garage is $1 million. 
At the Capitol Power Plant, we talked about utility tunnel 
modernization study. On the Library, we have a study and damper 
smoke control project of $1.4 million. The logistics warehouse 
facility at Ft. Meade is a $2.6 million project. Book storage 
module 5 is $1.5 million for design. A condition assessment of 
the Library buildings is a $3.2 million project. And those are 
the major ones, I think, sir.
    Mr. Price. All right. Well, there again, if you could 
augment that list. What we are interested in is the projects 
that come within that $22 million for design work, and what you 
now estimate their total eventual cost to be.
    Mr. Hantman. We will do that, sir.
    [The information follows:]

                       Project Design and Studies

    Question. Please provide the projects that comprise the requested 
$22 million for design work, and what you now estimate their eventual 
cost to be.
    Response. There is a total of $22,464,000 requested in the several 
SDCA accounts for FY 04. Some of the items included in the SDCA 
accounts relate to specific survey and study efforts, there are some 
unallocated design and condition assessment monies, and there are some 
specific condition assessment efforts. These various efforts worth 
$6,009,000 do not necessarily result in future construction projects, 
but clearly condition assessments, studies and surveys will inevitably 
lead to some requirement for future design efforts. However, at this 
undefined requirement stage for future projects, it is impossible to 
project what those projects might be, and it is therefore impossible to 
predict future construction costs.
    That leaves a balance of $14,455,000 allocated to specific design 
efforts. Those design estimates are based on an assumption that the 
design effort is worth roughly 10% of the total planning cost model for 
construction. There is no real construction cost estimate until actual 
design work is performed based on a documented program and scope of 
work.
    Therefore, an order of magnitude, range of future construction 
costs could potentially be $144,550,000 (+/-) based on the $14,455,000 
requested in FY 04 for identified design efforts.
    The following information is supplied for the record.

    [GRAPHIC] [TIFF OMITTED] T7100D.024
    
                  CAPITOL POLICE BUILDINGS AND GROUNDS

    Mr. Price. Just to give us a benchmark as to what we are 
dealing with here.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Kingston. We have been rejoined by Mr. Moran.
    Alan, I am confused about the police facilities. As I 
understand it, we approved a site, however, nothing was done. 
Consequently, the site was sold to another purchaser, Pepco. Is 
that correct?
    Mr. Hantman. Yes, that is correct.
    Mr. Kingston. What was the delay on moving with that?
    Mr. Hantman. Well, back in October of 2002, the Capitol 
Police Board approved the proposal for the specific site in 
Northeast Washington. In November of 2002, we submitted letters 
to Senate Rules Committee and HOBC for permission to negotiate 
for that site.
    Elections came up. It was a lame duck session. And in 
January of 2003, we resubmitted those letters. We received 
official approval to reprogram funding to purchase the property 
at that point, and we resubmitted requests to negotiate to the 
HOBC and the Senate Rules, and we received the Senate Rules 
approval in early February. Unfortunately, before all of the 
approvals could be received, the site was sold, as you 
described.
    Mr. Kingston. Who is at fault?
    Mr. Hantman. We didn't have authority to negotiate for the 
site until we get all of the approvals.
    Mr. Kingston. But did the House hold the signatures up, or 
the Senate?
    Mr. Hantman. It was the House, sir.
    Mr. Kingston. Was there any particular reason for this? 
Were you or the police emphatically campaigning for approval?
    Mr. Hantman. It was a recommendation of the Police Board 
and the Capitol Police for that particular site. What we are 
trying to do right now is find an alternative site to it. So, 
yes, we were not happy about losing it.
    Mr. Kingston. When Members of Congress don't immediately 
approve, do you feel like you are being heard fairly? Did you 
feel as though we were just avoiding you?
    Mr. Hantman. I am not sure what the rationale was for not 
having the approval given at that point in time, sir.
    Mr. Kingston. If this Committee--consisting of new 
membership now--should do something like that again, which 
could endanger tax dollars through a missed opportunity,don't 
hesitate to pick up the phone and alert us. We will see what we can do. 
There wasn't an excuse for the sluggish response of Congress.
    When the police move to the new headquarters, will they be 
consolidating all of their offices, and how many offices do 
they have now?

                       CAPITOL POLICE MASTER PLAN

    Mr. Hantman. We have just completed a master plan, Mr. 
Chairman, which we will get you copies of, it is really hot off 
of the press, that talks about all of the needs of the Capitol 
Police. Most of their needs would be consolidated in this new 
facility, but they would maintain the existing headquarters 
building they have as the Senate branch for the Capitol Police 
and a back-up command center. The primary command center would 
be inside the new facility.
    The police have also been asked to take a look at vacating 
some of the existing spaces that they have in the Capitol as 
well as space in the House office buildings and projected for 
the visitor center. Moving that space out would increase the 
square footage needed at the new headquarters.

               CAPITOL POLICE HEADQUARTERS SQUARE FOOTAGE

    Mr. Kingston. How much space do they have now? They are in 
the Capitol, they are in Longworth, they are in their 
headquarters, they are in one of the Senate buildings.
    Mr. Hantman. Right.
    Mr. Kingston. Would that be called their four main 
locations?
    Mr. Hantman. And in Ford.
    Mr. Kingston. How much of a net square foot gain would it 
be when they move? I don't expect you to know off the top of 
your head, but it is a gain in square footage.
    Mr. Hantman. It is a gain in square footage. Yes.
    Mr. Kingston. You have a plan in your master plan--I think 
Category 5 was security. Chief Gainer has a master plan. There 
is obviously some overlap between the two and, therefore, 
hopefully lots of coordination. Before we move forward, we 
should know with certainty that they will give up one of their 
other spaces within the Capitol complex. One of the 
predictabilities about Washington and government in general is 
that nobody wants to give up anything, and particularly real 
estate in the Capitol. If they are going to have a net gain in 
square footage, they should be moving out of some of their 
existing space, and this Subcommittee should know that with 
certainty at this moment.
    Mr. Hantman. Mr. Chairman, I spoke to Chief Gainer about 
that very specifically, and he agrees that by the middle of 
June we should have a number in terms of where his troops will 
be located and what the square foot need for this new facility 
will be. At that point in time we will certainly come back to 
you and discuss that.
    Mr. Kingston. The police have a little substation in 
Rayburn as well. It would appear appropriate that they would 
have satellite substations, but not major locations with 
lockers and major offices. How many square feet do they have in 
the Capitol building? It is fairly large, isn't it?
    Mr. Hantman. I am not sure about the square footage.
    Mr. Elias. Sir, they have about four bays about 200 square 
feet each on the Senate side of the Capitol Building in the 
basement area on the west front. And they also have a--what we 
call the police mezzanine, which is in the sub-basement, west 
side of the Capitol, sub-basement area. They have there just 
locker rooms in that space and a lunch area. We can get you the 
total square footage.

                     CAPITOL POLICE SPACE CONCERNS

    Mr. Kingston. Your master plan and Chief Gainer's master 
plan need to dovetail. Part of that plan needs to have the 
requirement before we move to this new building, we understand 
we are going to give up our Capitol space or other Capitol 
complex space. This is reasonable, and there should not be a 
lot of jousting about retaining it, because we already have 
enough personalities around here who don't want to relinquish 
square footage.
    Mr. Hantman. Correct. Those are the things that we will be 
working out. But clearly my budget deals with the capital 
costs. His will deal with the equipment and personnel costs. So 
there is an interface on that. Clearly his needs are what needs 
to be best determined and finalized so that we can move 
forward.
    Mr. Kingston. You are the landlord and the property 
manager?
    Mr. Hantman. We are the ones responsible for building that. 
There is about a delta of about 140,000 square feet over 
existing space that is being requested right now.
    Mr. Kingston. This Committee would really like to see what 
we are talking about in terms of square footage some time in 
the near future.
    Mr. Hantman. We will get the new master plan together, and 
we will sit with you and work it through with the chief as 
well.
    Mr. Kingston. Are all of the key people within the Capitol 
Police involved in the new master plan, andare you as well 
connected as you need to be in order to develop informed conclusions?
    Mr. Hantman. Yes. I am, as you know, one of three members 
of the Capitol Police Board, and when the Capitol Police are 
doing their study, their analysis, they are working with our 
people, and we bring it to the full Capitol Police Board for 
review.
    [The following information was supplied for the record:]

                     Capitol Police Space Concerns

    Question. What is the total square footage the U.S. Capitol Police 
occupy in the Capitol Building? How much space will be gained in the 
Capitol and House Office Buildings (HOB) if the Capitol Police move 
into a new headquarters?
    Response. The U.S. Capitol Police (USCP) occupy approximately 6,760 
square feet in the Capitol Building, primarily in the House Mezzanine 
and Senate Terrace areas.
    The current Capitol Police Master Plan identifies approximately 
14,300 square feet that will be returned in the Ford HOB and 200 square 
feet in the Longworth HOB. However, the plan identifies a net increase 
of approximately 20,640 square feet in the Capitol Building and Capitol 
Visitor Center (CVC) for a total requirement of 27,400 square feet, of 
which 18,000 is planned for the CVC. The Capitol Police are actively 
assessing their footprint in the Capitol, CVC and HOBs to determine 
space requirements that can be moved to the new USCP headquarters 
without impacting their operational concept. While the benefit of this 
assessment may be additional available space in the Capitol, CVC, and 
HOBs, the impact will be an additional cost to the new USCP 
headquarters.
    The current USCP Master Plan, including square footage proposals, 
will be forwarded to the Committee under separate cover. The plan will 
be updated once the Police have completed their assessment of 
relocating functions from the Capitol, CVC and HOBs to the new USCP 
headquarters, in addition to receiving Committee input to their 
proposed staffing plan.

                      CAPITOL POLICE HEADQUARTERS

    Mr. Kingston. Mr. Moran, I now yield to you.
    Mr. Moran. Well, thank you. Mr. Chairman, I am glad to have 
that line of questioning that you brought up, because sometimes 
you get the sense that you can never find the right person to 
give you a solid answer. It is always someone else that is 
responsible. And you are not only, as the Chairman says, the 
landlord, you are responsible for all of the capital 
requirements for the police, and you are on the Capitol Police 
Board. There are only three members. You are the third leg of 
that, as you said earlier.
    So you probably are the right person when we are trying to 
nail down what the Capitol Police have in mind for their new 
building. And now, in addition to the space that Chairman 
Kingston was talking about, we have got that whole building 
next to the Monocle, the entire building is the Capitol Police 
building, right?
    Mr. Hantman. That is correct.
    Mr. Moran. The plan is that that would continue to be a 
Capitol Police building?
    Mr. Hantman. That is correct.
    Mr. Moran. You are not sure whether any of the space in the 
Capitol today that is used by the Capitol Police would not 
continue to be used by the Capitol Police, right?
    Mr. Hantman. In terms of their plan, they were going to 
vacate space within the existing Capitol Building and take some 
17- or 18,000 square feet of space on the lowest level of the 
visitor center. That was the original plan.
    Mr. Moran. So they move to the visitor center, about 17- or 
18,000 feet.
    Mr. Hantman. That was the plan.
    Mr. Moran. It is going to be over 20- by the time they move 
in, I am sure. So they would have that building on the Senate 
side next to the Monocle. They would have 17- to 18,000 square 
feet in the Capitol Visitor Center. Then they are going to have 
what I was just shown, some pictures that the Capitol Police 
chose to present of police departments. Have you seen these 
pictures, Chairman? They are of the Chicago Metro Police 
Department, the Toronto Police Department, the Dallas Police 
Department.
    These are not comparable law enforcement agencies. Those 
are major cities with hundreds of thousands of crimes. The idea 
that we would be building something comparable tothe last 
building we just built, the Madison Building. And the Madison Building 
is a pretty impressive building. It is all marble and so on. How much 
did that cost? One hundred thirty-eight million, and the numbers cited 
here are twice that. Do you think a Taj Mahal is an unfair description 
of what some of these descriptions look like, Mr. Chairman?
    Mr. Kingston. Well, I think they are competitive with the 
Ronald Reagan Building costs.
    Mr. Moran. And I wouldn't think that would be the standard 
for the police department. So we have got some concerns.
    Mr. Kingston. If the gentleman would yield. What we really 
need is a working building, not a showcase. The CVC is required 
to be a showcase, but, the police department should be 
basically a lean, mean fighting machine. They don't need a 
fancy walk-in constituent-friendly building.
    It needs to state, ``We are all about security, this is 
just bricks and mortar, and our job is to secure the Capitol.''
    Mr. Moran. You expressed that much better than I could 
have. But those are certainly my sentiments as well, Mr. 
Kingston. I suspect Mr. Price agrees. And I bet your folks on 
your side of the aisle would agree as well. We are talking 
about functionality here, not trying to impress the world with 
the architectural design of our Capitol Police building.

                          TEMPORARY EMPLOYEES

    Mr. Moran. Now, let me ask some other questions. We have 
had a number of, you know, we get so many calls and letters 
about things that are going on in your office, Mr. Architect. 
How many temporary workers do you have?
    Mr. Hantman. Something in the range of 300, I believe.
    Mr. Moran. Three hundred temporary workers. And how long 
have some of those been employed? How long is the longest one, 
for example?
    Mr. Hantman. Well, we have been using people on the Davis-
Bacon status for a good number of years. Some of them when I 
got here were here 15, 20 years.
    Mr. Moran. The average, what would you say?
    Mr. Hantman. I couldn't hazard a guess at that, but it is 
significant, sir.
    Mr. Moran. Well, this is an issue that has been coming up 
year after year. I suspect that you were asked, you know, the 
average before. What we are told is that the Architect of the 
Capitol routinely employs hundreds of temporary workers, often 
for years at a time, so that--we know that is true, 300 and 
some of them for 15, 20 years--in an employment status that 
offered no eligibility for the benefits ordinarily available to 
long-term Federal workers or those available to unionized 
construction workers through multiemployer benefit plans.
    And now Mr. Hoyer, who is the Ranking Member on the 
Authorizing Committee, as you know, referred to this practice 
as unconscionable and determined to put an end to it, and he 
put in language that section 133--that he thought was going to 
do that and require that you report back on the status of 
implementing section 133. What is the status of that, Mr. 
Hantman?
    Mr. Hantman. Our report, Mr. Moran, is due the end of this 
month, and we will certainly do that. I will give you a little 
background on what has happened in the interim, though.
    In May of last year we met with about 325 employees through 
group employee briefings and individual counseling as well. 
About 275 construction employees were given the one-time option 
of remaining as a Davis-Bacon employee or converting to a wage-
grade position in which the benefits convey.
    Mr. Moran. But wasn't that a substantial reduction in pay?
    Mr. Hantman. Well with, Davis-Bacon, as you know, they get 
the benefits in cash. So they have a choice of buying insurance 
policies or putting money aside for vacations or whatever and 
holidays. Their money. So if we have a carpenter who is a 
Davis-Bacon carpenter with a carpenter who is our full-time 
employee working side by side, the Davis-Bacon employee is 
making significantly more than our carpenter.
    Mr. Moran. It is after tax, so it is much more expensive to 
them, right?
    Mr. Hantman. That is correct, sir.
    Mr. Moran. Although you could have done it before tax, 
which would have been more comparable to cafeteria benefits.
    Mr. Hantman. My intent is to give our employees everything 
that they are entitled to under the law and be flexible. And 
they are wonderful people. We need them to do the work here of 
the Congress. And what we are trying to do is make sure that we 
do, in fact, have the authority, and we have been talking with 
the Office of Personnel Management, and the GAO and the IRS to 
determine if that law gave us the authority essentially to do 
pretax dollars. And the answers we have been getting back, sir, 
is we do not have that authority at this point.
    The report that we will be coming up with, we are still 
working with GAO on that, by the end of this month will 
specifically relate to the discussions we have been having, 
and, in fact, we have settled with one of the unions, the 
plumbers union, on this, and so we are okay with them. But 
there is four other unions that are not there.
    Mr. Moran. I think that is a serious issue.
    Mr. Hantman. We would like to get it resolved, sir.
    Mr. Moran. There are a number of serious complaints, many 
of them directed at you personally, feeling that you are trying 
to, you know, obstruct the intent of the Congress and the 
committees that have oversight.
    But you know that. I am not telling you anything you are 
not aware of.

                  OFFICE OF COMPLIANCE AND LEGAL CASES

    Mr. Moran. We have another problem, and that is the case 
where you have challenged the authority of the Office of 
Compliance, because the Office of Compliance required you to 
reinstate a person. The Office of Compliance was created, as 
you know, by the Congressional Accountability Act. It was 
legislation passed in 1995.
    This is one of its most serious cases. It is a Ms. Johnson, 
who had been a custodial employee of yours for 18 years, 
suffers an asthma attack. And she was only getting $15,000 
salary, and yet you have chosen to take it through the courts. 
How much has the court expenses amounted to now? A heck of a 
lot more than $15,000.
    Mr. Hantman. We will get back to you on the facts of that 
case, sir. I don't have that information on the tip of my 
fingers. But on the last----
    Mr. Moran. Well, how much do you think?
    Mr. Hantman. I really don't have a handle.
    Mr. Moran. Well, no, this is wrong. You are the manager. 
You know, I meant to be nice and let you be the bad cop on this 
one, Mr. Chairman. But you, Mr. Hantman, are the manager. You 
make the decision whether to pursue this lawsuit. We've got a 
$15,000-a-year employee. You have to make a judgment, is this 
worth it to spend hundreds of thousands of dollars in court, or 
is it worth it just to try to resolve this case, particularly 
since the congressionally-created Office of Compliance requires 
you to resolve it in one way, and you have challenged the 
authority of that office by choosing to take it all of the way 
through the courts for this pretty low-paid employee?
    You must have some idea what the court costs are. You are 
the manager. Any manager has got to know; you had to make a 
decision which way do I go? Do I spend six figures on taking it 
to the court, or do I spend five figures in resolving it? And 
now you tell me that you don't know. How much was it? Give me a 
figure. How much do you think it was? How much have you spent 
in court costs? It is on the front page of Roll Call. This has 
been an issue that has been raised by the House Administration 
Committee. It is the principal issue by the union. You know 
that this was a test case for the Office of Compliance. Don't 
plead ignorance.
    You don't know this, but I have tried, you know, not to be 
too negative, but, boy, I can see why there are some people who 
are frustrated and feel that you don't care.
    Mr. Hantman. No. I certainly do care. The U.S. Attorney's 
Office is taking this particular case and working on it.
    If I can just respond to your last comment about the 
employee benefits fund. The IRS referred us to the Office of 
Personnel Management for further reply on this, and OPM 
confirmed in a letter saying that--on December 3rd--that the 
AOC did not have the authority to make pretax contributions to 
employee benefits funds.
    Mr. Moran, I am, again, a full supporter of our employees. 
We are a service organization. Without them, we are not here.

                            LEGAL SETTLEMENT

    Mr. Moran. Did you make any effort to resolve this in a way 
that would have satisfied the employees and would have put an 
end to a very contentious issue?
    Mr. Hantman. Our----
    Mr. Moran. I am told that you are on the other side, you 
don't want to resolve it, that you were the hard-nosed guy that 
was insisting that this case be taken through the courts.
    Mr. Hantman. I----
    Mr. Moran. I am not inventing this stuff. This is what I am 
being told by any number of people, people that have followed 
this case for years----
    Mr. Hantman. Right.
    Mr. Moran [continuing]. I would like to know, what did you 
spend in court costs to resolve a situation that clearly could 
have been resolved for, you know, five figures? I know you have 
spent at least six figures. What is the answer?
    Mr. Suarez. Mr. Moran, we tried settling the case early on.
    Mr. Moran. Who are you?
    Mr. Suarez. My name is Hector Suarez, and I am the Deputy 
Chief of Staff for Mr. Hantman. So there was a number of--there 
was a number of efforts made trying to work to resolve the case 
at the lower level before we got to--even when it was at the 
Office of Compliance. We were not successful in trying to reach 
the closure that was acceptable to both sides, both to the 
employee and to the agency.
    [The following response was supplied for the record:]

                            Legal Settlement

    Question. What have you spent in Court costs to resolve a situation 
that clearly could have been resolved out of Court?
    Response. The case is on appeal to the United States Court of 
Appeals for the Federal Circuit on the following issues:
    1. Whether an award of back pay, damages and attorneys' fees based 
on the failure of the Architect of the Capitol to accommodate the 
employee in 1999, when the only reassignment available at the time 
would have been to a position in a higher pay grade, was in error 
because the employee's original job was placed in a higher pay grade as 
a result of an unrelated class action settlement executed in 2001.
    2. Whether the holding that the Architect of the Capitol must 
accommodate the employee by placing her in a permanent position as a 
subway operator was correct.
    The above issues are important for their precedential impact on the 
legislative branch under the Congressional Accountability Act (CAA). An 
employer's ability to make business decisions on the availability of 
positions for ADA accommodations is severely impacted, because the 
holding on appeal requires the employer to create and/or alter work 
requirements and to provide an accommodation of a higher graded 
position than the current grade of the position held by the requesting 
employee. Our legal analysis of Supreme Court holdings would support 
our position.

                              CASE HISTORY

    Employee requested reassignment from her custodial worker GS-2 
position in October 1999 citing health reasons, continuing to work when 
no positions were available for reassignment.
    Employee incurred approximately $4,500.00 in loss of pay between 
January and March of 2000 when she stopped working as a custodial 
worker GS-2, citing health reasons, because there was no light duty 
assignment available at that time.
    Employee was placed in light duty assignment in March of 2000 when 
available.
    Employee and AOC participated in mediation in Office of Compliance 
on her Americans with Disabilities Act (ADA) claim, but the parties 
were unable to resolve the issue. (The parties have continued 
settlement discussions throughout all stages of the case.)
    The case was heard by a Hearing Officer in the Office of Compliance 
who directed the AOC to permanently place employee in a Subway Operator 
GS-3 position (specifying that she would be paid at the lower GS-2 
level), though her position of record was at a GS-2 grade level at the 
time of her request for reassignment in 1999.

                             COSTS TO DATE

    The approximate staff costs to the AOC and the Department of 
Justice are $79,200.

                  OFFICE OF COMPLIANCE AND LEGAL COSTS

    Mr. Moran. This is a subway operator. From what I am told, 
she wasn't looking for a lot of money. Now it has become a 
major cause celebre. You have got the union and all kinds of 
other people involved, the Authorizing Committee. It is a test 
case in the Office of Compliance. This office was part of the 
Republican revolution. But you know it is there, it is the law, 
and it seems to me that it actually makes some sense to require 
that we abide by the same civil rights laws that are applied to 
every private corporation.
    And now I am told because of this case and because of the 
adamance of this office, the OOC has no teeth anymore because 
you have shown that it doesn't because of the attitude that you 
have taken is what I am told. These are not my words. I may be 
paraphrasing them a bit. But, you know, you have got some 
pretty harsh critics. This is one example. And what I am told 
is it could have been resolved quickly, easily, without a lot 
of money, but instead you chose to spend many, many times more 
money taking it through the courts.
    Mr. Suarez. If I may make two points, Mr. Moran. One, we 
would be glad to provide you as much information as you would 
like on this case. But there are two points that I would like 
to make. One, we did try to settle the case early on in the 
beginning stage of the process.
    Two, the matter as to whether we--the matter of dealing 
with the Office of Compliance was that we disagreed with what 
they felt was the interpretation of the law, and the question 
was, what is the correct interpretation of the law in how this 
case goes forward? This has nothing to do with wanting to 
settle or not settle the case, it was a matter of a difference 
of opinion on how we felt the law should be interpreted, and 
how the Office of Compliance felt it shouldbe interpreted.
    Whenever there is an issue like that, that is where Justice 
then works with us on these cases, and it had nothing to do 
with the employee. It is a matter of there was a difference of 
opinion there, and we are trying----
    Mr. Moran. But it is a matter of how much money we are 
spending. It is the taxpayers' money. It has to come out of 
this Committee. And here we are spending this stuff on 
something that is contrary to what the Authorizing Committee 
instructed you to do, from what I understand.
    I am taking up too much of my time, but I can see why we 
have so many problems on the oversight of this office, Mr. 
Chairman. I was told that is exactly the response I am going to 
get, and that is what I got, that there is not an attitude of 
trying to work things out. There is an attitude of--I guess 
arrogance is the term that is too often used. And, you know, 
for your sake as well as ours, we got to get beyond this, and I 
don't think it is a healthy environment.
    Mr. Hantman. I am so sorry that there are those kind of 
characterizations out there, because, sir, it is just not true. 
What we are trying to do is establish what the law says and 
where we go from there. No individual wants to be hurt, and no 
individual will be hurt by my office under the powers that we 
have under the legislation, sir.
    Mr. Moran. I hear quite differently.
    But my time is well up, Mr. Chairman.

                         GAO MANAGEMENT REVIEW

    Mr. Kingston. Thank you, Mr. Moran.
    The General Accounting Office recently completed a general 
management review of the AOC. A plan for implementing GAO 
recommendations was to have been developed by the AOC. What is 
the status of the plan? Can you highlight for us the overall 
timetable for implementing the GAO recommendations?
    Mr. Hantman. Our work with the GAO on the management 
review, Mr. Chairman, resulted in a number of recommendations, 
which we have integrated into our strategic plan and our annual 
performance plan.
    We accepted all of the GAO's recommendations, and our plan 
is to complete the vast majority of them by the end of this 
year. Some of them are going to go into the following year's 
annual performance plan.
    Their recommendations included completion of the AOC 
strategic plan, and that is certainly what we are into right 
now. In fact, we are meeting with lots of our stakeholders, and 
we would welcome the opportunity to meet with this Committee as 
well. We met with the House Inspector General yesterday, with 
the House Sergeant at Arms last week, the Senate side as well, 
to review our draft strategic plan and get feedback from our 
stakeholders on that. That is very important to us.
    Another GAO recommendation was to continue strengthening 
our human capital policies and procedures, and we are working 
strongly on that as indicated in the statement; also to 
continue to improve our financial management system and 
processes, and there is good progress there; developing and 
implementing a strategic approach to IT management. All of 
those things we are taking into account and factoring into our 
strategic plan. And the GAO indicated that there was a 5- to 7-
year time frame for all of these issues to be integrated and 
fully implemented.
    Mr. Kingston. In your opinion, was it a severe report? Was 
it shocking? Were there things that you expected?
    Mr. Hantman. I think, Mr. Chairman, they were reinforcing a 
lot of initiatives that we were already undertaking. I think 
they have been very positive in their comments about the 
progress that we are making on this. So I look forward to 
successfully----
    Mr. Kingston. I haven't seen it personally yet. I look 
forward to reviewing it, trying to learn as much as I can, and 
then perhaps respond with some ideas.
    Let me yield to Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Let me just underscore the importance of monitoring this 
GAO report and the steps that you are taking to deal with its 
recommendations. A number of these are quite important in terms 
of management improvement; for example, the option of creating 
a chief operating officer, the Human resource policies, leave 
awards, overtime, any possible discrepancies in job 
classification and pay levels across the agency, worker safety, 
the need to promote worker safety as a cultural norm and as a 
focal point of management and so forth.
    To the extent that you can touch those points in whatever 
you submit for the record, I would appreciate it.
    Mr. Hantman. Absolutely.
    [The information follows:]

                         GAO Management Review

    Question. Let me just underscore the importance of monitoring this 
GAO report and the steps that you are taking to deal with the 
recommendations. A number of these are quite important in terms of 
management improvement; for example, the option of creating a COO, the 
Human resource policies, leave awards, overtime, any possible 
discrepancies in job classification and pay levels across the agency, 
work safety, the need to promote that as a cultural norm and as a focal 
point of management and so forth. So to extent that you can touch those 
points in whatever you submit for the record, I would appreciate it.
    Response. The following items have been accomplished relative to 
the GAO report.
    <bullet> Implemented an Awards Program to recognize employee 
accomplishments.
    <bullet> Implemented an AOC Transit Benefit program. AOC employees 
who currently participate are eligible to receive benefits of up to 
$100.
    <bullet> Have a performance evaluation program in place for 
employees and managers.
    <bullet> Implemented the Architect's Mobility Program. Program 
provides career opportunities for high potential employees who occupy 
career limiting positions and lack qualifying experience to enter a 
different career field. Have had 17 employees that have completed the 
Program.
    <bullet> Provide a wide variety of training for employees and 
supervisory staff.
    <bullet> Developed a Workers Compensation Program Handbook for 
supervisors and managers.
    <bullet> Developed an Agency-wide leave policy that is currently in 
draft to be reviewed.
    <bullet> Revamped the recruitment process to streamline the 
processing of actions. According to the most recent figures from the 
Occupational Safety and Health Administration, we have cut our total 
injury/illness rate by 53% and our lost time injury/illness rate by 36% 
in the last two years. Our lost time rate for FY2002 was only slightly 
higher than the Federal agency average--a substantial achievement for a 
predominantly shop-oriented, blue collar work force. These significant 
reductions are a result of the priority I have placed on safety, the 
attention and commitment of the AOC management team, the hard work and 
dedication of AOC employees, and the ongoing support of this Committee.
    <bullet> We have increased our safety professional staff, modified 
work practices and procedures, and provided protective equipment and 
safety training to our employees.

                          EMPLOYEE RECRUITMENT

    Mr. Price. Let me follow up on a couple of matters. First, 
we have been talking about some labor relations matters and 
outstanding cases. I would like to focus on a little different 
aspect of your hiring practice; that is, the way you recruit 
and hire middle management and above personnel.
    Besides the wage grade and trade employees, can you tell us 
how many recruitments you conducted last year?
    Mr. Hantman. Oh, must be well over 200 recruitments that we 
did last year.
    Mr. Price. That is of middle management and above?
    Mr. Hantman. No, not at the middle management level.
    Mr. Price. Excepting wage grade and trade employees.
    Mr. Hantman. I can certainly get you a breakdown on that, 
sir.
    Mr. Price. All right. I wonder if you could also tell us 
how many of those positions were filled by people already 
within your employ, and many of these recruitments were open to 
any applicant regardless of their current employment? That is 
the focus of the question.
    Mr. Hantman. We post all of our jobs, sir. And they are 
open to applicants inside and outside the agency. When they are 
reviewed by our H.R. people, they will come up with sheets of 
candidates that they think are qualified for the job, and they 
will work out the sheets. First, they will give us the internal 
candidates who are qualified for the job for review, and they 
will have separate sheets talking about external candidates for 
review.
    So if we have a qualified internal person to move up, and 
they are on that certificate, we will consider them and give 
them priority.
    Mr. Price. All right. Well, that is helpful. If you could, 
then, just give us the bottom line in terms of how many of 
these positions were, in fact, opened in this fashion, and then 
how they were filled, and how many of the positions were filled 
by people who came from outside the agency as opposed to 
inside.
    The information follows:

                          Employee Recruitment

    Question. Besides wage grade and trade employees, how many 
recruitments did you conduct last year? How many of these positions 
were filled by people within the agency's employ? And how many of these 
recruitments were open to any applicant regardless of their current 
employment?
    Response. We had 323 recruitments last year. We had 42 recruitments 
for middle to upper management positions. 16 of those were filled by 
employees from within the agency; 26 were filled by applicants outside 
the agency.
    Out of 323 recruitments in the last year, 303 were open to any 
applicant regardless of their current employment, and 20 were open to 
AOC employees only. Of those 20, a decision is made on a case by case 
basis, so there would be a variety of reasons. One example would be the 
Architect's Mobility Program (AMP). It's an upward mobility program 
designed exclusively for AOC employees. Another example might be that a 
new position has been created, but an additional position was not 
established. Then the position from which the person was selected would 
not be refilled.

                         PROCUREMENT PROCEDURES

    Mr. Price. Finally, let me just ask you about procurement 
procedures. You, of course, do a lot of contracting, and there 
are always people who may feel like they are slighted in that 
process. We know that all too well. But I would like to get a 
feeling for any problems we might have and their scope.
    Could you give me an idea of the number of procurements 
that you conduct annually by the Architect of the Capitol's 
office itself, and by other organizations acting as agents of 
your office, the Army Corps, Navy, GSA and so forth?
    Mr. Hantman. Well, it has got to run into the thousands of 
procurements. Again, I will get you the breakdown and how we do 
that, but we always have competitive process for the 
procurements. Certainly over the $5,000 level all of them are 
put out there, and we get at least three bids. They are 
analyzed for best value to the government in terms of their 
ability to deliver the services or products, and the quality of 
those products as well.
    So competitive bidding is what we do all of the time to 
make sure that we do get best value for the government.
    Mr. Price. Do you have figures on how many of those 
procurements have been protested in the last year, and whether 
there is any pattern to the protests in terms of the offices 
that conducted the procurements?
    Mr. Hantman. Well, we have one protest going on right now 
in terms of the power plant award that we made. That protest, 
we had an evaluation board of four people take a look at all of 
the bids that came in, and take a look at the ability of the 
firms that bid to perform the work, took a look at their 
numbers in terms of their base bids and their option bids, and 
the selection was made based on the best value to the 
government for--in terms of the ability to do the job as well 
as the cost to the government.
    Mr. Price. Has that protest been resolved?
    Mr. Hantman. No. There was a protest. One of the bidders 
who was not successful took it to the local courts to try to 
get an injunction against our having the awarded contractor 
proceed, and the judge turned that down on the basis that he 
didn't think that they had a strong enough case.
    But there is a second bidder that is coming now and 
protesting as well, so that will be going to court.
    Mr. Price. Are there other protests underway? How 
widespread is this sort of contesting of your awards?
    Mr. Hantman. I am not aware of other protests. In fact, 
when we are talking about major procurements, we have brought 
in the General Services Administration to do procurements for 
services both on the CVC and on the Supreme Court in terms of 
the selection of services by firms as well as contractors to 
make sure that it is fair, open, above board, and that we can 
avoid any type of protests as well.
    Mr. Price. Well, there again, Mr. Chairman, if there is 
additional information along those lines, I would appreciate 
your furnishing it for the record. Thank you.
    [The information follows:]

                         Procurement Procedures

    Question. What are the number of procurements conducted annually by 
the Architect of the Capitol itself and by other organizations acting 
as agents of our office, the Army Corps, Navy, GSA and so forth?
    Response. During the period April 2, 2002 through April 1, 2003 the 
Architect of the Capitol conducted procurements as follows:
          --Credit Card Purchase: 7,813 transactions with an aggregate 
        value of $8,538,581.44.
          --Small Purchases (Purchases valued at $100,000 or less): 
        3,430 transactions with an aggregate value of $24,943,595.53.
    The above amount includes 36 transactions with an aggregate value 
of $777,108.97 transmitted to the General Services Administration. 
These transactions were for furniture and office supplies, vehicle 
leases, and procurement support for competitive acquisitions of 
construction for the Capitol Visitors Center and Supreme Court 
Modernization projects. Contract awards for the Capitol Visitor Center 
were made on days outside the period covered by this report, the 
Sequence 1 award occurring prior to it, and the Sequence 2 award 
occurring subsequent. Those awards were made by the Architect of the 
Capitol. The Supreme Court Modernization acquisition is ongoing.
    The above amount also includes 4 transactions with an aggregate 
value of $240,000.00 transmitted to the U.S. Army Corps of Engineers. 
These transactions are for support of design and construction work at 
Fort Meade, MD for storage facilities for the Library of Congress, 
together with acquisition support for that project. The competitive 
solicitation for construction services for the Library of Congress Book 
Storage Facility, Module 2 was recently announced by the Corps and is 
ongoing.
    The above amount also includes 8 transactions with an aggregate 
value of $216,026.09 transmitted to the U.S. Public Health Service. 
These transactions were for Occupational Health and Safety compliance 
support.
          --Orders Under Existing Contracts (General Services 
        Administration, other Federal Agency, and Architect of the 
        Capitol Indefinite Delivery Contracts): 93 transactions with an 
        aggregate value of $30,757,579.99.
    The above amount includes one (1) transaction with a value of 
$2,226,640.83 transmitted to the General Services Administration. This 
transaction is for Help Desk support services for the agency's computer 
network, desktop computers, and computer applications.
    The above amount includes 8 transactions with an aggregate value of 
$2,663,168.00 transmitted to various activities within the Department 
of Navy for support of a variety of design and construction efforts 
including the U.S. Capitol Police Master Plan, Off Site Mail Handling 
Facility, U.S. Capitol Police K-9 facility, U.S. Capitol Police 
Explosive Storage Facility, and Capitol Hill security initiatives. The 
Navy executes these requirements using existing in-house resources, 
existing contracts, and new contract awards.
          --Contracts and Contract Modifications: 160 transactions with 
        an aggregate value of $80,423,654.97.
    Question. Do you have figures as to how many of those procurements 
have been protested in the last year, and whether there is any pattern 
to the protests in terms of the offices that conducted the 
procurements?
    Response. The Architect of the Capitol currently has two protests 
involving a single acquisition, the award of a contract for the U.S. 
Capitol Power Plant West Refrigeration Plant Expansion. The Architect 
has no other protests ongoing. The last procurement protest against an 
Architect of the Capitol acquisition occurred 6 years ago. The 
Comptroller General denied the protester's complaint.

                              BUY AMERICAN

    Mr. Hantman. Thank you.
    Mr. Kingston. I thank the gentleman for that question.
    Do you have an American preference on your purchasing?
    Mr. Hantman. We buy American, sir.
    Mr. Kingston. And minority?
    Mr. Hantman. What we did, in fact, on the Capitol Visitor 
Center is we had a fair for small business and minorities, and 
we introduced--invited something like hundreds of companies to 
come on in. That was suggested by the small business and the 
Black Caucus, and we invited them all to come on in, meet the 
potential contractors and bidders so they could understand the 
scope of the work and determine if they wanted to bid on that.
    So we are very anxious to make sure, and we ask all of the 
general contractors to give us a breakdown of the small and 
minority businesses that they are using on projects.
    Mr. Kingston. Do you have any French companies 
participating?
    Mr. Hantman. I am not aware of that, sir.
    Mr. Kingston. Would you make sure? This Committee might 
have some curiosity about that.
    [The information follows:]

                              Buy American

    Question. Do you have any French companies participating?
    Response. The Architect of the Capitol follows the requirements of 
the Buy American Act (41 U.S.C. 10). We are not aware of any contracts 
awarded to French companies.

                        CAPITOL COMPLEX SECURITY

    Mr. Kingston. All the Committee Members and I are concerned 
about this ``Camp Capitol'' siege mentality that we are in. We 
tend to hear that requests are driven by Members. I can say 
this: Members of Congress don't come up to me and ask for 
things that they want. U.S. Capitol Police says, well, we are 
responding to Members' requests. But Members don't come up to 
Mr. Moran and me saying, ``I want 24-hour-a-day policing and I 
want jurisdictional expansion.'' That is fiction. That is not 
happening.
    What Members dislike is the confinement. For example, if 
you wanted to go from the Longworth Building to the Russell 
Building and you have visitors with you, or you don't want to 
go through the Capitol because you don't have an I.D., you have 
to walk up to First Street. I hope that somewhere between your 
security plans and Capitol Hill Police security plans wecan 
devise a way that they can walk around the Capitol Building without 
that inconvenience. Particularly if you are not physically fit, you 
don't want to walk all that distance, but you don't mind a little 
walking.
    I know it is very difficult, with orange alerts and 
heightened threat levels, knowing what to do. But I hope that 
we are looking at ways to ease the flow of traffic.
    Mr. Hantman. Well, there is a new tunnel that you can see, 
being built by the House steps right now, which connects to the 
Cannon tunnel. The concept there is that any Members or 
visitors coming from the House office building side, will be 
able to use that tunnel to get into the expansion space for the 
House, into the Visitor Center as well, or into the Capitol 
without having to go through the Capitol Building itself.
    Mr. Kingston. There would still be a security checkpoint.
    Mr. Hantman. At some point----
    Mr. Kingston. And a visitor couldn't have access to that 
tunnel at night.
    Mr. Hantman. That is correct. Once you are through the 
security checkpoint, you are free to travel wherever you would 
like to go.
    Mr. Kingston. I just think it should be a little bit more 
open for mom and dad from Peoria that--not necessarily to walk 
in the Capitol--but to be able to get from Russell to Longworth 
without having to pretend they are walking through Fort Knox. 
Members of Congress like to feel important, and having lots of 
security makes us feel important. However, I think some of this 
is maybe a little bit over the line.
    I hope you all are constantly looking at ways to stop this 
siege facade here.
    Mr. Hantman. It is a tremendous challenge, Mr. Chairman, to 
balance openness and security, as you alluded to before. And I 
constantly am talking with the Police Board, with the two 
Sergeants at Arms, all about those issues and what needs to be 
done and how we maintain the sense that, again, this is the 
people's house, this is the Congress, and people should be able 
to come and freely walk through and find out how their laws are 
being made and their lives are being impacted.
    That is a critical part, and that was one of the main 
reasons, of course, for the concept of a Visitor Center as 
well.

                               DOME TOURS

    Mr. Kingston. What is the status of dome tours?
    Mr. Hantman. The dome tours, because of the alert 
situation, are not in effect.
    Mr. Kingston. For example, I have my constituents from 
Savannah, Georgia at the Capitol. They have already gone 
through security two or three times to get to the dome. What is 
different now than it was 5 years ago? I am not going to swear 
to you that I know what is in their brain, but generally 
speaking, if Bob Smith from Georgia suddenly develops a mental 
instability, it is no different than happening to him 5 years 
ago. However, he has already walked through a magnetometer and 
he has been screened and I have some acquaintance with him. Why 
can't I take him up to the dome?
    Mr. Hantman. Well, there is a concern on the part of the 
Capitol Police and the Police Board about chem/bio issues and 
things that are not easily detected at this point in time.
    Mr. Kingston. I have my constituent family from back home--
the mom and dad and 2-1/2 kids--and the Capitol Police are 
saying he is a chem/bio suspect, whereas 5 years ago he wasn't? 
What would be different between him 5 years ago and him today?
    Mr. Hantman. It is a matter that the police are constantly 
doing risk assessments. And it is their basic recommendation--
--
    Mr. Kingston. Where is the science or the factual 
recommendation--the basis for that?
    Mr. Hantman. Well, in terms of the science, it really talks 
about the briefings that the police are constantly getting from 
other authorities. And I am not sure that there is an absolute 
answer to anything of that nature.

                          REOPENING DOME TOURS

    Mr. Kingston. You know, I intend to put a rider on this 
bill if that is what it takes to reopen the Capitol dome tours, 
because that is just one more example of the Washington police 
state arrogance--we are going to close something that people 
back home get a real thrill from. Not that many people want to 
traverse to the dome because it is physically challenging. But 
to say that they are going to sneak in a bomb, sneak in a gun, 
sneak in a vial of whatever substance, after they have gone 
through two or three checkpoints, and that the expectation or 
probability is higher today than it was 5 years ago is 
ridiculous.
    I am not saying that there is no possibility of it, but I 
am saying I can't see how the possibility of a negative result 
has changed today from 5 years ago when we could do it. This 
building doesn't belong to us, it doesn't belong to the police: 
it belongs to the constituents, and it should be open.
    Mr. Hantman. It goes beyond that, though, Mr. Chairman. One 
of the issues that we also investigated through the Police 
Board was putting together from the Capitol Physician's Office, 
the Police Board, a little task force to take a look at the 
dome itself. One of the issues is from day one, the dome 
doesn't meet any code criteria in terms of exit. As you know, 
you can hit your head going up, the winders are too narrow. It 
is really----
    Mr. Kingston. That is so offensive to me. That is just 
saying, ``We are going to be this safe, big brother. Nobody 
gets hurt.'' That is the romance of going up to the dome, 
seeing the still, seeing the scratch marks on the wall. They 
may jump over the balcony. They really might, but that is a 
prime example of Washington bureaucracy. The dome is the most 
wonderful tour in Washington.
    I would like you to work with me to reopen the dome.
    The White House has already cut off tours, and this 
particular administration does not like tours in general. The 
mentality already out there pre-9/11, but that was one of the 
great thrills of constituents coming up: they had to see the 
White House. Now they are unable to see the White House. 
Consequently, the consolation prize is a Capitol tour. This is 
a wonderful building, and people are always surprised how 
incredible and monumental it is, but the dome is one of the 
great features that we cannot offer them.
    Mr. Hantman. It truly is. And we welcome the opportunity to 
sit down with you and view the information and see where we can 
go.
    Mr. Kingston. I yield to Mr. Moran.
    Mr. Moran. I don't think you are off track at all, Mr. 
Chairman. I agree with you 100 percent. Now, maybe we are off 
track. Dave, how do you feel?
    Mr. Price. I couldn't agree more. I mean, obviously we 
can't have huge numbers of people going through the dome each 
day. But we had a perfectly workable control mechanism in 
place, that Members themselves had to truck up there if groups 
were going to go. And I didn't do it every day, but I did it 
enough to know that it is a unique treat. This is a unique 
experience for our staffs and for visitors. And I just can't 
imagine that there is any tangible, realistic threat that 
should lead to the indefinite suspension of these tours. So I 
am with you, Mr. Chairman.

                      DOME TOUR SECURITY CONCERNS

    Mr. Moran. Well, so there you go. And I wouldn't be at all 
surprised if every other Member of this Subcommittee is not 
with you as well, completely. I am glad to hear Mr. Price 
express his feelings. I concur exactly with both of you. There 
are going to be some Members who have just come in who will 
never experience the ability to take a constituent up to the 
dome. And if you and the chief of the Capitol Police have their 
way, that is going to be the case for all subsequent Members of 
Congress.
    And there are things we could do. I don't see any effort to 
be creative on this. For example, if you want to bring somebody 
up, you can maybe notify the Capitol Police or the Sergeant at 
Arms a week or 2 weeks in advance. Vet them. You know, we do 
background checks on people that want to buy weapons. Just, 
say, do a background check if you want to bring them up to the 
dome.
    You know, I had--actually, the fact is that staff was very 
good about this, but I had a Channel 7 reporter come in, and 
they did get to see a number of things in the Capitol. But the 
reality is that a Channel 7 reporter is not going to--I think 
it is pretty unlikely that they are going to be carrying 
chemical and biological weapons with them to destroy the 
Capitol Building. It is kind of a matter of common sense. And 
these are folks, normally the ones we bring up don't fit any 
pattern of people that would represent a threat. I am sure that 
the Members would be more than willing to comply.
    So that the dome, you know it is a small issue, but I do 
think it reflects an attitude. And I think there are a lot of 
Members that feel just the way Chairman Kingston does, that 
Members are no longer in charge here; but our people, the 
people who elect us, think we are. They really think that we 
are the ones elected to represent them and that we make the 
laws and that we carry them out, and this Capitol complex--we 
sort of are their representatives here.
    But, you know, we are losing them. We really are. You know, 
we know that if the police chief has his approach where he is 
going to stand down everything that moves until he decides it 
ought to move, you shut off any reasonable access we have from 
the House to the Senate. I mean, you can go through the 
Capitol, granted, but you can't take a nice stroll through the 
Capitol grounds. The place looks like a state of siege. It 
looks miserable. It really is not an attractive sight anymore. 
When you bring people, you have got all the fences, the new 
barriers.
    Now, granted when we go through the getting into the House 
side of the Capitol, you have got a nice planter there. It is 
pretty imposing but it is nice enough. But, you know, it is not 
the Capitol--anywhere near the Capitol that it usedto be, and I 
don't think that it looks like the Capitol of the Free World. And I 
have seen a lot of capitols that would be under greater threat that 
don't look as though they are completely obsessed, being under state of 
siege.
    Now, having said that, it is orange alert. This is not the 
time to say it. And I know that most people are thinking, well, 
gosh, after 9/11 everything changed. We are under an orange 
alert. How can you possibly be thinking about curtailing the 
power of the police? How can you possibly be thinking about 
limiting the protection of the Capitol Building or Members of 
Congress? But I do think it comes down to a matter of judgment.
    These are not things we plug into a computer and get a 
scientific answer. Judgment is an art. You know, what makes 
common sense? What is the right balance between the font of 
freedom that the United States represents and the reasonable 
protection of the symbols of that freedom? And I am not sure 
that we are reaching that balance. And what I am concerned 
about is when the orange alert is taken off and then we are 
down to yellow, and then things go back, the threat is 
alleviated, none of this apparatus that we have created is 
going to be reduced. It is going to be there. It will live in a 
very much changed environment. And that is not what I am 
comfortable with, and I am glad to see the Chairman isn't 
either.

                          CAPITOL CORNERSTONE

    Mr. Kingston. Thank you, Mr. Moran.
    We made a great search for the cornerstone a couple years 
ago. We didn't find it, right?
    Mr. Hantman. There was nothing found. The east front of the 
Capitol was underpinned some 40 or 50 years ago to make sure 
that it was secure. And they did a search for the cornerstone 
at that point in time. And the only way that they could really 
tell if it was the cornerstone is if they found that silver 
plate that George Washington put under it. And because of all 
that work, if it ever existed and had not deteriorated, it was 
probably gone at that point in time. My predecessor, George 
White, believes he found the cornerstone. But there is no way 
he could verify it. And that is really very close to the House 
takeout in the basement area.

                            ROOM RENOVATIONS

    Mr. Kingston. Do you have a room-by-room log on the 
renovation of the rooms? For example, if I wanted to find out 
the history on the carpeting or the maintenance of this room?
    Mr. Hantman. We could tell you the historical background on 
it. In terms of when the carpeting was last replaced, either 
the CAO or we would have that information. But in terms of the 
historic nature of the room, who occupied it, when it was first 
built, and different committees, we certainly could get that 
information.
    Mr. Kingston. And you have that inventory for every room?
    Mr. Hantman. All the historic rooms.

                         WASTE, FRAUD AND ABUSE

    Mr. Kingston. Another question I have is on waste, fraud, 
and abuse. What safeguards do you have in place with regard to 
procurement and your protecting millions of taxpayers dollars 
every year for construction projects?
    Mr. Hantman. Well, we are very concerned about that. We 
started talking before about the procurement process, and we 
always go out for multiple bids to get best value for the 
government. And we make sure that we do that consistently. We 
talk about internal regulations that require competition at 
least of three vendors for all procurements in excess of 5,000, 
and competition for procurements less than 5,000, which even 
can be done orally, but we still require that competition.
    Anything that is in excess of $100,000 by procurement 
status we advertise everything in Fed Biz Ops to maximize the 
competition to make sure that we get the best price. We are 
instituting a financial management system that is compliant 
with the requirements of the Joint Financial Managers 
Improvement program, and we are working very closely with GAO 
and we produce annual financial reports in a standard general 
ledger, which is very new to the agency. So we are making great 
strides in that respect.
    We will have our financial statements audited for fiscal 
year ending in 2003 for the first time. We have constituted an 
audit committee--an outside committee of experts from the 
private sector--to assist us in this effort to give us the 
standards, to make sure that we are doing it appropriately. We 
have an Inspector General who conducts investigations of audits 
of programs and procedures to ensure that the waste, fraud, and 
abuse is managed, no matter who reports it and what he finds. 
And we have annual audits of the restaurants and down the line, 
sir. We are very careful to make sure that the dollars that we 
are given and the materials that we have are taken care of.
    Mr. Kingston. Do you have anything, though, aside from the 
process results, which have all led to hard dollars already 
spent? Do you have something which illustrates these audits and 
procedures identifying examples of wasted dollars?
    Mr. Hantman. What we are making sure is that what we order 
and that what we use are, in fact, used appropriately. So it is 
really a question of not wasting--and making sure that 
materials as they come in, and what we order really fits into 
the profile of what is truly needed. I will check to see if we 
do have anything that is measurable.
    Mr. Kingston. Please submit your findings for the record.
    [The information follows:]

                         Waste, Fraud and Abuse

    Question. Do you have anything aside from the process results, that 
has led to hard dollars; that because of these audits, because of these 
procedures, here were some of the examples of dollars that you 
identified that were wasted?
    Response. No, at this time we have not set up the financial bench 
marks to measure and report actual cost savings from our processes.

                           Closing Statements

    Mr. Kingston. But I am interested to see the results.
    Mr. Moran, if you have any more?
    Mr. Moran. I think we have had enough fun for this morning, 
Mr. Chairman. It has absolutely, in all seriousness, been a 
good hearing. You know, I am sure the architect expected it to 
be somewhat contentious, but that is our role, too. It is--we 
are not here to play patty-cake or just to pat everybody on the 
back. We take our oversight role seriously.
    And I appreciate the hearing, Mr. Chairman, and I trust 
that we are going to get some answers. And, you know, we care 
about the work that you do and we look forward to working with 
you. Thank you.
    Mr. Hantman. I thank you. And I certainly do care very 
strongly about our stewardship responsibilities and our 
responsibilities to our employees as well. There is nothing 
that we would be wanting to do that is outside the purview of 
the law. We are trying to do the law as we read it, clarify 
points where we need to, and treat our people with dignity and 
respect.
    Mr. Kingston. Thank you, Mr. Hantman. Thank you, Mr. Moran.
    Let me just close with this. We are going to have another 
hearing on the CVC, and that is probably going to be a very 
hearty hearing. This Committee is trying to be very sensitive 
concerning any access to the Capitol, any problems, any waste 
or fraud or abuse, because it reflects on the institution of 
Congress. We are actually required to have a very high 
standard, as should all government agencies.
    Thank you. This Committee stands adjourned, subject to the 
call of the Chair.
    [The following question was asked subsequent to the hearing 
and response follows:]

               Expansion of the West Refrigeration Plant

    The Architect of the Capitol (AOC) is undergoing an expansion of 
the West Refrigeration Plant. This plant will be used to, among other 
things, cool the new Capitol Visitor Center. The AOC is in the process 
of evaluating engineering and mechanical functions for the plant. One 
such function is the air-conditioning system.
    It appears as though the AOC will accept a proposal that will cost 
$2 million more in initial capital outlays to purchase; will cost $1 
million more in annual operating costs, and is less flexible and less 
reliable that a competing proposal. This alternative proposal meets all 
technical requirements, and is offered by a long-standing and reputable 
firm in the air-conditioning business.
    Question. According to information available to the Committee, the 
AOC will accept a proposal for an air-conditioning system that costs $2 
million more to buy, that would cost $1 million annually to operate, 
and will be less flexible and less reliable in operation.
    An independent consultant concluded that the competing proposal 
offers other benefits to the AOC and the taxpayer. The AOC's own 
engineering firm has informally endorsed the alternative proposal.
    In light of this, why would AOC reject this proposal and go with 
the more costly option?
    Response. The agency conducted a competitive negotiated ``best 
value'' procurement for the expansion of the West Refrigeration Plant 
for the U.S. Capitol Power Plant in accordance with our normal 
procedures, including advertising the requirement in the FedBizOps 
nationwide service of the General Services Administration, appointment 
of a Technical Evaluation Board, separate evaluation of the technical 
and price proposals of each offeror, a recommendation regarding award 
to me as the Source Selection Authority, and my award to the offeror 
whose proposal was determined to provide the best value to the 
government. Although the technical specification for the project 
included certain specifications that had to be met or exceeded to meet 
the requirements for providing chilled water for the legislative 
branch, the chiller equipment was included as part of a total bid 
package with a lump sum price for the entire construction project.
    To ensure the maximum competition, the agency provided bidders the 
ability to provide pricing on a specified base system, or on an 
alternate system that would require the design of certain physical 
modifications to the Plant and would achieve the same specified 
capacities.
    Four offerors submitted proposals in response to the solicitation, 
with one offeror submitting two proposals, including one offering an 
alternate chiller system, as permitted by the solicitation. The 
solicitation provided for evaluations of proposals as: (1) Exceptional, 
(2) Acceptable, (3) Marginal, and (4) Unacceptable. Three proposals 
were evaluated as ``Acceptable'' and two, including the proposal 
submitted on the basis of the alternate chiller system evaluated as 
``Unacceptable.'' The proposal offering the alternative chiller system 
was evaluated as unacceptable because it failed to provide a complete 
design of the modification that would be made to the Plant and because 
it failed to provide the capacities as specified, which represented the 
minimum needs of the government. In accordance with the terms of the 
solicitation, award was made to the offeror whose ``Acceptable'' 
proposal provided the best value to the government. The terms of the 
solicitation also required that ``Unacceptable'' proposals could not be 
considered for award.
    Two bidders filed protests with the General Accounting Office, and 
subsequently filed suit in the United States Court of Federal Claims. 
The bidder that submitted the alternate chiller system did not. The 
Court has issued a Protective Order to ensure that source selection 
sensitive and procurement sensitive information is not released beyond 
those covered by the Protective Order.

    [Clerks note.--The justification of the budget request 
submitted by the Architect of the Capitol to the Subcommittee 
follows:]

[GRAPHIC] [TIFF OMITTED] T7100D.025

[GRAPHIC] [TIFF OMITTED] T7100D.026

[GRAPHIC] [TIFF OMITTED] T7100D.027

[GRAPHIC] [TIFF OMITTED] T7100D.028

[GRAPHIC] [TIFF OMITTED] T7100D.029

[GRAPHIC] [TIFF OMITTED] T7100D.030

[GRAPHIC] [TIFF OMITTED] T7100D.031

[GRAPHIC] [TIFF OMITTED] T7100D.032

[GRAPHIC] [TIFF OMITTED] T7100D.033

[GRAPHIC] [TIFF OMITTED] T7100D.034

[GRAPHIC] [TIFF OMITTED] T7100D.035

[GRAPHIC] [TIFF OMITTED] T7100D.036

[GRAPHIC] [TIFF OMITTED] T7100D.037

[GRAPHIC] [TIFF OMITTED] T7100D.038

[GRAPHIC] [TIFF OMITTED] T7100D.039

[GRAPHIC] [TIFF OMITTED] T7100D.040

[GRAPHIC] [TIFF OMITTED] T7100D.041

[GRAPHIC] [TIFF OMITTED] T7100D.042

[GRAPHIC] [TIFF OMITTED] T7100D.043

[GRAPHIC] [TIFF OMITTED] T7100D.044

[GRAPHIC] [TIFF OMITTED] T7100D.045

[GRAPHIC] [TIFF OMITTED] T7100D.046

[GRAPHIC] [TIFF OMITTED] T7100D.047

[GRAPHIC] [TIFF OMITTED] T7100D.048

[GRAPHIC] [TIFF OMITTED] T7100D.049

[GRAPHIC] [TIFF OMITTED] T7100D.050

[GRAPHIC] [TIFF OMITTED] T7100D.051

[GRAPHIC] [TIFF OMITTED] T7100D.052

[GRAPHIC] [TIFF OMITTED] T7100D.053

[GRAPHIC] [TIFF OMITTED] T7100D.054

[GRAPHIC] [TIFF OMITTED] T7100D.055

[GRAPHIC] [TIFF OMITTED] T7100D.056

[GRAPHIC] [TIFF OMITTED] T7100D.057

[GRAPHIC] [TIFF OMITTED] T7100D.058

[GRAPHIC] [TIFF OMITTED] T7100D.059

[GRAPHIC] [TIFF OMITTED] T7100D.060

[GRAPHIC] [TIFF OMITTED] T7100D.061

[GRAPHIC] [TIFF OMITTED] T7100D.062

[GRAPHIC] [TIFF OMITTED] T7100D.063

[GRAPHIC] [TIFF OMITTED] T7100D.064

[GRAPHIC] [TIFF OMITTED] T7100D.065

[GRAPHIC] [TIFF OMITTED] T7100D.066

[GRAPHIC] [TIFF OMITTED] T7100D.067

[GRAPHIC] [TIFF OMITTED] T7100D.068

[GRAPHIC] [TIFF OMITTED] T7100D.069

[GRAPHIC] [TIFF OMITTED] T7100D.070

[GRAPHIC] [TIFF OMITTED] T7100D.071

[GRAPHIC] [TIFF OMITTED] T7100D.072

[GRAPHIC] [TIFF OMITTED] T7100D.073

[GRAPHIC] [TIFF OMITTED] T7100D.074

[GRAPHIC] [TIFF OMITTED] T7100D.075

[GRAPHIC] [TIFF OMITTED] T7100D.076

[GRAPHIC] [TIFF OMITTED] T7100D.077

[GRAPHIC] [TIFF OMITTED] T7100D.078

[GRAPHIC] [TIFF OMITTED] T7100D.079

[GRAPHIC] [TIFF OMITTED] T7100D.080

[GRAPHIC] [TIFF OMITTED] T7100D.081

[GRAPHIC] [TIFF OMITTED] T7100D.082

[GRAPHIC] [TIFF OMITTED] T7100D.083

[GRAPHIC] [TIFF OMITTED] T7100D.084

[GRAPHIC] [TIFF OMITTED] T7100D.085

[GRAPHIC] [TIFF OMITTED] T7100D.086

[GRAPHIC] [TIFF OMITTED] T7100D.087

[GRAPHIC] [TIFF OMITTED] T7100D.088

[GRAPHIC] [TIFF OMITTED] T7100D.089

[GRAPHIC] [TIFF OMITTED] T7100D.090

[GRAPHIC] [TIFF OMITTED] T7100D.091

[GRAPHIC] [TIFF OMITTED] T7100D.092

[GRAPHIC] [TIFF OMITTED] T7100D.093

[GRAPHIC] [TIFF OMITTED] T7100D.094

[GRAPHIC] [TIFF OMITTED] T7100D.095

[GRAPHIC] [TIFF OMITTED] T7100D.096

[GRAPHIC] [TIFF OMITTED] T7100D.097

[GRAPHIC] [TIFF OMITTED] T7100D.098

[GRAPHIC] [TIFF OMITTED] T7100D.099

[GRAPHIC] [TIFF OMITTED] T7100D.100

[GRAPHIC] [TIFF OMITTED] T7100D.101

[GRAPHIC] [TIFF OMITTED] T7100D.102

[GRAPHIC] [TIFF OMITTED] T7100D.103

[GRAPHIC] [TIFF OMITTED] T7100D.104

[GRAPHIC] [TIFF OMITTED] T7100D.105

[GRAPHIC] [TIFF OMITTED] T7100D.106

[GRAPHIC] [TIFF OMITTED] T7100D.107

[GRAPHIC] [TIFF OMITTED] T7100D.108

[GRAPHIC] [TIFF OMITTED] T7100D.109

[GRAPHIC] [TIFF OMITTED] T7100D.110

    [Clerk's note.--The justification of the budget request for 
the Joint Economic Committee, the Office of Compliance and the 
Open World Leadership Center submitted to the Subcommittee 
follows:]

[GRAPHIC] [TIFF OMITTED] T7100D.111

[GRAPHIC] [TIFF OMITTED] T7100D.112

[GRAPHIC] [TIFF OMITTED] T7100D.113

[GRAPHIC] [TIFF OMITTED] T7100D.114

[GRAPHIC] [TIFF OMITTED] T7100D.115

[GRAPHIC] [TIFF OMITTED] T7100D.116

[GRAPHIC] [TIFF OMITTED] T7100D.117

[GRAPHIC] [TIFF OMITTED] T7100D.118

[GRAPHIC] [TIFF OMITTED] T7100D.119

[GRAPHIC] [TIFF OMITTED] T7100D.120

[GRAPHIC] [TIFF OMITTED] T7100D.121

[GRAPHIC] [TIFF OMITTED] T7100D.122

[GRAPHIC] [TIFF OMITTED] T7100D.123

[GRAPHIC] [TIFF OMITTED] T7100D.124

[GRAPHIC] [TIFF OMITTED] T7100D.125

[GRAPHIC] [TIFF OMITTED] T7100D.126

[GRAPHIC] [TIFF OMITTED] T7100D.127

[GRAPHIC] [TIFF OMITTED] T7100D.128

[GRAPHIC] [TIFF OMITTED] T7100D.129

[GRAPHIC] [TIFF OMITTED] T7100D.130

[GRAPHIC] [TIFF OMITTED] T7100D.131

[GRAPHIC] [TIFF OMITTED] T7100D.132

[GRAPHIC] [TIFF OMITTED] T7100D.133

[GRAPHIC] [TIFF OMITTED] T7100D.134

[GRAPHIC] [TIFF OMITTED] T7100D.135

[GRAPHIC] [TIFF OMITTED] T7100D.136

[GRAPHIC] [TIFF OMITTED] T7100D.137

[GRAPHIC] [TIFF OMITTED] T7100D.138

[GRAPHIC] [TIFF OMITTED] T7100D.139

[GRAPHIC] [TIFF OMITTED] T7100D.140

[GRAPHIC] [TIFF OMITTED] T7100D.141

[GRAPHIC] [TIFF OMITTED] T7100D.142

[GRAPHIC] [TIFF OMITTED] T7100D.143

[GRAPHIC] [TIFF OMITTED] T7100D.144

[GRAPHIC] [TIFF OMITTED] T7100D.145

[GRAPHIC] [TIFF OMITTED] T7100D.146

[GRAPHIC] [TIFF OMITTED] T7100D.147

[GRAPHIC] [TIFF OMITTED] T7100D.148

[GRAPHIC] [TIFF OMITTED] T7100D.149

                                            Tuesday, July 15, 2003.

                         CAPITOL VISITOR CENTER

                               WITNESSES

DAVID M. WALKER, COMPTROLLER GENERAL OF THE UNITED STATES
JEANETTE M. FRANZEL, DIRECTOR, FINANCIAL MANAGEMENT AND ASSURANCE
BERNARD L. UNGAR, DIRECTOR, PHYSICAL INFRASTRUCTURE
ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL

                           Welcoming Remarks

    Mr. Kingston. Good afternoon. I would like to welcome 
everybody here and thank the members of the committee who have 
arrived and I particularly thank both the Honorable Alan 
Hantman, the Architect of the Capitol; and the Honorable David 
Walker, Comptroller General of the United States for being 
here.
    We are here today to discuss the Capitol Visitor Center, 
where our committee is increasingly playing more of a role of 
oversight. We believe that we can make a very positive 
contribution in the role of oversight, yet this committee, 
particularly many of the members of this committee, feels it 
may be intervening a little later than we would have liked to. 
However, we are going to try to do everything we can to achieve 
a better understanding of the scope of this project, the 
budget, the schedule and any contingencies.
    The idea of the Visitor Center had been around for many 
years. There is no dispute that it will happen. I know there 
have been a lot of discussions and maybe rhetorical saber 
rattling implying that we are going to fill in the hole, and I 
know there are members who may even feel that way individually, 
but this committee wants to get this project done, and so we 
are not here to discuss, ``Are we going to have a Visitor 
Center or not.''
    What we are concerned about is some of the overruns. The 
recent GAO cost analysis states that the project is grossly 
over budget and greatly delayed. The committee is therefore 
concerned. The people who first envisioned the Visitor Center 
did not necessarily picture an expansion of 580,000 square feet 
and a cost of potentially $500 million. We know there have been 
a lot of change orders as we have had previous hearings with 
the Architect of the Capitol where it appears that there are 
simply too many bosses coming in day by day, month by month 
saying, ``Do this, do that.'' We know that there have been 
additions.
    We know that 9/11 had an impact on the CVC, and 
consequently there are a number of explanations that exist. 
Nonetheless, we want to take this project from this point 
forward and say, ``What can we do to rein it back in? Is it 
Congress that is putting in all these changes? Is it 
mismanagement? Is there an organizational problem? Is it 
failure to communicate?'' We don't know, but what we want to do 
is stop the lack of knowledge, because we want to be sure that 
this project is something that all of us in the Legislative 
Branch family can be proud of at the end of the day. In order 
to get to a state where we are not pointing fingers and 
debating it outside of a chamber or a civil meeting, we all 
have to get on one page and say, ``This is what is going to 
happen from this point on and we are all at least somewhat 
unified.''
    With that, I yield to Mr. Moran, the Ranking Minority 
Member of this subcommittee.

                            PROJECT CONCERNS

    Mr. Moran. Thank you very much, Mr. Chairman, first of all 
for having this hearing. As everyone in this room knows, I 
think we included no new funds for this project in the 
appropriation bill that we just passed on the House floor, but 
we don't have the luxury of waiting another year to gain a 
handle on cost overruns, many of which we have already 
acknowledged and understand, and some of the management issues 
that at least have been raised.
    So I think this hearing is timely and appropriate before we 
go to conference with the Senate on the Legislative Branch 
appropriations bill. So I supported your decision, Mr. 
Chairman, to slow down the pace of the Architect's other 
construction projects until we can perform this review.
    Now, I know that media interest and comparisons to Boston's 
Big Dig have not been seen as particularly helpful and probably 
inappropriate, but the fact is that many of our colleagues have 
very substantial concerns about this project, the need for it 
and the cost of it. Those are the questions we are going to be 
asking, and I trust that we are going to get responses that are 
not only concise by just the kinds of responses that are going 
to allay the concern of our colleagues, and that is really our 
responsibility, to represent the concern of our colleagues.
    I have a number of pretty specific questions that I want to 
ask, and I think this is going to be a very constructive 
hearing, and I trust that we will get definitive answers and be 
able to move forward as a result of this hearing. So thanks, 
Mr. Chairman.

                        Swearing In of Witnesses

    Mr. Kingston. I thank the gentleman from Virginia.
    Mr. LaHood.
    Mr. Tiahrt.
    The Chair wants to notify members that we are going to try 
to adhere to the 5-minute rule as much as possible, and in so 
doing, give everybody plenty of opportunities to speak.
    We will now swear in the witnesses. Under Rule 11, Clause 
2(m) of the Rules of the House, Section 1(b) of the Rules of 
the Committee, I am authorized as Subcommittee Chairman, to 
administer the oath. I ask all mentioned as well as those who 
might be called upon to answer questions, to please stand and 
raise your right hand.
    [Witnesses sworn.]
    Mr. Kingston. The Chair will now recognize the Honorable 
David M. Walker, Comptroller General of the United States to 
summarize his testimony.

                  Statement of the Comptroller General

    Mr. Walker. Thank you, Mr. Chairman. Mr. Moran, members of 
the subcommittee, I would like for my entire statement to be 
included in the record, if that is all right, Mr. Chairman, and 
I will hit the highlights.
    Mr. Kingston. Certainly.
    Mr. Walker. As you know, first as a result of a mandate of 
the Appropriations Committee and then subsequently as a result 
of requests from Leadership, GAO has been involved for several 
years and much more extensively for a number of months in 
monitoring activities associated with the Capitol Visitor 
Center project. When we got more extensively involved in the 
fall of last year, we noted a number of concerns with regard to 
a variety of management issues. The Architect of the Capitol 
agreed with most of our recommendations and took actions 
associated therewith.
    In the spring of this year, we determined, based upon our 
oversight work, that the then estimated budget amount of $303.5 
million for the Capitol Visitor Center ``base project'' was no 
longer current. We, therefore, made a recommendation that there 
needed to be an updated estimate of that base project.
    The Architect of the Capitol and Gilbane Corp. updated 
their project cost estimates in March of this year. 
Subsequently, the Architect hired Tishman Construction 
Corporation to review the reasonableness of the assumptions of 
that estimate.
    We were then asked to review Tishman's work. The bottom 
line is that based upon the assumptions and scope that Tishman 
was given, we believe their analysis was reasonable, but we did 
come up with an additional $7 million that we believed needed 
to be added to their estimate, thereby bringing the total up to 
$351.3 million for the base project versus $303.5 million under 
the current budget.
    We also noted that there were a number of different 
contingencies and uncertainties that could potentially affect 
the project. Although none of these contingencies is guaranteed 
to occur, Congress should at least be aware of them should they 
have to be considered for future budgeting. When you are 
digging big holes, you never know what you are going to find 
under the ground. There are certain other issues that may or 
may not come to pass. So we performed additional analyses to 
try to come up with an estimate of what the cost associated 
with those additional uncertainties might be. We noted in my 
testimony what the dollar range cost for these uncertainties 
might be.
    As you know, the Architect estimates that the project is on 
schedule for substantial completion of the plaza deck by 
January 2005, for the substantial completion of the entire 
center by September of 2005, and for final completion and 
opening to the public by December of 2005. The fact is for a 
variety of reasons, including weather, (we haven't had great 
weather this year at least up until recently) and there is 134 
days of delay so far. There may or may not be additional days 
of delay. Some delays were anticipated. Others could not have 
been anticipated.
    We recommended that an additional $2 million be included as 
a contingency for potential additional delays. Finally, Mr. 
Chairman, I would note that we included, as noted on pages 6 
and 7 of my testimony, a number of specific recommendations for 
the Congress in order to try to mitigate the potential risks 
associated with these uncertainties.
    Candidly, Mr. Chairman, let me say for the record right now 
that when the first estimate was done for this project it was 
not based upon an updated set of specifications, and so by 
definition one has to expect that there were going to be some 
variances. Second, when the first estimate was done for this 
project, it was prior to the events of September 11, 2001, and 
needless to say there are a number of security and other 
considerations that have to be considered as a result of 
September 11th.
    Let me also say that while the Congress is our client, and 
I am proud to be an officer of the United States, in the 
Legislative Branch, there are a number of different players who 
are interested and involved in this project. This project has a 
degree of complexity, and a degree of controversy that one does 
not normally see in major construction projects. I will be 
happy to answer any particular questions that you might have 
associated therewith.
    Thank you, Mr. Chairman.
    [The prepared statement submitted for the record by the 
Comptroller General follows:]

[GRAPHIC] [TIFF OMITTED] T7100E.001

[GRAPHIC] [TIFF OMITTED] T7100E.002

[GRAPHIC] [TIFF OMITTED] T7100E.003

[GRAPHIC] [TIFF OMITTED] T7100E.004

[GRAPHIC] [TIFF OMITTED] T7100E.005

[GRAPHIC] [TIFF OMITTED] T7100E.006

[GRAPHIC] [TIFF OMITTED] T7100E.007

[GRAPHIC] [TIFF OMITTED] T7100E.008

[GRAPHIC] [TIFF OMITTED] T7100E.009

                               BASE COST

    Mr. Kingston. Thank you, Mr. Walker. I wanted to start with 
the base cost, because I want to make sure everybody 
understands. The initial base cost was $265 million, and 
according to your additional estimate, it would run to $305. 
Now the base is $351 million.
    Mr. Walker. The base we estimated at $351.3 million, that 
is correct.
    Mr. Kingston. Our two major modifications indicate, $70 
million for House and Senate office expansion space and $35 
million for enhanced security. Hence, we are now looking at a 
project that is $456 million.
    Mr. Walker. Without consideration of additional 
contingencies for risks and uncertainties, that is correct.
    Mr. Kingston. Of the additional contingencies, there are 37 
that you enumerated in your report. Correct?
    Mr. Walker. There is additional potential of between the 
$30 and $45 million, yes.
    Mr. Kingston. So it is between $30 and $45 million?
    Mr. Walker. That is correct, Mr. Chairman.
    Mr. Kingston. You mentioned just now in your testimony a $2 
million cushion for contingencies?
    Mr. Walker. The $2 million is already in there. It is a 
subset of the $7 million number that GAO added..
    Mr. Kingston. At the $456 million level, which is known, in 
addition to that there is $37 million unknown?
    Mr. Walker. There is potential for $30 to $45 million more 
that may or may not occur.
    Mr. Kingston. May or may not occur?
    Mr. Walker. Right. And we believe a number of steps can and 
should be taken to try to mitigate the related risk and 
exposure.
    Mr. Kingston. Right. But those unknowns----
    Mr. Walker. $30 to $45 million, right.
    Mr. Kingston. You are saying the dollar figure to those 
unknown is $30 to $45 million?
    Mr. Walker. That is correct.
    Mr. Kingston. We are then looking at $456 million plus $30 
to $45 million more?
    Mr. Walker. $30 to $45 million, which may or may not occur. 
That is for the base, correct.

                         INFORMING THE CONGRESS

    Mr. Kingston. Either way you want to add it, the taxpayers 
are paying for it.
    In terms of GAO, what I don't quite understand is why did 
we arrive at this point before this committee or members of the 
Congress found out about it. It seems to me that it was only in 
maybe March of this year when people started getting much more 
concerned, there was a lot more visibility about this. Why?

                          REESTIMATION OF COST

    Mr. Walker. Well, I think there are several reasons, Mr. 
Chairman. First, let me note that you wouldn't have the 
information that you have in order to conduct this oversight 
hearing without GAO's involvement. Let me also say that if I 
was still in the private sector, this is probably not a job 
that I would have taken for a variety of reasons. But the 
answer is we noted certain concerns back last fall. Actions 
were taken with regard to many of those concerns. We started 
expressing preliminary concern with regard to the 
reasonableness of the estimates and made a specific 
recommendation early this year that there needed to be a 
reestimation. I think there were some concerns on behalf of 
certain staff as to whether or not we articulated those as 
early as we could have. Reasonable people can differ on that. 
We were also asked to be constructive in trying to have a 
constructive relationship with the AOC and not to sound 
warnings too early or too prematurely in ways that could unduly 
and possibly unnecessarily alarm people.
    My personal opinion, Mr. Chairman, is that starting in 
April of this year, when I personally got involved in this 
matter, we have reached an understanding of what type of alert 
mechanisms we are going to use. We are now participating each 
week in the Leadership and Appropriation senior staff meetings 
that occur on Monday of each week. My understanding is that any 
concerns that may have existed in the past, whether they are 
valid or not, are not relevant at the present point in time, 
and I don't think have been for the last several months.

                        NOTIFICATION BY THE AOC

    Mr. Kingston. Should the Office of the AOC notified 
Congress earlier, saying ``Hey, there is an issue here, and you 
need to know about it? I ask the question trying to be as 
constructive as possible, but all of us--the AOC, the Congress, 
the GAO--have a problem, and will not be conveniently placed on 
anybody's doorstep, leaving the other two covered from it. We 
are looking for solutions from here on. I think part of what we 
have to look at is how to avoid this occuring again. The AOC 
has lots of projects, including the Supreme Court major 
renovation going on right now. We need to change this for the 
future. Consequently, I ask should there have been notification 
from the AOC earlier, in your opinion?
    Mr. Walker. Well, as I said, I am not intimately familiar 
with the details before I got involved. I will say this, human 
nature being what it is and given the scrutiny associated with 
this particular project and the fact that it is of concern not 
just to the Appropriators but also the Leadership, one wants to 
be fairly certain that there is a problem in managing the 
project before saying something about it.
    I would respectfully suggest that is why it is important 
for GAO to be involved, for us to be able to identify issues 
that may be problems but not to a degree of certainty yet, to 
be able to send up a signal of concern which may or may not 
come to pass but at least an early warning indicator, if you 
will, such that Congress can determine what, if any, action is 
necessary.
    In fairness, Mr. Chairman, I will also say that one of the 
challenges associated with this is that Congress still has to 
define all the specifications and get control of change orders. 
A lot of people have different opinions about what they want 
out of this project. Those opinions can differ based upon 
Leadership and Appropriators, House, Senate, and it is really 
important that there be a definition of exactly what is going 
to be delivered and a control be gained over any potential 
change orders, because in many cases the increase in price is 
not necessarily because of cost overruns. It is because of 
scope changes, of which there has to be better control. You 
wouldn't see this in the private sector.
    Mr. Kingston. We are going to do one 5-minute round, then 
let Mr. Hantman testify and then we will have questions for 
either. We are not ignoring you, Alan. Mr. Moran.

                           SPECIFIC COST DATA

    Mr. Moran. Thank you, Mr. Chairman. I am going to follow up 
with your initial line of questioning, and I think these, the 
answers, if I might suggest, are one word, yes and no, if I 
could structure them that way.
    First we have the base funding. The Chairman talked about 
this is the actual structure that will house the Visitor 
Center, including the new cost to complete estimate that the 
GAO agreed upon. That number is $351.3 million. Right?
    Mr. Walker. That is correct.
    Mr. Moran. $351.3 million. The GAO warned of additional 
funding requirements to cover uncertainties for that base 
project and stated that the cost of completion will--now, these 
are GAO's words--``will most likely be between $380 and $395 
million.'' Is that correct?
    Mr. Walker. That is correct, Mr. Moran. We were trying to 
attempt to value those uncertainties.
    Mr. Moran. ``Most likely'' are the words that you used.
    Mr. Walker. We stand by what we said.
    Mr. Moran. Thank you. Now, I understand that with 
Legislative Branch funds, there is an additional $35.8 million 
that will pretty much go to the Capitol Police to implement 
their requirements for security at the center. Correct?
    Mr. Walker. It is my understanding that those funds are 
coming from another source.
    Mr. Moran. Now, next I understand there is $70 million that 
has been budgeted for constructing the expansion space, $35 
million for the House and $35 million for the Senate. Right?
    Mr. Walker. That is my understanding, Mr. Moran.

                       CONSTRUCTION CONTINGENCIES

    Mr. Moran. Now, Mr. Walker, you warned that $70 million may 
not be adequate for that, and, Mr. Hantman, I understand that 
the primary restraint on this element of the project is that it 
is designed to budget. You are aiming for that price, but the 
$70 million figure is not necessarily solid. So I assume that 
you have completed those designs that you have told us about 
and that you are confident at this point that you can come in 
at that price. I mean, I don't want to get into the weeds too 
much here, but for our comfort level let's just assume that 
this element of the project goes over by, say, 6 percent, which 
is pretty much the standard contingency number. So we could say 
$74 million. Would that be reasonable?
    Mr. Hantman. One clarification, Mr. Moran, is the design is 
still underway with both the House and the Senate on both of 
the expansion spaces. So it has not been completed yet. What we 
are trying to do is--on a space by space programmatic need is 
to explain to the Leadership what we can expect in terms of the 
quality of the finishes in each of those spaces so that we can 
control those expectations.
    Mr. Moran. Well, in your professional judgment, 6 percent 
over budget would be reasonable?
    Mr. Hantman. We have a 10 percent contingency for----
    Mr. Moran. Ten percent.
    Mr. Hantman. And a 10 percent contingency for construction 
built into those $35 million----
    Mr. Moran. Well, let's say $77 million then for the 10 
percent contingency?
    Mr. Hantman. It is already built----
    Mr. Moran. Oh, it is already built in. Ten percent is built 
in.
    Mr. Hantman. That's correct.

                             RELATED COSTS

    Mr. Moran. Got you. So the $70 million really ought to be 
adequate. Okay. So let's deal with $70 million.
    Then we have funding related to the project. You have to 
modify the Capitol building with improved electrical and air 
handling systems. Substantial modifications are underway for 
the Capitol power plant, and as part of the construction 
process you needed to relocate some offices. So I understand 
the cost of those projects is about $102.3 million. Is that 
accurate?
    Mr. Hantman. I am not sure which ones we are adding up.
    Mr. Moran. Well, we can show you the numbers, but that is 
related costs, Capitol power plant particularly, it comes to 
$102.3 million?
    Mr. Hantman. Mr. Moran, the Capitol power plant would have 
been built with or without the Visitor Center itself. So I 
really think it is unreasonable to assign the cost for the 
Capitol power plant expansion to the Visitor Center. There is a 
fairly small increment of cost that would be related to the----
    Mr. Moran. Well, in the budget justification it says 
related Capitol Visitor Center funding, and this is from your 
office, and it has $2 million--it has $81.8 million Capitol 
power plant appropriation, West refrigeration plant. So it 
comes under--and your budget justification says related CVC 
funding.
    Mr. Hantman. A portion of it certainly is related, Mr. 
Moran, but the project itself should have gone----
    Mr. Moran. Well, okay. We'll use the $81.8 million, then, 
that you referred to as related CVC funding. Should we do that?
    Mr. Hantman. If you want to take the time, I can certainly 
explain the whole background of----
    Mr. Moran. I do want to fall within--as closely as I can 
within this 5 minutes, but to get the point--what I get to, 
$395 million plus police security, $35 million. Expansion 
space, we will say $70 million, because that includes the 10 
percent contingency. The related funding, we will say $81.8 
million rather than the $102 million that I had. So we are 
talking 18 and 4--we dropped 22, so we are basically talking 
about $584 million is what I come to in total.
    Mr. Hantman. From the power plant perspective, the way I 
calculate it, sir, is there is about a $3 million component of 
that would be applied to the Visitor Center, about half of one 
of the refrigeration machines since the rest of the plant will 
be built in any event.

                           TOTAL PROJECT COST

    Mr. Moran. Well, I want to get to worst case because I want 
to tell the Members the maximum that they should expect to have 
to come up with, and I included what you said was related CVC 
funding. If that is not the case, then it is much easier. We 
are talking about $500 million tops.
    Now, you know, that is hard to swallow, but the Members are 
going to choke on any number that is higher than these numbers 
that we are talking about now. Do you think you can get in 
within $500 million?
    Mr. Hantman. Our basic project, Mr. Moran, is really the 
construction portion of the Visitor Center. That is the 
project. There are some components which GAO has referred to as 
operations type of elements which are not in the construction 
portion of the budget, but those----
    Mr. Moran. Well, I understand that, but from the Members' 
perspective, they want to know how much is this bloody thing 
going to cost us, and they don't want to know, well, the 
Architect is responsible for this, and somebody ought to--the 
Capitol Police is responsible for this. Whatis the total cost 
of this project? Would you say it is $500 million today?
    Mr. Hantman. I would have to go through the numbers that 
you enumerated before and take a look at them. I could 
certainly do that, sir.

                        TOTAL CONSTRUCTION COST

    Mr. Walker. Mr. Moran, for the record I think it's 
important to note that with respect to the $35 million--it's 
not my understanding that that those funds go to the Capitol 
police, but it does relate to the Capitol Visitor Center. It's 
for safety and security issues but----
    Mr. Moran. So it should be a----
    Mr. Walker. Who it goes to is----
    Mr. Moran. I don't want to belabor there. I don't want to 
seem--but we need a number, a total number that we can tell the 
Members, and it looks to me as though that number is half a 
billion dollars.
    Mr. Walker. It is about $500 million if you fully absorb 
everything, but what's important to note is that a lot of these 
things have already been funded.
    Mr. Moran. Got you, but according to the GAO we are looking 
at $500 million for this project.
    Mr. Walker. That is with valuing the potential 
uncertainties that we talked about which may or may not occur.
    Mr. Moran. I know there is always going to be a caveat, but 
you understand what I am trying to get at, and I think it is 
the same thing the Chairman is getting at. Let me leave it--
hand it off to somebody else to continue to try to get at that 
number, but that is what the hearing is all about, what is the 
total cost.
    Mr. Kingston. I thank the gentleman.
    Mr. LaHood.

                    EXTENT OF MANAGEMENT LEADERSHIP

    Mr. LaHood. Mr. Walker, how many architects are on this 
project? How many chiefs are there? How many people are 
responsible for this?
    Mr. Walker. Well----
    Mr. LaHood. How many? It is not one, obviously. It is more 
than one, though, right?
    Mr. Walker. There are external consultants involved, and 
other people in Mr. Hantman's office involved.
    Mr. LaHood. About how many?
    Mr. Walker. You would have to ask Mr. Hantman, sir. I don't 
know.
    Mr. LaHood. Your report doesn't state how many?
    Mr. Walker. No, sir, it does not get to that level of 
detail.
    Mr. LaHood. Well, your comments that you made where you 
said there are a lot of complexities and a lot of players, that 
is what I am getting at. Tell me what you mean by that.
    Mr. Walker. What I mean by that is that you are talking 
about a complex that is going to meet the entire needs of the 
Congress, along with the House and the Senate. There are a 
variety of individuals who are interested in this project. You 
have the House, the Senate, the Leadership, and the 
Appropriators. Each one has an opinion as to what they believe 
this project's scope ought to be what some of the different 
elements ought to be. As a result, one of the things that I 
believe has to be gotten control of better is to freeze the 
specifications and get control of any potential change orders, 
because some of the numbers that we are talking about here 
don't include certain things like furniture. Now, furniture is 
not something that you would consider to be part of a 
construction budget.

                    CAPITOL PRESERVATION COMMISSION

    Mr. LaHood. I just want to interrupt you for a second, Mr. 
Walker, to say this. You spelled off at least five different 
groups or individuals. So what I was hoping maybe your report 
would suggest is not only suspending where we are at but 
suggesting or recommending some kind of a Visitor Center 
control board that would be made up of the Speaker, the 
Majority Leader, and other leadership who have an interest in 
office space.--The Capitol Hill police, people from the 
Legislative Branch Subcommittee and others. Obviously it is 
going to be very easy for us to sit here and take pot shots at 
one guy, when in reality it is much bigger than one guy, as you 
have just elucidated.
    You clicked off five different, and it is probably more 
like between five to ten who have some share, some--they are 
stakeholders in this thing, and they come to the Architect one 
day and say, hey, we need--I don't know, maybe some leadership 
people say, hey, we need more space. The Intelligence 
Committee, the chairman says we need space for the Intelligence 
Committee. The Capitol Hill police say, hey, we need space for 
this group, whatever.
    I had a very long discussion with the Chief of Staff for 
the Speaker of the House about this issue. This is a very 
important project to him, and I know there are other leadership 
people, who are very interested as well.
    So the point I am trying to make here is I don't want to 
spend the rest of the afternoon taking pot shots at one guy 
when there is a whole host of people around here who have had 
some say and have some share in this thing in terms of changing 
it maybe every other week, maybe every other day. I don't know, 
but I would like your comments on that.
    Mr. Walker. The Capitol Preservation Commission is the body 
that is theoretically responsible and accountable, but it is 
comprised of a number of different individuals who wear a 
number of different hats. There is a shared responsibility for 
where we are today, and one of the things that has to happen is 
that there has to be a finalizing of the specifications----
    Mr. LaHood. Who does that?
    Mr. Walker. I would argue that the AOC has the 
responsibility to try to help facilitate getting that done. The 
Capitol Preservation Commission or some designated body of that 
needs to buy off on it, and then there needs to be a process 
for change orders that would be employed from that point 
forward, because as Mr. Hantman said, the scope and specs are 
still not totally nailed down. As a result, we are trying to do 
as best as we possibly can given the situation that we are 
dealing with.

                          COMPARABLE PROJECTS

    Mr. LaHood. Have you ever seen a project like this before?
    Mr. Walker. Oh, I have seen projects--I don't think it is 
fair to compare this to the Big Dig. I don't think it is 
accurate or appropriate to compare it to the Big Dig, but, as I 
mentioned before, Mr. LaHood, when I used to be in the private 
sector, you would have to be careful about engagements that you 
accepted and engagements that you continued on, and one of the 
real problems here is determining who's in charge.
    Mr. LaHood. Do you think this project is a disaster?
    Mr. Walker. No, I don't think it is a disaster. I believe 
that, the Congress has decided, as the chairman said, that this 
is going to proceed. The key is what needs to be done in order 
to minimize the possibility that we are going to have any 
problems going forward. My testimony includes a number of 
specific recommendations of what we believe needs to be done in 
order to try to get better control of it and to minimize the 
possibility of having problems going forward.
    Mr. LaHood. Do you know if it was in the private sector we 
could actually nail down a figure that Mr. Moran is looking 
for?
    Mr. Walker. Keep in mind that we did use certain private 
sector players to try to come up with this estimate but they 
can only come up with an estimate based upon the specifications 
that they are given as of that point in time, all the more 
reason we have got to finalize the specifications to be able to 
get control of any potential change orders.
    Mr. LaHood. Mr. Chairman, let me just say this. I think we 
have identified the problem. At least from my point of view, we 
have identified it. There is an awful lot of people cooking the 
stew around here and the stew isn't getting cooked very well, 
because you have got people adding salt and pepper and 
seasoning and everything else every other day and if we don't 
do anything else as a Subcommittee, I think weneed to get our 
arms around this.
    Thank you.
    Mr. Kingston. Well, this Subcommittee may become the new 
cooking team.
    Mr. Tiahrt came in next, Mr. Clyburn, so I am going to 
stick with the Committee tradition, and then you are next. Then 
Mr. Culberson. Mr. Tiahrt.

                            PROJECT FUNDING

    Mr. Tiahrt. Thank you, Mr. Chairman. The baseline contract 
had a series of specifications that were developed, and then 
they gave this original estimate. Was that the original $303 
million you talked about?
    Mr. Walker. Originally $265 million, then $303.5 million. 
Now up to $351.3 million.
    Mr. Tiahrt. And the $351 million was based on the current, 
or the original contract, plus all the class 1 changes to that 
contract to this point in time?
    Mr. Walker. Based upon the latest best estimate of the base 
contract.
    Mr. Hantman. That is exclusive of the expansion area for 
the House and the Senate, yes.
    Mr. Tiahrt. And so that is the $70 million on top of that?
    Mr. Hantman. That's right.
    Mr. Tiahrt. Well, Alan, are you the administrator of the 
contract then?
    Mr. Hantman. Yes, sir.
    Mr. Tiahrt. Basically, you oversee any additions. Any class 
1 changes or changes to the contract, you have to approve, or 
does it have to go through the Capitol Preservation Commission?
    Mr. Hantman. All of the boxes of money that we are talking 
about, the $265 million, the $38.5 million, the $70 million, 
all were voted on by the Capitol Preservation Commission.
    Mr. Tiahrt. And the Commission is the 18 Members of 
Congress--nine from the House and nine from the Senate?
    Mr. Hantman. That is correct.
    Mr. Tiahrt. Most of them are appointees from the Speaker 
and the President pro temp?
    Mr. Hantman. That is correct, and so the additional funding 
that--the $47.9 million that GAO is talking about right now is 
the only element that has not been voted on in terms of the 
dollars that we are currently spending.
    Mr. Tiahrt. Okay. I just looked over the blueprints and 
noticed that----
    Mr. Kingston. If the gentleman will yield, they did not 
vote on the $35 million for security either. Correct?
    Mr. Hantman. That is correct. And the expansion space I 
think came from a larger group as well, but it was a 
Congressional appropriation.
    Mr. Tiahrt. Well, is it basically the security requirements 
and then the--filling in the holes--or filling in the shell 
space for the Senate and for the House?
    Mr. Hantman. That is correct.
    Mr. Tiahrt. That hasn't been voted on yet. Those plans 
haven't been approved yet. Is that correct?
    Mr. Hantman. The money has been voted on. The plans have 
not been finalized. We are working with the House for their 
plans and the Senate for their plans in terms of what they want 
to put inside the shell space that was to be built as part of 
the original project.

                        CONGRESSIONAL AUDITORIUM

    Mr. Tiahrt. Have they approved the plans for the auditorium 
on the East side?
    Mr. Hantman. Yes. That was specifically voted for by the 
Preservation Commission.
    Mr. Tiahrt. And what is the capacity of the auditorium on 
the East side?
    Mr. Hantman. 450 people, sir.
    Mr. Tiahrt. And what is the purpose of the auditorium?
    Mr. Hantman. It is called a Congressional auditorium. One 
of the roles potentially is to have it as a SCIF area, a place 
where the entire House----
    Mr. Tiahrt. When you say SCIF, you mean it fulfills the 
security requirements?
    Mr. Hantman. That is correct. Whether the Senate comes in 
or the House itself uses it, the capacity was basically decided 
on that level. There were discussions early on in the design 
process whether or not we should look at the possibility of 
having State of the Unions in that Chamber, and it was decided 
by the Preservation Commission not to. So we had looked at 
schemes up to 700, 750 people in that space at one time.
    Mr. Tiahrt. So in essence it is just a second Chamber for 
the House if necessary?
    Mr. Hantman. There has been some discussion if and when the 
House Chamber or the Senate Chamber is to be retrofit, 
renovated, that either Chamber could go to that Chamber on a 
temporary basis.
    Mr. Tiahrt. So it is a contingency Chamber in case there is 
some future renovation in either the House or the Senate?
    Mr. Hantman. There is also a distinct desire by the Library 
of Congress to use it for film showing for the community and 
things of that nature, yes.
    Mr. Tiahrt. What is the cost of the auditorium?
    Mr. Hantman. As I recall, the original number was something 
of the magnitude of--was it $34 million? It was I think----
    Mr. Tiahrt. And was that based on provisions to hold 450 
people?
    Mr. Hantman. I believe so.
    Mr. Tiahrt. So it would be physically impossible to have a 
joint session there?
    Mr. Hantman. That is correct.
    Mr. Tiahrt. And so we are going to have some film showings, 
and if we have a renovation, then the House could use it--and 
it will just be make-shift auditorium after that?
    Mr. Hantman. It could be for any caucus, Democratic Caucus, 
Republican Caucus, larger groups of people to----
    Mr. Tiahrt. So if we want to save $34 million, how far are 
we in the process? How much have we spent?
    Mr. Hantman. We started putting in the end wall, the 
eastern wall right now. The base design assumes obviously that 
element as a major element relative to the flow of people 
coming into the building from Capitol Hill.
    Mr. Tiahrt. Could the footprint be expanded to accommodate 
a joint session of the House?
    Mr. Hantman. We could look at that. We think that that 
would certainly impact obviously the schedule and the dollars.
    Mr. Tiahrt. I just don't want for us to get used to the $34 
million. I don't know what the expansion would cost, but either 
the auditorium needs to be big enough to be effectively 
utilized, or it ought to be eliminated. I think we have an 
interim size auditorium that we have sort of compressed, and it 
is not going to be effectively used. I don't know how we can 
use it that much, just for a couple of times in the future, 
maybe during a 6-week period, a 6-month period when we have 
other accommodations that could be available. Maybe there is 
some bunker capability here in case there is another attack, 
but I think this is one of the areas we ought to look at for a 
cost savings, Mr. Chairman.
    Mr. Kingston. I thank the gentleman, and if you will yield, 
I want to make a comment. The Coolidge Auditorium in the 
Library of Congress has the capacity to seat Congress. It has 
over 435 seats right now. And then there is the Pickford 
Theater in the Library of Congress that shows films currently.
    Mr. Tiahrt. Well, it sounds like the tunnel to the Library 
of Congress is more important than this auditorium.
    Mr. Kingston. Could be.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Kingston. Mr. Clyburn.

                          DESIGNING TO BUDGET

    Mr. Clyburn. Thank you, Mr. Chairman. Mr. Chairman, I think 
that Mr. Tiahrt's questions is a segue into what I wanted to 
ask about, and that is this whole concept of design to budget. 
I have a real problem with that, because I--this is my first 
elective office. I have always been managing something all of 
my life, and I have a real problem with setting a budget and 
then designing to the budget rather than establishing what our 
needs are and developing something to meet those needs, and it 
would seem to me that if we are going to have a facility that 
should--or if we need to have a facility to accommodate a joint 
session, then we ought to be developing the facility and then 
determining the budget, but it seems to me that what we have 
done here is decide to squeeze something down to a budget that 
you consider to be politically correct or something. I don't 
know exactly how we have come up with this, but I have a real 
problem with this, and I would like to know what this 
auditorium is going to be, because if it is only going to be 
400 to 425, 450 seats, I don't think you need it. And if we do 
need something that will accommodate a joint session, then we 
ought to sit down and really be open with everybody involved 
and say what we are doing here and being honest about this 
budget, because this designing to budget I have always found in 
my management background will get you in trouble every time. 
And maybe that is what's got us in this trouble here, that we 
have not determined what we wanted to do and then put a budget 
on it, but we have decided to figure out what would be, I don't 
know, acceptable and then come up with a design. And if that is 
what we are doing here, then that explains the problem. I mean, 
why do we need this auditorium? I mean, what are we planning to 
accomplish with this auditorium, is my question.
    Mr. Hantman. Mr. Clyburn, I think we are talking about two 
issues here. First of all, it is the expansion space for the 
House which had a $35 million budget, which was as you point 
out developed on a per-square-foot basis without a program at 
that point in time. We are now working with the leadership to 
talk about the type of spaces that would go in there, including 
a two-story hearing room for the public, for major committee 
meetings, and other meeting rooms and things of that nature to 
support the efforts of the Capitol. So that is the $35 million, 
and what we are doing, again, is prioritizing, say, the quality 
of the finishes so that the hearing room has the same quality 
of finishes you would expect--the project would be adjacent to 
the Capitol and would be in line with other hearing rooms that 
the House has.
    When you get down to some of the lesser important spaces in 
the expansion space, those would have less finishes. It 
wouldn't have the stone. It wouldn't have the bronze, things of 
that nature. So we are comfortable that we are using that 
budget and we are working with the leadership to give them a 
room by room breakdown of what we believe we can afford within 
that $35 million budget.
    The second issue of course is the auditorium itself, which 
was always a part of the basic project for the Visitor Center 
within the $265 million, and the funding for that is part of 
the $265 million project.
    Mr. Walker. $351.3 million now.
    Mr. Hantman. I am sorry.
    Mr. Walker. Mr. Clyburn, I think it is fair to say that the 
auditorium has been part of this from the beginning. One can 
debate whether or not you need it. That is a policy decision 
for the Congress to decide, but the type of items that, I 
think, fall under design to budget are things like the House 
and Senate expansion space, the exhibit space, and the 
technical security issues. Those areas, there is a budget of X. 
The specifications haven't been defined. The specifications are 
going to have to be modified to fit the budget, and you are 
right, you wouldn't do it that way in the private sector.

                               AUDITORIUM

    Mr. Clyburn. Well, let me--I don't know how much time I 
have got. The original design for this auditorium was to seat 
how many people?
    Mr. Hantman. 450 people is what was approved by the 
Preservation Commission.
    Mr. Clyburn. Is that what was asked for? What were we 
supposed to be doing with the auditorium then? 450 people would 
barely get the Members as currently--I mean, what are we, 435 
plus 5 for--what are we, 440 people with the Territories, and 
of course I am an advocate for reducingthese 600,000 
Congressional district sizes anyway. I am not too sure we don't need to 
be 475 on the House side. We may get to that one day, because you do 
that statutorily, and so we may get to that. It won't be big enough for 
the House if that is where we are. But what were we supposed to be 
doing with this auditorium, I guess? There is 450--what was supposed to 
be the purpose?
    Mr. Hantman. The purpose was, again, for the secure 
briefings, for meetings of larger groups of Members on the 
House or the Senate side, for use by the Library of Congress as 
well for the films.
    Mr. Clyburn. But only one body at a time.
    Mr. Hantman. One body at a time. That's correct, sir.
    Mr. Clyburn. Well, it would seem to me that--I don't know 
if this is where Mr. Tiahrt was going, but it is certainly 
where I would love to see us really go over this, is to 
determine whether or not we ought to bite the bullet, design 
something that will meet the needs as we project, or we ought 
to just dispense with all of this, this auditorium business, 
because I really don't believe, between the Library of 
Congress, between the whole of the House and other facilities 
around, the Smithsonian, other places I have been, they have 
got some pretty big spaces that could have these meetings in. 
But if we are going to try to accommodate the Members of the 
Congress and the visiting public, I just don't think that this 
auditorium gets us there.
    Mr. Kingston. Mr. Culberson.

                           SPACE REQUIREMENTS

    Mr. Culberson. Thank you, Mr. Chairman. Many of my 
questions have already been asked and answered, but I wanted to 
follow up on a couple of areas. I can tell the subcommittee 
from my own experience in Texas that we didn't even begin to 
build the extension of the Capitol in Texas until we had a real 
consensus among all the members of the Texas House and the 
Senate that it needed to be done. We were actually terribly 
overcrowded at the Texas Capitol. Single floors had been 
divided in two so that there were actually two stories within 
what had been designed as a single story. So it was a terrible 
overcrowding problem, and it is my impression from listening to 
the testimony and learning what I have, being a new member of 
this committee, that the Visitor Center extra space might not 
be as needed as it was in Texas. We really needed the space. 
That appears to be a big difference.
    I have also made inquiries, Mr. Chairman--I will be 
providing you and the members of the subcommittee with some 
very specific information on how we controlled the cost of the 
Capitol extension in Texas, because we just never had these 
conversations or debates. Everyone was very happy and 
satisfied, and I am going to provide that to you, Mr. Chairman, 
as well as contact information as we discussed before, and I 
hope we can have an opportunity to bring the Architect of the 
Texas Capitol here and perhaps discuss either formally or 
informally what was done in Texas to control the cost, because 
again we just never encountered these problems.

                           GAO PARTICIPATION

    Mr. Culberson. Which leads me to my question. Mr. Walker, I 
wanted to ask in the brief time we have before this vote, you 
mentioned that you were invited to basically participate, 
provide some guidance on this project in response to a request 
from members of the Capitol Preservation Commission. Is this 
the first report that you have provided on the Visitor Center 
since you received those requests?
    Mr. Walker. We are providing ongoing information to senior 
staff of the leadership and the appropriators every week.
    Mr. Culberson. But is this the first formal report that you 
have submitted?
    Mr. Walker. This is the first formal testimony that we have 
provided, yes.
    Mr. Culberson. But you got the request back in 1999 to 
become involved.
    Mr. Walker. We started getting much more extensively 
involved last fall.
    Mr. Culberson. I just wonder why we are only hearing from 
you now and why we didn't hear from you earlier formally.
    Mr. Walker. Well, first let me say that I have sent 
correspondence that this committee has been copied on before 
this testimony. One was, for example, April 10, 2003, but my 
point is that this situation is unusual. We are in a situation 
where, as you know, 99 percent of the work that GAO does is for 
the legislative branch or the executive branch. This is an 
unusual circumstance where recently, within the last 2 or 3 
years, Congress has asked us with increasing frequency to try 
to help it deal with some legislative branch issues. This 
involves a very different type of relationship. We try to do 
our job but also meet the desires of our client as to how 
frequently we report and in what form we report. This committee 
asked for a hearing, and we are happy to be involved in a 
hearing to report on what we are doing, but we are reporting on 
an ongoing basis informally.
    Mr. Culberson. This is the first time you have been asked 
to provide formal report----
    Mr. Walker. That is correct.
    Mr. Culberson. That is what I wanted to get at. Let me ask 
you very quickly if I can about your specific recommendation, 
which is one that makes sense to me, that there be a clear 
chain of command, a limited number of cooks in the kitchen as 
Mr. LaHood and the Chairman correctly point out. If you would 
talk to us specifically about your recommendation on 
implementing controls for the approval of changes. What, based 
on your experience on other construction projects in the 
Federal Government, have you seen work successfully in 
controlling the cost of other types of construction projects, 
and what specific recommendations do you have as to what types 
of controls you are talking about to put some cap or limit on 
approval?
    Mr. Walker. Well, first, I think we need to more clearly 
define responsibility and accountability. We need to first 
agree on the basic specifications. They are still not agreed 
upon. That has got to be done, and so all these estimates are 
based upon current understandings. We have got to nail the 
scope and specifications down. Second, once those are nailed 
down, to the extent that people want to end up talking about 
change orders, then there has to be a very disciplined process 
that is followed involving a defined number of persons within a 
specified period of time, communicating with all the interested 
parties. Appropriators obviously are interested parties as well 
as the leadership. It has got to be a much more timely and 
disciplined process than has been the case in the past.
    Mr. Culberson. Can you direct us to some other type of 
Federal guidelines or Federal construction project that we 
could look to for guidance?
    Mr. Walker. I will be happy to provide some information for 
the record based upon the work that GAO has done.
    [The information submitted for the record by the GAO 
follows:]

    Question. For the record, please provide the Committee some 
information on federal guidelines for construction projects.
    Response. During the course of our work we have used the 
following federal agency references, which may be of assistance 
in understanding the importance of scope control and the change 
order process:
          1. ``Construction Management Guidebook'', Department of 
        State, July 1, 1998;
          2. ``Project Management Practices'', Department of Energy, 
        October 2000; and
          3. ``Facilities Standards for the Public Buildings Service'', 
        General Services Administration, March 2003.
    In addition, we have used the following private sector references:
          1. ``Improving the Accuracy of Early Cost Estimates for 
        Federal Construction Projects'', National Research Council, 
        National Academy Press, Washington, DC, 1990; and
          2. ``Special Publication 43-1, Project Change Management'', 
        Construction Industry Institute, Austin, Texas, 1994.

                        SOURCES OF OVERRUN COSTS

    Mr. Culberson. In your experience, is this highly unusual 
for a project of this type to encounter overruns of this size?
    Mr. Walker. Well, let me clarify. When we talk about 
overruns, I think it is important to look underneath. Some 
overruns are due to changes in scope. Some overruns are due to 
subsequent events that could not have been anticipated at the 
time, like September 11th. Some of them are more traditional 
overruns. I think it is important that those be broken down. 
Let's just say--as Mr. Clyburn mentioned before--the way that 
this has been handled is not a model for best practice from the 
private sector. However, what we need to do now is what can be 
done from this point going forward to minimize the chance of 
future problems, and I think we have got some specific 
recommendations that can help you there.
    Mr. Culberson. Thank you very much, Mr. Walker. Thank you 
very much, Mr. Chairman.
    Mr. Kingston. Mr. Price, I think we still have time for you 
to ask questions. It is the intent of the Chair to come back 
after these three votes, but you can certainly have 5 minutes 
right now.

                IDENTIFYING STEPS FOR MEASURING PROGRESS

    Mr. Price. Well, thank you, Mr. Chairman. Let me ask my 
question and we will see how far we get toward an answer. I 
will be glad to come back, and I am glad you are planning to 
reconvene. I apologize for coming in a bit late, and some of 
this may have already been touched on, but the question I would 
like to ask does follow up on what I have heard so far. It has 
to do with what the perspective is going forward. It is a 
three-part question. Mr. Walker, addressing you initially but 
also Mr. Hantman, have in fact all the requirements for this 
project been identified?
    Mr. Walker. No.
    Mr. Price. Secondly, are there detailed designs that 
enumerate these requirements?
    Mr. Walker. Some but not all.
    Mr. Price. I am not sure the answers to these three 
questions are identical. I expect they aren't. Thirdly, to the 
extent there are requirements that have been identified and 
detailed designs that enumerate the requirements, to what 
extent do we have reliable, with the stress on reliable, cost 
estimates attached to these designs? That is the way I think we 
need to analyze the situation going forward. I notice on page 3 
of your testimony you have a box which very conveniently 
summarizes additional risks and uncertainties that could affect 
project costs or utilization. You might want to use that as 
your benchmark to identify which of these additional risks and 
uncertainties you think are real and what the dimensions of 
these risks and uncertainties are. Mr. Hantman, I would be 
happy to have you also comment on this list and where you think 
we are.
    Mr. Walker. Well, first no. All the specifications have not 
been defined. Second, some have, however, and are documented, 
but not all. Third, for those that have been defined and 
documented, there are cost estimates, which is the basis for 
this hearing.

                             COST ESTIMATES

    Mr. Price. Reliable cost estimates in your view?
    Mr. Walker. Reasonable cost estimates. At this point, we 
believe that what we are giving you is a reasonable cost 
estimate, and we stand behind it, but I also will come back to 
where you started out. We have got to nail down the exact scope 
and specifications, and gain better control over any potential 
proposed modifications, or else you are not going to be able to 
effectively manage this, and your cost estimates will not be 
reliable.
    Mr. Price. Go ahead, Mr. Hantman, yes.
    Mr. Hantman. With respect to your first question regarding 
have all requirements been identified, I spoke a little bit 
earlier relative to the expansion space that we are currently 
working with the House and with the Senate leadership to define 
their needs in the $35 million expansion areas. So that is 
being defined right now, and as we talked about before, we are 
working not to exceed the $35 million budget.
    One area that still does need to be defined, as pointed out 
in the GAO report, is the methodology for operations of the 
Visitor Center, whether or not there is going to be a private 
outside contractor coming in to run this, in which case they 
may fund some of the things in the kitchen. They may fund some 
of the other operational costs and furniture fixtures and 
equipment, or whether or not my office would be told to operate 
it or some combination thereof of parts and parcels. So the 
operation's budget and some of the fitouts that are not related 
directly to construction that would be needed, say, on an 
opening day have not yet been determined.
    Mr. Walker. And Mr. Price, let me say that the $30 or $45 
million uncertainty range deals with the bulleted items on page 
3 that you refer to.
    Mr. Price. That is your estimate of uncertainties?
    Mr. Walker. That is correct. Risks and uncertainties are 
based upon a Monte Carlo modeling analysis which is used in the 
private sector and in connection with construction projects.

                          STRUCTURAL PROGRESS

    Mr. Price. Well, just quickly before we have to go. That 
first one of course jumps out as you read it. We know about the 
unforeseen conditions that were encountered early on. To what 
extent are these potential underground complications still a 
threat? Are there still some unpleasant surprises possible?
    Mr. Hantman. Mr. Price, we have completed the foundation 
wall around the vast majority of the project at this point in 
time, 70 feet down, 2,200 linear feet, et cetera. You probably 
heard about the well that we found on the House side which 
delayed us about 5 weeks and did cause us a delay on the 
project and a way for us to catch up on that time. The most 
significant excavations that we still need to do other than 
removing earth within the perimeter wall that we have already 
built, we think we've encountered the worst of it so far within 
the project perimeter. On East Capitol Street we need to dig a 
utility tunnel that will tap into the utility distribution 
system on Second Street in back of the Supreme Court and back 
of the Jefferson building. What we are trying to do is minimize 
risk over there and look at alternative methods of digging that 
tunnel, having prefabricated parts come in and concrete parts, 
laying the pipes to minimize the risk. That is one of the 
issues. And clearly completing the truck tunnel on the Senate 
side is another one of the issues that we are looking at right 
now.
    Mr. Kingston. We have 4 minutes to vote, so the Chair will 
recess subject to the call of the Chair.
    [Recess.]

               STATEMENT OF THE ARCHITECT OF THE CAPITOL

    Mr. Kingston. The committee will come back to order. Alan, 
my original intent was to have the GAO testify with some 
questions and then have you testify with some questions for 
you, followed by a combination of questions. However, we 
already jumped in to asking you questions, but I want to give 
you the opportunity to say anything generally.
    Mr. Hantman. No. I appreciate that, Mr. Chairman. And if I 
could just submit the testimony for the record. I would just 
like to talk a little bit about where we have been so far in 
this hearing and maybe straighten out a couple of issues from 
my perspective.
    [The prepared statement submitted for the record by the 
Architect of the Capitol follows:]

[GRAPHIC] [TIFF OMITTED] T7100E.010

[GRAPHIC] [TIFF OMITTED] T7100E.011

[GRAPHIC] [TIFF OMITTED] T7100E.012

[GRAPHIC] [TIFF OMITTED] T7100E.013

[GRAPHIC] [TIFF OMITTED] T7100E.014

[GRAPHIC] [TIFF OMITTED] T7100E.015

[GRAPHIC] [TIFF OMITTED] T7100E.016

[GRAPHIC] [TIFF OMITTED] T7100E.017

[GRAPHIC] [TIFF OMITTED] T7100E.018

[GRAPHIC] [TIFF OMITTED] T7100E.019

[GRAPHIC] [TIFF OMITTED] T7100E.020

                         HISTORY OF CVC PROJECT

    Mr. Hantman. First of all, Mr. Chairman, I thank you for 
the opportunity to be here. I think it is important. I think a 
lot of misinformation is out there, and hopefully we can 
clarify that through this committee hearing.
    First of all, this is an important, historic, necessary 
project. I think most of the Congress agrees on that, although 
we may talk about a part and parcel over here or there, whether 
that is necessary or not.
    A little historical background. In 1999, when the original 
$265 million budget was established, that was the basic CPC 
budget that was for the Visitor Center portion of it as well as 
excavating and building a shell for future expansion space for 
the House and the Senate. It was basically just a concrete 
shell, big open areas with no finishes in it. That was the $265 
million project. Any architect, any engineer, when they embark 
on a major project comes up with a concern that we have heard 
talked about today. Clients always say, while you are at it, 
why don't you also build A, B, or C. And clearly that has 
happened over here. 9/11 occurred. I think there is good reason 
for the $38.5 million that was added to the project at that 
point in time. It was, as Mr. Walker indicated, that was an 
increase in scope. That was not a cost overrun or anything of 
that nature.
    Then, the House and the Senate decided that the shell space 
needed to be filled in, that in fact there were good reasons to 
support the activities of the Congress in the Capitol building 
itself; that things were so crowded that utilizing that space 
as soon as reasonably could be done made sense, and then $70 
million was appropriated for that. And that brings us to the 
$373 million. And again, I do consider the $70 million, 35 for 
the House, 35 for the Senate as really separate projects. We 
are still working on the drawings, as I indicated earlier. We 
haven't got a price from a bidder on this yet. We have to 
negotiate prices on that. We are working to the $35 million 
limit. And as I indicated to Mr. Moran, we do have a 10 percent 
design contingency and a 10 percent construction contingency in 
those numbers right now.
    So all of these funds to that point were appropriated. And 
as Mr. Walker did indicate, the $47.9 million we're talking 
about now is a cost to complete is the first increment of what 
could be perceived as a cost overrun or additional funding 
necessary for the base project.
    And I would just like to quote, if I could, Mr. Chairman. 
There were two excerpts from an article that appeared in March 
31st in the Washington Post about the recently completed 
Washington Convention Center. The article pointed out the fact 
that the center's $834 million bill was 17 percent above the 
project's original 1998 estimate, but that the, quote, 
``increase did not seem extravagant to the several groups 
overseeing the project.'' It quotes the GAO as saying that: 
``Although there were cost adjustments and price increases, 
none of the costs were outside the realm of a project of this 
scope and size.'' It later talks about the final cost rose 
mainly because of the complexity of the structure and 
unforeseen problems. And I think Mr. Walker spoke to that also 
in terms of the private sector.
    I can't think of a more difficult place to build a project 
in terms of the oversight, in terms of keeping the Capitol, a 
fully occupied building doing the business of the country, 
actively moving forward so that the House and the Senate would 
not be disturbed by a major construction project which is 
increasing the size of the Capitol by at least two-thirds over 
again.
    So, again, when we talk about that, I think we can argue 
that the CVC project is even more complex than the convention 
center considering the security requirements, the historic 
significance of the buildings and the grounds, the need to keep 
the Capitol itself fully operational at all times.
    So, again, this cost to complete that we are talking about 
is something that I asked the Office of Management and Budget 
to consider as a budget amendment, and hopefully that will be 
considered by both the Senate and the House.
    So I just wanted to make the point, sir, that, again, this 
is an excellent project, it is a necessary project, a historic 
project, and it has been run in a manner that, because of all 
the unexpected issues below grade, because of the security 
issues, the penalties to the contractors, our expectations were 
we would have more bidders than we actually had. So when you 
had two final bidders coming in for sequence two, as Mr. Walker 
indicated, some people shied away from the project because of 
the complexities. And I think that hurt us in terms of the 
actual bids that came in.
    I did want to clarify one issue relative to the auditorium 
because there's been a lot of discussion going on about it. I 
had mentioned the number $34 million for the auditorium earlier 
on. And that in fact was the estimated cost for one of the four 
options considered by the Capitol Preservation Commission. And 
that was option 2-A, which included a 550-seat lower auditorium 
and a 200-seat upper auditorium. So that was the 750-seat 
model. I stand corrected on that.
    The option number one, which was actually selected by the 
Capitol Preservation Commission, has 350 seats at the lower 
level and 100 seats at the upper level for a value of $20 
million as opposed to the $34 million. This was the delta that 
we were talking about, a $14 million delta between option 1 
which we have distinguished and which we bid, and option 2-A 
which was the 750-seat auditorium which was not accepted by the 
Preservation Commission.
    A final point relative to that $20 million. That is 
included in our contracts at this point in time. We would have 
to negotiate with the current contractors in terms of what 
dollars have not yet been committed, what money they have 
expended on the excavation. They have started to do the 
perimeter walls. Certainly they haven't done the finishes 
inside or anything like that. Whether or not we save 5, $6 
million out of the $20 million--I'm not sure what the number 
would be, we would have to work on that, but certainly it would 
be significantly less than the 20 million we estimated the 
auditorium to cost in the first place.

                       COST TO COMPLETE ESTIMATES

    Mr. Kingston. Thank you. I have two questions. On July 
10th, you told NBC News in a letter, quote: ``Finally, you ask 
if the latest cost to complete estimate will be the last. In 
light of the exhaustive review of all project elements competed 
by the Architect, a private consultant, and then by GAO, I am 
confident that no further cost to complete estimates will be 
required.''
    GAO is telling us there is still the lack of design and 
additional risk factors. Are you confident with $485 million or 
not confident?
    Mr. Hantman. The risk factors that are discussed by GAO are 
challenges for us. What we need to do is manage thisbudget, 
manage the changes that Mr. Walker referred to, make sure that there 
are no design changes to the basic core construction budget over here. 
What I started alluding to before the break, Mr. Chairman, in terms of 
operations and additional costs that are not related to the 
construction itself is really what we are talking about. And I think 
what Mr. Moran was trying to get at, not only the construction costs 
but all of the other elements, furniture, fixtures, equipment, how the 
House might choose to fit out the constituent meeting room, for which 
we have no furniture in the base building budget, how they might choose 
to fit out the gift shops for which we're going to build the shell, but 
we are not going to supply the fixtures for the gift shop. That's a 
determinant for the House and the Senate once they determine how the 
operations are going to be handled.
    So in terms of the construction side of it, that is what we 
are dealing with, and we are going to work like hell to make 
sure that this budget and this cost to complete is something 
that we can work with.
    Mr. Kingston. In a superficial 30-second-sound-bite-in-
Washington thinking, you could write a letter that the $465 
million would be accurate, minus the gift shop, minus the 
committee rooms, minus the furniture or other contingencies. 
You could do that for this Committee?
    Mr. Hantman. Any construction project, Mr. Chairman, can 
put in reasonable contingencies. And I think in the dollars 
that we are talking about, we have inserted reasonable 
contingencies. If we have lying in states and we have to shut 
down the project for X period of time, if we have major 
construction issues that no construction project would 
anticipate or could anticipate at this point in time, those are 
costs and risks that we can't quantify at this point in time. 
We think that the number, the GAO number of 47.9 million is a 
strong number, it is a basic number, and we would work to make 
sure that that was----

                            PROJECT SAVINGS

    Mr. Kingston. Allow me to rephrase the question. I am a 
disgruntled homeowner and I've hired your firm to oversee the 
renovation of my house. Because of weather delays, an 
unexpected underground well or whatever, we are behind schedule 
and over budget. Give me 10 ways I can save money on this 
project.
    Mr. Hantman. Certainly the discussion that we had, these 
are issues that were voted on by the Preservation Commission. 
But if the auditorium were cut out, there might be 5, 6, $7 
million. Something of that nature could be saved. The 
Preservation Commission also voted on the tunnel to the Library 
of Congress. If we stopped it at this point in time, we might 
be able to save $8 million or something out of the 10, $12 
million we were talking about. Because it's in the contract, we 
would have to negotiate it out with the contractor. I am not 
sure where we would come out on that.
    We have a cafeteria being planned, we have a kitchen being 
planned. If we didn't finish off those facilities, that might 
be 3 or $4 million that can be saved on the equipment, on the 
finishes on those spaces. If there was--we have two orientation 
theaters, one on the House, one on the Senate side. If we just 
left one of those spaces as a shell and we didn't finish it 
off, that might be a couple of million dollars. But, again, 
what we are doing is cutting down on the basic needs of the 
Visitor Center itself and how we are going to be servicing all 
those folks who are coming from around the world to experience 
our Capitol. And the fundamental problem that we face right now 
is there is no place for them to dine, there's not adequate 
restroom facilities, there is no way for them to learn about 
the Congress and how its work is done. That's what the 
exhibition space would be about. And if we didn't finish off 
the exhibition space, certainly that would be dollars not 
spent.

                           VISITOR EXPERIENCE

    Mr. Kingston. I will say this respectfully, and not 
sarcastically. But the republic has managed to survive without 
a visitor's center for 200 years, and people have had a great 
Capitol experience. They've found a place to go to the bathroom 
and a place to eat. I don't think many items are essential. 
When the family comes up, if they don't have a cafeteria, they 
will find one. Washington has plenty of cafeterias.
    What I would like, is for you to say, ``I want to make you 
happy. You are spending money on this tunnel that you really 
don't need, because all you really need is an umbrella if it's 
raining. We all know most Members of Congress don't utilize the 
Library of Congress with the alacrity that they could be. Why 
don't you consider saving $7 million bucks?'' That would 
probably be a mature suggestion, a mature idea. Or tell me, 
``That's the stupidest idea in the world. If you really want to 
save money, cut out the cafeteria, or back off this ludicrous 
idea for more office space for the House.'' You are the guy who 
is there close to the project that can tell me what needs to be 
cut out.
    I worked in a little construction, not anywhere near your 
level of expertise, but I do know the fundamentals. If you have 
a project like this, you must go back in the real world and 
come up with some way to save money. What can we do to show the 
American people that we have a basic understanding of taxpayer 
money and how hard they work for it? We need these ideas from 
you. It's your job. You need to be able to say, ``The idea to 
go to a 450-seat auditorium was foolish; you all should have 
stuck with the 750. That was $14 million you could save. It's 
not a good idea, and here's why.''
    I have never had any Member of the House say we really need 
a tunnel to the Library of Congress.
    The gift shops. Why can't we privatize them? You have a 
space--go to vendors, let them bid on it and outfit it. They'll 
be a tenant with a 5-year contract. I believe we do that on the 
national parks, although I may be wrong. There have to be some 
real and good ideas that we can come up with, in the 
Legislative Branch family to save some money so that we can go 
out unified and proud. It would be nice to say, ``We just 
couldn't do everything we wanted to do, but we had some 
difficult decisions, rather than the same old, ``We're already 
in this, let's just appropriate more money, because the Senate, 
they're insensitive; they've already put the $48 million in 
there and all we are going to do is politic this thing out.''
    It is the position of this Committee that we are not going 
to support the additional $48 million. We could beoutgunned. 
But I am promising you, it is not going to be easy to outgun this 
Committee. We have bipartisan unity and we have a lot of passion and 
angst about the CVC. As we go down to the Floor, Members come up to me, 
Mr. Moran, and to Mr. Clyburn to encourage us, and say, ``We are glad 
you all are fighting this thing, because it is ridiculous, and I have 
got to go back home in my swing district and justify it, and I'm 
embarrassed by it.'' When I say, ``what can we cut out,'' we'll be 
asking that repeatedly over and over and over again, because we are not 
going to rattle our swords and then get rolled into this process.
    Mr. Moran, Mr. Clyburn was here first. So.
    Mr. Clyburn. I will be glad to yield to my----
    Mr. Moran. No. Go ahead.

                           PROJECT COMPONENTS

    Mr. Clyburn. Thank you.
    Let me begin by saying that I do believe that a visitor's 
center is a positive. I believe that. I still remember my first 
visit to this campus, so to speak, and I do believe I would 
have gotten a much better experience and I think my children 
would have gotten a much better experience if we had a 
visitor's center of this kind, with the kind of programmatic 
efforts being put forth to really get them to understand and 
see, visualize the--not just the Capitol building but the 
background. I am--as most of the members here know, I am very 
much a historic preservationist. I believe in historic 
preservation, I believe in restoration programs. I fight for 
them all the time. And I believe that historically this is 
something we ought to do.
    My problem, though, is probably wrapped into how we have 
allowed the public to view this. I was told that a few days 
ago, maybe a couple weeks ago this whole project was a part of 
some maybe the fleecing of America, maybe, one of these TV 
programs.
    But I don't agree with all of that. I think we ought to do 
this. But I do believe we ought to separate out what the 
Visitor Center is and get the public to understand that this 
much money is being spent on the Visitor Center, this much 
money is being spent on the House and Senate additions, office 
additions, is all wrapped into the Visitor Center. And that is 
what is out there, is one big number for the Visitor Center. 
And I don't think the public really--and I am not too sure all 
the Members--know that there is a substantial expansion of 
House and Senate office space involved in this project to get 
us up to this big number.
    I do have a problem, and I understand the design of the 
auditorium and I can understand the preservationists really 
wanting to keep this thing neat and compact. But, then, I think 
you have to balance all of that with what our Nation's needs 
are and what the Congress' needs are. And I am not too sure 
that we have done that in this instance, and I am really not 
too sure exactly what the preservationists had in mind for this 
450-seat auditorium that they are recommending that you go with 
instead of the 750.
    Could you tell me whether or not anybody had any 
discussions about how this auditorium is going to be used?
    Mr. Hantman. Yes, Mr. Clyburn. There was significant 
discussion, and not necessarily unanimity, in terms of the size 
of the auditorium, whether or not we should build it for the 
750 size where State of the Unions could be held there or 
whether or not it was going to be a functional congressional 
meeting area where the entire House could meet in session, if 
in fact they needed to as an alternative to the existing House 
Chamber. Or, again, security type briefings in a SCIF 
atmosphere could be held. There isn't a room that large that is 
a SCIF related room in any of the Capitol buildings right now.
    So those were some of the main issues in addition to the 
use that the Library of Congress was proposing as well.

                               AUDITORIUM

    Mr. Clyburn. Well, in my own mind, I can see an auditorium 
being used. There are programs I have gone to down at the 
Kennedy Center which I think would have been much better and 
much more meaningful if it were in an auditorium of this sort 
here on the Capitol grounds. I can think of a few things that 
have gotten rained out here in the Mall that this auditorium 
would have been very useful for. I don't see where, just to 
meet if you need to meet. I mean, if the House needs to meet, 
that is a lot of money for an auditorium just to meet in case 
you need a place to meet. We have got some pretty good looking 
digs to meet in already. So I am not too sure. I think this is 
the kind of stuff that is giving us a problem with our Members 
and with the public, because if that's all that this auditorium 
is going to be used for, then I think there is a legitimate 
concern on people's part as to whether or not that amount of 
money ought to be spent. But I think if people knew that the 
kind of facilities that you have on July 4th would not be 
rained out, we could move to an auditorium that could 
accommodate certain people or other kinds of patriotic programs 
or would have other kinds of programs that might be better 
suited here on the campus grounds than down at the Kennedy 
Center or some other place. I think that you could make a case 
for that. But I don't know if you could make a case to the 
public about having a room just so the House or Senate could 
meet if need be when they've got two big meeting places 
already. So I think that's what has gotten us a little trouble.
    But as for this member, a former history teacher, I believe 
in all of this stuff. I really do, and I am passionate about 
it. But I also believe that we have to really educate the 
public as to what we are doing and why we are doing it and what 
it is going to cost. I think that this whole thing of just 
flying by the seat of our pants and doing this, that, and the 
other without any real concrete plan, I really believe we 
should have spent a year or so making these plans and then 
going forward, rather than just doing it and then plan the next 
phase and doing something else and then planning the next 
phase. That's what's got us all screwed up here.
    With that, Mr. Chairman, I yield.
    Mr. Kingston. I thank the gentleman.
    Mr. Moran.

                        UNCERTAINTIES REVISITED

    Mr. Moran. Thank you, Mr. Chairman.
    In talking about what leverage we have and what has not as 
yet been committed, this $35 million that's for the House of 
Representatives expansion space, after the basic construction 
is done, there's $13.6 million left for what you refer to as 
fitout of those spaces. And you say that it is under a design 
to budget mechanism, and GAO tells us that those funds may not 
in fact be sufficient. But they do say that Mr. Walker's report 
has said that 13.6 million is available from the budget to fit 
out the House expansion space. Tell me exactly what the fitout 
funds are used for.
    Mr. Hantman. If we talk about the new hearing room, Mr. 
Moran, which is a two-story space being designed for the 
expansion space, there would be the finishes on the wall. It 
would be stone, it will be wood. The ceiling construction. The 
dais that would be built in the room. All of those, the 
hardware would be part of the fitout of the space. The 
distribution duct work coming off the central mechanical room 
into the space would be part of the fitout of the space. 
Special conduits, things of that nature. And that is--and 
flooring would also be part of that as well.
    Mr. Moran. It just seems that $13.6 million is a lot of 
money for the molding and the doors and a dais and so on. Maybe 
I am not envisioning it. I can see construction, you know, of 
the basic space, but--which is, what, about $20 million, I 
guess. More than $20 million. But this fitout of $13.6 million, 
it may be something that it is not essential, not integral to 
the project. And, I mean, I don't want to, you know, short-
change any of the rooms. But I don't know; this includes the 10 
percent contingency money, doesn't it?
    Mr. Hantman. Correct, sir.
    Mr. Moran. GAO says you have spent about $2 million of 
those contingency funds at this point? I think they put down $2 
million, right? So you figure $3.5 million was the contingency 
amount that was budgeted?
    Mr. Walker. It's been allocated, which means in some cases 
it's been spent; in other cases it's probable that it's going 
to be spent and, therefore, it's been allocated.
    Mr. Moran. Well, I don't know. I guess this is the kind of 
thing we need to discuss. You know, it's not a whole lot of 
money out of the total, but it's something that clearly we 
don't have a defined project--I guess your term would be 
defined project scope. I think that's the operable term for 
this, for the 13.6 million. But it may be something that we 
want to look more carefully at. I know it's just a microcosm of 
the larger project, but it's something that's uncommitted, it's 
money that has not as yet been provided, I gather, and it's 
something that's clearly within the purview of the House 
leadership at this point, I think.
    But you have been asked a lot of questions; this has gone 
on some time, I'm not going to belabor it. Again, we'll have 
some discussion of what we can and should do. I sympathize with 
Mr. Clyburn, that we want to--when we do this, we want to do it 
right. But we know that we can't criticize other projects 
around the country the way that money is used if we can't keep 
our own house in order, so that it--we are more than happy to 
undergo scrutiny of any kind, at any time.
    But with that, I will conclude my questions, Mr. Chairman.

                      EXPECTATIONS FOR THE CENTER

    Mr. Kingston. I thank the gentleman.
    When the project started having all the overruns for 
utilities and unknown conditions, why didn't the AOC contact 
Congress and say, ``We have a problem?''
    Mr. Hantman. I think what one of the things that Mr. Walker 
said earlier about expectations of significant bids is 
something that we had talked about, Mr. Chairman. The project 
was initially tracked with all of our project components as a 
lump sum. And we were tracking the overall budget, we were 
optimistic that our goals could be met even with the high 
utility costs that started coming in. We had not finalized the 
design for sequences one and two, and we were pretty confident, 
I guess--too much so in hindsight--that the design, the bidding 
climate would be favorable to the costs that we were projecting 
for those sequences.

                             FINANCIAL PLAN

    Mr. Kingston. There are a number of accounts. Isn't it true 
that you have borrowed from various accounts, for example, one 
account for furniture or wiring, redirected to wallpaper or 
flooring?
    Mr. Hantman. When we resolved the dollars that had been 
spent to date, Mr. Chairman, relative to the obligation plan, 
we were pretty much right on budget.
    Mr. Kingston. But you have taken money from one account and 
applied it to another account.
    Mr. Hantman. The project was not originally tracked as, you 
know--and I apologized for that in our letter of March--I think 
it was April--that we were tracking it on a lump sum basis for 
the entire project as opposed to a line-by-line obligation 
plan.
    Mr. Kingston. This committee would like to make legislative 
changes to prevent these things from happening. But that is a 
practice which although apparent to me, may be harder for other 
Members of Congress to interpret. I understand what you are 
saying: lump sum you are okay, but dollar for dollar, you are 
still taking it out of one pocket and putting it in the other 
one.
    Mr. Hantman. And we have changed our accounting procedures 
in line with the obligation plan, and we will be tracking it 
exactly that way going forward, Mr. Chairman.
    Mr. Kingston. Mr. Walker.

                             TRACKING COSTS

    Mr. Walker. Mr. Chairman, this is an example of where 
there's two sets of books going on here. The total is not any 
different. But if you look at it from the standpoint of the 
contingency, the House wanted to allocate contingencies by line 
item. The Senate didn't allocate the contingency money by line 
item; it basically kept one fund. And as events unfolded, they 
then, based on the facts and circumstances basis, allocated 
money to a specific line item where the problem was. So the 
totals are the same, but this is an example of where there is a 
separate subaccount accounting between the House and the 
Senate. One of the things we hope that can happen is we can 
come up with one approach that can be clearly defined and 
consistently applied, because I totally agree that part of the 
problem here is communication. There are some clear expectation 
gaps and inconsistencies between how the House and the Senate 
are viewing this. If we could come to an understanding as to 
how this thing is going to be tracked in reporting, that would 
solve part of the problem, I think.
    Mr. Moran. Would the gentleman yield for a minute?
    Mr. Kingston. Yes.
    Mr. Moran. I am told that the way the House does it is on 
the recommendation of the Architect. The way we are budgeting 
is at your recommendation, Mr. Chairman; isn't that true?
    Mr. Hantman. In terms of unconceived or unexpected soil 
conditions or problems on the site, certainly we budgeted and 
we allocated dollars to cover those to keep the project going. 
But in terms of the original budget and how it was broken down, 
certainly we and our design team came up with the breakdown in 
order of magnitude in terms of where we thought the dollars 
needed to be allocated for the project.
    Mr. Moran. So the proposed allocation plan was yours.
    Mr. Hantman. That is correct.
    Mr. Moran. And the House followed that.
    Mr. Hantman. And as it turns out, when we reconciled the 
methodology that we had determined along with GAO since 1999 in 
terms of how to keep track of what a normal construction 
project is, a lot of line items that the obligation plan had, 
we were within a half a percent of the obligation plan.
    Mr. Walker. In total. But our recommendation was not to 
break it out by line item. You are the client, you need to 
decide what you want to do. But our recommendation was not to 
do that, because by definition you are going to have a lot more 
variances that may or may not be a problem.

                             PROJECT BUDGET

    Mr. Kingston. It is hard for us to track this budget 
methodology and we want to be as knowledgeable as possible. A 
footnote to that: I understand the budget folks are being moved 
out of their space in the Capitol now.
    Mr. Hantman. Unfortunately, yes.
    Mr. Kingston. Who do we need to talk to about that? Because 
we in this committee need them near us.
    Mr. Hantman. The Leadership has asked for the space that 
they are currently sitting in.
    Mr. Kingston. As a member of Leadership, I will see what I 
can do to help, because I think it would be good for our 
Committee for the duration of this project to have that 
information as close by as possible.
    I understand that half of the $48 million that the Senate 
has put in their budget is for contingency. That figure seems a 
little high to me. Is this in that $35 to $40 million range or 
is that a different contingency?
    Mr. Walker. A $22.8 million contingency, which is built 
into the $351.3 million number.
    Mr. Kingston. So it's not included in that $37 million of 
unknown items.
    Mr. Walker. That's correct. It is already provided for in 
the $351.3 million number.
    Mr. Kingston. But there is $22 million of contingency that 
is built into that.
    Mr. Walker. Right.
    Mr. Kingston. You are then saying there could be another 
$37 million on top of that?
    Mr. Walker. Right. Based upon the items outlined in my 
testimony.
    Mr. Kingston. So we are looking at $59 million in 
contingencies?

                          PROJECT CONTINGENCY

    Mr. Walker. Potentially. The $22.8 million,--just to 
clarify--is already in the $351.3 million that is expected to 
be spent. And we believe that you can expect to spend that 
money. The other $30 to $45 million is based upon uncertainties 
that were not considered by Tishman that we believe you need to 
be aware of, that may or may not occur, that we have tried to 
quantify, and that are not of the same level of certainty as 
this $22.8 million. The $22.8 million we think you are going to 
incur that. We think it is likely that you are going to incur 
some of these other costs, although time will tell.
    Mr. Kingston. If you are certain it will be incurred, then 
it is really not a contingency.

                           TISHMAN ESTIMATES

    Mr. Walker. Well, contingency from the standpoint we don't 
know exactly for what item it will be incurred. We know that 
history shows that it is highly probable that you will incur 
additional costs. I don't know if this has been provided for 
the record. But as part of the briefing document that we did 
back--Tishman estimated about $1.5 million for preconstruction, 
an additional $9 million for the CVC I, $9.2 million for CVC 
II, $300,000 for the Jefferson Building modifications, and $1 
million for other costs. We added $2.9 million to that, a vast 
majority of which dealt with phase one of the project. And it's 
standard procedure. I mean, this is not unusual for this type 
of project.
    Mr. Clyburn. Mr. Chairman, I don't know, I might be just a 
little bit confused here. But on page 3 of testimony you 
submitted, Mr. Walker, you have got these uncertainties in the 
box here. Now, if I were to check this into accounting and go 
forward to page 4, your last paragraph on page 4.
    Mr. Walker. Okay. Yes, sir.
    Mr. Clyburn. Now, is that a summary of what's in the box 
or----
    Mr. Walker. No. Basically what we are saying is this has to 
do with the base project. The base project is the $351.3 
million.
    Mr. Clyburn. Right.
    Mr. Walker. All right. The $70 million, which is at the 
bottom of page 4, has to do with the supplemental House and 
Senate space. As the Chairman or Mr. Moran pointed out a few 
minutes ago, we noted that there is a certain amount of money 
left from that. Tishman has said that there is a risk that the 
money that's left may not be enough money, because, again, the 
theory on this additional space for the House and Senate is you 
were going to build to budget.
    Well, until you know what you are going to get and until 
you define this as what you need--what the scope and 
specifications are and what it's going to cost--there is a risk 
that while you may want to build to a budget depending upon 
what your expectations are you are going to get, then you may 
or may not be able to stay within this number.
    It comes back to what you said before. The first thing that 
has to happen is, ``What do you want, what are the 
specifications, what's the cost,'' and drive it all based upon 
that. And it hasn't been done that way.
    Mr. Kingston. Will the gentleman yield?
    Mr. Clyburn. I will be glad to yield.

                    ADDITIONAL POTENTIAL COMPONENTS

    Mr. Kingston. The 37 items are not unspecified items, 
correct?
    Mr. Walker. These are 37 potential additional uncertainties 
that deal with the base project and it deals with a range of 
line items that I would be happy to provide for the record.
    Mr. Kingston. How many unspecified components of this 
project are still out there?
    Mr. Walker. Well, Mr. Chairman, it's not really unspecified 
components. It's elements, okay? We believe that there is an 
additional degree of risk and uncertainty that has to be 
considered. So it is not necessarily a new component.
    Mr. Kingston. Those are the 37 items. But what Mr. Clyburn 
is referring to is we still have a number of undesigned items 
in the project, correct?
    Mr. Walker. Correct.
    Mr. Kingston. How many are there?
    Mr. Walker. The biggest single thing that hasn't been 
nailed down yet is the House and Senate expansion space. You 
also have exhibit space and certain technical security issues. 
Those are big-ticket items and those are to be built to budget, 
but they have not been adequately defined as to what the design 
and related specifications will be.
    Mr. Kingston. If we are building to budget, we run the risk 
of finding out afterwards it is not quite what we need.
    Mr. Walker. I totally agree, Mr. Chairman. I would not 
recommend to this committee or any part of Congress to build to 
budget. However, that's what Congress has decided to do.
    Mr. Kingston. Will the gentleman continue to yield?
    Mr. Clyburn. Yes. You are doing a better job than I was.

                            NEED VERSUS WANT

    Mr. Kingston. Well, then where do we go from here on those 
four or five items that you just listed?
    Mr. Walker. My personal view, Mr. Chairman, is that the 
Capitol Preservation Commission or some subset thereof has to 
involve all the stakeholders, the leaders, the appropriators, 
et cetera, and needs to nail down what are needs versus wants. 
What are the specifications, you know, the functions and the 
specifications for needs versus wants. Let's cost those out and 
let's manage it based upon that going forward. I would not 
recommend a build-to-budget approach.
    Mr. Kingston. Could you provide a letter stating the items 
where we need to make some decisions?
    Mr. Walker. I am happy----
    Mr. Kingston. Or the AOC can.
    Mr. Walker. I am happy to give you a letter that says here 
are some items where we believe decisions need to be made.
    [The letter submitted for the record by the GAO follows:]

    [GRAPHIC] [TIFF OMITTED] T7100E.021
    
    [GRAPHIC] [TIFF OMITTED] T7100E.022
    
    [GRAPHIC] [TIFF OMITTED] T7100E.023
    
    [GRAPHIC] [TIFF OMITTED] T7100E.024
    
    [GRAPHIC] [TIFF OMITTED] T7100E.025
    
                            EXPECTATION GAP

    Mr. Walker. There could be an expectation gap. If there's 
an expectation gap, then either A, you could have an adverse 
budget variance, or B, you don't end up getting what you 
thought you were going to get even though you don't have an 
adverse budget variance. That is one of my concerns. There are 
a lot of stakeholders here. There are a lot of people that have 
a vested interest, there's a lot of people that have different 
wants, needs, and expectations. Those have to be reconciled and 
those have to be resolved.
    Mr. Kingston. Let me yield my time to the gentleman.

                           PROJECT RENDITIONS

    Mr. Clyburn. Mr. Chairman, that's--you have gotten to the 
heart of the matter, I think, and I thank you for that. There 
are some times when you are glad you aren't in charge.
    But, you know, the big fear I have is that the Members--
I've watched them going back and forth between votes--walking 
over to your display out there, looking at all these pictures, 
and these renditions or what's locked in their minds. And what 
you are saying here today is in order for these Members to get 
to those renditions, then somebody is going to have to belly up 
to the bar and we have got to make some decisions about some 
additional expenditures, or we'll never get to those 
renditions.
    Mr. Walker. If I can.
    Mr. Clyburn. Sir?
    Mr. Walker. You are right, sir. I said back in April that 
one of the concerns that we have about this project is with the 
artist renditions. As a Member of Congress, you see that and 
you think that's what you are going to get. All right? They set 
certain expectations.
    Mr. Clyburn. Absolutely.

                           DEFINING THE SCOPE

    Mr. Walker. Which may or may not reflect reality, all 
right? They may or may not have been budgeted for and may or 
may not be feasible within the budget allocation.
    I mean, the AOC and Congress have to define scope and 
specifications, nail it down, and better manage it in order to 
minimize the possibility of expectation gaps. You are going to 
have some when you have 535 Members of the House and Senate, 
but there are things that can and should be done to minimize 
that. And I think a lot of people are doing exactly what you 
said, Mr. Clyburn. They're looking at those and saying, that's 
what I'm getting.
    Mr. Clyburn. That's exactly right. And that is where we 
are, and that's what's causing this problem. Because you guys 
are the experts and you know what is required to get us there, 
and you know that you do not have the resources currently to 
get us from where we are to what's in those renditions. And it 
is our job to in some way get these things meshed.
    And I'm not too sure how we are going to do that, Mr. 
Chairman.
    I do believe that some kind of communication, a letter or 
something from you that will allow the Chairman to begin having 
meetings with the leadership or whoever we need to meet with to 
either eliminate these expectations or in some way, as you say, 
to minimize them; because they are way up there, and we will 
never get there with the amount of money that we are talking 
about here. I don't even think we will get to the $451 million.
    Now, I don't know a whole lot about construction, but I do 
know a little bit about government practices. And so I don't 
think we are going to get there with $451 million, not what our 
people think we are going to get. So I don't know what it 
takes, whether it's a letter from you, but I think, Mr. 
Chairman, you need something that will lay a foundation for us 
having some meetings and some discussions with the people who 
are expecting from us to do what they think ought to be done by 
this committee or this subcommittee.
    Thank you, Mr. Chairman.

                            BUILD TO BUDGET

    Mr. Hantman. If I could just clarify something, please. 
When the original budget was established, we had what we call 
allowances, because we had not designed the exhibition space, 
we had not--the security elements still have not been picked 
out, so we had an allowance for security. We also had 
allowances for expansion space on the House and the Senate side 
with virtually no program. And that's what we are working on 
right now so we can define the program and try to work to the 
budget.
    So when you talk about build to budget, we had the 35 
million for the House and we are looking at 80,000 square feet 
and we are prioritizing the use of those dollars to make sure 
that the most--the quality spaces are where the quality spaces 
have to be. And those that are offices or secondary meeting 
areas don't need the stone, they don't need the finished woods, 
things of that nature.
    So in terms of when you establish a base budget and you 
don't have a design, clearly having those allowances makes 
sense. That's the only way you can really do that. So when I 
think that when Mr. Walker is talking about building to budget, 
I think the exhibition space that we are talking about, which 
was an $18 million dollar budget, Mr. Applebaum--who is the 
exhibit designer--is designing to that budget, even using some 
of these funds to finish off his space.
    The security, they are about to start a study this coming 
month in the Capitol Police sense to determine what type of 
magnetometers, what other type of equipment they want to build 
for their 14.3, I think it's 14.3 million dollars, for the 
allowances on security.
    In terms of the expansion space, there were no renderings. 
What we are developing at this point in time is essentially 
what we're being told should be developed in that space, and we 
are trying to control expectations in terms of what the budget 
can effectively control.
    So when I talked about the big meeting room, I said that's 
really where you want to put the dollars that you have 
appropriately, and go down the chain in terms of prioritizing. 
But in terms of the renderings that we have on the plaza, the 
granite pavers, the elements that match the Olmsted landscape, 
all of those have been bought already. We are basically there 
on most of those quality issues--and we haven't stinted on it, 
Mr. Clyburn. So.
    Mr. Clyburn. Mr. Chairman, let me ask. I noticed Mr. Walker 
indicated that he would not recommend to Congress that we build 
to budget. That's too late for this project, right?
    Mr. Walker. Oh, I think there are steps that you can and 
should take. I mean, you can't change history. There are steps 
that you can and should take to define what do you want to get, 
and to try to provide reasonable assurance that in fact your 
budget is adequate; if your budget is not adequate, then you 
may need to make a conscious choice. Do you want to redefine 
scope or do you want to appropriate more money? I think you 
need to make a conscious decision. I think that's possible, I 
think that's appropriate.
    I think it's fair to say on the renditions that Mr. Hantman 
mentioned when you look at the exhibit space, that's one where 
I have seen the most renditions. And you look at it, it looks 
very nice. I think that's where there are some expectations.
    This is what I'm going to get for $18 million. Neither one 
of us can tell you that you're going to be able to get what 
that rendition says for $18 million. I think that it is 
reasonable to have an allocation. There is nothing wrong with 
that. That is appropriate in certain circumstances. But you 
need to take steps as quickly as possible to define exactly 
what you're going to get, what you think it's going to cost and 
to the extent there's a gap, close the gap, either change the 
scope or change the budget. You move on from there and then get 
control of the process from that point forward. I'm talking 
more prospective because a lot of the changes that have 
occurred so far, again, subsequent events, conditions that were 
unexpected, underground or whatever else that became evident, 
but if we don't get control of the scope and the process, then 
those risks will continue, and I'm confident that you can.

                           PROJECT OVERSIGHT

    Mr. Kingston. We're all guilty of this scenario in 
Washington, where you serve on a Committee and it becomes a 
little staff-driven, and perhaps not everybody attended every 
single meeting, or when they did, they were distracted by phone 
calls and interruptions, and maybe did not exhibit the 
influence that they should have. This committee, however, is 
interested in active involvement from this point on, and I 
think our oversight position here is precarious--we're jumping 
in the pool with you. We may drown with you, or we may all make 
it across the other side, but we want you to know that we're 
taking this very seriously. 48 million additional dollars is a 
huge amount of money when we're fighting for prescription drug 
coverage and a war and to solve a huge deficit, and we cannot 
just take the passive position of, ``We're going to do this 
because somebody else started this ball and we don't want to 
stop it.'' We are not going to stop it, but what we are going 
to do is guide it safely to a little less spending, hopefully, 
or to avert a disaster.
    If this hearing does nothing else today, what I would like 
to see from the AOC is a list of what these unspecified areas 
are and how we can obtain contractors to bid them right now and 
put a price tag on them. There's no sense in us going to the 
Floor of the House saying $35 million is going to handle it, 
because we don't know if it will or not.
    Regarding the display, if you tell me to spend $18 million 
on a display, I will spend $18 million on a display. It's 
possible if you ask three people somebody might come in at 
$13\1/2\ million. Somebody might come in at $22 million. That 
would be a much better approach. We can't go back and do that 
at this point. If I understand correctly, Mr. Applebaum has got 
an $18 million program. Is that it?
    Mr. Hantman. That's basically correct, Mr. Chairman. We had 
the basic concept for the exhibition approved by the 
Leadership.

                            COMPETITIVE BIDS

    Mr. Kingston. Well, is it contracted with Mr. Applebaum, or 
is it just Leadership saying this is what we're going to spend?
    Mr. Hantman. We have a budget for expending the dollars. He 
has not expended or----
    Mr. Kingston. If he hasn't signed the contract, we're not 
obligated. One way we can save money is to bid the display 
component of this, right?
    Mr. Hantman. That would be intended, sir, to bid it. 
Correct?
    Mr. Kingston. We can get two or three different providers. 
I'm sure there are a lot of them.
    Mr. Hantman. Competitive bidding is what we're all about.
    Mr. Kingston. And so like the Corps of Engineers, we think 
it is going to come in around $18 million, but if it comes in 
at $13 million, we just put $5 million in our pocket.
    Mr. Hantman. Absolutely.
    Mr. Kingston. Which would be our best route on all open 
projects so Mr. Clyburn gets his artist's rendering and the 
taxpayer gets their $5 million.
    Changing the process is very important. Have you two seen 
the report language that we put in our House version of the 
bill?
    Mr. Walker. I haven't.

                          COMMITTEE OVERSIGHT

    Mr. Kingston. Well, I'm shocked and horrified you all 
haven't read our bill. I don't know what you did in your spare 
time. This Committee wants more communication, more reporting. 
We want to know more about the financial status, the 
obligation, authority. What we are trying to do at the end of 
the day is actually make your life a little bit better. People 
are going to be coming up to you all day long, with requests 
such as the soundproofing of the windows on the east front: 250 
grand; and transplanting the trees went from an intensity level 
of an 8 to a 10, which then costs more money in the middle of 
the project.
    What we want is a little more formalized system so that if 
somebody comes up to you and says we want you to consider this, 
you need to be protected by a gatekeeping process coming back 
to the Committee for large change approvals.
    I will want to spend money, if I see the wisdom of building 
an auditorium--which I'm not convinced that we need to do. Why 
would we build one the same size as the one across the street? 
If there's a justification for the auditorium, we don't need to 
duplicate what we already have; however, if that part of the 
building is signed and sealed, then I don't want to reopen it. 
If our Committee is more involved in some of these processes, 
we can give you some cover. We can be the excuse, and we can 
share the blame.
    Mr. Hantman. Mr. Chairman, we would like the financial 
reporting system to be totally transparent so there's no 
questions about it. As things are entered, as commitments are 
made, it's right there for everybody to see.

                            CULTURAL CHANGES

    Mr. Kingston. Some of the things where I want you to think 
in terms of cultural change, is when an unelected staffer gives 
direction, we want to give you a little insulation, to say, 
``You know, that's fine, but this Committee is going to have to 
know about it.'' I don't think that we need to put that into 
legislative language, but you need the gatekeeping mechanism to 
keep people from getting to you.
    We're very interested in finalizing these specs and bidding 
out the subcomponents of the displays, the office finishing, 
and security.
    There must be a way to alter the way we do change orders, 
as that's where some of the profit and the cost of any 
construction project is. It's great if you're the contractor; 
it's horrible if you're the customer.
    What we would like from both of you is a list of 10 things 
we can do to change the process, which we could put into 
language, and take to the Senate, the House leadership, and the 
Senate leadership, and say ``This has got to happen. It's got 
to happen on this project; but in addition, it needs to happen 
on future projects.''
    If we can then go back and say because of the new process 
and changes, we've come up with a way to save millions of 
dollars, it will be huge for this Committee. In addition, if we 
can show that we have made some tangible changes, it's 
important. I like the specs idea.
    I'm not convinced that we can't cut off the tunnel going to 
the Library of Congress. If our committee can say, ``This is 
something that we made a tough decision on, but tunnels are 
tricky under existing streets, when you've got Amtrak around 
and when you're dealing with historic properties where you may 
discover things like wells that you didn't know existed.''

                             LIBRARY TUNNEL

    Mr. Kingston. Tell me why that tunnel is necessary, and 
keep it in mind that from my perspective this is a Capitol 
Visitor Center, and not a Library of Congress, slash, 
Congressional Visitors Center.
    Mr. Hantman. That was passed, as you know, Mr. Chairman, in 
the $38.5 million security post-9/11 issue. So in terms of that 
tunnel as an alternative means of egress, safety, that was one 
of the rationales for it as well. It wasn't just the issue of 
getting out of the rain or not using umbrellas. So that was 
part of it. The concern about convenience of visitors as well 
as the Congress in terms of going to the library events, that 
Members--that visitors can come from the library into the 
Visitor Center itself, and vice versa, so they can share the 
treasures of the library as well as see the exhibits was part 
of the rationale for that.
    Mr. Kingston. It can be severed, though?
    Mr. Hantman. Construction-wise, it could be, sir.
    Mr. Kingston. On the east front of the Capitol right now, 
the walls were built for future tunnel entrances, right?
    Mr. Hantman. In the east front?
    Mr. Kingston. In the east front of the existing Capitol.
    Mr. Hantman. Back in 1950 when the expansion was done on 
the east front of the Capitol, there were knock-out panels for 
future connections to an underground parking garage which never 
took place, and we are using those knock-out panels now for the 
Visitor Center.
    Mr. Kingston. So if we did not move forward with the 
tunnel, you could put knock-out panels in there that would 
allow us to go back in the future, should we see the need for 
it?
    Mr. Hantman. We could.
    Mr. Kingston. Mr. LaHood.
    Mr. LaHood. It's difficult to know, not having been here, 
so I think I'll just let it go for now, rather than trying to 
tread over--is it conceivable that the public could go from the 
Capitol through the tunnel to either Longworth or Cannon and 
get to the Library of Congress?
    Mr. Hantman. There is a circuitous route that does go 
through the Madison Building and to the Jefferson Building, 
yes.
    Mr. LaHood. So there is currently a tunnel from the Capitol 
to the Library of Congress, the Madison Building, right?
    Mr. Hantman. That is correct, sir.
    Mr. LaHood. And if people who were in the Capitol, touring 
the Capitol, wanted to go to the Library of Congress 
underground, there is a way to do that.
    Mr. Hantman. That is correct.
    Mr. LaHood. Thank you.
    Mr. Kingston. Let me continue on this thing, because it is 
something that is a concern of mine. In terms of this tunnel, 
the library has different hours than the Capitol. I think the 
library is closed on Sundays. The Visitor Center would be open.
    Mr. Hantman. Yes.
    Mr. Kingston. Would that not be a day on the weekend when 
you'd have a bigger tourist load anyway?
    Mr. Hantman. I could get you a breakdown normally in terms 
of what times of day and days of the week and a whole breakdown 
on an annual basis of when the tourist peaks, okay?
    Mr. Kingston. Do the Madison Building and the Jefferson 
Building have different hours?
    Mr. Hantman. I'm not sure about that, Mr. Chairman.
    Mr. Kingston. Because the tunnel that Mr. LaHood is 
referring to closes at 6:00 in the evening. When they have 
receptions in the Madison Building you can get there in the 
tunnel, but you can't come back.
    Mr. Hantman. We could check on that time frame for you.

                        LIBRARY TUNNEL ENTRANCE

    Mr. Kingston. There is a security inconsistency that 
already exists in the current tunnel that somebody should be 
thinking about. Wasn't the distance between the tunnel and the 
Amtrak tunnel, supposed to be several feet and it turned out to 
be approximately 18 inches?
    Mr. Hantman. That was two different issues, Mr. Chairman. 
When we had the utility tunnel trying to cross First Street 
right near the Capitol Police headquarters, we had a 30-inch 
water line that we wanted to get over the top of Amtrak, 
because it rises as it gets closer to Union Station. So we only 
had 18 inches over there. The clearance above Amtrak at the 
Jefferson Building is adequate to get a tunnel above that so 
that we can hit the lower levels of the Jefferson Building for 
that connection.
    Mr. Kingston. We did a 10-year renovation of the Jefferson 
Building.
    Mr. Hantman. That is correct.
    Mr. Kingston. How much was that?
    Mr. Hantman. I believe it was $81 million for both the 
Jefferson Building and the Adams Building.
    Mr. Kingston. This tunnel would come into the Jefferson 
Building?
    Mr. Hantman. That is correct.
    Mr. Kingston. And how much would that change what we just 
paid to renovate?
    Mr. Hantman. The space it would come into, Mr. Chairman, is 
on two levels. There is a waiting area right across from the 
concert hall that is--I forget the name of the concert hall 
down at the lower level, but there is a waiting room with 
benches in it. That would be the main point of entrance of the 
tunnel which starts at the lower level. Stairs and an elevator 
would come up from that lower level into that waiting area and 
then people would distribute into the corridor system of the 
library.
    Mr. Kingston. We would lose some of that recently renovated 
marble.
    Mr. Hantman. The waiting room--the benched room is not 
highly finished at this point in time. It was more a functional 
type of room. So it doesn't have much of the marble and the 
bronze that the rest of the library has.

                            PROJECT SAVINGS

    Mr. Kingston. Mr. LaHood or Mr. Clyburn, if you have any 
questions, jump in. What I'm going to ask you again is--as my 
architect and as customers, we don't have the money. Assume we 
only have $450 million, period. We're all very concerned about 
the budget announcement today that the deficit is $450 billion, 
and that's certainly not your fault, but we still have to come 
up with ways to save money. Can you give me a list of 10 
suggestions?
    Mr. Hantman. I can certainly give you, Mr. Chairman, the 
list of the items that would be easiest to cut off and still 
have some type of an experience for the visitors coming into--
--
    Mr. Kingston. And you could do it with some real enthusiasm 
to the degree that, ``We want to save the project. We want it 
to be a good quality project. The experience is going to be a 
great one.''
    My wife and I went to St. Louis a couple of years ago, and 
that Lewis and Clark exhibit there and the Gateway to the West, 
is a great exhibit. People who come here are going to see that 
kind of thing and feel real good about their government, but we 
do need to nip and tuck a little bit. We want to do this 
process and change, which is real important, but we also need 
to show to folks that, ``Okay, we've come up with some things 
that this committee can feel good about recommending.'' It just 
seems to me that it's absurd that in this town it's, ``Well, 
shucks, we can't stop it now because it's already in process.''
    This committee inherited somewhat of a mess, but we're 
going to change it. We're going to join your hand and join Mr. 
Walker's hand, and we're all going to walk through this thing 
together. We're going to get out to the other end and we're 
going to hold our heads high. But we need to salvage the 
project a little bit. That is the attitude of this Committee.
    However, if it looks like there's going to be a problem 
with this Committee, we're going to game it through the 
Leadership, or the Senate, then this Committee will probably 
have a different attitude and find other ways to extract the 
pound of flesh out of the project. We don't want to have to do 
that. As you know, Mr. Clyburn has already said he wants the 
project. Mr. LaHood is really a great institutional protector, 
so we're not here to just yank the rug out of this thing in a 
sour grapes fashion, but we have lots of colleagues who would.
    Mr. Walker.

                    GAO'S LEGISLATIVE RESPONSIBILITY

    Mr. Walker. I would just say our statute is very clear, Mr. 
Chairman. It says we shall do work for committees and 
subcommittees. So we'll be happy to work with you, and 
ultimately you're going to have to end up dealing with your 
colleagues to reconcile the wants, needs, affordability and 
accountability issues, but we're happy to be there to help.
    Mr. Kingston. We do want to hold other hearings which I'm 
sure you'll both be very enthusiastic about. Again, we're doing 
this in the spirit that we're with you.
    Mr. Clyburn.
    Mr. LaHood.

                    CAPITOL PRESERVATION COMMISSION

    Mr. LaHood. Let me just go back to a point that I made 
earlier, and that is to the architect, I guess. There are many 
masters on this--it seems there are many masters on this 
project. Would it be helpful if we could identify one group of 
people or so-called one master that you knew very definitively 
that when they spoke, this was it; that it wasn't going to be 
the last person that spoke to you that made the decision about 
something?
    Mr. Hantman. Originally, at the genesis of this project, 
Mr. LaHood, I had requested basically just that, one master. 
And the solution was the Capitol Preservation Commission 
because there are 18 Members on it, leadership of both parties, 
both Houses, most major committees as well. So that, as a tool 
for decisionmaking, seemed to be the best model. The question 
of how you get responsibility for any requested changes and 
all, as Mr. Kingston has indicated, is a critical issue; 
because ``while you're at it, do this,'' and ``while you're at 
it, do that'' is certainly something that could raise budgets 
and, in fact, has impacted this----
    Mr. LaHood. Are there any Members of Congress on this 
group?
    Mr. Hantman. 18 Members of Congress are on this----
    Mr. LaHood. They are all Members of Congress.
    Mr. Hantman. But every Monday we meet with the senior staff 
who represent those Members at the senior level.
    Mr. LaHood. So do the principals ever show up?
    Mr. Hantman. Not to these meetings, Mr. LaHood.
    Mr. Walker. Mr. LaHood, being an officer of the United 
States Congress and an officer of the U.S., there are a lotof 
congressional commissions, and I think what you need to do is you need 
to think about having a subcommittee or something of--this larger 
commission and staff are critically important, there is no question 
about that. They play a very, very important role. But I think you need 
to have more Member involvement, and it needs to be a subset to be able 
to handle certain issues. They can go to the full commission, you know, 
for certain major policy issues, but I think process is an issue, and 
players----
    Mr. LaHood. Good suggestion. Thank you, Mr. Chairman.

                           Closing Statement

    Mr. Kingston. Thank you, Mr. LaHood. Mr. Clyburn.
    We want to come up with legislative language that helps 
create a gatekeeper so that you don't have 10 different masters 
telling you what to do.
    My own frank opinion is that we're the appropriators, we 
write the check, and I think we can be very aggressive in terms 
of a Committee. If we are going to write the checks, we're 
going to have our say-so in it. That's number one.
    Number two, we want to be sure that on these specs for the 
$35 million House, $35 million Senate, for the security, for 
the display, we want to get numbers on those, and we want to 
put in place a mechanism to get those sub-bid or whatever is 
necessary. We want to define these 30 to 45 numbers. We have 
discussed the oversight in terms of accounting, which we want 
to formalize and affirm that this Committee has some oversight 
and say-so. We are doing that in terms of partnership here.
    The other thing I would like to see is a list of potential 
cutoff points of tangible bricks and mortar that we can extract 
from this project so that we can tell Members, ``We've searched 
our soul, we've searched the plans, and we've searched the 
designs and we've come up with some things.'' Of course at the 
end of the day, we need to know and trust what the final number 
is. So when December of 2005 arrives that's where we are, 
because we're all accountable. Our credibility is on the line, 
and it's a legacy. We all need to walk out of here with our 
heads held high, and again, we can work together on these 
things. Then there are ways we can work separately, but nobody 
wants to do that.
    All right. With that being said gentlemen, the Subcommittee 
is adjourned subject to the call of the Chair.
    [The GAO review of the Tishman Cost Analysis follows:]

    [GRAPHIC] [TIFF OMITTED] T7100E.026
    
    [GRAPHIC] [TIFF OMITTED] T7100E.027
    
    [GRAPHIC] [TIFF OMITTED] T7100E.028
    
    [GRAPHIC] [TIFF OMITTED] T7100E.029
    
    [GRAPHIC] [TIFF OMITTED] T7100E.030
    
    [GRAPHIC] [TIFF OMITTED] T7100E.031
    
    [GRAPHIC] [TIFF OMITTED] T7100E.032
    

[GRAPHIC] [TIFF OMITTED] T7100P1.001



                               I N D E X

                              ----------                              
                                                                   Page
U.S. House of Representatives....................................     1
Administrative Controls..........................................    90
Alternate Computer Facility......................................    94
Assessment of House Operations...................................    91
Budget Justification.............................................   111
Capitol Safety...................................................    99
Changing Postal Operations.......................................    97
Committee Staff..................................................   108
Continuing Efforts To Secure Staff Gym...........................   100
Cost of Living Increases.........................................    96
Description of CAO Organization..................................    83
Description of Clerk Organization................................    82
Description of Sergeant at Arms Organization.....................    82
Funding the Alternate Computer Facility..........................    95
Homeland Security Committee......................................   108
House Gym Survey.................................................   100
House of Representatives.........................................     2
Implementing Recommendations.....................................    92
Information Redundancy...........................................    95
Interest in House Gym............................................   101
Internal Controls................................................    90
Laptop Computers.................................................    96
Leadership Parity................................................   105
Legislative Counsel Salaries.....................................   109
Legislative Issues...............................................    87
Mail Processing..................................................    88
Mail Processing System...........................................   102
Mission of the Attending Physician...............................    86
Mission of the General Counsel...................................    84
Mission of the Inspector General.................................    84
Mission of the Law Revision Counsel..............................    85
Mission of the Legislative Counsel...............................    85
Modular Furniture Program........................................    93
Offsite Mail Facility............................................    89
Old Mail System..................................................   109
Opening Statement--Fiscal Year 2004 Budget.......................     1
Opening Statements...............................................     2
Package Delivery.................................................   103
Postal Service Improvements......................................   104
Praise for House Services........................................   100
Space Restrictions...............................................    98
Staff Gym........................................................    97
Student Loan Repayment...........................................   104
Testing Mail.....................................................   104
Thank You........................................................    97
Use of Attending Physician Services..............................    99
Use of New Technology............................................    89
Waste, Fraud and Abuse...........................................    89
Library of Congress..............................................   339
Closing Statement................................................   398
Congressional Research Service--Enhancing Research...............   390
Congressional Research Service (CRS)--Retention Program..........   376
Copyright Office Re-engineering Program..........................   393
Digital Future Initiative........................................   378
Digitization for Educational Purposes............................   380
Emergency Supplemental Appropriations............................   373
Employee Retention Program.......................................   397
Introduction of Witnesses........................................   339
Justification of Estimates.......................................   411
Library of Congress Funding Priorities...........................   374
Library of Congress Police Force.................................   385
Library's Learning Center........................................   381
National Digital Library.........................................   397
Opening Remarks..................................................   339
Police Merger....................................................   383
Prepared Statements:
    Dr. James H. Billington, Librarian of Congress...............   341
    Marybeth Peters, Register of Copyrights......................   356
    Daniel P. Mulhollan, Director of CRS.........................   367
Private Funding--Open World......................................   375
Public Address (PA) System.......................................   384
Questions Submitted for the Record..............377, 386, 392, 396, 399
Russian Leadership Program--Open World...........................   374
Statement on CRS' Services.......................................   378
Upcoming Challenges..............................................   373
Veterans History Project.........................................   388
West Point Digital Program.......................................   379
Congressional Budget Office......................................   597
Budget Justification.............................................   655
Closing Remarks..................................................   633
Congressional Direction of CBO...................................   625
Current Deficit..................................................   617
Dynamic Scoring..................................................   617
Dynamic Scoring/Methods and Approaches...........................   621
Federal Accounting Standards Advisory Board......................   619
Fiscal Reversal..................................................   623
Mission of the Congressional Budget Office.......................   616
National Missile Defense.........................................   627
Opening Statement................................................   616
Questions for the Record.........................................   653
Reconstruction of Iraq...........................................   633
Responsible Budgeting............................................   622
Statement for the Record.........................................   598
Use of CBO's Expertise...........................................   626
Utilizing Resources on Relevant Issues...........................   627
Waste, Fraud, and Abuse..........................................   619
General Accounting Office........................................   753
Asset Recoveries.................................................   790
Challenges to Records Access.....................................   796
Closing Remarks..................................................   833
Food Stamp Abuse.................................................   782
Formal Statement.................................................   754
GAO's 2003 High Risk List........................................   781
High Risk Series.................................................   782
Human Capital Practices..........................................   830
Justification of Estimates.......................................   835
Lapse of Budget Authority........................................   797
Legislative Branch Management Reviews............................   783
Measurable Financial Benefits....................................   788
Opening Remarks..................................................   778
Performance Management...........................................   803
Performance Recognition..........................................   800
Potential for Codification.......................................   797
Questions for the Record..................................784, 798, 830
Source of Financial Benefits.....................................   789
Testimony on Human Capital: High Risk Programs...................   804
Waste, Fraud, Abuse, and Mismanagement...........................   779
Welcoming Remarks................................................   753
United States Capitol Police.....................................  1095
Biography of Chief Terrance W. Gainer............................  1102
Budget Justifications............................................  1137
Budget Request...................................................  1104
Closing Comments.................................................  1134
CVC Impact.......................................................  1129
Department's Accomplishments.....................................  1105
Expanding Role...................................................  1108
Expansion of Jurisdiction........................................  1110
General Expenses.................................................  1105
Hazardous Materials Response Team................................  1129
House Chamber Renovation.........................................  1134
IMF Demonstration Support........................................  1121
Library Police Merger............................................  1124
Office Inspections and Surveys...................................  1122
Officers Present.................................................  1135
Opening Statement................................................  1095
Opening Statement of Chief Gainer................................  1103
Opening Statement of Mr. Pickle..................................  1102
Outside Review...................................................  1133
Questions for the Record.........................................  1114
Recruitment Efforts..............................................  1124
Size of Force Comparisons........................................  1130
Staffing Needs...................................................  1129
Staffing Plans...................................................  1127
State of Transition..............................................  1106
Strategic Plan Implementation....................................  1106
Testimony of Mr. William H. Pickle, Chairman, Capitol Police 
  Board..........................................................  1096
Testimony of Chief Terrance W. Gainer............................  1098
Training Capacity................................................  1127
Government Printing Office.......................................  1155
Achive documents.................................................  1187
Archiving congressional records..................................  1188
Assuring ongoing access to content...............................  1185
Assuring ongoing integrity of content............................  1185
Ben's Guide......................................................  1187
Biography of Bruce James, Public Printer.........................  1171
Buy out request..................................................  1173
Cost recovery....................................................  1184
Discovery of publications on the Web.............................  1185
Enhancing and extending the service role of depository libraries.  1185
Improved functionality for existing GPO ACCESS site..............  1187
Migration of content.............................................  1186
New applications.................................................  1186
Online bookstore.................................................  1187
Opening remarks..................................................  1155
Public Key Infrastructure........................................  1186
Role of GPO......................................................  1176
Transformation of GPO............................................  1170
Transition to electronics..............................1177, 1182, 1184
WAIS replacement.................................................  1186
Waste, fraud and abuse...........................................  1188
XML document encoding............................................  1186
Architect of the Capitol:
    Bandstand for Capitol Grounds................................  1269
    Botanic Garden...............................................  1386
    Budget Introduction..........................................  1308
    Budget Request...............................................  1250
    Buy American.................................................  1299
    Capitol Building.............................................  1329
    Capitol Building Master Plan.................................  1267
    Capitol Complex Security.....................................  1300
    Capitol Cornerstone..........................................  1304
    Capitol Grounds..............................................  1339
    Capitol Police Buildings and Grounds.....................1287, 1381
    Capitol Police Headquarters..................................  1289
    Capitol Police Headquarters Square Footage...................  1288
    Capitol Police Master Plan...................................  1287
    Capitol Police Space Concerns................................  1288
    Capitol Power Plant..........................................  1361
    Case History.................................................  1294
    Closing Statements...........................................  1305
    Costs to Date................................................  1294
    Dome Tours...................................................  1301
    Dome Tour Security Concerns..................................  1303
    Employee Recruitment.........................................  1297
    Expansion of West Refrigeration Plant........................  1306
    GAO Management Review........................................  1295
    General Administration.......................................  1320
    General Statement............................................  1313
    House Chamber................................................  1272
    House Office Buildings.......................................  1352
    House Staff Gym..........................................1269, 1273
    Legal Settlement.............................................  1293
    Library Buildings and Grounds................................  1370
    National Garden..............................................  1270
    Office of Compliance and Legal Cases.........................  1292
    O'Neill Parking Lot..........................................  1273
    Opening Remarks..............................................  1249
    Opening Statement............................................  1266
    Procurement Procedures.......................................  1298
    Project Costs and Schedules..................................  1275
    Project Design and Studies...................................  1285
    Project Overview.........................................1273, 1275
    Rayburn Elevators............................................  1271
    Reopening Dome Tours.........................................  1302
    Room Renovations.............................................  1304
    Senate Office Buildings......................................  1344
    Significant Projects.........................................  1266
    Statue Replacement...........................................  1271
    Temporary Employees..........................................  1291
    Waste, Fraud and Abuse.......................................  1304
    West Lawn Events.............................................  1271
Joint Economic Committee:
    Budget Justification.........................................  1395
Office of Compliance:
    Budget Justification.........................................  1401
Open World Leadership Center Trust Fund:
    Budget Justification.........................................  1429
Capitol Visitor Center...........................................  1435
Additional Potential Components..................................  1486
Auditorium...................................................1458, 1481
Base Cost........................................................  1448
Build to Budget..................................................  1494
Capitol Preservation Commission..............................1453, 1500
Closing Statement................................................  1501
Committee Oversight..............................................  1496
Comparable Projects..............................................  1454
Competitive Bids.................................................  1496
Congressional Auditorium.........................................  1456
Construction Contingencies.......................................  1450
Cost Estimates...................................................  1462
Cost to Complete Estimates.......................................  1478
Cultural Changes.................................................  1497
Defining the Scope...............................................  1493
Designing to Budget..............................................  1457
Expectation Gap..................................................  1493
Expectations for the Center......................................  1483
Extent of Management Leadership..................................  1453
Financial Plan...................................................  1483
GAO Participation................................................  1460
GAO's Legislative Responsibility.................................  1500
History of CVC Project...........................................  1476
Identifying Steps for Measuring Progress.........................  1462
Informing the Congress...........................................  1448
Library Tunnel...................................................  1497
Library Tunnel Entrance..........................................  1498
Need Versus Want.................................................  1487
Notification by the AOC..........................................  1449
Project Budget...................................................  1484
Project Components...............................................  1480
Project Concerns.................................................  1436
Project Contingency..............................................  1485
Project Funding..................................................  1455
Project Oversight................................................  1495
Project Renditions...............................................  1493
Project Savings..............................................1478, 1499
Re Estimation of Cost............................................  1448
Related Costs....................................................  1451
Sources of Overrun Costs.........................................  1461
Space Requirements...............................................  1459
Specific Cost Data...............................................  1450
Statement of the Architect of the Capitol........................  1463
Statement of the Comptroller General.............................  1437
Structural Progress..............................................  1463
Swearing In Of Witnesses.........................................  1436
Tishman Estimates................................................  1485
Total Construction Cost..........................................  1452
Total Project Cost...............................................  1452
Tracking Costs...................................................  1484
Uncertainties Revisited..........................................  1482
Visitor Experience...............................................  1479
Welcoming Remarks................................................  1435

                                  <all>

</pre></body></html>
